<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2021</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



                       ENERGY AND WATER DEVELOPMENT
                         APPROPRIATIONS FOR 2021

_______________________________________________________________________


                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              SECOND SESSION

                    ___________________________________

              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT,
                          AND RELATED AGENCIES

                      MARCY KAPTUR, Ohio, Chairwoman

  PETER J. VISCLOSKY, Indiana		MICHAEL K. SIMPSON, Idaho
  DEBBIE WASSERMAN SCHULTZ, Florida	KEN CALVERT, California
  ANN KIRKPATRICK, Arizona		CHUCK FLEISCHMANN, Tennessee
  DEREK KILMER, Washington		DAN NEWHOUSE, Washington
  MARK POCAN, Wisconsin
  LOIS FRANKEL, Florida


  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

            Jaime Shimek, Mark Arone, Mike Brain, Scott McKee,
                    Farouk Ophaso, and Marcel Caldwell
                            Subcommittee Staff

                      ___________________________________

                                  PART 5

                                                                   Page
  Department of Energy's Role in 
Advancing Biomedical Sciences...........                              1
                                                                  
                                                                      
                                        
  Department of Energy's Fiscal Year 
2021 Budget Request.....................                             77

                                                                     
                                        
  Department of Energy's Applied Energy 
Programs................................                            171

                                                                    
                                        
  National Nuclear Security Agency......			    255

                                                                    
                                        
  Army Corps of Engineers...............			    321

                                                                    
                                        
  Office of Science and Environmental 
Management..............................			    389

                                                                    
                                        
                       ___________________________________

            Printed for the use of the Committee on Appropriations


		    U.S. GOVERNMENT PUBLISHING OFFICE

43-895 			  WASHINGTON : 2021



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio
  PETER J. VISCLOSKY, Indiana
  JOSE E. SERRANO, New York
  ROSA L. DeLAURO, Connecticut
  DAVID E. PRICE, North Carolina
  LUCILLE ROYBAL-ALLARD, California
  SANFORD D. BISHOP, Jr., Georgia
  BARBARA LEE, California
  BETTY McCOLLUM, Minnesota
  TIM RYAN, Ohio
  C. A. DUTCH RUPPERSBERGER, Maryland
  DEBBIE WASSERMAN SCHULTZ, Florida
  HENRY CUELLAR, Texas
  CHELLIE PINGREE, Maine
  MIKE QUIGLEY, Illinois
  DEREK KILMER, Washington
  MATT CARTWRIGHT, Pennsylvania
  GRACE MENG, New York
  MARK POCAN, Wisconsin
  KATHERINE M. CLARK, Massachusetts
  PETE AGUILAR, California
  LOIS FRANKEL, Florida
  CHERI BUSTOS, Illinois
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii

  KAY GRANGER, Texas
  HAROLD ROGERS, Kentucky
  ROBERT B. ADERHOLT, Alabama
  MICHAEL K. SIMPSON, Idaho
  JOHN R. CARTER, Texas
  KEN CALVERT, California
  TOM COLE, Oklahoma
  MARIO DIAZ-BALART, Florida
  TOM GRAVES, Georgia
  STEVE WOMACK, Arkansas
  JEFF FORTENBERRY, Nebraska
  CHUCK FLEISCHMANN, Tennessee
  JAIME HERRERA BEUTLER, Washington
  DAVID P. JOYCE, Ohio
  ANDY HARRIS, Maryland
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  JOHN H. RUTHERFORD, Florida
  WILL HURD, Texas

                 Shalanda Young, Clerk and Staff Director

                                   (ii)

 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2021

                              ----------                              

                                        Wednesday, February 5, 2020

      DEPARTMENT OF ENERGY'S ROLE IN ADVANCING BIOMEDICAL SCIENCES

                               WITNESSES

DR. MARK CHANCE, DIRECTOR OF THE CENTER FOR PROTEOMICS AND 
    BIOINFORMATICS, SCHOOL OF MEDICINE, CASE WESTERN UNIVERSITY
DR. NARAYANAN ``BOBBY'' KASTHURI, NEUROSCIENTIST, ARGONNE NATIONAL 
    LABORATORY
DR. HAROLD VARMUS, LEWIS THOMAS UNIVERSITY PROFESSOR, WEILL CORNELL 
    MEDICINE
    Ms. Kaptur. The subcommittee will come to order and I want 
to thank everyone for coming, particularly our distinguished 
witnesses, all of whom are exceptional and precious in their 
scholarship and dedication to science and to healing. We are 
honored by your being with us today.
    We are here to discuss the topic of the Department of 
Energy's role in advancing biomedical sciences, a 
transformational role at the intersection of energy and health.
    After all, all of us are composed of a complex web of 
neurotransmitters, pulsing energy throughout our tissues, 
organs, and bones every day.
    This subcommittee has to be about more than just what we 
think of as conventional power. Indeed, the Department's long 
history and leadership in supporting basic science has resulted 
in biomedical innovations and a toolkit of advanced scientific 
capabilities that can enable future breakthroughs in health 
research, including artificial neurotransmitters, drug 
discovery, higher precision imaging to advance brain and nerve 
mapping, diagnostic technologies for cancer detection, and the 
use of technology to eliminate cancer's bad cells instead of 
adjacent good ones.
    We can think of a thousand goals beyond those. Let us first 
focus on the core of human function, the brain. For over three 
decades, Congress has funded increasingly advanced research on 
human brain function aimed at discovering and then healing 
medical conditions that alluded prior generations. Now, with 
advancing technology and the advent of supercomputing, science 
itself is maturing and combining information as evidenced by 
the wedding of biology and engineering, bioengineering, a term 
frankly that didn't exist when I went to college. And there are 
many more such examples in science. Our objective today is to 
probe where future scientific inquiry might be better directed 
to advance our understanding of human health such as better 
comprehension of brain function and then unravel incompletely 
understood brain impairments with the objective of healing.
    If I were to ask the question what does medical science 
understand and not understand about varying conditions like 
bipolar, post-traumatic stress, and CTE, brain injuries, what 
might researches tell us about physical proper and biologic 
impaired functions in each?
    Although the Department of Energy pursues research in areas 
directly pertinent to the Department's main mission of energy, 
environmental stewardship, and national security, basic 
research undertaken for one purpose often has unanticipated and 
major impacts in other areas.
    That is why it is critical to support basic science 
research at the Department and this subcommittee surely has. In 
fiscal year 2020, we increased funding to the Department's 
Office of Science by $415 million to a record level of $7 
billion. This funding is foundational for a new generation of 
discoveries at the intersection of health and energy.
    For example, in conducting basic science research for other 
purposes, Brookhaven National Lab helped pioneer the PET scan 
technology that many of our colleagues have experienced in 
their own family life.
    Additionally, while pursuing its mission-driven research, 
the Department of Energy has developed advanced scientific 
capabilities that can provide unique benefits to the biomedical 
sciences.
    The Department's x ray light sources and the nanoscale 
science research centers provide special imaging capabilities 
for the biomedical research community.
    The x ray light sources produce x rays that are billions of 
times brighter than medical x rays and have been used by 
scientists and pharmaceutical companies to develop drugs and 
treatment for neurological diseases like Alzheimer's, cancers, 
diabetes, and the development of new vaccines like the Ebola 
vaccine.
    In better understanding how drug molecules interact with 
human cells, hopefully we can start to understand better why 
some pharmacological treatments work for some patients but not 
for others. If we could more seamlessly use the scientific 
capacity of the Department of Energy to probe the medical 
unknowns, what breakthroughs could our Nation archive?
    The Department of Energy's high performance computing 
capabilities can also provide solutions to biomedical 
applications through simulation and modeling to predictive 
biology through artificial intelligence and data analytics. 
Just imagine the computing power and data analytics need to map 
billions upon billions of brain cells so we can reveal the 
brain's neurological and biochemical interworkings.
    Through the Department of Energy's isotopes program, the 
national labs and the network of universities have impressive 
capacities in producing medical isotopes that are useful in 
nuclear medicine and radiotherapy.
    As we will hear from our witnesses, advances in the science 
of energy as well as biomedicine depend increasingly upon 
integrating many other disciplines with the biological 
sciences.
    It was not so long ago that universities began offering 
programs as I have mentioned like bioengineering, two sciences 
that had remained separated on university campuses for 
generations.
    Given the unique scientific tools and personnel of the 
Department of Energy and its national labs, and the potential 
for future breakthroughs in health fields, it seems especially 
important for the Department of Energy to increase coordination 
and collaboration with the National Institutes of Health and 
other Federal agencies, including the Department of Defense.
    This will give the best chances of developing new 
innovations in biomedical sciences to unlock the hidden 
mysteries of the human brain, retool the human body when it has 
been broken, save lives, and sustain life on Earth.
    To our distinguished witnesses, we look forward to hearing 
from each of you. I will now turn to our distinguished ranking 
member, Mr. Simpson, for opening remarks who as a respected 
dentist in his home profession well knows the advances in 
technology that begin with his own profession. Mr. Simpson.
    [The prepared statement of Ms. Kaptur follows:]
    [GRAPHIC] [TIFF OMITTED] T3895A.001
    
    [GRAPHIC] [TIFF OMITTED] T3895A.002
    
    Mr. Simpson. Thank you, Chairwoman Kaptur. Timing is 
everything, you know. The knee replacement wasn't bad enough, 
this morning I had to go and have my annual eye checkup so my 
eyes are dilated and I can barely read this. So if I stumble 
along, I am hopeless today.
    Anyway, thank you, Chairwoman Kaptur. I know today's topic 
has long been of particular interest to you and I look forward 
to discussing these issues in more detail.
    I would like to join you in welcoming the witnesses to 
today's hearing. We always appreciate it when experts such as 
yourselves are willing to take time out of your schedules to 
come and talk to us about what you do and what it is or is 
not--and what is or is not working with current Federal 
actives.
    Over the past few decades, we have seen many exciting and 
literally life changing advances in biomedical sciences. One 
example I always found particularly interesting and maybe it is 
because I was sitting on my patio at home during the August 
break in Idaho when my phone rang and I picked it up and it was 
Secretary Perry and he was in California at Berkeley.
    He says you have got to come down here and see this. What 
are you talking about, Mr. Secretary? He says they just showed 
me an example of a thing where they could take a blood sample 
and within 10 minutes they can run a thing on it, I mean, like 
they do when they, you know, your sugar levels or whatever. 
They can tell if you have had a brain injury, if you have had a 
concussion.
    And he said think what it means to everything from our 
soldiers to people playing football. No longer do you have to 
go through the how many fingers is it and can you pronounce it 
and all that kind of stuff. That was made possible because of 
the computers at the Department of Energy.
    So there are many exciting things happening. Some of these 
advances have come about due to at least in part to the 
Department of Energy whether it is research being done at the 
DOE user facilities such as the light sources or research 
intended to advance DOE's missions that was found to have 
biomedical applications.
    DOE has been an important partner in advancing biomedical 
research. I look forward to hearing more details on how DOE can 
improve its partnerships with NIH and relevant nonfederal 
entities to make even better use of the user facilities and 
research efforts to further advance biomedical science.
    I will also like to hear how we can improve these 
partnerships in a way that maintains appropriate focus on the 
fundamental missions of the separate Federal agencies.
    Advances in biomedical science are certainly in the 
national interest, but so too are advances in energy, 
environment, and national security.
    In fact, I would offer this cautionary note. NIH funding in 
fiscal year 2020 was $41.7 billion. Funding at DOE's Office of 
Science where most biomedical related work is done was $7 
billion.
    So we need to ensure that improving collaboration between 
these agencies does not lead to diverting the already much 
smaller DOE science budget away from advancing DOE's missions. 
Better collaboration between DOE and NIH can be a win-win for 
both agencies and both missions, we just need to make sure that 
we keep that goal in mind as we look at delivering future 
efforts.
    I look forward to learning from our witness today about the 
challenges, the successes, and the ideas for improvement in 
this area and I thank Chairwoman Kaptur for calling this 
hearing.
    Ms. Kaptur. Thank you, Mr. Simpson, very much and obviously 
we are very excited for our witnesses and to hear from them.
    I just wanted to add a sentence. What partly tripwired this 
hearing this morning was I was out at Walter Reed's Intrepid 
Center and meeting with our veterans and looking at some of the 
conditions that they are enduring.
    And we walked in one room there and I saw a machine I had 
never seen in my life called an electro machine invented by the 
Swedes. And I watched a veteran go through the imaging and then 
up on a screen very quickly they were able to go deep into the 
brain and identify the filament that caused his most recent 
stroke.
    I was completely fascinated. I felt like I was in a new 
age, I thought ``I am really in the 21st century''.
    So how do we, knowing what we do here, how do we help the 
science advance more quickly and go deeper into the human body 
and help healing?
    Our witnesses today are extraordinary. First we will have 
Dr. Harold Varmus, who is the Lewis Thomas University professor 
at Weill Cornell Medicine and a recipient of the Nobel Prize 
for studies of the genetic basis of cancer.
    He served as the director of the National Cancer Institute 
for 5 years and director of the National Institutes of Health 
for 6. Dr. Varmus also co-chaired the Secretary of Energy's 
Advisory Board Task Force on Biomedical Sciences.
    Following that, we will have Dr. Mark Chance, the director 
of the Center for Proteomics and Bioinformatics at Case Western 
Reserve University in the state that I represent, and vice dean 
for research at its school of medicine. Dr. Chance also directs 
the Case Center for Synchrotron Biosciences located at 
Brookhaven National Labs' light source. And I can recall a 
moment when the director of that lab gave me a lesson on ions 
for which I was very grateful and remain so.
    And finally, we will have Dr. Narayanan Kasthuri, a 
neuroscience researcher at Argonne National Lab who is also an 
assistant professor of neurobiology. That name didn't exist 
when I was in college, at the University of Chicago.
    Thank you all for taking the time to be here today. I want 
to thank our Members for attending. Without objection, your 
written statements will be entered into the record. Please feel 
free to summarize your remarks, although I want to hear every 
word, starting with Dr. Varmus. Welcome.

                 STATEMENT OF DR. HAROLD VARMUS

    Dr. Varmus. Well, thank you to the committee for holding 
this important hearing. Now, I think I was audible before. Let 
me start with a brief reminder. The body, as the chairwoman has 
pointed out, is made up of physical entities and the strengths 
of the Department of Energy have been reflected in medical 
science and responsible for many of the advances we have made 
in health for a century.
    Think about imaging with x rays and radioisotope and MRI 
imaging. Think about the way we monitor the heart and the brain 
with electrocardiograms and electroencephalograms. Think about 
how we analyze the blood by looking at chemicals. Think about 
how we take all that data and crunch it with computational 
tools and how we simulate with engineering tools.
    These are just a small sampling of the disciplines that 
have been championed by the DOE Office of Science, physical 
sciences, engineering, computation, that contribute to biology 
in medicine.
    Now, as the chairwoman has pointed out, I have had a number 
of Federal positions in which I have been able to observe some 
of the contributions made by DOE from a front row seat. Let me 
just mention two.
    First, the Human Genome Project, if we can have the first 
image, please, which was initiated at a DOE lab in the 1980s. 
Most of the genome of human beings and other organisms were 
determined by a small number of centers, one of which was run 
by the DOE even though the NIH was coordinating this 
international project and these shared interests persist 
through computation, the study of many other organisms, and 
through the development of faster and cheaper machines for 
sequencing DNA.
    A second example is in structural biology. And when I was 
director of NIH and Ernie Moniz was the undersecretary of 
Energy in the Clinton administration, we made a deal that 
actually transferred the money, Mr. Simpson's point, from the 
NIH to DOE, DOE cyclotrons to sustain beam lines for doing 
structural examinations of important proteins that serve as 
machines by carrying out cell function.
    The ribosome for protein synthesis, complex enzymes that 
copy DNA into RNA, membrane proteins that react with drugs or 
are responsible for the transport of water across membranes and 
these interests also persist through development of cryo-
electron microscopy, neuron beams for pursuing the structure of 
proteins at a more refined level.
    Now, as the chairwoman alluded to, after I left the 
National Cancer Institute in 1915--2015, sorry. I'm not that 
old. I'm not that old. In 2015, Ernie Moniz, who was then the 
Secretary of Energy, asked me to join the Secretary of Energy's 
advisory group and to co-chair a working group on the topic of 
today's hearing. And we were asked to assess the opportunities 
for better coordination between the NIH and the DOE's Office of 
Science and to strengthen those relationships.
    We conducted several workshops to talk about a variety of 
disciplines that are particularly relevant to DOE's activities, 
material science, fabrication, nanotechnology, sensor 
development, radiobiology imaging, advanced computation, other 
things in the context of many of the existing initiatives at 
the NIH in Precision Medicine, the Cancer Moonshot, the so-
called BRAIN program, microbial drug resistance, and others.
    And in the course of these hearings, we learned something 
quite important about the differences of the scientific 
cultures supported by these two agencies. The NIH traditionally 
depending on the imagination of individual investigators with 
small labs getting individual grants from the NIH. The DOE 
through its national laboratories is carrying out mission-
driven science, developing technologies, and that fundamental 
cultural difference is an important one I will come back to.
    We recommended many ways in which these past activities 
could be enriched and fostered but we came out in addition with 
four overarching recommendations that are relevant to today's 
discussion: how we convene panels of experts to identify 
opportunities for research programs, how we share the cultures 
of the two agencies, how we establish facilities for large-
scale, newly identified missions, and how we can report to more 
often as we are doing today to committees like this about what 
we do.
    I am going to just say a few words briefly about the 
consequences of this report that we wrote for SEAB because what 
I have found in response to the invitation to speak here today 
by talking to many officials in both agencies that the sprit 
and the letter of the report are thriving through joint 
projects, large and frequent consultations and work of 
individual scientists engaged with both agencies.
    And I am going to mention in conclusion if I can have the 
liberty of one additional moment, Madame Chairwoman, two joint 
programs that are important to me.
    One is a current initiative in the cancer domain which is 
my own area of research and as you can see, maybe you can't see 
because the type is not that large, there are a series of the 
many things going on between NIH and DOE, a set of projects 
that involve the National Cancer Institute's mission to study 
better ways to improve outcomes for cancer patients mainly 
through better use of high performance computing.
    Second, to be able to visualize in higher resolution the 
position and function of proteins that we know to be 
responsible for driving about one third of human cancers, and 
another pilot project that helps to enrich our epidemiological 
surveys.
    The second of these is actually being carried about at the 
Frederick National Lab for Cancer Research, a national lab that 
is run by the National Cancer Institute. When I was director 
there, we modeled that lab carefully on the examples provided 
by many of DOE's national lab establishing an initiative to 
study what we call RAS proteins, these proteins that drive 
cancers.
    And we now have, if we can move the slides along, an effort 
that is bearing fruit to study how RAS proteins interact with 
cell membranes in ways that I don't really have time to 
describe in detail.
    That model has been expanded to include public private 
partnerships. You can advance the slides to one more, one more. 
To include, not just DOE and NIH but University of California 
San Francisco, the academic sector, and the private sector.
    I would like to conclude with a suggestion. In our report, 
we talk about scanning the horizon for problems that we can 
solve through national labs and interactions between NIH and 
DOE. You may have seen a number of reports that talk about the 
way in which the pharmaceutical industry and the biotech 
industry are having difficulty financially and scientifically 
in coping with the spread of organisms that are resistant to 
antibiotics. Many of these commercial forms are retreating from 
the foray to try to identify new antibiotics because the 
economics don't favor that kind of investment. And there have 
been stories in the New York Times and elsewhere on this topic.
    I think it is possible to think, to consider, next slide 
please, taking an organization like that which resembles the 
molecular foundry at the Lawrence Berkeley lab and turn that 
into a place where individual NIH-sponsored students of new 
antibiotics and microbial threats could be put into a setting 
where the flexible and deep technological advances could be 
used to identify new targets for antibiotic action. To try to 
find new antibiotic molecules and use that government resource 
and the collaboration between these two agencies to meet a 
problem which WHO and NIH and many others see as one of the 
great threats to human survival in the next century.
    So, I want to thank you for having this hearing. I want to 
thank the two organizations, NIH and DOE, for their activities 
in the past to sponsor these highly active and fruitful 
collaborative arrangements and be pleased to answer any 
questions you might have. Thank you for the extra time.
    [The prepared statement of Dr. Varmus follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Ms. Kaptur. Thank you, Dr. Varmus. Thank you for your time. 
Dr. Chance.

                  STATEMENT OF DR. MARK CHANCE

    Mr. Chance. Good morning Chairwoman Kaptur, Ranking Member 
Simpson, thank you so much for the opportunity to talk today. 
My testimony, I hope, is very simple. DOE science facilities 
are critical to America's basic biomedical science, drug and 
device development and public health goals of the Nation. With 
positive effects on the health and welfare of all American's 
and saving many lives.
    What is my evidence? Well, I would like to focus on new 
drug development where over 90 percent of the newly approved 
drugs result from projects that use DOE facilities, 
specifically synchrotron methods to see the structure of the 
drugs target.
    This site allowed the drugs to be developed more quickly as 
well as resulting in safer and more effective medicines.
    In the first slide, we can dig a little and explore these 
DUE facilities called synchrotrons. There are five of them 
across the country. They are large physics facilities producing 
very intense x rays for a wide range of scientific 
applications. Material science, chemistry, physics and biology.
    With the help of Brookhaven National Lab, we did some 
research for this hearing and found there are 42 dedicated 
biomedical beamlines currently at the synchrotrons around the 
country, 3,000 biomedical or about 4,000 biomedical science 
users among the 12,000 users overall of the synchrotrons. Dr. 
Varmus alluded to the Nobel Prizes in biology and the users 
published 1,200 papers last year and enabled 100 companies to 
move their research forward.
    We can go to the next slide. I want to introduce the Center 
for Synchrotron Biosciences. As Chairwoman Kaptur noted, it is 
located at Brookhaven National Laboratory. I established the 
center many years ago to make collaboration between the NIH and 
its funded users, academia, and the DOE easier. To provide a 
platform to develop collaborations, to bring in technologies 
and most of all, in terms of that cultural piece that Dr. 
Varmus referred to, to invent new uses of x rays and other 
light beams to see the structures of drug targets and other 
biomolecules in novel ways to speed medications to patients.
    The results have been very gratifying for myself and my 
colleagues. Over the years, we have built 10 beamline 
instruments. Hundreds of institutions have participated, 
thousands of users, 2,500 publications so far.
    The funding to build and operate these facilities has come 
from the NIH and the NSF. And we have made key technology 
partnerships with various organizations to move things forward. 
One of our most recent partners is the NIH and the Cancer 
Institute and the RAS program which Dr. Varmus referred to. If 
I could have the next slide.
    So, one of the things we did and Dr. Varmus referred to it, 
is we stepped up the rate of structured determination. We 
partnered between the NIH and the DOE and we built beamlines 
that could allow us to see these drug targets, many more of 
them. And I think the results are pretty good.
    There were fewer than 10,000 protein structures before we 
started this collaboration. There are 160,000 now. And they are 
coming out at a phenomenal rate. And these structures were 
determined at DOE synchrotrons and also around the world where 
these synchrotrons are considered very important. Just to add, 
there are probably 100 synchrotrons under construction or in 
operation around the world right now.
    So, what is the data? Well, if we looked at the 210 new 
drugs that were approved between 2010 and 2016, 93 percent of 
them relied on protein structure information provided by DOE's 
and other synchrotrons. That was about a rate of a 30 per year. 
We are now, the last 3 years, we are at 50 a year. And you know 
why that is, at least to me, or which might be plausible, there 
is a delay between the time you finish the structure and you 
get the FDA approval. And you see that curve, 10 years ago was 
on a very steeply rising part of that curve.
    So, I would argue we are on the cusp as we bring in machine 
learning, artificial intelligence and the computational power 
of the DOE to accelerate this process dramatically. If I could 
go to the last slide.
    What is coming? New facilities, new beamlines to solve new 
challenges. And the Center for Synchrotron Biosciences is in 
the forefront. We have completed a new beamline at Brookhaven 
to solve important medical challenges. The number one we have 
just solved is we solved the structure of the human nuclear 
receptor. That is going to be important for tamoxifen-resistant 
breast cancer which develops.
    Nobody knew what that molecule looked like before and it 
was really hard to drug and it was really hard to approach 
without seeing. Because seeing means understanding. We are also 
solving structures of proteins important in Alzheimer's and Mad 
Cow Disease and very important to today, we are studying virus 
structures.
    Just last week, Perdue scientists were at the Argonne 
Synchrotron looking at forms of coronavirus that match the 
Wuhan strain to try to rush vaccines and drugs into 
development.
    So again, I thank you so much for the opportunity to speak 
today. In conclusion, I want to thank you, the appropriators. 
Your investments are paying off and thousands of Americans 
lives are going to be changed as a result of it. I would be 
happy to answer any questions. Oh, do we have one more slide, 
do we have The Shoe? With your permission, Madam Chairwoman.
    Ms. Kaptur. Oh, please proceed, Dr. Chance, yes.
    Mr. Chance. So, we were thinking to try to illustrate to 
the committee the scale of these facilities. They are 
expensive, right? So, I thought let us give an image which many 
in Ohio know. That is Ohio stadium, The Shoe. And I had a side 
bet that the National Synchrotron Light Source II was bigger 
than The Shoe. And as you see, a half one. The Shoe is taller, 
on top, and there is the National Synchrotron Light Source. 
NSLS is bigger so the bet was a push, nobody won.
    But thousands of people, 100,000 of people are entertained 
on a Saturday in The Shoe and thousands of the Nation's 
researchers are served yearly at the National Synchrotron Light 
Source II. Thank you.
    [The prepared statement of Dr. Chance follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Ms. Kaptur. Thank you, Dr. Chance, very much. Dr. Kasthuri.

              STATEMENT OF DR. NARAYANAN KASTHURI

    Dr. Kasthuri. Chairwoman Kaptur, Ranking Member Simpson, 
members of the subcommittee, thank you for the opportunity to 
appear before you to talk today. My name is Bobby Kasthuri and 
I am a neuroscientist in the U.S. Department of Energy's 
Argonne National Laboratory and an assistant professor in the 
Department of Neurobiology at the University of Chicago.
    And what I would like to talk to you about today is that we 
stand at a pivotal moment in our centuries' long quest to 
understand the brain. It is actually a moment when multiple 
scientific worlds are colliding. The worlds of computer 
science, bioimaging and microscopy, and neuroscience are now 
colliding.
    My research specifically leverages the capabilities of the 
national lab system to accelerate that collision. Specifically, 
by mapping brains at the finest scales and analyzing the 
resulting enormous datasets. It is from this perspective that I 
present to you my testimony today.
    As you heard, one of the great intellectual challenges of 
the 20th century was our understanding of the genetic basis of 
life. And the Human Genome Project is perhaps the pinnacle of 
that effort. It is important to remember that the Human Genome 
Project was born out of the collaborative efforts of the 
National Institutes of Health and the DOE.
    It is perhaps one of the first and most successful big data 
and healthcare collaborations ever and its impact continues to 
reverberate through biology and medicine. It is also, for the 
purposes of this hearing, an example of how the DOE and the 
national labs are uniquely suited to play a similar role in 
tackling the great intellectual challenge of the 21st century 
which is mapping and understanding the human brain.
    And it is the enormity of the human brain that requires 
this collaboration. The human brain, your brains, contain about 
100 billion brain cells or neurons. Each of which makes on 
order 10,000 connections with each other. One way to think 
about that is a single brain contains more connections that 
there are stars in the Milky Way galaxy. And the complexity of 
this intricate communication web cannot be overstated.
    As neuroscientists, we believe that making a map of these 
connections can provide answers to some of the fundamental 
questions about how brains work. Such a map, which we call a 
connectome, is a map of everything about you: your skills, your 
memories, your fears, and your personality. Disruptions or 
alterations in this map, miswirings if you will, between 
neurons are the basis of many neurological and psychiatric 
disorders.
    Using facilities like Argonne's advanced photon source and 
high-performance computers, we plan to map the normal brain 
which will allow us to treat diseases like Autism Spectrum 
Disorder, schizophrenia, concussion-related neuropathies, and 
dementia. To kind of give you an idea of what is capable, if we 
could play the first video please. What you are looking at is 
based on work I started as a postdoc. It is the first map of a 
human brain connectome by teams at Harvard University and 
Google.
    You are seeing the individual processes and connections of 
millions of neurons in the human brain traced by AI algorithms 
developed by Google. And for the first time, you will see 
three-dimensional models of connections in the human brain. 
Each of those is one of the many neurons of the human brain.
    But even this effort, which tests the resources of bleeding 
edge researchers represents much less than 1 percent of the 
volume of the entire human brain. The raw data of the atlas of 
human connections, i.e., the human connectome would you require 
approximately 1 trillion gigabytes, a zettabyte, and could not 
fit in the memory of any computer today.
    The entire Human Genome Project requires maybe a few 
gigabytes. Another way to say this is that all the written 
material in the Library of Congress, all the movies and audio 
that humans have produced since the dawn of civilization, would 
be just a small fraction of the data of one human connectome.
    Thus, the interdisciplinary capabilities of the DOE 
national laboratories and their world-class user facilities 
like computing, are our best chance to transform the way we 
understand the brain. Scientists from Argonne National Lab and 
the University of Chicago in collaboration with researchers 
across the United States, including Case Western, are already 
working towards a human connectome by mapping smaller brains of 
other animals such as mice.
    But for most neuroscientists, the tools they require to map 
the brain, particularly the computer, are too expensive and 
require investments in physics, engineering, and computer 
science. Not only beyond the scope of individual laboratories 
but probably entire universities. These barriers prevent the 
neuroscience community from asking the best questions about the 
brain and limit the type of collaborations that drive 
innovation.
    We need to democratize this widening gap between the small 
fraction of laboratories developing and utilizing the most 
advanced technology and the majority of neuroscientists. A 
collaboration between DOE and NIH could provide these maps and 
the tools to make these maps to the national neuroscience 
community.
    A revolution awaits us when we understand how human brains 
acquire knowledge from experience, how we find patterns in our 
senses, and how we plan things and make decisions and act. When 
we know exactly how these processes work, we can connect 
prosthetic limbs to the paralyzed, design rational medical 
treatments for brain diseases, and ultimately try to reverse 
engineer human cognition into our own computers.
    As I said, we stand at a pivotal moment in the history of 
our country. Understanding the brain will help provide U.S. 
leadership in neuroscience in the coming decades the way the 
moon landing in 1969 and the Human Genome Project contributed 
to U.S. technological and scientific leadership.
    The national laboratories, the source of some of our most 
powerful scientific tools, combined with the research and 
development of the NIH can revolutionize our understanding of 
the brain to develop better treatments for millions of people 
worldwide affected by neurological disorders.
    And perhaps most importantly, the DOE and NIH together can 
achieve generational science. Removing boundaries between 
fields of science and creating these transformative moments 
that shape society for generations to come.
    Thank you for your time and attention today. I welcome any 
questions you have.
    [The prepared statement of Dr. Kasthuri follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Ms. Kaptur. Thank you very much, Dr. Kasthuri and all of 
our witnesses. We appreciate your statements and they will be 
placed in the record along with any other materials you wish to 
submit to us.
    Since this is the first hearing of the year, I would like 
to remind Members about our hearing rules. For those Members 
present in the room when we gaveled in the beginning of the 
hearing, I will recognize you for questions in order of 
seniority alternating between majority and minority until all 
who arrived prior to the gavel have asked questions. For those 
who arrive after the hearing has started, I will recognize 
those Members solely in order of arrival and again alternating 
between majority and minority. Last thing, I intend to try to 
observe the 5-minute rule for questions and answers, and we 
will now begin questioning under our normal rules.
    Dr. Kasthuri, I wanted to begin with you. One of my own 
deep interests is understanding the function and impaired 
function of the human brain to advance diagnosis and treatment 
for those who suffer from neurological and biochemical brain 
imbalances. If one looks at the last--back at the last 5 years 
in our Nation, we have witnessed some troubling trends. The 
number of individuals, particularly young men between the ages 
of 15 and 35, who are taking their own lives. Also, we know we 
have large numbers of afflicted warriors, wounded warriors 
experiencing brain trauma and post-traumatic stress.
    We have an opioid crisis with tens of thousands of harmful 
self-medicators and there are harm perpetrators in our society 
taking the lives of others at a very troubling rate. Most have 
needed brain-centered medical help but it was either not 
available locally nor if diagnosis was accurate, a proper 
healing course of treatment was not effective.
    Because we are Members of the House, we experience these 
individuals at ground level. And it becomes part of our 
responsibility to meet that human need. I believe improved 
diagnosis of neurochemically brain-centered medical conditions 
to be a significant national priority. Medical science needs 
even better imaging as part of the solution.
    One of the first types of brain scan or neuroimaging 
occurred in 1927. It was called the cerebral arteriogram. But 
it took about 3 decades until a computerized tomography emerged 
to benefit medical diagnostics.
    A little later, magnetic resonance imaging was developed by 
researchers. I can still remember as a young member of the 
Veterans Committee when I first arrived, when at one of our VA 
centers turned it on and anything that was metal attached to 
it. And the nurses were running down the hallways. And so, you 
know, we have witnessed this in our lifetime.
    This technology identifies atoms by how they behave in a 
magnetic field. A highly useful, noninvasive procedure for 
imaging internal bodily structure and advancing medical 
diagnostics well beyond where the technology had previously 
existed.
    Existing imaging technologies have transformed medicine 
forever. But we ask ourselves, what are the next horizons? I 
mentioned my experience at Walter Reed Intrepid Center where 
the researchers and doctors are trying to help veterans who 
present with a whole range of conditions based on their 
military service and having been wounded in theater.
    Dr. Kasthuri, what can we do to advance technological 
research faster to improve imaging technologies or other 
technologies you would all recommend to better capture deep 
brain tissue and neurochemical function and to identify 
malfunction? How can we better brain imaging more precisely to 
map neurochemical dysfunction that may be occurring as well as 
understanding reactions to pharmacological or other treatments 
to improve patient outcomes? I know that is a mouthful. But if 
you were to sort of point the ship in the right direction, what 
can you add to your formal testimony to guide us?
    Dr. Kasthuri. Chairwoman Kaptur, thank you. That is an 
excellent question. I will try my best to give my version of 
it. Many of the things you mentioned, I am not an expert in 
personally, some of the other techniques. I work specifically 
on the very finest resolution reconstructions of the brain, at 
the level of how every neuron collects to every other neuron. 
Since, as neuroscientists, we know that is likely the basis of 
both our normal behavior and our aberrant behavior, getting 
those maps will be the first steps to sort of understanding how 
the physical circuitry underlies these behavioral defects. So I 
think there is a lot of technological advancement that we can 
make.
    But I think the second point that I would like to emphasize 
is that there is a lot of technology already currently 
available. A lot of technology is being developed thanks to 
funding from committees like you and other committees for the 
BRAIN initiative, et cetera. I think a real problem that we 
could solve right away is giving access to that technology to 
the broadest set of scientists possible. And I think that this 
is a place where DOE user facilities combined with neuroscience 
questions can add immediate impacts on distributing technology 
that is already available. In terms of how do we get to future 
technology, I think the answer is more money will always help 
for the future, but for now, I think there is an opportunity to 
take the technology we already have and distribute it as widely 
as possible.
    Ms. Kaptur. Thank you. Would any other witnesses like to 
comment on that question? Dr. Varmus.
    Dr. Varmus. There is a useful analogy here with the human 
genome project where we begin the project not knowing whether 
it was technically feasible but we had a pretty good idea of 
how we would use the data once we got it because we knew that 
genes encode proteins, proteins carry out certain functions. I 
think in the BRAIN initiative we are taking a more adventurous 
step and one that, I think, is going to have remarkable 
dividends, but is one we undertake not knowing what we will 
make of the connectome once we describe it. So the technology 
is developing; it is very important to do this; but we have to 
do this recognizing that we are taking on a remarkable 
revolutionary adventure, one that is incredibly important to 
the survival of our species, and one that is going to have 
tremendous dividends, but we have to undertake it recognizing 
that simply having the connectome is not going to tell us how 
these diseases arise. And we are in this for a very long haul 
and I hope we will be there.
    Ms. Kaptur. Are we properly organized in terms of the 
connectome to really advance the science quickly?
    Dr. Kasthuri. So it is hard for me to say are we properly 
organized at a national scale. My suspicion is no because it is 
so recent, it is such a new technology, and a new capability 
that, I think, we have an opportunity to organize at this 
moment and I think it is the right moment to think about 
national organization of these efforts. I think Dr. Varmus 
would know how to organize at a national scale. I will let him.
    Dr. Varmus. Well, I would just point out again an analogy 
with the genome project. That began by looking at the genome, 
not of human beings, but the genome of bacteria, of worms, of 
flies, and, indeed, part of the connectome of the fruit fly, 
the traditional model organism for experimental biology has 
just been published. And I think we can, by observing what 
happens with those preliminary incomplete connectomes and model 
organisms, we will learn what is needed to bring the right 
people together around the table to try to interpret just as we 
have brought people together from a variety of medical fields 
to interpret some of the early genomes that were deciphered. 
So, I think, there are models here to look at to try to figure 
out the best way to organize the right people to deal with 
these tremendous datasets. But DOE should certainly be among 
those folks involved.
    Ms. Kaptur. Well, we obviously would benefit greatly by 
your thinking through how best to organize that inquiry and 
what DOE's role might be, and where that might be housed, or 
which places it might be, but what we might do to help you 
advance knowledge there.
    Dr. Varmus. It is a question worth posing to some of the 
panels that are currently meeting between DOE and NIH to talk 
about how the two organizations work together in other domains 
where the rules are, perhaps, better understood. I think you 
already have people who are sitting down on a very regular 
basis to talk about what brain research has been done, about 
genomic research, about cancer research, about research on 
antimicrobial organisms, antimicrobial drugs. I think there are 
places where you could get very good information about how to 
organize a larger effort to understand these very rich datasets 
will be coming from research of the kind Dr. Kasthuri was 
describing.
    Ms. Kaptur. Where was the fruit fly connectome, where was 
that done?
    Dr. Varmus. It was done mainly by, organized by Howard 
Hughes Medical Institute, at Janelia Farm, and in collaboration 
with NIH-sponsored investigators. I am sure that by consulting 
with people from both agencies that are working within the 
domain of the BRAIN initiative, you can identify the right 
people.
    Ms. Kaptur. Dr. Chance.
    Mr. Chance. I would just like to add one point. I agree 
completely with my colleagues and I just want to emphasize why 
it is important. Because in mental health diagnoses or pain, we 
do not generally have independent ways of seeing if you are 
getting better. We ask you. And it is just not that precise. 
But if we could have a meter that was unbiased and quantitative 
for some of these things, then we can really see if the pills 
or the behavioral interventions or the other things we are 
doing are really making a difference for the patient. We lack 
that unbiased measure as opposed to how are you feeling today?
    Ms. Kaptur. I have to put this on the record because I have 
worked on it for almost 20 years and this relates to returning 
veterans who have all sorts of conditions. And I will just take 
my own State. We work with our National Guard and, actually, 
Case Western to collect, along with several of the universities 
around the country working with our National Guard, DNA 
specimens voluntarily given from veterans. So to try to 
contribute to a bank of DNA that one could then study why did 
the veteran have this condition versus that condition, and we 
worked with scientists at Case, and why would someone develop 
PTS and someone else not. But as the scientists worked, their 
conclusions had nothing to do with the brain, directly with 
what we are talking about today, but, rather, that you would 
develop a condition because you had experienced violence prior 
to enlistment in the military and that wound remains. And then 
if you get in a situation where there are other stressors that 
happen, you would develop it faster than someone else.
    I was very gratified for the conclusion they came up with, 
but I say to myself we have this mammoth set of DNA samples, 
where does this fit in? Where does the diagnostics for this fit 
in?
    And I just point that out to you, Dr. Chance, because if 
you go visit the Walter Reed Intrepid Center you will see what 
we are trying to do there to help our returning veterans. And I 
know this isn't the Veterans Committee, but the machines that 
are used and the technologies that we are engaged with, some of 
them came out of the field of energy. We really have a very 
poor understanding of what is going on.
    And so my question really is, if you could go back to Case 
and take a look at who has the DNA bank that has been 
developed, does it fit anywhere in medical research? They have 
certainly attempted to work with the Department of Defense on 
this, but they are not the places that are inventing, 
necessarily, the kind of technologies that you are. But for a 
Member, it is frustrating to have this rich bank, but it's 
underutilized in terms of research. So I just point that out. 
Maybe other members have other experiences, and I will turn 
this over to Mr. Simpson now for his questioning. But it just 
seems to me to be hard to get your hands around, what can we do 
to move this field faster and to get better diagnostics? Thank 
you. Mr. Simpson.
    Mr. Simpson. Thank you, Chairwoman Kaptur. Dr. Chance, I am 
shocked that after just having my knee replaced and going into 
the doctor when they say what pain level are you at today, and 
they have those 10 faces, that that is not a scientific 
analysis of my pain level.
    Mr. Chance. That is about as scientific as we have got 
today.
    Mr. Simpson. That is about right. I sit there and they say 
what pain level are you at, and I kind of go, I like that guy.
    Mr. Chance. So you see how hard it is to really know if our 
interventions are working because it is based on how you are 
feeling, all of the things that are integrating into you as a 
person and maybe it is just the knee we care about for this 
visit, right.
    Mr. Simpson. That is right. Anyway, thank you for coming 
today, all of you, and for your testimony. What you do is 
vitally important to this country and the people of this 
country. I have always been a fan of NIH. I served on the 
Labor-H Committee; and whenever I get depressed--it seems more 
frequently lately--but whenever I get depressed, I go out to 
NIH because it is fascinating I always walk away from there 
amazed. I do the same thing when I go to our 17 national 
laboratories and the work that is being done at those 
laboratories, I walk away, I don't understand any of it, but I 
know it is amazing.
    But we are the Appropriations Committee, and the question I 
have is--could you go back to Dr. Chance's first slide, just 
out of curiosity? Yeah, you just had it. OK, you talked about 
the impact of those DOE light sources on biomedical research. 
Who pays for that? What is our role as the Appropriation 
Committee with the Department of Energy, what do we pay for? 
The drug companies that get the benefit of that research and 
stuff, how much do they pay for? I am trying to figure out how 
I could determine what an appropriate level of appropriation is 
and what I am going to get out of that appropriation without 
interfering with the role of what those laboratories are. And I 
am one who believes that collaboration and using things to 
their best uses is vitally important. Do you understand my 
question? I am not sure I do.
    Mr. Chance. Yes. So there are many stakeholders who come to 
the table and have paid for those beam lines. There is some 
money from DOE. There is some money came from the National 
Institutes of Health. There is the money from the National 
Science Foundation which was used to build the beam line I 
operate correctly, and the universities are putting in money, 
the companies are putting in money, foundations are putting in 
money. So it is quite shared.
    And so those 42 beam lines, you did not have to pay for all 
of them, right. That is, you put some table stakes up, right, 
and then everybody said yeah, I am in. This is consistent with 
my mission; I want to play; I want to be involved. And so that 
is how we attract investment to your sort of base support you 
provide for the DOE. So as a university researcher, I am out 
looking for collaborators, grants, so I can bring money, ideas, 
and partners to the facility to get the job done.
    So what is the right mix? That is a very hard question, and 
we have issues of, you know, agencies have missions and OMB 
does not like lane jumping, I have heard.
    Mr. Simpson. Yeah, believe or not, yeah.
    Mr. Chance. Yeah, believe it or not. So how do we sort of 
be intelligent about that to encourage collaboration with that? 
And we do not want lane jumping either, right. You do not want 
to be paying two or three times for the same thing. So how do 
we do it efficiently? And by enabling the different 
stakeholders to get--I think Dr. Varmus laid out the steps, 
right, the four: we need to convene; we need to understand 
cultural differences; we need to make sure the facilities are 
operating at peak technology and in terms of numbers; and we 
need to tell you about it and get your feedback.
    Dr. Varmus. Just to comment briefly on this because as I 
alluded to in my testimony, in the 1990s, when Ernest Moniz was 
the undersecretary, we worked out an agreement by which certain 
NIH institutes, based on the grants they were giving to 
structural biologists who were working at Brookhaven and other 
national labs, we made an agreement that we would pay for a 
certain fraction of the total cost for maintenance of the 
synchrotrons that were produced in those beam lines. And that 
has continued over the years, and being adjusted according to 
use.
    I think we actually have made, by bringing in other 
potential funders, particularly good use of the infrastructure 
initially provided mostly by DOE with supplementation from NSF, 
as Dr. Chance has pointed out. I think that has been quite well 
managed, but it would be useful for you to bring in some people 
who are responsible for those allocations and check out whether 
they are in accord with your principles as appropriators.
    Mr. Chance. I would like to make two additional quick 
points, and one is National Science Foundation, what are they 
doing developing drugs? Well, they recognized the important 
basic biomedical science that would be enabled by these beam 
lines, and they are OK if other good stuff happens.
    The second thing is the industry. Is the industry paying 
their fair share? So DOE thinks a lot about this, and they call 
them user facilities for a reason. Everybody should have a 
chance to be a user, but if you are willing to publish in the 
open literature and make all of your results available, we will 
give you beam time based on an evaluation of your technical 
expertise and project goals, and peer review. If your company 
then wanted to develop and patent some drugs, DOE calculate the 
full cost recovery and charges you for it in advance. I know 
that because I am an owner of a biotech company in my outside 
interest, and we use the synchrotron, and they are very picky 
about making sure our funds clear before the beam time starts, 
OK. And they do work very hard to make sure that we are 
allocating the resources, appropriately that way, and I laud 
them for that.
    Ms. Kaptur. Dr. Kasthuri.
    Dr. Kasthuri. Thank you. I just wanted to respond to one 
part of your question, Mr. Simpson, which is what do you get 
out of it or what do appropriators get out of it? And we have 
had a lot of good slides about the immediate effects and 
numbers, but I would like to add one more thing, which is that 
a lot of these big science investments or big science projects 
wind up inspiring people in ways that is real, but very hard to 
calculate. And the way I tell the story is that in 1969, 50 
years ago, and a few months from now, from today, when we 
landed on the moon, the average age of a NASA scientist was 
about 29 years old. I am not sure what the average age is now, 
but it is older than 29 years old. And that number sticks in my 
head because in 1962, when President Kennedy announces that we 
are going to the moon at Rice University, many of those NASA 
engineers are 22 years old. They are in college or just out of 
college. And something about this idea of a national effort 
inspires them. And, I think, there is an argument to be made, 
was the moonshot a success? When I was young, I looked forward 
to moon bases when I was an adult and travelling to the moon 
for holidays. None of which happened.
    So in one sense, you could imagine that the moonshot was a 
failure, but in another sense, I suspect that the reason we 
have satellite technology and telecommunications and many of 
the things that we have now is because we inspired a generation 
of students to enter space. And, I think, perhaps, when you 
think about appropriations, this is something worth thinking 
about that there are inspirational value that has real benefits 
to this country that is hard to quantify, but I would argue is 
very real.
    Mr. Simpson. Thank you for that. I appreciate that and I 
agree with you. I guess one of the challenging things is, you 
know, there is never enough money. You have an appropriation 
and there is viable needs that need to be appropriated, and 
what I am trying to figure out is how do I determine whether we 
have $50 million here, where is our best investment, and how do 
I determine what we are getting for that investment? And that 
is the challenge, I think, this committee has. But I do 
appreciate everything you do and look forward to working with 
you on these. I yield back.
    Ms. Kaptur. Thank you, Mr. Simpson. When you look at the 
additional funds that have been given to the Department, passed 
by Congress and signed by the President, for fiscal year 2020, 
and you think about the fields in which you have devoted your 
lives, trying to communicate to the outside world about a 
moonshot-type effort, in this field, gets lost. I remember when 
we had Members from Massachusetts who fought so very hard for 
Sil Conte, being one of them many, many years ago, for the 
original work that we did on the BRAIN initiative. And after 
the first announcement, it kind of goes out there and the road 
markers are not clarified as it moves forward. Then you have 
the Human Genome Project, and you hear about that. I think it 
needs better road signs as we move forward to the extent one 
can so that people continue to be engaged, Doctor. But even 
myself, I know how frustrating it is for me trying to express 
this to an audience. It is a little murky; and we know that as 
science is developing, obviously, it would be. But then people 
lose focus.
    So I just would encourage you to think about that and how 
one would organize going down this road collaboratively among 
interested departments and agencies. I think the public would 
welcome it, but I don't think from a messaging standpoint we 
necessarily do the best job. So just wanted to put that on the 
table. Congressman Pocan.
    Mr. Pocan. Thank You, Madam Chairman. And thank you to the 
panel very much for being here. Very interesting. Let me try a 
couple areas if I can get it in my 5 minutes, but one in 
particular, Dr. Varmus, you mentioned isotopes. In my district, 
we have a couple companies that were fortunate to get some 
partnership with the Department of Energy to manufacture the 
isotope Moly-99 and we were not as successful in getting as 
much funding for domestic production as we would have liked to. 
We are hoping to try to make that case this year and I thought 
maybe you could help me make the case because as we understand 
the domestic production where this is currently produced has 
been dwindling. I think the last area was in Canada, on this 
continent, and that is why they put the grants out a number of 
years ago. A couple of these now have had successes.
    Can you just talk a little bit about how important it is 
for that funding to find the domestic source to be able to 
produce something like this and what that means other than just 
a company producing it, but why we need to have domestic 
production of this type of an isotope?
    Dr. Varmus. Well, I have to do something that I do not like 
to do, which is to admit my ignorance about this particular 
substance. In general, I do think it is good for us to be 
producing our reagents in this country. It makes access easier 
and cheaper, but on this particular isotope, I really cannot 
comment. Maybe my colleagues know something about this.
    Mr. Chance. I do not. Is this is a diagnostic reagent, 
Molybdenum-99, for imaging?
    Mr. Pocan. Yes, exactly.
    Mr. Chance. Yes. Well, these isotopes, it is a tough market 
for a small company, right? You know, you have got a few. So, I 
don't know, the DOE is very good at enabling technology 
development and companies, but we need these isotopes to see 
the stuff we need to see and each one has sort of a different 
niche of imaging that uniquely provides important capabilities. 
And, you know, your folks at Minnesota and others and Wisconsin 
are using these isotopes a lot and there are tremendous 
research centers there.
    Mr. Pocan. Thank you. I think when you mentioned a few 
things really hit things out here in the district, you know. 
People are concerned about autism. You mentioned autism, 
Alzheimer's, depression, and mental illness, when you talk 
about other benefits something like, at least 30 percent of the 
people who are incarcerated are there because they have mental 
illness, right? Those three areas, please talk about some of 
what we are seeing in developments and, like, be promising in 
autism, Alzheimer's, and depression and mental illness.
    Dr. Kasthuri. Yes, so, broadly, I think in neuroscience 
there is a lot of progress being made in these fields. Some of 
it is trying to figure out are there predispositions in your 
genes, or et cetera, that allow you to get these diseases more 
easily than other people? That is the first.
    I think, second, there is a lot of progress in being made 
about how we diagnose or define these diseases because many of 
these diseases are not exactly one particular disease, they are 
a spectrum of diseases, and the better we understand where a 
patient falls on the spectrum, the better we can treat them. I 
think these are broadly happening. It is not the work that we 
do.
    The work that I am particularly interested in is that for 
many of the diseases, for example, autism, it is this idea that 
it is an inappropriate wiring between neurons. Maybe those 
neurons are making too many connections with each other, not 
enough connections, and that is the fundamental basis of the 
disease. And so, while these other advances are happening in 
the therapy and how we define it and how we diagnose it, we are 
interested in giving the sort of deep fundamental physical 
basis. And once we can collect enough data in that world, are 
there new therapies that we have not thought of because now 
that we understand the biology at some physical level, and that 
is what we are hoping for as well.
    Mr. Pocan. That is true of depression, too, right?
    Dr. Kasthuri. Absolutely.
    Mr. Pocan. The connections, because I know that another 
company in our district got some funding recently for 
psilocybin research actually trying to do new connections for 
people with depression and it just seems to keep resurfacing in 
a lot of our conversations.
    Dr. Kasthuri. Yes, and I think it will keep resurfacing 
until we can have a definitive answer on it. And I think the 
interesting thing about definitive answers is that some things 
no longer surface that we used to think were relevant and new 
things now surface that we never thought of.
    Mr. Pocan. Got you. Great. No, I appreciate, again, we just 
have with the University of Wisconsin clearly a lot of 
offshoots working in all these areas and we are fortunate to 
get a lot of funding with the Office of Science as well and we 
want to make sure that continues. And I really appreciate your 
time today. I yield back.
    Ms. Kaptur. Thank you, Congressman Pocan. Congressman 
Fleischmann.
    Mr. Fleischmann. Thank you, Madam Chair. Madam Chair, I 
want to thank you and the ranking member for having this 
hearing today. It is educational, it is insightful, and it is 
optimistic and I appreciate that. Gentlemen, you will find that 
this subcommittee I would say, like most of the subcommittees, 
not all on the Appropriations Committee, we work well together 
whether it is with our national labs. Mr. Foster and I, we have 
debates about other things, but when it comes to national labs, 
and he has a distinct scientific edge over me, but I still root 
for ORNL. But it is truly wonderful the job that you are doing 
and I think I can speak for the entire subcommittee that we are 
pleased to fund this research and I am really thoroughly 
impressed by the discourse today.
    It seems that there is a wide variety, a wide spectrum of 
maladies and conditions that we are looking at, and the 
question that I want to ask, and it is a little bit broad, but 
I am interested in all three of your perspectives. It seems as 
we fund this--and, Dr. Varmus, you alluded to it with your 
earlier research, the genetic basis for cancer, particularly 
breast cancer. My mother passed of breast cancer when I was 
very, very young and I am so proud of the strides that we have 
made to combat that horrific disease. But my general question 
is for each one of you. Is it genes, is it environment, and/or 
does it depend on the malady or condition, and how will our 
funding help narrow those questions and those gaps?
    Dr. Varmus. Just briefly, it is, of course, conversations 
both of environments and behaviors as well as genetic 
inheritance and it does, as you point out, vary from disease to 
disease. Right now, in the case of the neurological diseases we 
have been talking about, we probably know more about the impact 
of behaviors on how those diseases are treated, diagnosed, and 
evaluated.
    In the case of cancer, the one place where the Genome 
Project has made a major contribution that probably is not as 
well appreciated by the public as it ought to be, to go back to 
your remarks, Madam Chairwoman, but we know that the diagnoses 
are based on saying this is a patient with breast cancer who 
has mutations in the PI 3-kinase gene and the P-53 gene. That 
makes a difference in deciding what therapies to use because we 
now have drugs that inhibit the mutant forms of the PI 3-kinase 
protein. So, that is a major advance and we understand some of 
the new immunotherapies based on what we know is happening in 
the genome.
    Those mutations are in general, not exclusively but in 
general, not inherited mutations. Those are changes that have 
occurred because either of the randomness of the mutational 
process or, in the case of many diseases, by the exposure to 
certain mutagenic agents. For example, the agents that you 
inhale when you smoke a cigarette, we know what kinds of 
changes occur. We can look at the DNA of a patient's cancer and 
say, this patient was probably exposed to tobacco products, 
because we can see the signature of those products by our 
reading of the entire genome present in an individual's cancer.
    So, the link between genetics and environment becomes very 
profound and there is no longer a dichotomy between saying I 
believe in the environmental causes of cancer and I believe in 
the genetic causes. They are merged in the action of 
environmental agents on our genome.
    Mr. Fleischmann. Thank you. Gentlemen.
    Mr. Chance. So, the answer is your genes or environment can 
help with your disease progression or they can hurt with your 
disease and we are learning a little bit about how those are 
plus or minus risk factors, if you will. But, you know, I don't 
want to offend Dr. Varmus. It would be bad for my career.
    Dr. Varmus. I have no influence over your career.
    Mr. Chance. But we made progress in cancer. I think we made 
progress in cancer a little bit because cancer is almost like a 
foreign thing and if we just got rid of it, you know, then the 
sort of conception is that it would help. But the brain, you 
know, it is broken in a way and it has to be fixed and he does 
not agree with me, but that is OK. But the regulation of the 
cells and the control is directed by genes and environment and 
we need to get back to--we need to know what a normal set point 
looks like so then we can know if we have gotten back to it 
when we get an intervention.
    Mr. Fleischmann. Thank you.
    Dr. Kasthuri. It sounds like it is lose-lose whoever I 
agree with for me, but I will try my own version somewhere in 
the middle. I think this idea of genes versus environment when 
it comes to brains is as old as maybe as philosophy. Before we 
knew about genes it was nature versus nurture and after the 
discovery of it. And I think it is a very useful exercise to go 
back and forth to think it is nature or to think it is nurture, 
but in reality it is probably some complicated loop where 
nature informs nurture and nurture informs nature. And the 
problem that biologists have, at least I have, when there is a 
loop, is that is very hard to describe what causes what in a 
loop. If A and B are in a loop, did A cause B? Well, B also 
caused A. And I think that this will only continue to happen, 
this sort of loop idea and how we talk about causality, the 
more we appreciate the complicated nature of a complicated 
organ like the brain. Did I do a good job in between?
    Mr. Fleischmann. I think we are all in between. And I want 
to thank the gentlemen and I think it is great sometimes that 
we can have that difference of opinion. I think that is how we 
move forward. I think sometimes this body would learn from it 
as well, but I thank you and I yield back.
    Ms. Kaptur. Congresswoman Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair. I will just 
ask the committee's indulgence because this topic is a tiny bit 
personal for me. Some of you may know that I am a breast cancer 
survivor. In December I celebrated my 12th year as a survivor. 
I was 41 years old when I was diagnosed, and not to really get 
deep in the weeds on what I went through, when I was diagnosed 
it was because I found a lump in my breast about 3 months after 
my first mammogram when I turned 40 years old. And it was kind 
of miraculous that I found it because it was less than half a 
centimeter and my mammogram had been clean so there was no 
reason to suspect that I needed to be looking for anything. I 
was very fortunate.
    But I did not find my lump out of luck, I always say. I 
found it because of the knowledge and awareness that I had that 
I needed to pay attention to my breast health. However, and 
thankfully I was diagnosed at Stage 1A, very early breast 
cancer, but subsequently, when I went through all the processes 
that you go through when you have a breast cancer diagnosis or 
any cancer diagnosis, is when I sat with the nurse educator and 
we went through the whole family tree process of the cancer in 
my family and I had a lot of cancer in my family, but not 
really breast cancer.
    She suggested that because I was young and because I am an 
Ashkenazi Jew, a Jewish person of Eastern European descent for 
those of you that do not know what that is, and the amount of 
cancer I had in both sides of my family, that I may want to 
have a genetic test. So, then she proceeded to tell me that as 
an Ashkenazi Jewish woman I was 5 times more likely to have the 
BRCA 1 or BRCA 2 genetic mutation and that gave me an 85 
percent chance of having breast and ovarian cancer and smaller 
chances of having other kinds of cancer over the course of my 
lifetime, but particularly before I was 50 years old.
    Since I already had breast cancer and I had been a State 
legislator, was immersed in the fight against breast cancer, 
passed breast cancer legislation in my State legislature, I 
thought I was pretty knowledgeable about my risk, about 
people's risk. You know, one out of eight women in our country 
will get breast cancer at some point in their lifetime, but I 
did not know that as an Ashkenazi Jewish woman I was that much 
more likely to carry the gene. And I had the test, went through 
the process of genetic counseling and all of that and about a 
month later got the results. And when I opened the door to walk 
into the doctor's office, there were may too many people in the 
room for the result to be negative so I didn't really have to 
open the folder. I knew that I was BRCA positive and I have the 
BRCA 2 genetic mutation.
    My question is focused on this. You know, it can be 
challenging for most people to wrap their minds around the 
notion of biomedical research and development and people's eyes 
glaze over when you are talking about oncogenes. And for me and 
so many others around the world, the work that DOE and NIH do 
together and separately is very personal. And I always say when 
I tell my story that if I didn't know as much as I knew about 
breast cancer about my risk and that awareness, and we have had 
a lot of awareness that we have all focused on, attending so 
many breast cancer functions and events. We have an entire 
month that is dedicated to it. We have a color that has been 
completely identified with breast cancer. But if I didn't know 
about my risk, and I can tell you countless, countless, 
countless women at risk do not know.
    Can you, all of you, explain how DOE and NIH projects, like 
the Human Genome Project, for example, and subsequent projects, 
not only lead to the genetic tests that ultimately allowed me 
to be able to be more aware of my risk, the reason it was so 
important that I be aware of that risk, and know that I was 
diagnosed with that gene? Because of my diagnosis at Stage 1A, 
my initial course of treatment was to have a lumpectomy and 
radiation and then I would be done. But because I was able to 
have the genetic test and knew how much higher risk I was, I 
had a double mastectomy. I had seven surgeries over the course 
of a year. I had prophylactic oophorectomy, meaning I had my 
ovaries removed at 41 years old. I mean, thank God I had all 
the kids we had planned to have. But if I had gone with the 
prescribed course of treatment and not been able to get that 
genetic test, I probably would have been dead or I would have 
been diagnosed at a much later stage.
    So, actualizing in a personal and simple way, the 
incredible result of the research we have been able to do and 
the unlocking of the human genome, can you talk a little bit 
about how we can make sure that we have wide public benefit and 
awareness of the development and incentivization of the 
technologies that you research while also making sure that 
scientific discovery is not stifled? You have a lot of work 
that you are doing that might seem like it has little practical 
import, but can later lead to world-changing technologies, 
which has resulted in me being able to sit here to ask you this 
question. So, thank you, Madam Chair, and I know I went over in 
my asking of my question and I hope you understand my question.
    Dr. Varmus. Well, I am not sure I completely understand the 
question.
    Ms. Wasserman Schultz. The question really is, very simply, 
that a lot of this is mumbo jumbo to most people and we spend 
billions of dollars on this research that is critically 
important, but the awareness of the BRCA 1 and BRCA 2 genetic 
mutation was out there for many, many years and someone as 
aware as I was had no idea about my potential risk.
    Dr. Varmus. No, I mean, you tell a story very powerfully 
and I sympathize with the things you had to go through. Getting 
information of this kind, which is complicated to the public in 
an efficient and useful manner is difficult. I know from my 
experience at the NCI and NIH generally and from working. I was 
the president of the Memorial Sloan Kettering Cancer Center for 
10 years and I know that getting these messages out in a 
digestible fashion is a problem.
    One ancillary problem that is not widely appreciated is the 
scarcity of genetic counselors who specialize in this 
information. We have genetic counselors who are very abundant 
in advising you about your pregnancy, but we have not trained a 
cadre of similar counselors who can provide not just you once 
you have had your diagnosis, but people who are unaware of the 
need of what is entailed in having genetic counseling.
    Ms. Wasserman Schultz. Can I just interrupt? I am sorry, 
Madam Chair.
    Dr. Varmus. Sure.
    Ms. Wasserman Schultz. For example, all three of my 
children are now at risk of carrying the genetic mutation.
    Dr. Varmus. Absolutely.
    Ms. Wasserman Schultz. My twins are 20 years old. My 
youngest daughter is 16. And my oldest daughter has said, well, 
I am just going to go right away to 23andMe. And, you know, and 
23andMe now can tell you whether you carry that genetic 
mutation.
    Dr. Varmus. Of course they can.
    Ms. Wasserman Schultz. But having that information without 
that genetic advice is really----
    Dr. Varmus. Yes, that is a big problem.
    Ms. Wasserman Schultz. I mean, to find that out at your 
kitchen table with the entire enormity of what that means is--
we cannot allow that to happen.
    Dr. Varmus. It is a totally different question when you 
have had your children and you are willing, your attitude 
toward the surgical reduction and risk.
    Ms. Wasserman Schultz. Yes.
    Dr. Varmus. Which that is what you did. You reduced your 
risk of breast and ovarian cancer nearly entirety. That's 
right.
    Ms. Wasserman Schultz. Exactly. And if I were younger, 
getting guidance on should I have my eggs extracted?
    Dr. Varmus. Right. So, these are the difficulties created 
by knowledge that we are glad we have because facing facts is 
what we want to do as a society. But the burdens that we create 
are significant and we don't have clear answers. And, you know, 
we like to say that these are decisions that patients have to 
make for themselves, but they need guidance because the issues 
are complicated. The risks are not 100 percent, as you pointed 
out. They are high and they vary from individual to individual 
depending upon the mutation that you found inherited. Now, you 
probably--you may have--I am 100 percent Ashkenazi, so I know 
the story.
    Ms. Wasserman Schultz. Me, too.
    Dr. Varmus. And if you have the mutations that are 
characteristic of people of Ashkenazi Jewish descent, we 
probably know a lot about those mutations. But there are also 
individuals who have fairly novel mutations in these genes. 
They are discovered when companies like 23andMe or your local 
genome center, as we have in New York, discovers the mutations 
and maybe very little known about them because every mutation 
carries a different risk. So, these are subtleties that we are 
beginning to appreciate because of the vast amount of work that 
is being done by DOE and by NIH to look at as many genomes as 
possible.
    At the New York Genome Center, where I also work, we are 
particularly concerned about minority populations. Ashkenazi 
Jews are also a minority, but there are other minority 
populations that have not received the same level of scrutiny. 
And discovering the variance that are inherited that may 
predispose to risk of cancer or neurological diseases or others 
will only be appreciated if we include everybody in these 
genetic analyses that do predict risk of very serious diseases.
    Ms. Wasserman Schultz. Thank you. And, Madam Chair, the 
investments--and I raise this because the investments that we 
have to make beyond just in this research so that we can have 
it result in these discoveries, help women like me and others 
and minorities that haven't had the application of these 
technologies applied just yet. The decision I had to make was I 
could go with the course of treatment based on the diagnosis 
that I had. But if I did that, then the decision I had to make 
is: have an MRI every 6 months for the rest of my life and be 
waiting, constantly waiting for the other shoe to drop. I was 
in the stage of my life where thankfully, I got married young. 
We had our children. I had breastfed my children. You know, 
those were all the decisions that I had to make in a very short 
period of time because I had cancer. And we need to make sure 
that we are--there is a lot of results and impact that we have 
from the discoveries that we make that affect real people and 
we need to be making investments as appropriators to try to 
make sure that they can deal with the ramifications of the 
results of these incredible discoveries. So, I appreciate you 
indulging me for going over my time. I yield back.
    Mr. Chance. Can I make a brief comment, Chairwoman Kaptur?
    Ms. Kaptur. Dr. Chance.
    Mr. Chance. Mrs. Wasserman Schultz, thank you so much for 
sharing your story. I think the willingness of people to share 
stories and patient advocacy has been so important to moving 
the needle forward.
    I want to echo Dr. Varmus' comments. We are discovering 
this stuff. But if there aren't people in the medical system 
who can explain it to you, patients won't get the benefit. And 
genetic counseling, we have genetic counseling training 
programs at Case and around the country, but often 
reimbursement is a problem. Genetic counseling is not 
necessarily reimbursable in many plans. As more complicated 
genetic information comes in, it is going to be a little more 
expensive and a little more challenging, you know, to bring 
that information to patients. But those are the professionals 
in the healthcare system who could really help us.
    Ms. Kaptur. I just want to say, Congresswoman Wasserman 
Schultz, you could have as much time as you want and we admire 
you very much for your courage and your continued service. 
Congressman Newhouse?
    Mr. Newhouse. Thank you, Madam Chair and Mr. Simpson, for 
having this hearing today. It is truly an important subject to 
discuss. I want to thank Congresswoman Wasserman Schultz for 
sharing her testimony today and that helps us understand the 
significance of what you are working on. I will not extrapolate 
a lot, but this kind of work impacts almost everybody. And let 
me tell you as someone who held the hand of my first wife as 
she fought breast cancer, even though you are coming up with 
new things all the time, let me just tell you, it isn't fast 
enough when you are in the situation where a loved one is 
facing something like this. So, anything we can do to 
accelerate your ability to come up with these things, not just 
in cancer, but in brain research and all the other disciplines 
that we are focused on. So, thank you, all of you, for your 
work. It is the Lord's work and very much we appreciate--as Mr. 
Fleischmann said, we all support doing as much as we can to 
further that work.
    So, I am from the State of Washington. I represent--among 
my constituents are those that work at the Pacific Northwest 
National Laboratory, truly a tremendous institution that does a 
lot of work in so many different areas. Like Mr. Simpson, I am 
always amazed at the things that they are working on there and, 
also, I hate to admit this, but like him, don't always 
understand what the heck they are doing. But it is great stuff 
and making tremendous strides in much of that work. So, I am 
proud of that and I always try to point out what I think is 
really one of those things that a lot of people even in the 
Tri-Cities in the State of Washington aren't aware of what is 
going on right down the road. And so, thanks for giving me a 
soapbox to talk about that.
    But as much of the partnership between NIH and the DOE as 
you had talked about, Dr. Varmus, it has been focusing on the 
world's computing systems and I think the fastest one happens 
to be at Oak Ridge if I am not mistaken.
    Mr. Fleischmann. And the next fastest one coming.
    Mr. Newhouse. Oh, is that right? OK. But you also talked 
about other things that DOE and the labs bring to the table. My 
understanding is that several of the NIH programs look to PNNL 
for things such as the advanced chemical analysis systems that 
can be very crucial for understanding the impacts of, say, 
exercise on their health and, even like Ms. Wasserman Schultz 
was talking about, helping do early detection of cancer and 
potential treatment. One thing that struck me as being 
something. What are some of the areas beyond computing that you 
see in the DOE facilities and the researchers having an impact 
on things like cancer or where should we be encouraging that in 
the future?
    Dr. Varmus. Well, you are correct, Mr. Newhouse, that all 
of us have been emphasizing to a very large extent, but not 
exclusively, the computational power that DOE brings to the 
table when DOE and NCI undertake things together. Indeed, the 
cancer initiative I described is largely based on the interface 
between high-performance computing and certain areas of cancer 
research. But as we heard and as is manifest frequently, but as 
we heard during our workshops in putting together a report on 
NIH-DOE interactions, there are many other areas: material 
science, developing new ways to fabricate things; 
nanotechnology, that the creation of very small devices that 
can be used, for example, in drug delivery or delivery of 
radioisotopes. Those are areas of research where NIH and DOE 
are doing things that are similar and benefit from the 
interaction. You talked about sensors, and sensors can range 
from sensing exercise regimes to sensing molecules in the 
bloodstream.
    I believe Mr. Simpson alluded--or was it Ms. Kaptur--
alluded to devices for detecting head injury. We can now 
measure DNA that comes from cancer cells in the blood by taking 
a peripheral blood sample and use that as a guide for whether a 
treatment actually working. That is a kind of sensor developed 
largely through NCI and the private sector in this case, but 
representing the kind of sensitive device for finding just 
individual--small numbers of molecules that can reveal the 
function of an important organ or the progress of disease.
    So, these are all areas and mainly coming from engineering 
and the physical sciences which has been the strong point for 
much of DOE-related research, but, as I try to emphasize, has 
historically been involved in many of the advances we have made 
in healthcare, from the earliest development of simple x rays 
by Wilhelm Roentgen over 100 years ago to more modern ways to 
use magnetic resonance imaging or PET or CAT scanning to 
diagnose disease early. All these represent efforts to 
understand the body not just as a living set of cells, but also 
as a physical entity made up of molecules that are sometimes 
best approached through physics, chemistry, and engineering.
    Dr. Kasthuri. I have perhaps a tangential answer. So, about 
2, maybe 3 years ago, I had never really heard of the national 
lab system. I was 100 percent a neuroscientist. I maybe heard 
of some national labs, but certainly not of the 17 that exist. 
So, when I first showed up, I was amazed by the technology, the 
x rays, the computing, the material sciences.
    But I would like to add one other thing which still 
surprises me, and I think Dr. Varmus alluded to it earlier. 
There is s a culture about the national lab system that doesn't 
exist or exists at a less prominence in academia, and that is 
that impossible ideas seem common in the national lab system 
and people there are willing to address things that have a 
scientific basis and a physical basis. But in other settings, 
the scale is beyond what people could imagine. And I think this 
culture, this part of that national lab system is crucial and 
valuable. It is a place where impossible ideas are routinely 
considered and that--or where at the moment considered 
impossible ideas are routinely considered.
    And there is a different risk versus reward analysis that 
is happening I think in the national lab and the DOE system 
that is different for appropriate reasons in the NIH world 
where the risk versus reward is calculated differently. And I 
think combining these cultures is going to actually help 
advance science even if there were no x rays sources or 
computational sources or material science sources.
    Mr. Newhouse. I am way over time, but that may give me an 
opening to ask my second question. But if I were one of your 
students, I would say, but Dr. Kasthuri, so I was interested in 
your comments. And I wanted to ask you if you were familiar 
with the Allen Institute in the State of Washington, their 
efforts on brain science, that I have just learned a little bit 
about some of their things that they are working on and like 
the BRAIN initiative and the potential partnerships with the 
NIH and DOE to facilitate further scientific discoveries. They 
have been successful on large-scale transformative neuroscience 
projects, including just what you mentioned, the mouse 
connectome as you referred to, that you talked about that.
    But also I wanted to flag that the institute does provide 
open access of the data for scientists worldwide free of charge 
and which has partially been made possible by the congressional 
funding of the BRAIN initiative. So, I should also point out 
that the institute has a history of forging collaborative 
partnerships with other DOE centers of excellence involving 
neuroscience projects, such as big neuron data analysis, 
hackathon at Oak Ridge, and I know a lot of the great folks at 
the institute look forward to more opportunities for comparable 
partnerships, so with those initiatives. So, just I wanted to 
bring that up and any thoughts you might have on that as well.
    Dr. Kasthuri. I should say that the Allen Institute for 
Brain Science is probably--has some of the premier scientists 
in the world studying brain mapping, the way we do it. We are 
at worst frenemies, at best very close colleagues. I cannot 
imagine the kind of effort at a large scale doing this kind of 
mapping not including places like the Allen Institute or 
Janelia Farms, as Dr. Varmus mentioned earlier. These people 
have great experience in how to do this. And I think if this 
combination of private institutions, like the Allen Institute 
and Janelia Farms, mixing with Federal institutions where we 
will have really great breakthroughs. But in general, both the 
data they collect and the way they distribute the data for free 
to the community is kind of a model to emulate.
    Mr. Newhouse. Thank you very much. And again, thank you all 
for being here, Dr. Chance, as well. I appreciate your 
testimony. Thank you, Madam Chair.
    Ms. Kaptur. Thank you, Congressman Newhouse. I wanted to 
ask, the mouse connectome effort, is that finished?
    Dr. Kasthuri. No, I wish. I think we are just about to 
start that effort.
    Ms. Kaptur. Where?
    Dr. Kasthuri. Not well-known where or how, but I know--in 
fact, I was just speaking with Dr. Varmus about it this 
morning. It is an effort that is just literally starting, that 
people are thinking about how to fund it. What are the various 
multi-agencies that should be involved in it? Where are the 
various places that it should be developed and instituted? But 
I think the effort is actually at the very beginning as opposed 
to even close to the end.
    Ms. Kaptur. So, it involves government instrumentalities 
and several private sector instrumentalities?
    Dr. Kasthuri. Absolutely, I would suspect it would involve. 
So, for example, places like the Allen Institute, as 
Representative Newhouse was saying, places like Janelia Farms, 
which is a Howard Hughes private institute, like Professor 
Varmus was talking about, in addition to government agent 
institutions, DOE labs, and a bunch of academic places 
together, I think will be how the connectome gets mapped if the 
genome is any example, which was also a very similar process of 
mixing private, public, Federal, and academic all together.
    Ms. Kaptur. I will speak very openly. I think science has 
trouble communicating with the general public. Congresswoman 
Wasserman Schultz offered the observation about how she learned 
and what she knew and what she did not know. I would urge you 
to consider somehow with--you are scientists. You are not 
necessarily communicators, though you are the best 
communicators in your field or you would not be here today, but 
if you were to look at various months or days that Congress 
designates for whether it is cancer whether it is mental health 
awareness, and think a little bit about how you would use those 
opportunities because members, many members are involved in 
trying to use those moments to help the people they represent 
and help the country. I do not think science uses those days 
very effectively. So, for example, on autism--and I honestly do 
not remember which day it is that we acknowledge the issue of 
autism and we try to draw attention to it.
    The cancer issue is another one. But at that moment, you 
can get a calendar and you can look ahead and let us say it is 
June 1, right, at that moment, the best knowledge we have could 
come here to Washington. We could give you the Gold Room or the 
Rayburn Room or we could find a room here, a big room, and all 
of the associations, the Alzheimer's Association, for example, 
or the National Cancer Society, whatever the individual concern 
is, we could use that moment and you would have 436 Members of 
the House plus all of our territories and we could try to help 
message.
    But honestly, Members are very busy and they do not keep up 
on what is happening with the pace of science. So, for example, 
a Member like myself, I think to myself, OK, so if mental 
illness is an issue I care deeply about, I know of the Stanley 
Foundation. But Dr. Ifa Litori, and a lot of what I see on the 
website, is physical brain presentation. It is not necessarily 
neurotransmitters. So, the synapses in the middle part of the 
brain are larger, Doctor, according to at least his research.
    One of our esteemed Congressmen from Ohio, Mr. Gonzalez, is 
a former football player and is very involved with Boston 
University and the Brain Bank they have there. So, I go to the 
website and I look at trying to help him achieve his goal is, 
which is healing. In understanding, I am going, is it more 
physical or is it more embedded in the parts that we cannot 
see? It is really difficult to be a Member and try to figure 
out, OK, so where should I be moving this vast ship?
    And I am even having a little difficulty this morning 
trying to figure out, respectful of what our jurisdiction is, 
do we need more advanced light sources? Do we need more large 
computers? How far along are we on that road? It is hard.
    I am reading, Dr. Varmus, what you submitted to the record. 
Do I believe this is all going on and it is already happening 
so we do not have to worry about it?
    But it seems like on the communications front, we are not 
effectively using science to help the American people move 
forward in this arena. We could. NIH and DOE could think about 
that, and maybe in 2020 pick one. It could be cancer. It could 
be autism. It could be bipolar. Whatever it is, how effective 
could we be in reaching the American public? And at that moment 
the best scientists we have, the best folks people we have, 
could come forward, deliver some papers, and talk about the 
road forward.
    All I know about Alzheimer--or excuse me, autism, is I 
looked through a microscope in one lab and it showed that the 
receptors inside the ear, rather than looking like this for 
sounds and so forth, looked like this. They are all blunted. I 
thought, OK. Well, what does that mean? Every Member has that 
kind of experience. They cannot step away from the particular 
and figure out, all right, so what do we say to the American 
people? What do we know and what don't we know? What are these 
murky areas and we could--what we know.
    Maybe there are certain things we know. We know that for 
many neurological conditions, they onset in the teens. What do 
schoolteachers look for? Many scientists probably know, but we 
don't communicate it very well.
    So, I am saying to you, maybe if you could draw from your 
work in cancer, your work with light imaging, wouldn't it be 
great to tell the American people that we have to have a 
machine 10 times more powerful than this or we need more 
computer scientists that will major in whatever to solve this. 
I do not think we picked the essential out of what we already 
know to help direct thinking of the public and Members as a 
result. Dr. Varmus?
    Dr. Varmus. Thank you for bringing up this important issue. 
I think many scientists, myself included, have been worried 
about this for a very long time. For over 25 years, I have been 
affiliated, for example, with the Congressional Biomedical 
Research Caucus, and as you point out, although we put on shows 
every month, it is hard to get the attention of members. There 
is so much information. Some of it is solid. Some of it is in 
progress, hard to know how to present that.
    Science is not just one entity; it is a lot of different 
sciences. You have heard that around, even on this small table, 
what do people want to hear? I think one of the things that I 
resonated with in your comments just now was the idea that a 
committee like yours can distill a specific question. That is 
what is needed, specifically, to promote effective and more 
productive research between the two agencies.
    We have this report. It covers a lot of things. There is 
now 4 years of history since that report was issued. One could 
imagine having even just a discussion, not even a hearing, in 
which you say all right, what do you think of the weaknesses? 
Where can we put our resources to make these collaborations 
more productive?
    You know, there are so many things out there, and you heard 
a lot of ideas, just during our discussion this morning, but I 
think the pointed question, from appropriators themselves, 
could be very beneficial. I think a lot of us actually have 
spent a lot of time trying to communicate with the public. The 
public is a large, diverse beast, with a lot of different 
levels of competence, and there is a lot to say, and being told 
by you, the appropriators. What specific questions you would 
like answered, I think, is something that would go a long way 
to improving the interchange between scientists and you as 
representatives of the public.
    Ms. Kaptur. Would a discussion, Dr. Varmus, more of an 
informal discussion between DOE and NIH be a valuable--taking 
your recommendations from the hearing this morning, would that 
be valuable?
    Dr. Varmus. I think that is actually--the discussion is 
between leaders and the agencies. It is already occurring at a 
very high level. I was very gratified in my conversations with 
Chris Fall, the Director of the Office of Science, Francis 
Collins, and with others, NIH, who are running these 
collaborative efforts. There are a lot of discussions 
occurring. I think what is maybe missing in the mix is having 
interested staff from--especially from the Appropriations side, 
say we would like to hear from both of you in the room. So, 
what can we, as appropriators, do to make these connections 
work better? Right now, people are trying to make better use of 
the money they have and put things together in a sensible way, 
but I think going, actually talking to people who control the 
budgets would be a very useful exercise.
    Ms. Kaptur. All right.
    Mr. Chance. Can I say something?
    Ms. Kaptur. Yes, Dr. Chance.
    Mr. Chance. Thank you, Chairwoman Kaptur. I really accept a 
lot of what you say. I accept, from Mr. Fleischmann, we are not 
moving fast enough. I accept your admonition that we do not 
communicate well enough, and I accept your challenge to come 
and make that case and get involved and do more myself. You 
know, further, I think, if we want to go faster, the beamlines 
are not fully, you know, utilized. There is spare capacity, and 
we can go faster, and maybe that would be a cost-efficient way. 
New beamlines take a while, and, so, those cannot help 
immediately, but we could get more scientists embedded with the 
DOE. I mean, that is my secret sauce of what we have been able 
to do. Take university scientists and embed them with the DOE 
scientists, and, so, those stakeholders are bringing talent, 
money, and all of their resources to bear, to sit on that 
baseline, which you so generously appropriate. Thank you.
    Ms. Kaptur. Dr. Chance, thank you for that statement. Could 
you write me back for the DNA samples that, I believe, rest 
somewhere, that Case, or----
    Mr. Chance. Yeah, oh, I know quite a bit about that 
project. We work very closely with her Veterans Affairs 
hospital. They are a key affiliate. I know Dr. Bonomo, who is 
on some of those samples, and I will investigate that for you 
right away.
    Ms. Kaptur. Why are they useful? I have no idea. Should I 
know?
    Mr. Chance. Yes, you should.
    Ms. Kaptur. So, so, it is an unknown, big question mark. 
The Boston University Brain Bank, is that valuable, Dr. 
Kasthuri?
    Dr. Kasthuri. So, we are collaborating with them now to try 
to take some of these samples from the Boston University Brain 
Bank and analyze them. Sorry, these are postmortem samples of 
people who have either been diagnosed with concussive 
neuropathies or, et cetera, and H-matched controls, if you 
will. So, we are working with them, right now, to see if we can 
use our microscopes to find the physical basis of these 
different disease. It is just an exploratory work now, but I 
find these databases and tissue banks extremely valuable 
because, when they were collected, they were probably for a 
particular reason. But as our technologies advance, as our 
microscopes get better, as our genetic analyses gets better, 
these tissue banks become super valuable for new questions that 
had--that never been emerged. When they collected the tissue at 
Boston University, they did not collect it to have someone do 
superpowered nanoscale electron microscopic imaging of it, but 
it turns out that we are trying that now, and it is a resource 
being applied to a new question that no one had ever thought 
of, which I really like, in this world.
    Ms. Kaptur. And I know our ranking member talked with 
Secretary Perry about resources in California. I do not know 
exactly what exists there, but you probably know and there is 
interest among members not on this committee. That is a good 
thing.
    Mr. Chance. Yes.
    Ms. Kaptur. We need to use that. I just wanted to say, Dr. 
Varmus has to leave quickly because of a travel arrangement. Is 
that correct, Doctor?
    Dr. Varmus. No, I have to teach at 5:00 in New York, so I 
need to get on the 1:00 Acela.
    Ms. Kaptur. Yes.
    Dr. Varmus. I will make it.
    Ms. Kaptur. All right. Well, I wanted to thank you all very 
much on behalf of our committee. We had a great turnout this 
morning. That shows the deep interest. I hope that as you go 
back to your respective responsibilities that you will consider 
the questions this morning, and the possibilities that exist 
with the additional funding that the ranking member and I tried 
very hard to get in this recent bill, and how we might move 
some of the investments at the Department of Energy forward, 
whether it is in light imaging, whatever you tell us, to help 
you to move your research forward faster, in collaboration 
between agencies and departments and outside interests. I hope 
that you use this as an open door.
    And I took your recommendation, Dr. Varmus, and we will try 
to bring, with your help, together some of those who should be 
around the same table, as we decide what is an appropriate role 
for the Department of Energy, what is an appropriate role for 
NIH, what is an appropriate role, frankly, for defense 
medicine, and for the research that occurs at the Department of 
Veterans Affairs. I do not view that research as everybody 
being in their own car, for heaven's sake, but we need to be on 
the same train car. We need to be working together here, and we 
have to break down some of the stovepipes that inhibit faster 
progress on scientific inquiry. So, consider this, please think 
about what you have heard others say and ask, this morning, and 
give us your thoughts, and we greatly appreciate your 
testimony, this morning, and your time.
    Mr. Simpson, do you have any additional comments or 
questions?
    Mr. Simpson. No. You better go, if you are going to make 
the 1 o'clock.
    Ms. Kaptur. All right. Very good. That concludes this 
morning's hearing. Again, I would like to thank our witnesses 
for joining us today, and I ask them to please ensure for the 
hearing record that questions for the record and any supporting 
information requested by the subcommittee are delivered in 
final form to us no later than 3 weeks from the time you 
receive them. Members who have additional questions for the 
record will have until the close of business on Friday to 
provide them to the subcommittee office.
    This hearing, with our gratitude, is adjourned.
    [Material submitted for inclusion in the record follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                                        Thursday, February 27, 2020

         DEPARTMENT OF ENERGY'S FISCAL YEAR 2021 BUDGET REQUEST

                                WITNESS

HON. DAN BROUILLETTE, SECRETARY, DEPARTMENT OF ENERGY
    Ms. Kaptur. The subcommittee will come to order. I want to 
thank the Secretary very much for waiting. The floor votes were 
not our plan, and I know that Ranking Member Simpson and I 
would have wished to start a half-hour, an hour ago. So we 
thank you for your patience.
    Let us begin our first hearing on the fiscal year 2021 
Budget Request for the Department of Energy.
    Thank you, Secretary Brouillette, for being here, and for 
your patience.
    Before we get started let me first express my deep 
disappointment that well over 2 weeks after the budget was 
released, we only just received the full set of required 
supporting materials needed to evaluate this request late last 
evening. Frankly, this delay is unacceptable, and I hope, Mr. 
Secretary, you can rectify it for this next year.
    The Department of Energy addresses our Nation's most 
pressing energy, environmental, and nuclear security challenges 
through transformative science and technology. With those 
challenges come opportunity, opportunity to achieve progress 
for our Nation to sustain life, to grow our economy, and to 
shore up national security through energy independence, 
opportunity to meet the imperative of climate change by making 
energy supplies cleaner and more resilient, opportunity to 
advance high science to yield innovation, to keep our Nation 
globally competitive, and last but not least, opportunity to 
cost-effectively sustain the Nation's nuclear deterrent while 
simultaneously supporting nuclear nonproliferation.
    Looking toward fiscal year 2021, however, the Trump 
administration again proposes to cut the Department of Energy's 
budget by 8 percent overall, and by an astounding 35 percent in 
nondefense programs.
    This will limit America's future by drastically reducing or 
eliminating programs critical to meeting our future energy 
needs and assuring our Nation's security. These programs have 
received broad bipartisan, bicameral support precisely because 
of the crucial role in undergirding our economy, and preparing 
us for the futures to come, including the clean energy economy. 
What we should be doing is supporting programs that create jobs 
as our Nation transitions to a clean energy future.
    One need look no further than a recent Bureau of Labor 
Statistics reporting project, that the fastest-growing 
occupation in the country over the next 10 years, are you 
ready, is solar installation, to know that these programs are 
job creators.
    But, unfortunately, once again the President's budget 
request harms America's energy future, our competitiveness, our 
workforce, our environment, our consumers, and our economy. 
This request is riddled with backward-looking proposals. First, 
on energy efficiency and renewable energy funding is cut by 74 
percent.
    EERE is responsible for creating and sustaining American 
leadership, mastering U.S. energy independence and 
transitioning to a global, clean energy economy. The Trump 
budget again eliminates the weatherization program, so pivotal 
to achieving energy conservation for existing structures, and 
helping lower-income families and individuals reduce their 
energy costs.
    Also on the Advanced Research Project Agency-Energy, which 
invests in transformational energy technologies of the future, 
is eliminated in your budget despite its track record of 
success. This backward slide is a nonstarter for this 
subcommittee.
    Next, the Office of Science is cut by $1.2 billion. Under 
this request, research in vital areas such as advanced 
computing, biology and environmental sciences, chemistry and 
materials research will suffer. All spur innovation and keep 
our Nation globally competitive in an often predatory global 
marketplace.
    The administration has once again proposed a nuclear 
weapons budget that has not established clear priorities with a 
responsible plan to fund and execute them. Instead, this budget 
suggests that everything is a priority.
    The proposal includes an increase of $3.1 billion just for 
Weapons Activities. Mr. Secretary, media reports have indicated 
that you and even the President's own Office of Management and 
Budget harbored concerns about the size of this request, which 
is billions above what the Department projected it would need 
just last year.
    While sustaining the nuclear deterrent is a national 
priority, it must be done in a cost-effective, responsible 
manner. I must also express serious concern with your request 
to again cut key nuclear nonproliferation programs.
    With that, I close my remarks. Thank you, Mr. Secretary, 
again, for being here today, and we look forward to discussing 
this request and adapting it accordingly.
    I would like to turn to our ranking member, Mr. Simpson, 
for his opening remarks.
    [The prepared statement of Ms. Kaptur follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Simpson. Thank you, Chairwoman Kaptur. I am pleased to 
join you in kicking off another series of budget hearings.
    I would like to welcome Secretary Brouillette.
    I believe today is not only his first hearing with our 
subcommittee, but also his first hearing as Secretary. Mr. 
Secretary, I look forward to hearing from you today on the 
fiscal year 2021 budget request, and learning more about how it 
reflects your priorities for the Department of Energy.
    As members of this subcommittee well know, the Department 
of Energy is critical both to the national security and 
economic competitiveness of the United States.
    A credible nuclear deterrent is essential for our own 
national security and for the security of allies around the 
globe. The Department of Energy, through the National Nuclear 
Security Administration, is responsible for maintaining a safe, 
secure, reliable, and effective nuclear weapon stockpile, and 
addressing nuclear proliferation threats that continue to 
change in a changing global landscape.
    The Department also supports a strong nuclear Navy which is 
also necessary. The fiscal year 2021 budget request strongly 
supports these national security responsibilities. While it is 
our job as legislators to ask questions, to make sure funds 
will be used wisely, and that programs will be successful, I 
believe these defense activities must remain a high priority 
for this committee.
    Our country's economic competitiveness is driven in part by 
our ability to continue as a global leader in energy production 
and energy technology innovation. These, in turn, rest on the 
basic science and applied energy research and development 
programs in the Department of Energy. The budget request 
proposes funding primarily for early-stage research, and, 
therefore, is not as robust as last year's enacted levels.
    I think Congress has made its position clear over the past 
several years that some amount of funding for all stages of 
research is important. I look forward to continuing our 
discussions on how to make the best targeted investments in 
these areas.
    Perhaps just as important as any particular funding level 
is actually getting the Department of Energy's budget, a final 
budget, in a timely manner. Our budget caps--levels are set for 
this year, so I am hopeful that we can work together, 
Republicans and Democrats, House and Senate, and the 
administration, to enact a fiscal year 2021 Energy and Water 
appropriation bill by the start of the new fiscal year, kind of 
a novel concept.
    Secretary Brouillette, I appreciate you being here today to 
explain your budget request. I know my colleagues and I look 
forward to working with you to move forward a budget that will 
strengthen our national security and advance our energy 
independence. I thank Chairwoman Kaptur for calling this 
hearing. I yield back.
    Ms. Kaptur. Thank you, Mr. Simpson, very much. And before 
we turn to Secretary Brouillette, I want to remind our Members 
that after we hear from the Secretary and begin questions, for 
those Members present in the room, when I gaveled in at the 
beginning of the hearing, I will recognize you for questions in 
order of seniority, alternating between majority and minority, 
until all who arrived prior to the gavel have asked questions. 
For those who arrived after the hearing has started, I will 
recognize those Members solely in their order of arrival, 
again, alternative between majority and minority.
    And I want to thank the Members for their tremendous 
turnout today.
    We will now turn to our witness, Secretary Dan Brouillette 
of the Department of Energy. Secretary Brouillette is the 15th 
Secretary of Energy, and he was most recently the Deputy 
Secretary at the Department. He previously worked on the House 
Energy and Commerce Committee, and has worked for the industry 
and as a state energy regulator. Also, he has spent a great 
deal of time in the automotive industry.
    We thank you for taking the time to be here today. Without 
objection your written statement will be entered into the 
record. Please feel free to summarize your remarks in about 5 
minutes.

             STATEMENT OF SECRETARY DAN BROUILLETTE

    Secretary Brouillette. Chairwoman Kaptur, Ranking Member 
Simpson, and members of the subcommittee, it is indeed an honor 
for me to appear before you today to discuss President Trump's 
fiscal year 2021 budget request for the Department of Energy.
    And Madam Chair, your comments regarding the CJs are very 
important to me. I want to apologize to you for not getting 
that in on time. You have my personal commitment that that will 
not happen in the future.
    The members of this committee, on both sides of the aisle, 
have been very strong partners to the Department over the past 
3 years, and I am grateful for the support that each of you 
have given me as Deputy Secretary. And it is indeed a privilege 
for me to appear before you today as the 15th Secretary of 
Energy.
    My interest in the national security work of the Department 
began during my service as a tank commander in the United 
States Army. My time on the Hill, working in this very building 
for a member office, and later as chief of staff to the House 
Energy and Commerce Committee furthered my passion for the 
mission of DOE.
    Having led the Department's Congressional Affairs office, 
and most recently serving as Deputy Secretary, I am humbled. 
And I look forward to continuing to work closely with each of 
you in this new role. The President's fiscal year 2021 budget 
request promotes energy independence, it advances scientific 
research, it strengthens U.S. energy security, and it enhances 
the protection of our Nation's security.
    The budget supports the development of reliable and 
affordable energy with strategic investments in research and 
development, critical infrastructure, and cross-cutting 
initiatives such as energy storage, including the next 
generation of batteries that integrate renewable energy more 
efficiently into the grid.
    In 2020, for the first time in my lifetime, the United 
States will be a net energy exporter, and the world's number 
one producer of oil and gas. Notably, the United States is also 
the world's second-highest generator of wind and solar energy, 
and the world leader in carbon emissions reductions. I am 
confident that the initiatives in this budget will advance and 
extend those gains for years to come.
    The Trump administration believes it is imperative that 
America maintains dominance in science and technology, 
especially with global competitors like China racing to surpass 
us in critical scientific capabilities. That is the 
underpinning of this year's budget request of $5.9 billion for 
scientific innovation across the DOE complex.
    The request also supports substantial investment in areas 
the President has designated as industries of the future, 
including supercomputing, artificial intelligence, quantum, and 
advanced manufacturing.
    The budget again prioritizes the development of next-
generation advanced nuclear technology. As we strive to regain 
American leadership in nuclear energy, this administration 
realizes the need for domestically produced uranium, and in 
doing so, this budget requests $150 million for a new DOE 
program, for a strategic stockpile of U.S.-origin uranium to 
protect against market uncertainties, recognizing the value of 
American nuclear energy and national security interest. This is 
the first step in a soon-to-be-released broader strategy 
endorsed by the President's Nuclear Fuel Working Group.
    The budget requests $27 billion to support DOE's mission 
for national security. Given the current geopolitical 
environment and increasingly capable rivals, the U.S. must have 
nuclear capabilities to meet current and future national 
security challenges, and key to this effort is sustaining the 
current stockpile of nuclear weapons, modernizing our nuclear 
forces, and recapitalizing its infrastructure.
    The request also funds continuation of cleanup sites 
associated with nuclear weapons development production and 
government-sponsored nuclear energy research. The 
administration believes progress on managing the Nation's spent 
nuclear fuel is critical, and that the standstill on this 
important issue has gone on for too long.
    Notably, the fiscal year 2021 budget does not request 
funding for Yucca Mountain licensing. Instead, we seek to 
prioritize research development and the evaluation of 
alterative technologies and pathways for the storage, the 
transportation, and disposal of the Nation's nuclear spent 
fuel.
    The men and women I have the privilege to lead are 
extremely dedicated to the DOE mission. Working with Congress 
and their industry partners, I am very proud of the 
Department's accomplishments over the last 3 years to advance 
American energy, promote scientific innovation, and to protect 
America. The results are significant for the United States as a 
nation and for taxpayers.
    And finally, I want to thank the committee for the strong 
support in the fiscal year 2020 appropriation, and the full-
year appropriation for fiscal year 2019. The certainty provided 
the Department by both is appreciated. And we are seeking that 
same certainty this year.
    I look forward to working each of you to that end. Thank 
you very much for the opportunity to appear before you. And I 
look forward to your questions.
    [The prepared statement of Secretary Brouillette follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Ms. Kaptur. Thank you very much, Mr. Secretary. We will 
begin questions now. The first one concerns research and 
development at the Department.
    Your budget, Mr. Secretary, cuts the Office of Science by 
17 percent, and the energy research and development programs by 
59 percent. While the United States currently leads in research 
and development, China is expected to surpass the United States 
in the next year or two.
    That substantial public spending from China helps explain 
why it was the world's largest market for energy investment in 
2018. And looking at U.S. clean energy research spending 
relative to the size of the economy, we rank No. 10 compared to 
other countries around the world. We surely must sustain 
investments in innovation to maintain U.S. edge and 
competitiveness in the future.
    Mr. Secretary, how do you justify these drastic cuts to the 
science and energy research and development programs at a time 
when China and other countries are investing, literally, 
trillions in innovative energy technologies?
    Secretary Brouillette. Madam Chair, thank you for the 
question. It is important that we maintain parity with 
adversaries and nations, frankly, who have other interests in 
mind, and it is certainly not our interest at heart.
    What we have done in this budget is, I think the ranking 
member has alluded to and I will elaborate on, is that we have 
moved some of the research from basic science research--excuse 
me, from applied research to basic science research. What we 
have noticed in some of the programs within DOE is that we are 
focusing on technologies that are now mature, now available to 
the marketplace, widely available I should say. And it is 
important that we look to the next generation of science, the 
next generation of these energy technologies that you mentioned 
in your opening statement.
    You and I had a quick conversation and I think it is an 
important--it is important for us to look to universities like 
the University of Toledo, who is working on, for instance, 
perovskite as the next generation of solar technology. So our 
goal is to leapfrog what we are doing today, and to look to 
those types of technologies and move them to the marketplace as 
soon as we possibly can.
    It has been said before that things like solar energy are 
now focused on photovoltaics, which in many respects can be 
almost akin to a horse and buggy. Anyone, anyone can obtain a 
solar panel. The initial investments in solar were critical, 
but it is the next generation of solar that we need to bring 
online. That is our intent and we want to focus our efforts on 
those types of things, and it simply means that we are going to 
move or we are requesting to move some of the money from the 
applied sciences over to the basic sciences.
    Ms. Kaptur. Well, Mr. Secretary, I heard your answer, and I 
think our committee will eventually work its will, but we want 
to develop both the basic research and the applied research. 
And we hope the Department of Energy is building itself to 
become a showcase for the invention of the future that is 
happening as we speak today.
    Secretary Brouillette. I would love that.
    Ms. Kaptur. I will reserve some of my other questions, and 
we will turn to my colleagues, and to our very able ranking 
member, Mr. Simpson.
    Mr. Simpson. Thank you. You mentioned during your statement 
that there is no money requested for Yucca Mountain. I 
understand that. The budget request includes funding for 
interim storage. As you know, current law has some limits on 
authorized activities and sources of funding for those 
activities. Do you expect to execute the requested funding 
under current law, or do you anticipate the administration 
submitting a legislative proposal? And if you do, when would 
that be coming up? What is the timing of it? Do you know?
    Secretary Brouillette. Well, sir, with regard to our 
legislative proposal, I don't anticipate sending anything to 
the Hill in the near term. The current law, as drafted, 
prohibits us from pursuing Yucca Mountain, so it is the 
position of the administration that we will not pursue Yucca 
Mountain at this time.
    What we would seek to do is to look for alternatives. There 
are provisions in current law that allow us to do research and 
development on perhaps interim storage options. We don't need 
legislative authority to do that; it already exists in the 
current law under the Nuclear Waste Policy Act. So, it would be 
our intention to work with you, to work with state 
policymakers, to work with local policymakers, to start to 
begin the process to identify potential alternatives to address 
an issue that has been with us for quite some time.
    Mr. Simpson. Do you anticipate trying to use any of the 
money from the Nuclear Waste Fund for those activities?
    Secretary Brouillette. No, sir.
    Mr. Simpson. You mentioned uranium reserve in your opening 
statement that we are establishing this to be on guard against 
market disruptions, and support strategic U.S. fuel cycle 
capabilities. We haven't seen a lot of detail on this proposal 
yet, but we have been told that this proposal is consistent 
with the priorities of the administration's Nuclear Fuel 
Working Group.
    Can you please provide any additional information on when 
we will see the working group recommendations, and how this 
proposal fits into the larger context, including the need for 
uranium reserve?
    Secretary Brouillette. Yes, sir. So to take a step back, 
what we have noticed in the marketplace with regard to uranium 
is we have seen nation states dominate this marketplace over 
the course of the last 5, 10 years, perhaps 1 or 2 decades. The 
United States, in our view, has lost its leadership position 
with regard to the nuclear industry, and it is our view that it 
is very important that we regain it. What this represents or 
what the request represents, the $150 million that we are 
requesting from Congress is the first step in what will be a 
broader strategy that includes potentially conversion 
activities with regard to uranium. That working group will 
release its results early next week. I know that some of the 
staff here have begun briefings on that. Our current plan is to 
release that on Monday or Tuesday of next week. And I think 
what you will see is an overarching plan to take the first step 
and, perhaps, the next four or five steps to bring the United 
States back into a leadership position with regard to nuclear 
energy.
    Mr. Simpson. As you know, I am a strong supporter of 
nuclear energy and its role in providing reliable noncarbon 
power. In fiscal year 2020, Congress made a deliberate decision 
to move the program's focus from more general research to 
actually building things, which the public wants see us build 
things, primarily through the advanced SMR program and the new 
advanced reactors demonstration program.
    The budget request for fiscal year 2021 funds both programs 
but at significantly reduced levels, I assume as part of the 
broader choice to focus on early research and development. I 
think this broader policy is an area where Congress and the 
administration will continue to disagree. So, let us set aside 
for a moment where the funding comes from. How important do you 
think it is to successfully demonstrate U.S. advanced nuclear 
technologies? What kind of impact do you see for the domestic 
power sector for the U.S. economic competitiveness for nuclear 
security and for the environment?
    Secretary Brouillette. It is absolutely critical. It is 
absolutely critical. As we look to the future of nuclear 
energy, we see some continued development around the world of 
major reactors, big reactors, gigawatt-size reactors. Those 
will happen across the world. Unfortunately, I do not see that 
happening in the near term here in the United States. But that 
does not mean the end of nuclear energy as we know it. We are 
very excited about some of the activities that we see in the 
small modular reactor space. We were very happy to see 
companies like NuScale move into phase four of the regulatory 
process. We want to see them continue that. We are very excited 
about some of the smaller reactors. Companies like Oklo have 
developed reactors that are very small in size, 1 megawatt, 2 
megawatt, 5 megawatt. Those have enormous capabilities and 
opportunity available to places in the country like where I 
grew up, very rural parts of the country where a small modular 
reactor or a small microreactor can provide energy to a 
microgrid. And we want to see those technologies move forward. 
They are smaller; they are cheaper; and importantly, some of 
the work that we have done at DOE, they are using fuels that 
are accident-tolerant and walk-away safe in many cases. So, the 
idea of a Chernobyl, the idea of a meltdown does not exist with 
some of these smaller reactors. And over time, if we can prove 
and demonstrate this technology, then, perhaps, some public 
perceptions around nuclear energy will begin to change. It is 
important for us for the provision of energy It is important 
for us to maintain any ability to decarbonize the economy. We 
must have this type of power coming online.
    Mr. Simpson. Thank you. I yield back.
    Ms. Kaptur. Thank you, Mr. Simpson, very much. Congressman 
Kilmer.
    Mr. Kilmer. Thanks, Madam Chair, and thanks, Mr. Secretary, 
for being with us. As we were discussing before the chair 
started the meeting, my district is home to the only marine lab 
in the Department of Energy's national lab system, the Pacific 
Northwest National Lab's Marine Sciences Lab in Sequim, 
Washington. The Sequim lab is a unique asset. It is a valuable 
asset both for the DOE and for the local communities that 
benefit from the economic and educational opportunities that it 
provides.
    I actually want to start with just a thanks. Assistant 
Secretary Simmons and Director Fall visited the Marine Sciences 
Lab last year to learn about the work being done there to 
better understand coastal ecosystems and support the Powering 
the Blue Economy Initiative which is focused on developing new 
marine renewal energy technologies from Algae-based biofuels to 
marine hydrokinetic devices that can literally convert ocean 
waves into energy. The research and technologies being 
developed at the Marine Sciences Lab will play a critical role 
in our effort to decarbonize our Nation's energy system.
    I want to thank the chair and the ranking member and the 
folks on this committee for recognizing the significance of 
this work which began as a pilot program in fiscal year 2019. 
The committee provided $30 million for fiscal year 2020 to 
continue growing this program. Those funds are specifically 
intended to build upon the current model and focused efforts 
led by PNNL's Marine Sciences Lab. So, I want to make sure that 
DOE has a plan to use those funds for their intended purpose, 
and I was hoping you could tell the committee how you plan to 
execute on that funding.
    Secretary Brouillette. We do have a plan. And let me start 
by thanking you for your support of that lab, as well and the 
important support that you have provided to us over the years, 
not only for this particular activity within the lab, but also 
for PNNL generally.
    As you know, it is an important component for us. It is our 
big data center. It is important to quantum computing 
capabilities that we have coming online. I thank you for your 
support of that lab.
    With regard to the marine lab, we are looking at battery 
technologies that will involve the use of algae and other types 
of research, other types of materials I should say. And the 
research that is being done on that is being done in places 
like the Marine Sciences Lab. So, it is a very important 
component of the DOE complex, and I will give you my personal 
assurance that we will continue to support that lab at the 
highest levels.
    Mr. Kilmer. Thank you. As the Secretary of the Department 
of Energy, you have a critical role to play in assuring that 
the U.S. remains a global leader in developing the next 
generation of renewable energies that our Nation and that other 
countries are going to depend on if we are going to reach that 
scientifically mandated goal of net zero, economywide net zero 
greenhouse gas emissions by 2050. And I want to see our Nation 
become the top manufacturer and exporter of these technologies 
so that American workers and American communities can benefit 
from this extraordinary economic opportunity. Recognizing that 
PNNL and the Nation's 16 other national labs are already 
playing a key role in the development of advanced renewables, 
how do you plan to continue that critical work and support 
America's competitiveness with just 25 percent of your current 
funding for energy efficiency and renewable energy programs, as 
were requested in this budget?
    Secretary Brouillette. While I understand the optics, if 
you will, of reducing a budget, it is very important that we 
look at the results. What we are focused on is the actual 
results. What is it that we are producing with this money? For 
us at the Department of Energy that looks to be along the lines 
of battery storage. We see that as the next progression, if you 
will, of the research that we need to study, and that is why at 
PNNL we announced a grid launch pad. So, what we are going to 
do there is a grid storage launch pad; and what we are going to 
do there is develop a facility that is going to allow us to do 
testing to achieve grid-scale battery storage because that is 
what is needed to get the renewables online in a much more 
aggressive and much faster way. Right now, they are an 
important component of our energy portfolio.
    Candidly, we need to do more work with AI, to get that 
integrated into our grid much more effectively because of the 
intermittency of the power itself. If we can solve the storage 
question, if we can provide grid-scale storage, battery 
storage, then you will see these technologies come online much, 
much quicker.
    The other thing we are doing is at a different lab, so 
forgive me for this, but at NREL we are studying the efficiency 
of these renewable technologies. For instance, windmills, we 
think they are very simple. They are three blades on a turbine 
and they turn when the wind blows. It is much more complicated 
than that. So, we are looking to improve the efficiency of the 
wind turbines themselves so that we can get these things much 
more stable in the grid.
    Mr. Kilmer. Thank you, Madam Chair. I yield back.
    Ms. Kaptur. Thank you very much. Congressman Fleischmann.
    Mr. Fleischmann. Thank you, Madam Chairman. Mr. Secretary, 
thank you for being here today, and congratulations.
    Secretary Brouillette. Thank you, sir.
    Mr. Fleischmann. It was a privilege working with you when 
you were Deputy Secretary, and I look forward to working with 
you in this new capacity, and Assistant Secretary Burnison, who 
has done an exceptional job with congressional relations. We 
really appreciate this as we work together to do great things 
for our Nation.
    As you know, I have the great privilege of representing the 
people of Oak Ridge, the birthplace of the Manhattan Project, 
Oak Ridge National Lab, Y-12, the uranium processing facility, 
which is just doing so well. It was redesigned and has come out 
of the ground and is just really a tremendous, tremendous 
facility, and testament to the work done by the contractor 
there. And then EM, near and dear to my heart, as I am the 
national co-chair of the EM caucus. Oak Ridge has a lot of work 
to do, so, it has been a pleasure working with you in all those 
endeavors.
    Secretary Brouillette. Thank you, sir. You are very kind to 
say that.
    Mr. Fleischmann. Mr. Secretary, I want to start with the 
SNS Second Target Station. I am very excited about the plans 
for the construction of the second target station at the 
Spallation Neutron Source; was happy to support the $37 million 
to complete the conceptual design in fiscal year 2020's budget. 
It is going to enable wholly new capabilities to examine the 
structure and dynamics of materials from polymers to proteins 
to catalysts. There is already an extensive report outlining 
the first experiments that will take advantage of the second 
target station. It is also going to double the capacity of SNS, 
which is currently oversubscribed by a factor of three. The 
project is critical to maintaining U.S. leadership in neutron 
sciences, and I am thankful that the committee provided and 
that Congress approved the $37 million to complete the 
conceptual design in fiscal year 2020, and readied the project 
for CD-1 review and start construction.
    Mr. Secretary, sir, when do you anticipate making the 
decision about CD-1 so construction can move forward, sir?
    Secretary Brouillette. We anticipate making that decision 
toward the end of this calendar year or, perhaps, the first 
quarter of next year.
    Mr. Fleischmann. Thank you. I am going to turn to high-
performance computing. I know Exascale computing is a high 
priority for the Department, as it is for me and this 
committee. And this committee has very heavily favored this 
with its funding. And this will help not only DOE science, but 
energy, but also national security missions, but also will help 
the Nation's economic and technical competitiveness. Are still 
things on track to deploy Exascale systems in 2021 as planned, 
sir?
    Secretary Brouillette. Yes.
    Mr. Fleischmann. Would that be with Frontier, sir?
    Secretary Brouillette. Yes, it would be.
    Mr. Fleischmann. OK, thank you. On nuclear cleanup, 
environmental cleanup has been an area where the Department of 
Energy has had great success recently, including at our site in 
Oak Ridge. The Office of Environmental Management oversees 
projects that are being completed ahead of schedule while 
reducing environmental risks, thus delivering a sound return on 
investment for the American taxpayer.
    In Oak Ridge we are nearing completion on the first major 
cleanup in nearly a decade and starting a next phase of cleanup 
on the Oak Ridge Reservation. This next phase will pave the way 
for growth of the critical science and natural security 
missions. With this track record of sustained success and 
accelerated risk reduction, sir, can we count on the Department 
to continue to prioritize environmental cleanup funding at Oak 
Ridge?
    Secretary Brouillette. Yes. There is no question about 
that, sir. The EM program overall is making significant 
progress all throughout the complex. So, I will give you just a 
few quick examples. You know, in Hanford--I am sorry, at the 
INL, sir. I was thinking about Mr. Newhouse over here.
    Mr. Newhouse. Do not get those two confused.
    Secretary Brouillette. I will not get those two confused.
    Mr. Fleischmann. We love them both, but just not as much as 
Oak Ridge.
    Secretary Brouillette. Yes, but we have two tank waste. 
That is what I was thinking about the tank waste, and I am 
always drawn to Hanford when I mention tank waste, but at INL 
the IWTU, we are on track, on target for that. And the Savannah 
River, obviously, the Salt Waste Processing Facility, we are 
going to start up those two major facilities this year.
    And, sir, with regard to Oak Ridge the ETTP, we have 
already--we are going to clean that up this year. We are going 
to finish that project. We have already received interest from 
outside parties who are interested in utilizing that particular 
facility. So, we are excited about that. We are going to 
continue that progress as we move forward.
    Mr. Fleischmann. Thank you, sir. Two quick questions. H-A-
L-E-U, please tell us why it is important for America to have a 
fully domestic H-A-L-E-U enrichment capacity?
    Secretary Brouillette. It is important for the reasons that 
we talked about earlier with Mr. Simpson. The development of 
these small microreactors requires a higher enrichment. It 
requires a higher enriched uranium in order for it to be more 
efficient. As you make the reactor smaller, the fuel has to be 
enriched to a higher level. We announced a program last year. 
We are committed to that program. What we are looking to do is 
to catalyze the market. We are hopeful that private industry 
will see this as a market signal by the U.S. Government that we 
are looking to regain our leadership in the nuclear industry. 
So, that is the purpose of it, that is why HALEU is important. 
And as we move forward, we will exit the business once we see 
the market signal take off.
    Mr. Fleischmann. Madam Chair, I am beyond my time, but I 
have one quick question, if I may, on rare earth metals, for a 
quick response.
    Ms. Kaptur. Please.
    Mr. Fleischmann. Thank you, Madam Chair. The President, as 
Mr. Simpson talked about a uranium reserve for our country, and 
we appreciate that so much. We understand that there are 
certain rare earths out there. Will the Department be willing 
to look at other rare earth metals and minerals in that regard 
to what would be necessary to protect our interests?
    Secretary Brouillette. Yes, we are. Those metals are very 
important for us as we look at this next generation of battery 
storage. We must have it. We must end our dependency on 
countries like China who are, literally, adversaries to the 
United States.
    Mr. Fleischmann. Thank you, sir. I yield back. Thank you, 
Mr. Secretary.
    Ms. Kaptur. Thank you. Congressman Newhouse.
    Mr. Newhouse. Thank you, Madam Chair. Secretary 
Brouillette, thank you for being here with us. Let me add my 
voice of congratulations to your confirmation as Secretary.
    Secretary Brouillette. Thank you, sir.
    Mr. Newhouse. I might say that I am guessing you are an 
inspiration to many of the staffers on this committee to reach 
the highest position, maybe some of the Members, too.
    Secretary Brouillette. You trained me well, though.
    Mr. Newhouse. But, anyway, congratulations to you.
    Certainly, the Department of Energy, as you know, has a 
huge footprint in my district in eastern Washington. Looking 
forward, very much, to partnering and working with you. So, let 
me just say about the proposed budget that is before us and 
characterize it in two ways. We have good news, but we also 
have some bad news, and I will talk about the good news first.
    You talked about this a little bit already, but as you 
mentioned, the Pacific Northwest National Laboratory in my 
district, certainly one of the crown jewels of the lab system 
for the Department of Energy, we are very proud of it, all of 
its research and development efforts. One of the lab's areas of 
unique expertise is in the grid-scale energy storage, which you 
already mentioned. That is going to be critical to the electric 
grid of the future, and so critical to the country's future. I 
think all of us would agree that a reliable and an affordable 
energy storage is critical to maintaining a resilient grid as 
we modernize and bring more renewal sources online, and you 
addressed that.
    One critical element of that work is the Grid Storage 
launchpad facility at the lab. And I am certainly delighted to 
see such strong support from the administration for that effort 
in the budget, so, a couple things on that. I would like you to 
walk us through the administration's thinking on this important 
effort, why it is such an important priority for the Department 
and our energy storage goals. Also, how will the grid storage 
launch pad benefit the greater R&D moonshot goals on energy 
storage? And also, could you talk about the strategy that you 
are deploying through the office of electricity funding in this 
budget, not only for the construction of the facility, but also 
to ensure that the Department is ready and armed with the 
requisite equipment and personnel that is going to be needed 
into the future to be successful?
    Secretary Brouillette. Great. Thank you for that, sir. This 
is an absolutely critical facility for us. As I mentioned 
earlier in the testimony, the adoption of renewable 
technologies has grown at an enormous clip. I was just handed 
this morning a report from EIA that says that wind energy for 
the first time is going to exceed hydroelectric energy in the 
United States. That is a very important development and we want 
to see that continue. As the President has mentioned in the 
past, as former Secretary Perry and I have talked about for 
some time now, we do believe that energy diversity, diversity 
of supply, diversity of suppliers is important to our energy 
security as well as our national security. So, all of these 
renewable technologies need to come online.
    In the past what has allowed them to come online is the 
provision of baseload power. We need to move beyond that. We 
need to get to what I mentioned earlier is grid-scale battery 
storage, and that allows people to move even further, perhaps 
even to one day where we achieve a goal of 100 percent 
renewables. Who knows? It is not available today; we cannot do 
it today. We have to have this type of facility in order for us 
to do the research that is necessary to achieve the battery 
technologies that we all want to achieve. So, we are going to 
be fully committed to this. In the budget, you will see we have 
established a grand challenge around this. We have asked for 
money, $158 million or so, that is going to go into this 
initiative. And should you provide it, we will focus 
specifically on these technologies.
    With regard to the other work that PNNL is doing, I will 
just mention quickly, they are not only key to battery storage. 
As I mentioned earlier, all of our supercomputing efforts, all 
of our big data efforts are centered at PNNL. Their expertise 
in this area is absolutely essential. Their expertise in 
artificial intelligence is absolutely essential if we are to 
achieve any of our renewable goals anywhere in the country.
    Mr. Newhouse. Excellent. I look forward to continue working 
with you and look forward to a second round of questions.
    Secretary Brouillette. Yes, sir. Thank you.
    Mr. Newhouse. Thank you.
    Ms. Kaptur. Thank you. Congresswoman Frankel.
    Ms. Frankel. Thank you. Thank you for being here, Mr. 
Secretary.
    Secretary Brouillette. Thank you, ma'am.
    Ms. Frankel. Let us see. I want to talk about nuclear 
weapons and the New START Treaty. The New START Treaty is the 
final linchpin in the United States-Russian nuclear arms 
control. If it is not extended, I think it was signed in almost 
10 years ago, February 2011. And if it is not extended, the 
Russian and United States nuclear arsenals will be 
unconstrained. It is due to expire February 2021. So I have 
some questions relative to that. Let me just have a drink of 
water first.
    Secretary Brouillette. Sure. I may do the same if you don't 
mind.
    Ms. Frankel. You, too. It is our Marco Rubio moment.
    Secretary Brouillette. Perfect. Perfect, perfect. That is 
so good.
    Ms. Frankel. I can say that, I am from Florida.
    Secretary Brouillette. That is so good.
    Ms. Frankel. OK. Do you, Mr. Secretary, do you know what 
the current status of the administration's review of the New 
START Treaty?
    Secretary Brouillette. Yes, ma'am. We have not yet begun 
the conversations on New START, but I fully expect that they 
will start soon. As a member of the National Security Council, 
we are going to be a part of that conversation and it is my 
expectation that we will be asked to provide technical advice 
all along the process. But those conversations have not yet 
started.
    Ms. Frankel. Do you have an opinion whether the treaty 
should be extended or not?
    Secretary Brouillette. I don't have a personal opinion, 
ma'am. I will reserve judgment on that, but I am happy to 
follow up with you.
    Ms. Frankel. Have you evaluated what would be the potential 
impacts to our nuclear stockpiles should the New START Treaty 
not be extended?
    Secretary Brouillette. I am sorry, ma'am, say that again.
    Ms. Frankel. Yes, I will say it again. What do you believe 
are the potential impacts to the nuclear stockpiles should the 
New START Treaty not be extended?
    Secretary Brouillette. I think it would depend on what 
agreements were struck as part of those conversations and who 
might be a part of them.
    There has been some conversation about extending the treaty 
to third parties, perhaps China, others. I think it would 
depend somewhat on the outcome of those conversations.
    Ms. Frankel. I think China has a much reduced amount of 
nuclear weaponry than either Russia or the United States?
    Secretary Brouillette. That would be fair to say.
    Ms. Frankel. OK. I just hope that is not an excuse to get 
out of it.
    Secretary Brouillette. No. I am not presenting it as an 
excuse. I would reserve judgment on the actual impacts to our 
stockpile such that we just need to find out who might be a 
party to the conversation and a party to the treaty.
    Ms. Frankel. Thank you. I yield back, Madam.
    Ms. Kaptur. Congresswoman Kirkpatrick.
    Mrs. Kirkpatrick. Thank you very much. Arizona has a 
significant Native American population and Tribal energy needs 
are especially important to me. And so I really have three 
questions around the Indian Energy Policy and Programs Office.
    It was cut by 64 percent and eliminates the Tribal Energy 
Loan Guarantee Program. How would cutting and eliminating these 
programs affect Tribes that are pursuing energy security and 
resilience, particularly those pursuing clean energy?
    How is DOE working with the Tribes to help them develop 
their own energy resources and develop clean energy? And what 
steps is DOE taking to better communicate and work more 
effectively with Tribes to make sure they are informed about 
the availability of these Federal energy programs and how to 
access them?
    Secretary Brouillette. Thank you for the question, ma'am. I 
think that last point that you just made is perhaps the most 
important point that--or the most important focal point that we 
could have at the Department of Energy.
    We tend to call it capacity building within the Department. 
I can't tell you on any given day exactly what that means. What 
I do know is what I saw when I traveled out and met with the 
Tribes. And what I saw were people who were completely unaware 
of the programs that we have at DOE.
    The reason for the reduction in the amounts or the accounts 
that you see there is that there are carryover balances that we 
need to expend. We need to work with the Tribes to, one, help 
educate them as to the availability of the money, but what I 
noticed as well is that they need assistance in basic things, 
like filling out the forms and understanding the process by 
which the government makes the decisions. And I want to work 
more closely with the Tribes to do exactly that. While it 
sounds basic, it is critically important that we do that. I 
don't know exactly what each Tribe needs. What I saw was some 
pretty advanced things.
    I was up in Alaska not that long ago with Senator 
Murkowski. She invited me up and we flew out to some very 
remote locations. And I was, on the one hand, dismayed to see 
that they didn't realize that we had assistance available to 
them. I must say that, on the other hand, I was stunned by some 
of the conversations I had. They were speaking about things 
like hydrogen energy. I mean, we were in parts of Alaska where 
literally Amazon has never been heard of much less delivered. 
They just don't go.
    But yet, here was a small Tribe talking about how do we get 
to hydrogen, how do we get to this advanced type of energy? And 
I want us to be there to help them do that. I think it is very 
important that we do.
    Mrs. Kirkpatrick. There is a special interest in the 
Arizona Tribes in alternative energy, using wind and solar and 
that is a real opportunity. A lot of these communities don't 
have access to the grid and so if they can produce energy 
internally, in their communities, that is more easily 
distributed. Do you have any sense of how you are involved in 
any of that local development of those alternative energy 
sources?
    Secretary Brouillette. Sure. Not only on the development of 
the production of the energy itself through wind and solar 
technologies, which obviously in Arizona you are blessed with, 
you have plenty of. What we are looking to do is to advance the 
research and development on microgrids. How do microgrids work? 
How do they remain stable? How do you maintain the frequency 
and the requirements that you need to keep the grid stable in 
such a small environment with an intermittent production of 
energy?
    Those are the advances that we need to make very quickly so 
that these Indian reservations, as well as other parts of the 
country that are just in remote locations, have access to. So 
that is our commitment. That is what we want to work on. That 
is our request to you for funding is focused on those types of 
activities.
    Mrs. Kirkpatrick. And what is the actual footprint of the 
microgrids?
    Secretary Brouillette. It depends on what you want to do. I 
mean, you could have as many as 1,000 homes or 2,000 homes or 
you could have it as small as 3 or 4. You could scale it up and 
down.
    Mrs. Kirkpatrick. So that is one of the advantages is that 
you have flexibility to address the needs of the community.
    Secretary Brouillette. You do. You can scale it up or down, 
but the key for us is understanding how to maintain the 
stability of the grid itself.
    You have to have so much energy on the grid for it to 
function all throughout the grid. And it is more challenging 
than it may appear on first blush, but that is our focus.
    Mrs. Kirkpatrick. Thank you for answering my questions. 
Thank you, Madam Chair, I yield back.
    Ms. Kaptur. Thank you. Congressman Pocan.
    Mr. Pocan. Thank you, Madam Chairman, and thank you, Mr. 
Secretary, for being here.
    Secretary Brouillette. Thank you, sir.
    Mr. Pocan. And I just want to say you are the second 
cabinet secretary today for a couple of us. I couldn't get 
answers to yes and no questions earlier, but your clarity, 
knowledge, and expertise when giving answers is leaps and 
bounds above what we had this morning. Thank you so very much. 
Really, you have brought me some reassurance back. A couple 
things. Let me say just to start I want to thank you, for one, 
the support for Moly-99. We really appreciate that.
    As you know there are a couple companies that have been 
working on that within my district. You put the grants out; 
this has been tremendously helpful.
    Secretary Brouillette. You are kind to say that, thank you.
    Mr. Pocan. And we know that also there are some cooperative 
agreements that were previously put out and funded in fiscal 
year 2020 that are currently being awarded. We look forward to 
seeing that outcome as well. But I just want to say thank you 
on that front.
    Secretary Brouillette. You are kind to say that and I want 
to give you my personal assurance that we are going to continue 
to move that along.
    You may be aware that I just recently made a decision. 
Under the law I was allowed to extend the band, if you will, 
for HEU for a short amount of time. I was allowed to do that 
for up to 6 years. I chose to move it much shorter than that, 2 
years, because I want to see the companies in your district and 
other parts around the world come up and produce this important 
isotype with LEU.
    I think that is a critical step forward for us for our 
nonpro, but as well as just servicing the market itself. So 
thank you for your support of that program and I look forward 
to working with you.
    Mr. Pocan. No, appreciate it. Thank you. Also, University 
of Wisconsin Madison is in my district. A lot of money comes in 
through the Department of Energy----
    Secretary Brouillette. Outstanding university.
    Mr. Pocan. Thank you very much. Go Badgers. And our chair 
went to the University of Wisconsin Madison as well, so we like 
to give them extra credit----
    Secretary Brouillette. LSU is still the national champion 
so. We will put it right there. Just for the record.
    Ms. Kaptur. Just to interject, when I was there, they 
didn't win a game. If anything, it has improved so much.
    Mr. Pocan. Yes. A very quick aside. She came to an alumni 
program here in town and sang a song that everyone was shocked 
that she knew the words to and people who were current staff 
there didn't and so she is a true Badger and we appreciate it.
    So, but a lot of money comes in. We appreciate that. I 
think it is $87.6 million in federally funded energy research 
in the 2018, 2019 academic year.
    One concern, though, that the budget does have a $1.2 
billion cut to the Office of Science. A lot of that funding not 
only comes to my university, but 300 academic institutions and 
others around the country. Can you address that issue for me?
    Secretary Brouillette. It is a legitimate question and 
concern. I appreciate it. I want to assure you that many of our 
cross-cutting activities throughout the Department, however, 
involve universities like the University of Wisconsin.
    I was just with Paul Dabbar, who is our undersecretary of 
science, and we were talking about some of the projects that I 
know that they will be engaged in, things like quantum 
computing. Paul has been instrumental in creating a quantum 
entangled internet, a loop that now goes between Argonne, 
Fermi, and the University of Chicago. The University of 
Wisconsin has indicated interest in joining that and we would 
like them to be a part of that. So we will work closely with 
them.
    But while the absolute numbers look like they have been 
reduced, the cross-cutting efforts throughout the Department 
ensure that those types of important programs are going to move 
forward.
    Mr. Pocan. I just wanted to express that because that is 
obviously still a concern.
    A separate issue, but I think a big concern for someone 
like me, is the huge increase, usually you don't get complaints 
about increases in spending, but, unfortunately, the huge 
increase for Weapons Activities is $2.8 billion above what we 
were told last year was planned for this year's request. It is 
a 48 percent increase above what the agency planned to request 
during the Obama administration. I don't know if this is the 
time, at a time of peace, that nuclear weapons proliferation is 
necessarily the best idea. This is a giant increase in dollars. 
Can you give me some clarity on that?
    Secretary Brouillette. Sure. It is not our intention 
obviously to start an arms race with anyone in the world. That 
is not the intent.
    But within the NNSA, within the weapons complex itself, 
many of the infrastructure projects have been delayed for years 
and we are dealing with infrastructure that now dates back to 
the 1940s. The Manhattan Project was started at Oak Ridge, as 
Mr. Fleischman mentioned earlier. Many of those same buildings 
are still in use.
    So what we have decided to do is to ask Congress for an 
additional amount of money and front load some of these 
infrastructure investment so that we can repair these 
facilities and keep the country safe, keep the country in a 
posture that provides us with a nuclear deterrent.
    But it is not our intention at all to begin an arms race 
with anyone.
    Mr. Pocan. And I think because I have 20 seconds left I 
will submit something for the record. Also just a concern that 
we are developing a new nuclear warhead technology at a time, 
again, I am not happy that we have had a 20 percent increase in 
the last 3 years in defense spending period in this county, but 
now especially around nuclear weapons it is a huge concern, but 
I will submit that for the record.
    Secretary Brouillette. Yes, sir.
    Mr. Pocan. And thank you very much for your comments.
    Secretary Brouillette. Thank you. I would be happy to take 
that for the record.
    Mr. Pocan. I yield back. Sure, thank you. I yield back, 
Madam Chair.
    Ms. Kaptur. Thank you. Congresswoman Wassermann Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair. Mr. 
Secretary, welcome. Since the SEC was invoked I will give you a 
hearty go Gators.
    Secretary Brouillette. I respect that.
    Ms. Wasserman Schultz. I will avoid chomping in the middle 
of the hearing.
    Secretary Brouillette. I respect that.
    Ms. Wasserman Schultz. But also go SEC. Mr. Secretary, I 
want to follow up on what my colleague, Mr. Pocan, asked you 
about because I am very concerned over the recently publicized 
battle which you appear to have not mentioned or downplayed in 
your response to Mr. Pocan.
    But there was quite a bit of publicity around the battle 
within the administration over NNSA's budget request. So 
clearly we have to have a credible, reliable nuclear deterrent. 
We have to do that cost effectively and responsibly and I can 
appreciate your answer to Mr. Pocan. But this request does not 
reflect that.
    The $19.8 billion in total that you are requesting for NNSA 
is a whopping $3.1 billion above the enacted and billions more 
than you projected to need just last year.
    So I am confused and I clearly speak for a few of us at 
least on the subcommittee when I say that it is difficult to 
see why we should have any confidence in this request because 
according to media reports, you supported the lower funding 
level for NNSA.
    So why were you comfortable with this lower amount and 
would the Department still have met its requirements at that 
amount had that been what was put forward?
    Secretary Brouillette. Well, I think it is important to 
take a step back and realize I saw the public numbers as well. 
I did not in any respect cut the NNSA.
    So while the number that we had talked about internally was 
smaller perhaps than what was ultimately presented to the 
Congress, that still represented a significant increase over 
the authorization from the year prior, the NDAA in the year 
prior, as well as the appropriation that was given to NNSA. One 
of the functions of the chief operating officer, if you will, 
the Deputy Secretary, which is where I spent most of my time in 
the Department, is to look for efficiencies and to look not 
only at the top line of these budgets, but the bottom line as 
well.
    We had this very respectful and very appropriate back and 
forth within the Department itself.
    Ultimately, however, the President gets to decide what he 
will submit to Congress and the President made a determination 
that he wanted to with the higher number because it allowed us 
to pull forward, as I had mentioned earlier, some of these 
infrastructure projects.
    And in order to do that, we needed more money. I think it 
is an appropriate process that we have within the Executive 
Branch with OMB and we came to the conclusion--
    Ms. Wasserman Schultz. Let me just make sure I have time to 
ask my follow-up questions.
    Secretary Brouillette. OK, sure.
    Ms. Wasserman Schultz. I appreciate your response.
    Secretary Brouillette. Sure, sure.
    Ms. Wasserman Schultz. The drama that was depicted with the 
President's ultimate decision clearly seems to have gone 
outside the normal process for how the numbers would be arrived 
at that would actually be requested.
    Why were the projections about what would be needed in 
future years so wrong or were they not wrong and is it just 
that the President interfered with and overrode the normal 
process that occurs in the budget request process? And how can 
we have confidence that this request and its projections are 
accurate and not just randomly selected by the President of the 
United States?
    Secretary Brouillette. No, the numbers were not wrong. It 
is just a matter of establishing the priorities. And as I said 
earlier, the process was usual and customary. I mean, it is not 
uncommon to have debate as I am sure you have in this committee 
from time to time amongst yourselves as to what the appropriate 
levels of funding are.
    But the President does get to decide at the end of the day 
what he will request of Congress and he came to the conclusion 
that he wanted to move forward with these projects, so we 
adopted the bigger number and send that to Congress.
    Ms. Wasserman Schultz. Before my time expires, I just want 
to clarify. So the way the number was arrived at that was in 
your request, went through the completely normal process and 
there was nothing unusual compared to any other fiscal year 
about the way the number that you have asked for in the budget 
request was arrived at?
    Secretary Brouillette. I can't really speak to prior years, 
but the conversation with OMB, the process that we used 
internally at looking at line item by line item at these 
projects, that all appeared to me to be normal. And as I said, 
the President at the end of the day gets to make the ultimate 
decision.
    Ms. Wasserman Schultz. OK. And lastly, I want to touch on 
something else related to NNSA. What recommendations would you 
provide to Congress for where NNSA should be housed within the 
Federal Government?
    Should it remain at DOE, should it be made completely 
autonomous, or, and I don't support this last option, should it 
be housed within DOD?
    Secretary Brouillette. That is an important question that 
has been around. I was either blessed or cursed to be around as 
a young staffer on the Energy and Commerce Committee when some 
of these decisions were thought of back 20 years ago.
    It is my personal view that I think it is appropriately 
housed in the manner in which it is housed at DOE. Civilian 
control of the nuclear weapons complex in my personal view is 
very, very important. So I would not support a move to DOD.
    With regard to its independent status, I do not think that 
is the appropriate answer as well. I think it is very important 
that these agencies have cabinet level accountability as well 
as oversight, so I think it is appropriately housed within the 
Department of Energy today.
    Ms. Wasserman Schultz. Thank you, Madam Chair, I yield 
back.
    Ms. Kaptur. Thank you, Congresswoman, very much. Mr. 
Secretary, your request includes $27\1/2\ million to fund 
interim storage for nuclear waste and oversight of the Nuclear 
Waste Fund itself. When announcing that the request would not 
include funding for Yucca Mountain, the President tweeted and I 
quote, ``My administration is committed to exploring innovative 
approaches.''
    What specific actions is the Department proposing in this 
request to support innovative approaches to storing nuclear 
waste? And how are these proposed activities different than 
activities that have been carried out with funds previously 
provided by Congress over the last several years? And will the 
Department move forward with siting or licensing activities for 
an interim storage facility?
    Secretary Brouillette. With regard to the last question, 
the answer is no. We are not going to proceed with licensing of 
Yucca Mountain, and we won't proceed with licensing of an 
interim Federal facility.
    Ms. Kaptur. You will not?
    Secretary Brouillette. No, we can't. My understanding under 
the Nuclear Waste Policy Act we are prohibited from starting 
construction on an interim facility, a Federal facility. So, we 
will not pursue that.
    What we are intending to do with the $27 million is to, 
one, maintain our fiduciary responsibility for the Yucca 
Mountain site in the State of Nevada. We do need to protect the 
site. We do need to meet the environmental requirements that 
are established both at the state and Federal level.
    My simple point is that we can't walk away from it. We 
can't simply walk away from it because we have a fiduciary 
obligation to maintain it. It is Federal property. So, some of 
that money will be used as we refer to as guns, gates, and 
guards to maintain oversight of the facility.
    The rest of the money we would propose to begin development 
of options and look at alternatives for interim storage. So, it 
is the initial planning of a potential Federal site at some 
point in the future. But that preliminary work would be what we 
intend to use the $27\1/2\ million for.
    Ms. Kaptur. So, you are saying that you can't even begin to 
identify sites, or you are unwilling to begin to identify sites 
and licensing? That you are prohibited in doing so?
    Secretary Brouillette. My understanding of the Nuclear 
Waste Policy Act is that we cannot take title to spent nuclear 
fuel without the Yucca Mountain Project moving forward. 
Progress must be made on Yucca Mountain in order for us to move 
forward and put a shovel in the ground and begin the 
development of an interim facility.
    The law does not prohibit us, is my understanding, to 
develop options to look forward, perhaps, to that day. And that 
is what we intend to do withthe $27\1/2\ million.
    Ms. Kaptur. So, give us a little more detail on that as you 
proceed forward on this. I think there is some measured support 
on the subcommittee for interim solutions, so--and in the 
Senate as well. So, what might we expect?
    Secretary Brouillette. Well, it is a bit premature, a bit 
early. My intention would be to work with you. It would be to 
work with other policymakers, perhaps at the state level or 
Federal level, certainly, with our national laboratories, and 
collectively come up with some of the answers that I think you 
are seeking.
    But at this point in time, we have not even begun the 
process. We will wait for approval from Congress to begin that.
    Ms. Kaptur. All right. Mr. Secretary, I have long said we 
must have a credible, reliable nuclear deterrent, but we must 
do so cost-effectively and responsibly. This budget request, in 
my opinion, does neither. And I am concerned that this is 
simply sprinting toward a cliff or toward failure.
    What I mean is that the nuclear weapons complex is at 
capacity from both a workforce and a manufacturing perspective. 
We have heard this from so many sources, from our past NNSA 
administrators, for one. And we even heard, recently, from 
Admiral Richard of STRATCOM that NNSA can only absorb so much 
work at one time. Yet, this budget request includes a $3.1 
billion increase, continuing to put more pressure on a system 
that already is laboring hard.
    This is both a question of funding and capacity at NNSA as 
it continues to modernize. So, if everything is a priority, 
maybe nothing is a priority. And will you commit to working 
with us to prioritize this budget request, including options to 
rebalance NNSA's unrealistic and risky workload, to do 
something that is more manageable while meeting defense needs?
    Secretary Brouillette. Madam Chair, I will always work with 
the committee to do exactly that. We have put forward a request 
that we think meets the needs of NNSA. You are absolutely 
correct, the agency is being asked to do a lot. Part of what we 
would like to do, as I mentioned earlier, the expansion of 
infrastructure is key. That is part of our capacity problem.
    The other part of our capacity problem is what you and I 
discussed prior to the hearing beginning. It is the development 
of talent. It is the recruitment of talent. It is bringing in 
the right scientists. It is bringing in people from the right 
STEM fields. It is getting them into our processes really 
early, really fast. That is all part of our request, of that 
$19.8 billion.
    Ms. Kaptur. Has the Department done any analysis looking at 
the current workload and options to give NNSA more breathing 
room?
    Secretary Brouillette. I think that is an ongoing process. 
It is something that we do literally every day. That is why we 
rely on many of our contractors and they tend to be very 
flexible. They tend to be very adaptable to the mission, as 
well as our needs. But it is an ongoing process within, not 
only the NNSA, but the Department of Energy writ large.
    Ms. Kaptur. Can you share that ongoing process with us and 
any analysis you might be doing internally?
    Secretary Brouillette. Sure, I would be happy to do that 
with you. I would be happy to do that. I am happy to make 
myself available to you or your staff and come back and give 
you a very detailed briefing on it.
    Ms. Kaptur. Thank you very much.
    Mr. Simpson.
    Mr. Simpson. First, just a comment. It would seem to me--
you don't have to respond to this, but it would seem to me that 
it would be wiser to seek the legislative changes that would be 
necessary to move ahead with interim storage if that is the 
road we move down. And we all believe that interim storage is 
going to be necessary no matter what we do. But to seek those 
legislative changes before we do it then, rather to go out and 
examine and find out what we can do and then seek legislative 
changes and find out maybe Congress doesn't want to do it. So, 
I am just looking at from that perspective. But that is not a 
question.
    Secretary Brouillette. It shouldn't be any problem.
    Mr. Simpson. Let me ask you a couple of other short 
questions. One is, what is the status of WIPP? Could you 
provide us with an update on the status and when do you 
anticipate WIPP being back up and running at capacity, and how 
does this affect the 2021 budget request? How does that affect 
this timeline?
    Secretary Brouillette. I think what we are hoping to do is 
get WIPP fully up and running within the next 12 to 14 to 15 
months.
    There is a ventilation project that you are aware of. That 
is coming along nicely. We hope to complete that work this 
year, perhaps later this year. Importantly, though, the WIPP 
facility itself is functioning very, very well.
    I appreciate your support, sir, the agreement that we 
struck with your state, your governor, your attorney general. 
Their shipments will continue. They will continue on time. And 
as soon as we can get the IWTU working properly, we will move 
that waste out of there as soon as we can.
    But to answer your question very succinctly, WIPP is 
operating very, very fine right at the moment. We hope to 
expand its capacity and upgrade its facilities within the next 
12 to 14 months.
    Mr. Simpson. I want to thank you, personally, and your 
Department for working with Governor Little and Attorney 
General Wasden to update the Idaho settlement agreement. It was 
very important to Idaho, and I think it was very important to 
the Federal Government, also.
    While the administration, Congress, and the states work 
toward a solution to storage and disposal of used fuel, it 
seems to me that the Department of Energy should be doing what 
it can now to get the used fuel in Idaho road ready by 
characterizing it and packaging it like the Navy does.
    Is DOE considering including that type of scope in the next 
Idaho cleanup contract, which is coming up? And if not, would 
you be willing to take a look at how that scope might be 
incorporated and get back to me? Are there other steps that we 
can take to get EM and NE working together to get used fuel in 
Idaho road ready?
    Secretary Brouillette. I would certainly be open to that 
conversation. And I would be happy to follow-up with you.
    Mr. Simpson. OK.
    Secretary Brouillette. And it is something I think we need 
to think through.
    Mr. Simpson. I appreciate it.
    And, finally, I just want to ask you, in fiscal year 2018, 
the fiscal year 2018 Act, we included direction to both the 
Department of Energy and the comptroller general to review 
certain aspects of the Department's Payment in Lieu of Taxes or 
PILT programs. GAO released its report this past October. DOE's 
response in that report stated that, ``A working group would be 
convened to identify high-level options for the program and to 
recommend any necessary and appropriate changes to DOE 
leadership for review and approval by March 31, 2020.'' What is 
the status of the DOE review on that? And is the working group 
activities identified with the GAO report?
    Secretary Brouillette. Still working on it.
    Mr. Simpson. Still working on it?
    Secretary Brouillette. Still working on it, and I 
understand your concerns very, very clearly. And I will come 
back up and personally brief you.
    Mr. Simpson. I appreciate it. It has been a pet peeve of 
mine. And it is not--
    Secretary Brouillette. I recognize that.
    Mr. Simpson. The different sites out there, kind of--some 
of them get great PILT payments, others don't even get any PILT 
payments. I am not trying to take anybody's PILT payment or 
anything else. I am just trying to make a standard across the 
Department. Thank you.
    Secretary Brouillette. I agree with you. I think it is 
important that we understand what the impacts of a uniform 
approach would be. But as soon as we are done with that working 
group, and as soon as I get a little bit more clarity on their 
findings, I will come up and personally brief you on it.
    Mr. Simpson. I appreciate it. Thank you very much. Thanks 
for being here today.
    Secretary Brouillette. Yes, sir, thank you for having me.
    Ms. Kaptur. Congressman Fleischmann.
    Mr. Fleischmann. Thank you, again, Madam Chair.
    And this has been a great hearing, Mr. Secretary. I really 
appreciate this.
    Secretary Brouillette. Thank you, sir.
    Mr. Fleischmann. Thank you, sir.
    While I was sitting here, I began to think about a new 
initiative of the Department, and I want to praise and laud you 
for that. This is AI.
    Secretary Brouillette. Sure.
    Mr. Fleischmann. We were asked last year to fund that and I 
believe we did that at $2.5 million. I thought that was the 
right move. I was very pleased to see that the President has 
requested, I think, $5 million in that budget.
    Secretary Brouillette. He did.
    Mr. Fleischmann. So, I think, again, another great move in 
the right direction. AI is going to be critically important.
    Mr. Secretary, you had mentioned PNNL. I appreciate that. I 
did not know that they were as well advanced in AI. Do we see 
the potential for more of the national labs participating in 
that endeavor? And I just would like your thoughts on that.
    Secretary Brouillette. Well, I certainly didn't mean to 
exclude the good work that is being done at Oak Ridge.
    Mr. Fleischmann. Yes, sir. No, I did not think any----
    Secretary Brouillette. They are, you know--as you know, 
they have the fastest supercomputer in the world at the summit 
program there. But they are also leaders in AI as well. And I 
look forward to working with Dr. Zacharia and others at Oak 
Ridge to move forward.
    What we have done at the Department of Energy and under 
former Secretary Perry's leadership is created sort of a 
coordinating office. And that is the office that you are 
referring to. There are many, many efforts all throughout DOE 
that are focused on AI. And what we attempted to do is to 
create an office to kind of collaborate and pull those efforts 
together so that we could perhaps focus them on a few key 
areas. I mentioned one earlier, the integration of renewables 
into our electric grid. That is a perfect application for AI.
    You may recall from last year's hearing Secretary Perry 
initiated an effort with HHS and with the Veterans 
Administration to look at treatment records so that we could 
maybe identify things that work perhaps better than others on 
brain injuries. So, dealing with PTSD or concussions, if we can 
identify treatments that have worked in a much more aggressive 
and faster way, then it will help, you know, doctors treat 
these things in real time.
    And we just have found so many applications for this 
technology, but--
    Ms. Kaptur. Would the gentleman yield on that point?
    Secretary Brouillette. Yes, ma'am.
    Ms. Kaptur. I know Secretary Perry and Congressman Gonzalez 
of Ohio have a deep interest on the imaging issues and the 
brain analysis. Has DOE written anything on that or could you 
bring the committee up to date by providing some additional 
information to the record?
    Secretary Brouillette. I would be happy to reply for the 
record. I would be happy to share with you some of the initial 
findings that we have.
    Ms. Kaptur. Thank you.
    Secretary Brouillette. I would be happy to do that, Madam 
Chair.
    Mr. Fleischmann. Once again, Mr. Secretary, I want to 
applaud and laud the Department for choosing to create this 
office of AI. I think it is going to be a great way to 
coordinate all of your efforts, and we will fully support--or I 
will fully support that.
    Secretary Brouillette. Thank you, sir. I appreciate that.
    Ms. Kaptur. Congressman Newlove.
    Mr. Newhouse. Newhouse.
    Ms. Kaptur. We have a real estate company in northwest 
Ohio. I apologize. That is Newlove Realty. So, I have to really 
concentrate here.
    Mr. Newhouse. I wasn't sure what to say back to you, Madam.
    But thank you, Madam Chair.
    Secretary Brouillette. That is funny.
    Mr. Newhouse. So, Mr. Secretary, I promised you there was 
good news, but there is also bad news.
    Secretary Brouillette. Sure.
    Mr. Newhouse. And so I wanted to get to that part of my 
questioning. And just let me tell you directly, and I know that 
this has been brought up already. I can't tell you how 
disappointed I was to see this administration playing politics 
with something as important as completing the permanent 
solution to our Nation's high-level nuclear waste.
    I was recently, just the week before last, invited to the 
White House to talk about Yucca Mountain and I expressed my 
concerns directly to everybody that I could except for the 
President himself.
    Simply put, the law of the land is that Yucca Mountain is 
this Nation's sole permanent repository for high-level waste. 
And this budget pointing to, I think, what you characterize as 
a reinvention of the wheel is, in my humble opinion, a total 
waste of resources and a distraction from solving this very 
important issue for this whole country.
    Nobody in this Congress, no district, is more dependent on 
Yucca Mountain as Washington State's 4th. The Hanford Site's 
high-level nuclear waste is destined for Yucca Mountain. And, 
Madam Chair, no obfuscation, no politization of this issue, be 
it from Republicans, and we have seen it from Democrats, will 
change the fact that this is the law.
    And so, Mr. Secretary, I am disappointed. I told the powers 
that be in the White House that I will fight this with 
everything I have got. I just wanted to be on record with you 
so you know where I am coming from. This is important to the 
people of the State of Washington. Just as importantly, it is 
important to this country that we continue working on this very 
important project that we have already put upwards of $15 
billion literally into a hole in the ground that would be a 
sure sign of fiscal irresponsibility for us to just stop.
    Very much related to this, as you know, there are no less 
than 56 million gallons of nuclear waste stored in temporary 
underground storage tanks at the Hanford Site. The Federal 
Government has a moral and a legal obligation to cleanup this 
waste. And I know the Department of Energy is committed to 
that. But I was truly disappointed to see proposed cuts of over 
$700 million from the current levels for the Hanford cleanup in 
fiscal year 2021 in the budget request.
    I probably don't have to tell you this, but I will, at the 
proposed funding level, cleanup efforts would be profoundly 
impacted for the worse, and a number of important and 
successful efforts would be halted, including the 300-296 waste 
site remediation under the 324 building, the 200 West area 
groundwater pump and treat operations, the proactive sitewide 
risk mitigation, and work at the Waste Encapsulation and 
Storage Facility, the WESF, would be impacted.
    In order for the U.S. Government to fulfill its obligation, 
consistent and predictable funding is absolutely critical. I 
don't think I need to point out that the Environmental 
Management is the third largest liability across the entirety 
of our Federal Government. Anything less only prolongs cleanup 
and dramatically increases the costs.
    So, respectfully, Mr. Secretary, I do not believe the 
proposed level of funding meets the Federal Government's 
obligations in what is needed to ensure success at Hanford, 
both in the near term, but also on into the future.
    Secretary Brouillette. Thank you for that, Mr. Newhouse. I 
appreciate your concerns. The short answer is, yes, I do 
believe the President's current budget allows us to meet the 
moral obligations that we have to the State of Washington, as 
well as to the Nation.
    The reductions that you see in our budget are taken 
primarily from what we refer to as carryover funding. The 
Congress has been extremely generous to us with regard to the 
EM program. As you know and as we discussed earlier, none of 
the projects that are currently underway are scheduled for 
startup, i.e., DFLAW, this year will be affected by this 
request. We fully intend to hot start DFLAW this year.
    And the other projects that we are proud of in 2019 and we 
will continue accomplishing in 2020 are things like the K-basin 
cleanup. We moved some of the facilities away. We were able to 
stop those activities from endangering any of the groundwater 
or any of the river water, the Columbia River. We are very 
proud of those accomplishments. We will continue those.
    But I look forward to working with you and I understand 
your concerns. Hanford is a moral obligation for the Nation and 
the State, that we have--I mean, I am sorry, the Nation as I 
mentioned earlier. But it has also been something that I have 
been personally involved with since my earliest days as a 
staffer here on the Hill. I remember distinctly working with 
the Energy and Commerce Committee on this issue 20 years ago. 
And to be honest, I was a bit dismayed to come back 20 years 
later and see that many of the same issues still face us.
    There as been tremendous progress, however, at Hanford. It 
looks dramatically different than when I first visited that 
site in the early 1990s. But yet, there is much more to be 
done. And I look forward to working with you on that.
    Mr. Newhouse. I appreciate that. As I said earlier, I look 
forward to being a partner with you in making sure that we can 
continue the Federal Government's, as you said, legal and moral 
obligation here at Hanford, so, thank you.
    Thank you, Madam Chair.
    Ms. Kaptur. Thank you, Congressman Newhouse.
    Mr. Secretary, your budget proposes deep and arbitrary cuts 
that threaten progress on addressing one of our most pressing 
challenges and that is climate change. We can be a leader in 
exporting clean energy technologies, but not under your budget 
request. There is a significant global market for these types 
of technologies right now and into the future. And your budget 
request significantly disadvantages the United States. What is 
your plan to assure this does not happen?
    Secretary Brouillette. Well, I appreciate your concern, 
Madam Chair. I think as we move forward, though, as I mentioned 
earlier in the hearing, we need to do a couple different 
things. We need to focus on storage. That is where our 
attention needs to be. Renewable technologies are becoming 
somewhat mature in the marketplace. So, for us to focus again 
on these technologies that are now commercially widely 
available seems to us to be inappropriate.
    The market has taken off and we have seen the evidence of 
that in the pricing of the product itself. Wind electricity is 
now trading in some places across our country at 3 cents a 
kilowatt hour, 4 cents a kilowatt hour.
    So, to subsidize or to further those types of technologies 
from a governmental standpoint seems for us to be 
inappropriate. Our focus needs to be on what do we do to get 
these technologies integrated into the grid? What do we need to 
do to get them more widely available at a grid level, not an 
individual level, not at the household level? Anyone can walk 
in today to one of these companies that are usually perched 
outside of a Home Depot or a Lowe's or something like that and 
they can sign up for solar technologies and have those 
installed on their house or go to their local utility and get 
that installed relatively quickly.
    Our challenge is to get that to a grid-scale level. And 
that is what we want to focus on and that is what you see 
reflected in our budget and that is why you see the numbers you 
see.
    Ms. Kaptur. Without the Department of Energy, most of those 
companies wouldn't have moved into the 21st century at this 
point. So, I don't think we share a point of view on that, but 
hopefully we can find a way to blend our interests on this one.
    Secretary Brouillette. Sure. I think our goals are the 
same. I don't think we disagree on the ultimate goal. And I 
think you see that in the approach that we have taken with 
regard to the provision of energy and the energy policy that I 
think the previous administrations, this administration, 
previous Congresses and this Congress have worked upon. And 
that is why we can point to these records that we have today.
    While we have been able to grow the economy in the country 
by roughly 17 percent, we are also reducing our carbon 
emissions at the same time by about 14 percent. There is no 
other country in the world that can say that. There is no other 
developed country that can say that and there is certainly no 
undeveloped country that can say that.
    So, I think the record speaks for itself and it is due to 
the good work that previous administrations, this 
administration, previous Congresses, this Congress have 
undertaken. So, I think our goals are aligned. Perhaps 
direction may change from here and there, but I look forward to 
working with you on this issue. I think we are fully committed 
to the same outcome.
    Ms. Kaptur. If I look back at the fracking technology that 
exists today, when DOE started inventing it, I don't know how 
many decades it actually took. It was probably close to 2 
decades, wasn't it?
    Secretary Brouillette. A very long time. A very long time, 
about 20 years.
    Ms. Kaptur. And most companies wouldn't do that. We are 
very happy about natural gas now.
    Secretary Brouillette. Sure.
    Ms. Kaptur. But if we really--or solar technologies. I was 
involved with an Ohio company back in the '80s trying to help 
them hang on. Thank God, there was photovoltaic research 
division at the Department of Energy because there wasn't 
anybody in the venture capital world back then that was 
interested. The Department is really important in the basic 
research area so that we can launch more companies faster and 
move some of this really basic research forward.
    Secretary Brouillette. We don't disagree with that. It is 
one of the reasons why we created a chief technology officer 
within the company itself, I mean, within the Department 
itself. It is to move those types of technologies to the 
marketplace as quickly as we possibly can.
    And your example about fracking is exactly right. We helped 
invent the technology, but it wasn't until George Mitchell 
picked it up in the private sector and really utilized it in 
ways that at the time. It is that type of innovation, it is 
that type of entrepreneurship, it is that type of progress that 
we need to see not only with fracking, but with solar 
technologies and, as I mentioned earlier, with nuclear 
technologies. Some of these advanced reactors are absolutely 
critical to any climate goal we may have in the future.
    Ms. Kaptur. I wanted to say a word about workforce 
development if I could.
    Secretary Brouillette. Yes, ma'am.
    Ms. Kaptur. Our energy sector is rapidly changing. And we 
know and you know we need to have a skilled energy workforce 
that can keep up. We have also heard repeatedly from senior 
Department officials and our national labs that the 
Department's workforce is changing. And we aren't producing 
enough American engineers, scientists, and skilled labor and 
trade workers to meet the national need.
    And yet, we are again seeing a budget request that proposes 
to slash many of the very programs that require this workforce. 
And it again cuts or eliminates programs that support workforce 
development.
    I mentioned in my opening statement that solar installers 
are projected to be the fastest-growing job in this country 
over the next 10 years. That is why I am so disheartened to see 
that the budget request proposes to eliminate the Solar Ready 
Vets Program. What role do you believe the Department of Energy 
should have in helping to inspire, to train, perhaps even to 
fund some of the next generation of skilled workers to take 
advantage of these tremendous economic opportunities of the 
future?
    Secretary Brouillette. I would be happy to work with the 
committee on finding very specific programs that we might fund 
to do this. I can tell you from my own personal experience, 
growing up in south Louisiana, starting an early career working 
in the oilfield and working in the pipeline industry, the 
importance of training trades. I have done everything from 
pipefitting to welding to general laborer. And those are all 
skills that may sound simple. You have to learn early on in 
life in order to be successful on an offshore drilling rig. And 
it was so remarkably different than what I saw as a kid, as a 
young roustabout, and as a young pipeline worker. When I went 
onto a deck back then, there was 20 or 30 people moving pipe 
around. When I went onto the deck this time, there was one 
person there, that is it. And he was running
    But my point is that I was able to just last year or year 
before last, as a matter of fact, visit an of a computerized 
operation.
    Well, that skill set is remarkably different than the 
welding skill set that I brought to the table 20, 25 years ago. 
And if we are not preparing for that and we are not planning 
for that today, then we are going to be woefully behind China, 
behind other developing nations in a very near future. So, we 
have to focus on this now.
    One of the things I have done as Secretary and it is a 
small step but I think an important step. Whenever I travel to 
a national laboratory, I make a point of doing an hour or 2-
hour lunch with young professionals who just started at our 
Department, who just started with one of our contractors within 
the last 5 years. Because I want to know from them what did 
they do to get here, what brought them here, why did they 
choose us as an employer versus Google or some other 
alternative or option that they may have had graduating 
college?
    Understanding those fundamental decisions that people make 
today versus what I made 25 years ago or 30 years ago, I think 
is key for us to find the answer. That is what we have to do. 
But we have to focus on it. It has to be an aggressive effort. 
It has to be intentional. It can't be something we just think 
about or that we assume is happening within the organization. 
Because I can almost assure you, it won't. If we don't focus on 
it, it won't happen.
    So, you have my commitment to that. I would work closely 
with you. If you have specific ideas that you would want me to 
focus on, I would be completely open to that.
    Ms. Kaptur. Well, Mr. Secretary, I think we could start 
with a list of those professions, some of which you have ticked 
off now, that are going to be the most in demand. And let's 
lead with the list. And whether it is NNSA or the Department of 
Energy or the labs themselves, it would be very helpful to 
provide that for the record.
    And last year, we had hearings that dealt with some of the 
workforce development, but I think it would be of great 
interest to this subcommittee to hear from the nuclear Navy. We 
have heard about nuclear welders. I always ask myself, isn't 
there an easier way to do that job? So, maybe we need some 
innovation there.
    But the workforce development responsibility doesn't just 
lie with the Department of Labor or the private sector. Because 
guess what, they have got vacancies and some of them have huge 
needs. I think everybody has to do their part.
    Secretary Brouillette. You are absolutely correct, Madam 
Chair. With all due respect to my colleagues at the Department 
of Labor, I am not sure they understand completely what we need 
in a national laboratory. It is up to us. It is our obligation. 
We are the ones running the national laboratories. We are the 
ones running the Department of Energy. We have to determine our 
own skill sets, our own labor needs, and move aggressively to 
develop them.
    Ms. Kaptur. Now, it took me 38 years to get a gavel on this 
committee, and I want to share is a couple ideas. I am just 
going to use my privilege here for a couple more minutes. I 
won't bore my colleagues too much, but two interests that I 
have that you can answer.
    I care about poor cities. I spent my life trying to rebuild 
places in poor cities that need new value. And one of the ways 
that we can actually help them help themselves is to study 
where they spend the most out of their budget, which is all 
public information, on energy. And they spend it purifying 
water and processing sewage.
    In most of these places, upwards of a third or more of 
their power budget goes to those two functions. Most people 
will say, well, that is not the Department of Energy's job 
because really it is EPA's job to worry about water and about 
sewer. Well, but the power issue isn't their job.
    And an evaluation of, well, let's actually pick the 50 
poorest cities in America and I represent some of them. And it 
isn't just a matter of buying a gauge that you stick on and it 
costs more money and you keep trying to retool old technology. 
But maybe there is something transformative that the Department 
of Energy could invent, even offsite or related to the property 
that these facilities exist on. It is a hidden cost and it is 
enormous.
    Just in northern Ohio, and it was hard to get this 
information because nobody thinks about it, between the whole 
lower coastline of Lake Erie, between Cleveland, OH, Lorain, 
OH, a steel town, one of the largest automotive platforms and 
truck platforms in the country, in 10 years, the mayors there 
combined will spend a half a billion dollars. That is a lot of 
money to those places.
    So, I am not saying we should move in small nuclear units. 
But there are solutions that can be adjacent to or one could 
think of how to retool. And I would just ask some attention to 
that.
    Secretary Brouillette. If you will permit me maybe a moment 
of personal privilege perhaps I can introduce an idea that may 
be of interest. The committee has over the years provided very 
generous funding to our laboratories. And as part of that 
process you allow the lab directors to conduct what is known as 
lab-directed research. This may be a perfect project for a 
young scientist coming on board with one of our national 
laboratories. And perhaps together, we can work with the lab 
directors to see if there might be interest under the lab-
directed research programs to allow some young scientist to 
take this on as a project and develop some solutions.
    Ms. Kaptur. Thank you for your openness. We provided some 
funding in the advanced manufacturing program at DOE to look at 
it. But I just wanted you to hear it from me.
    Secretary Brouillette. Sure, I appreciate that.
    Ms. Kaptur. And to say these places can't pave their roads. 
So, the need for being able to provide power and to reduce the 
cost, they don't have time to think about it. So, maybe we 
could be of some help.
    Finally, I just wanted to say, we talked about this, put it 
on the record now, but we talked about the building that is the 
U.S. Department of Energy. And I would want to encourage you to 
think about the building envelope better reflecting what you 
do. I am not quite sure how to work with GSA on that or even 
how to work with this subcommittee. But we know we have to 
inspire the next generation. And millions of these young people 
walk around here every year, they come to Washington with their 
parents and they go to the Air and Space Museum across the 
street, they go to the Spy Museum. They go to all these places. 
The Department of Energy has a role to play in this. And DOE 
can communicate with these young people. There is nothing like 
seeing and believing.
    I would encourage you to think about aiming at some middle 
school students, perhaps. Coordinate with the science museums 
across this country. Your communication staff can do that. 
Think about private sector interest that might be able to help 
you sponsor some celebratory days that would over time--over 
time would begin to influence the American people and these 
younger people that we know we want to come into these fields, 
to make it exciting for them.
    And just in repairing your building envelope, finding a 
way, we will try to help. I will do what I can do. But some of 
these new building materials, I remember when I worked for 
President Carter and I wasn't on his energy team, but he wanted 
to put solar up on the building. And when Jim Oberstar, before 
Jim left here within the last decade or so, I think it finally 
happened. But all I remember is Rep. Oberstar complaining all 
the time about why can't we get those solar panels up there at 
the Department of Energy?
    Secretary Brouillette. It is still up there.
    Ms. Kaptur. It is still up there, but it is antiquated, I 
think.
    Secretary Brouillette. I think it puts out 1 kilowatt, I am 
not sure. Enough to turn on two lightbulbs maybe.
    Ms. Kaptur As you think about working with the building 
materials industry or the energy industry, you have friends and 
the Department has friends and they are doing magnificent 
things. Maybe you could have a day where some of the tiny homes 
people come and erect a net zero home. And everybody that walks 
by that month goes, wow, look at that. It is happening in 
America, but it is not reflected here very well. Maybe you 
can't do it physically, maybe you can do it virtually on a 
screen.
    I don't want to belabor it, but I just think that it is 
time for a little refurbishment and for inspiration for the 
country because we know we need it. I have lived long enough to 
know what it was like to be energy-dependent and now to be 90 
percent of the way to independence at the moment, but not for 
the next century, just for the next few years, and that this 
Department has been chugging away, that is a story. That is a 
story. And it shouldn't just be for the specialized energy 
magazines, but it should be on National Geographic, it should 
be in a lot of other places. And it should be in every science 
museum in this country. I ask you to think about that a little 
bit.
    And I would say to my ranking member, do you have any final 
questions or comments?
    Mr. Simpson. Thank you. I do have just a couple of things 
that have come up since I said goodbye. I was never going to 
say anything about Yucca Mountain at this hearing because, 
frankly, it won't make any difference. But when Mr. Newlove, 
you got a new nickname you know that, don't you? When he 
brought it up, I just wanted to say, as I have told Secretary 
Moniz and Secretary Perry, whatever you do, do not fill in that 
tunnel. That is a $16 billion tunnel and we are going to store 
all the studies that have been done on Yucca Mountain.
    Second, while we like to criticize where we think you are 
deficient in this budget, I do want to thank you for the 
increase requested for Cybersecurity, Energy Security, and 
Emergency Response. That is, I think, one of the biggest 
challenges this country faces. And it is actually a very small 
budget compared to, I think, the challenge we are going to face 
in the future. I appreciate the request for that.
    One other thing I wanted to ask is, you have proposed in 
this budget to move the FUSRAP program from the Corps to DOE. 
Whose idea is that? Is that OMB's or Department of Energy's? 
Because we looked at this last year and we thought, OK, what we 
are going to do is we are going to move the program to DOE. 
That means we will send the money to DOE and DOE is going to 
contract with the Army Corps of Engineers to do exactly what 
they are doing now. That didn't seem like an additional layer 
of government that would be necessary or very efficient in 
cleaning up these sites.
    Secretary Brouillette. Yes, it is a fair point, sir. I 
don't know where the idea originated, but I would be happy to 
get back to you. If you don't mind, I would just like to take 
that question for the record and get back to you in writing.
    Mr. Simpson. I appreciate it. I am not necessarily opposed 
to it. I just don't see what the value of it is. That is kind 
of where I am coming from. Let me rephrase what I think you 
said to Representative Newhouse and I think this is what you 
said. That with this budget we will be able to meet all the 
state agreements we have with the various states on EM, on the 
cleanup agreements unless something really strange happens.
    Secretary Brouillette. Right. Unless there is a curveball 
that I am not aware of, yes.
    Mr. Simpson. OK.
    Secretary Brouillette. And if you don't mind, sir, Madam 
Chair, if I could add another point. My staff handed me a 
question and I think I misspoke when I was talking to 
Congressman Newhouse. The DFLAW, I stated that it was ready for 
hot start. It is actually, we are going to complete 
construction. Hot start won't start until 2023. I wanted to 
correct the record for that, I misspoke. My apologies.
    Mr. Simpson. Thank you.
    Ms. Kaptur. All right, thank you. That concludes this 
hearing. Again, I would like to thank Secretary Brouillette for 
joining us today and all of his staff members and those who 
have sat with us this afternoon. I ask that for the hearing 
record, questions for the record and any supporting information 
requested by the subcommittee are delivered in final form to us 
no later than 3 weeks from the time you receive them. Members 
who have additional questions for the record will have until 
the close of business on Tuesday, March 3, to provide them to 
the subcommittee office. This hearing is adjourned.
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                                             Tuesday, March 3, 2020

              DEPARTMENT OF ENERGY APPLIED ENERGY PROGRAMS

                               WITNESSES

HON. RITA BARANWAL, ASSISTANT SECRETARY FOR NUCLEAR ENERGY
ALEXANDER GATES, OFFICE OF CYBERSECURITY, ENERGY SECURITY, AND 
    EMERGENCY RESPONSE
HON. DANIEL SIMMONS, ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND 
    RENEWABLE ENERGY
HON. BRUCE WALKER, ASSISTANT SECRETARY FOR ELECTRICITY
HON. STEVEN WINBERG, ASSISTANT SECRETARY FOR FOSSIL ENERGY
    Ms. Kaptur. The subcommittee will come to order. I want to 
thank all of the members for coming. Let us begin our second 
hearing on the Fiscal Year 2021 Budget Request for the 
Department of Energy's Applied Energy programs. Thank you to 
our witnesses for being here.
    We come together this afternoon to discuss the Department 
of Energy's Applied Energy programs, which cover energy 
efficiency, electric grid modernization and security, and 
energy technology such as renewables, nuclear and fossil. The 
energy future of our country depends on the Department of 
Energy's vital investments to achieve breakthroughs to solve 
our toughest energy challenges.
    And if you look at that chart up there, I think it is so 
wonderful to see that as a country, since the Department was 
first created we have actually helped America come out of a 
deep nose dive, in terms of domestic energy independence.
    The Department's programs are at the epicenter of these 
efforts and past successes of your programs have increased 
energy security and resulted in the United States becoming a 
net energy exporter, as shown from the Energy Information 
Administration's chart upon the wall.
    Looking toward fiscal year 2021, however, the Trump 
administration again proposes to cut the Department of Energy's 
budget, this time by an astounding 35 percent in non-defense 
programs. This will limit America's future opportunities by 
drastically reducing or eliminating programs critical for 
meeting our future energy needs and assuring our security.
    These programs have received bipartisan, bicameral support 
precisely because of their crucial role in undergirding our 
economy and preparing our Nation for the futures to come, 
including the clean energy economy. One need look no further 
than a recent Bureau of Labor Statistics listing of key job 
categories seeking employees, and first on the list is solar 
installers, like you see pictured here, to know that these 
programs already are major job creators and we face tremendous 
international competition, and also theft of intellectual 
property developed in this country.
    This budget request also returns to the Trump 
administration's seeming obsession with funding only early-
stage research and development. As I told Secretary Brouillette 
in last week's hearing, private industry has repeatedly stated 
that they would not fund the kind of middle- and later-stage 
research and development including demonstrations that are 
proposed for elimination in this request.
    Without these critical Federal investments we won't be able 
to move early-stage R&D forward and really continue to launch 
companies to the stage that private investors will pick up the 
work. Abandoning this research sends a blank check to China and 
our global competitors. It turns our back on promising research 
that is critical to reinventing the American energy economy. 
And I am reminded of a quote from Robert Kennedy, ``Some people 
see things as they are and say why, I dream things that never 
were, and say, why not.'' I think it is good to always look to 
the future.
    These ill-advised cuts are almost too frequent to 
enumerate, but allow me to point out a few particular egregious 
examples, all right, energy efficiency and renewable energy 
funding slashed by 74 percent? Really? Technologies like those 
displayed upon the wall will all be cut by 76 to 83 percent, 
including vehicle technologies, bioenergy technologies, 
building technologies and advanced manufacturing.
    Also proposed for elimination, the weatherization program 
which is so pivotal to achieving energy conservation for 
existing structures and helping low-income families, including 
our seniors, to reduce their cost and, frankly, to help us meet 
our goal of energy independence with 40 percent conservation 
across our country.
    Third, carbon-free nuclear energy research and development, 
cut by 21 percent. Carbon capture utilization and storage 
research within Fossil Energy cut by 44 percent. Really?
    And finally, Resilient Distribution Systems within the 
Office of Electricity is cut by nearly 60 percent. That program 
focuses on technologies to ensure that the distribution portion 
of the electric grid can withstand and recover from 
disruptions.
    Given the increasing frequency and severity of storms and 
the potential of increasing cyber attacks, our Nation simply 
cannot cede our future to chance.
    Unfortunately, once again, the President's budget request 
harms American leadership and our energy future, our 
competitiveness, our environment, our workforce, our consumers, 
and our economy.
    With that, I will close my remarks thanking all of you for 
attending today, certainly all of our Department of Energy 
witnesses for being here. We look forward to discussing this 
request and adapting it accordingly.
    I would like to turn to our capable Ranking Member, Mr. 
Simpson, for his opening remarks.
    [The prepared statement of Ms. Kaptur follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Simpson. Thank you, Chairwoman Kaptur. And I appreciate 
your opening remarks. I would like to welcome our five 
witnesses to today's hearing for the Fiscal Year 2021 Budget 
Request from the Department of Energy's Applied Energy 
programs.
    As was made clear at last week's hearings with Secretary 
Brouillette, the budget request for many of these programs is 
not as robust as most of us on this Committee would prefer. We 
should argue now, however, that within the budget request, many 
of the priorities are activities with broad bipartisan support, 
even if at lowered funding levels than some of us would like to 
see.
    For example, the request includes robust funding for 
cybersecurity work, it emphasizes efforts to advance energy 
storage technologies, it recognizes the importance of critical 
minerals to our energy sector and, in turn, to our economic and 
national security.
    From a management perspective, the request focuses 
attention on several cross-cutting initiatives to ensure DOE's 
various offices are working together to better understand and 
address challenges across the energy sector, better 
coordination across programs can help avoid duplication of 
efforts and help spur innovative solutions to those programs.
    There will certainly be areas where Congress will want to 
provide additional resources above the budget request. 
Personally, I would like to see a higher budget for the Office 
of Nuclear Energy to help ensure that the next generation of 
nuclear technologies is led by American technology. Advanced 
nuclear technologies will be necessary to achieve any low-
carbon energy goals, and have those technologies be American 
technologies, it is important for our economic competitiveness 
and national security.
    To our witnesses; thank you for being here today to explain 
your budget request. I look forward to hearing more about the 
administration's priorities in these areas, and thank you 
again, Ms. Kaptur, for calling this hearing today.
    Ms. Kaptur. Thank you very much, Mr. Simpson. We will now 
turn to our witnesses. First we will have Bruce Walker, the 
Assistant Secretary for the Office of Electricity. Mr. Walker 
previously served as Deputy County Executive, founded a 
consulting firm, focused on electric utilities, and worked for 
several electricity-related companies.
    Next we will have Daniel Simmons, the Assistant Secretary 
for Energy Efficiency and Renewable Energy. Mr. Simmons 
previously worked at the Institute for Energy Research at the 
American Legislative Exchange Council, and on the House 
Committee on Natural Resources.
    Following that, we will have Steven Winberg, the Assistant 
Secretary for Fossil Energy. Mr. Winberg has 39 years of 
experience in the energy industry including at Foster Wheeler, 
Consolidated Natural Gas, CONSOL, Energy Research & 
Development, and Battelle Memorial Institute.
    Then we will have Rita Baranwal, the Assistant Secretary 
for Nuclear Energy. Dr. Baranwal previously directed the 
Gateway for Accelerated Innovation in Nuclear at the Idaho 
National Laboratory, and she also has private sector experience 
at Westinghouse and Battelle.
    And finally we will have Alexander Gates, Senior Advisor 
for Cybersecurity, Energy Security and Emergency Response. Mr. 
Gates joined the Department of Energy from the National 
Security Agency. He has 4 decades of experience in military and 
civil service-related, to national security, cybersecurity and 
signals intelligence.
    Thank you all for taking the time to be here today. Without 
objection your written statements will be entered into the 
record. Please feel free to summarize your remarks in about 3 
minutes each, starting with Assistant Secretary Walker.

                 STATEMENT OF HON. BRUCE WALKER

    Mr. Walker. Thank you. Madam Chairwoman, Ranking Member 
Simpson and Members of Committee, thank you for the opportunity 
to appear before you today to discuss the fiscal year 2021 
request for the Office of Electricity, OE.
    Today we are faced with many opportunities and challenges, 
resulting from a dynamically-changing electric grid. In real 
time the electric grid is adapting to a rapidly-changing 
generation of fuel mix, the increased utilization of renewable 
resources, and significant interdependencies between electric 
generation and natural gas pipelines.
    Furthermore, our industry is responsible for providing an 
essential national security commodity while nation and state 
actors continue to attempt to thwart our ability to operate 
through nefarious cyber operations. With keen awareness of 
these opportunities and challenges, OE's fiscal year 2021 
request of $195 million builds upon our existing partnerships 
through the national lab complex, industry and academia.
    While I will highlight several areas of the request, I 
would note that additional funding supports important work that 
is integral and complementary to the overall success of our 
mission to increase the resilience of our Nation's electric 
grid.
    Number 1, we are developing the North American Energy 
Resilience Model, the NAERM. As a first of a kind model, it 
comprehensively integrates and analyzes both power energy 
infrastructure, in addition to providing near real time 
awareness of the system, by utilizing advanced sensing 
capabilities, coupled with sophisticated modeling techniques, 
it will also identify opportunities to reduce congestion 
charges, facilitate the strategic integration of renewable 
energy resources, and optimize the placement and utilization of 
grid-scale storage.
    The funding for NAERM, advancing the sensing capabilities, 
and advanced transition modeling requests equal $21 million, 
$8.5 million and $25 million respectively. The development of 
the NAERM will also help inform potential future investments 
necessary for defense, critical electric infrastructure.
    Accordingly, the fiscal year 2021 request includes a new 
budget line.
    Defense critical energy infrastructure, energy mission 
assurance, working with key partners across the Federal 
Government, and throughout the industry, this funding will 
support the development of executable strategies to strengthen 
the energy infrastructure systems, to supply critical defense 
facilities, and their associate defense critical electric 
infrastructure.
    Number 2, we are on the precipice of developing affordable, 
commercially available, megawatt-scale bidirectional electric 
storage that does not rely on foreign-sourced critical 
minerals. To this end we propose investing $43.5 million in 
research and development supporting the Energy Storage Grand 
Challenge announced earlier this year by Secretary Brouillette, 
which will utilize the Department's expertise to address 
technology development, commercialization, manufacturing, 
utilization and workforce needs.
    In addition, in fiscal year 2020, we proposed launching the 
Grid Storage Launchpad at Pacific Northwest National Lab, to 
accelerate the development of a megawatt-scale storage. We 
continue our efforts in this endeavor through the fiscal year 
2021 request for $40 million for GSL. OE's fiscal year 2021 
request of $195 million will give our team the tools and 
resource that helps secure our Nation's electric grid.
    Thank you, Madam Chairwoman, ranking member and members of 
the committee. I looking forward to answering any questions you 
may have.
    [The prepared statement of Mr. Walker follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    
    Ms. Kaptur. Thank you very much, Mr. Walker. We were just 
looking at that slide trying to see the colors from here, the 
blue actually represents power generated by wind, the yellow by 
solar, and the red by nuclear. We are not sure what the green 
is, as we can't see it from here.
    Mr. Walker. Madam Chairwoman, if I may? Despite being with 
the Department of Energy, this slide actually is a dynamic 
slide that rolls through the 24 hours in the day, and what you 
will see when it actually runs, the file was too big to 
actually upload it, is that you will see the changing 
generation of fuel mix as the sun really rolls through the 
country.
    And this is a representation of just a small part of work 
that we have been doing, working with the EERE as well, that 
NREL provided to demonstrate what the NAER-M would look like in 
the future.
    Ms. Kaptur. How interesting. We will succeed when we are 
able to demonstrate that to the American people, including 
through our hearings. We are sure looking for a way to do that. 
Maybe you can find some of the geniuses over there to help us. 
That would be really nice. Thank you so much, Mr. Walker.
    Assistant Secretary Simmons, please begin.

                STATEMENT OF HON. DANIEL SIMMONS

    Mr. Simmons. Thank you. Chairwoman Kaptur, Ranking Member 
Simpson and members of Committee, thank you for your time.
    The President's fiscal year 2021 budget request provides 
$719 million for the Office of Energy Efficiency and Renewable 
Energy, EERE, to uphold America's energy dominance through 
technologies to make energy more affordable, reliable and 
efficient. Nearly half of the EEREs requested budget in fiscal 
year 2021 supports inter-programmatic or cross-cutting 
initiatives. These $225 million in investments represent EERE's 
commitment to coordinating high priority activities across this 
portfolio, and within the Department.
    Collaboration has been one of my priorities since I became 
Assistant Secretary, and this budget reflects that. I thank my 
colleagues on this panel for their support as we work together 
on these cross-cutting initiatives. In the interest of time, I 
will highlight three of EERE's cross cuts for the subcommittee, 
as seen on the following slides.
    First, the Department requested $97 million in fiscal year 
2021 for the Energy Storage Grand Challenge, a DOE-wide 
strategy to accelerate the development, commercialization and 
utilization of next-generation energy storage technologies. 
Energy storage is a top priority for the Department, as we move 
to a future with a wider array of energy options than we have 
ever seen before, the need to integrate all of these 
technologies is increasingly important, and we believe that 
energy storage is a key way to do that.
    Second, the Department requested $53 million in fiscal year 
2021 in support of President Trump's Executive Order 13817, 
issued in December 2017, to develop a Federal strategy to 
ensure secure and reliable supplies of critical minerals.
    The fiscal year 2021 request elevates critical minerals 
activities across DOE to an interdepartmental initiative. 
Critical materials are used in many products important to the 
American energy economy, but the United States imports most of 
our critical mineral commodities. America's dependence on 
foreign sources of critical minerals undermines our energy 
security and national security.
    Third, the Department requests $20.5 million in fiscal year 
2021 to accelerate innovations in energy efficient plastic 
recycling technologies. EERE will explore novel technologies, 
and approaches to economically deconstructing existing 
plastics, increased opportunities for upcycling, and develop 
infinitely recyclable polymers.
    Plastics play an important role in our daily lives; they 
are in the things that we use every day, the things to keep us 
safe and healthy, the things that make our lives more 
enjoyable, productive and convenient. The purpose of the 
plastic innovation challenge is to reduce the energy costs 
associated with the recycling of plastics, develop new polymers 
that are recyclable by design, and develop biological and 
chemical methods to deconstruct plastic waste, including from 
oceans and rivers, into useful chemical feedstock streams.
    Lastly, EERE will continue to work to work on the Water 
Security Grand Challenge, the grid modernization and other 
initiatives are outlined in the budget request.
    I look forward to working with you to advance affordable 
and reliable energy that keeps our Nation prosperous and 
secure. Thank you for the opportunity to appear before the 
subcommittee today. I look forward to your questions.
    [The prepared statement of Mr. Simmons follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Ms. Kaptur. Thank you very much, Mr. Simmons. We will move 
on to Steven Winberg, please.

                STATEMENT OF HON. STEVEN WINBERG

    Mr. Winberg. Chairwoman Kaptur, Ranking Member Simpson, and 
members of the subcommittee. It is my pleasure to discuss the 
President's fiscal year 2021 budget request for fossil energy. 
The Office of Fossil Energy is committed to ensuring the 
Nation's abundant fossil energy resources continue to promote 
U.S. energy security, economic prosperity, and environmental 
stewardship.
    I would like to begin by highlighting some of our fiscal 
year 2021 priorities. Our flagship coal R&D program is Coal 
FIRST. This program will develop the coal power plant for the 
21st Century, with zero or near zero emissions, and its design 
will meet the demands of our Nation's evolving electricity 
grid.
    Building on the advances we have made through projects like 
Petra Nova, the world's largest post-combustion carbon capture 
plant, we are continuing to advance the technology to reduce 
the cost and to ensure that CCUS is available for coal, and 
natural gas power generation, and for industrial sources of 
emissions. In addition, we are leveraging our decades of CCUS 
R&D to advance the development of direct air capture 
technologies.
    Moving on, we are writing a new chapter for coal with our 
coal to products work. This includes the production of rare 
earth elements and other critical materials from coal and coal 
byproducts, the development of these materials from our vast 
coal reserves can help reduce our reliance on foreign sources, 
support economic growth and increase our national security.
    In addition, our coal to products work is targeting new 
technologies to develop valuable commercial products from coal, 
including carbon fibers, nano material, composites, building 
materials, and 3-D printed materials.
    In the oil and gas space, we continue to focus on R&D to 
ensure the responsible development, distribution and storage of 
the Nation's oil and natural gas resources, with an emphasis on 
methane emission reduction.
    Beyond R&D the Office of Fossil Energy manages the LNG 
export authorization process. To date we have authorized nearly 
45 billion cubic feet per day of LNG exports. In 2019 we 
granted 15 new long-term LNG export approvals. Our current 
export capacity is nearly 8 BCF per day, and at the end of this 
year, that capacity is expected to grow to over 10 BCF.
    Our LNG exports have reached 38 countries, and we are well 
on our way to becoming the world's top LNG exporter. With 
respect to the Strategic Petroleum Reserve, you see the Big 
Hill slide here, I hope. Yes, it is there. We will continue to 
maintain the readiness of this national security asset to 
protect the U.S. economy from severe petroleum supply 
interruptions. And we look forward to working with Congress to 
ensure that the supply will continue to meet the demands of the 
21st century.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Winberg follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Kaptur. Thank you, Assistant Secretary Winberg. Now we 
will go to Assistant Secretary Baranwal.

                STATEMENT OF HON. RITA BARANWAL

    Ms. Baranwal. Good afternoon, Chairwoman Kaptur, Ranking 
Member Simpson, and the members of subcommittee. It is an honor 
to appear before you today to discuss the President's fiscal 
year 2021 budget request for the Office of Nuclear Energy.
    As the Nation's largest source of clean, reliable and 
resilient electricity, nuclear energy is the strategic national 
asset for the United States. Nuclear energy reliably generates 
over 55 percent of the Nation's clean energy, and about 20 
percent of the electricity in the U.S.
    As the use of nuclear energy continues to expand 
internationally, U.S. leadership is being ceded to countries 
such as Russia and China. The unique nature of nuclear 
technology creates a national strategic imperative to maintain 
U.S. leadership, and nuclear energy, and enhance U.S. influence 
by being competitive in global nuclear energy markets.
    Sustaining the current fleet of operating nuclear plants is 
a priority for the Nation. Without a robust nuclear industry, 
we will not be able to maintain the current contributions to 
clean electricity generation, nor maintain the associated U.S.-
based supply chains, nor the fuel cycle infrastructure 
necessary for a vibrant civilian nuclear industry, and strong 
national security.
    Through the Light Water Reactor Sustainability Program, NE 
is working to ensure that the long-term economic viability of 
our existing nuclear fleet is done by conducting early-stage 
research and development to enable the development of the 
technical basis for the continued reliable and economic 
operation of the current fleet, ass well as the development of 
technical solutions to enhance the economics, and performance 
of nuclear power plants, including investigating alternative 
fuels.
    Chairwoman Kaptur, Davis Bessie in your home State and 
mine, is leading a pilot project to generate hydrogen to fuel 
not only the Toledo bus fleet but as well fuel manufacturing 
sites in that area.
    Today, communities around the United States and 
internationally face limited choices in nuclear reactors which 
constrain nuclear energy's true potential. The market has 
responded through the emergence of dozens of U.S. nuclear 
reactor developers looking to seize this opportunity by 
advancing highly innovative, small, scalable, flexible, 
resilient and more financeable nuclear reactors. These 
innovative technologies include SMR's, microreactors, high 
temperature reactors, molten salt reactors, and liquid metal 
fast reactors.
    Having a diverse catalog of technology options will make 
U.S. nuclear technology vendors more attractive and competitive 
in the global market and able to expand into countries that 
have not previously considered nuclear energy as part of their 
energy mix.
    NE is working to move forward our Nation's next generating 
of advanced nuclear reactors so nuclear energy continues to be 
part of our energy mix now and well into the future.
    Through the Advanced Reactor Technologies and Advanced 
Small Modular Reactor research and development subprograms, NE 
support early stage R&D that helps stimulate the nuclear 
industry as it works to address particularly high risk 
fundamental technical challenges in advanced reactor concepts. 
Thank you very much and I look forward to answering your 
questions.
    [The prepared statement of Ms. Baranwal follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Kaptur. Thank you. And now we will go to Mr. Alexander 
Gates. Thank you. Please begin.

                  STATEMENT OF ALEXANDER GATES

    Mr. Gates. Good afternoon, Madam Chairwoman, ranking member 
and members of the committee. Thank you for the opportunity to 
appear before you to discuss the President's fiscal year2021 
budget for the Office of Cyber Security, Energy Security and 
Emergency Response, commonly referred to as CESER.
    CESER was created to help secure our Nation's energy 
infrastructure against all hazards, reduce the risk of, and 
impacts from cyber events and other disruptive events and 
assist the restoration activates.
    We are keenly aware of the cyber challenges the energy 
sector faces. The director of National Intelligence stated in 
his 2019 worldwide threat assessment that, quote, ``Our 
adversaries and strategic competitors will increasingly use 
cyber capabilities to seek political, economic, and military 
advantage over the United States and its allies and partners. 
China, Russia, Iran, and North Korea, increasingly use cyber 
operations to threaten both minds and machines in an expanding 
number of ways to steal information, to influence our citizens, 
or to disrupt critical infrastructure.
    A reliable and resilient energy infrastructure is critical 
to U.S. economic competiveness, national security and to put it 
frankly, our way of life. Maturing CESER into an organization 
that is proactive, focused on its inherent strengths, 
particularly with the national labs and its relationship with 
the sector, are keys to its success.
    We will refine CESER's strategic plan in the coming weeks 
with an eye towards these following priorities. Situational 
awareness, obtaining, maintaining, and sharing sector-wide 
situational awareness would benefit the entire country and all 
who operate energy systems.
    Discovery, early detection in mitigation of malicious 
activity or dangerous devices is critical, a critical 
requirement for CESER.
    A robust purposeful research and development approach that 
tracks gaps in capabilities is central to CESER's investment 
strategy.
    And emergency response, improving the Department's 
performance as a coordinator for Emergency Support Function No. 
12, the energy sector, under the national response framework 
and our role as a sector specific agent is important.
    And finally operationalization. Developing processes that 
effectively align mission with people and technology to meet 
clear operational objectives is an essential furthering of 
operationalization within CESER.
    I appreciate the opportunity to appear before the committee 
and I'll look forward to working with Congress to address the 
Nation's cyber and physical security challenges.
    [The prepared statement of Mr. Gates follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Ms. Kaptur. Thank you, Mr. Gates. Thank you all for your 
statements. As a reminder for those members president in the 
room when I gavel in at the beginning of the hearing I will 
recognize you for questions in order of seniority alternating 
between majority and minority until all who arrived prior to 
the gavel have asked questions.
    And for those who arrive after the hearing has started, I 
will recognize those members only in order of arrival, again, 
alternating between majority and minority.
    Lastly, I intend to observe the 5 minute rule for questions 
and answers and will now begin questioning under our normal 
rules. Assistant Secretary Baranwal the budget request includes 
$20 million, and I quote, to establish a new program for an 
interim storage capacity. Excuse me. Interim storage capacity.
    In last week's hearing with the Secretary, he stated that 
the Department of Energy would and I quote being development of 
options and look at alternatives for interim storage including 
the initial planning of a potential Federal site at some point 
in the future.
    What specific actions is the Department proposing in this 
request to develop options and look at alternatives for interim 
storage and how are these proposed activities different than 
activities that have been carried out with funds provided by 
Congress in the last several years?
    Ms. Baranwal. Thank you for the question. One of the 
specific actions that the Department is planning to carry out 
is to issue a request for a proposal, which has been drafted, 
and the intent is for the basic design of an interim storage 
facility.
    What we are looking forward to in the future is that there 
are developments in technology space that have occurred over 
the past several years and we are hopeful that those will 
manifest themselves in the responses to the RFP. Those are some 
of the changes that we expect to see from what you asked about 
the prior years.
    Ms. Kaptur. Do you have particular locations in mind? Is 
that part of the application?
    Ms. Baranwal. Part of the work that's going on is to 
identify potential sites. To succinctly answer your question, 
no we don't have a location in mind at the moment.
    Ms. Kaptur. And so who would be, what are the categories of 
those who are being invited to apply? How would you describe 
that to the general public? Governors, private companies, how 
are you----
    Ms. Baranwal. I would have to get back to you on that.
    Ms. Kaptur. All right. Well, think about that one.
    Ms. Baranwal. Will do.
    Ms. Kaptur. I am going to turn it over now to Mr. Simpson.
    Mr. Simpson. Thank you, Chairwoman. I guess I'm kind of 
amazed at the budget request across the board here and I 
suspect you all are too, but I know you have to support the 
administration's budget request but in some areas, it is just 
woefully inadequate.
    In fact, I would go through most of this and say that that 
is the case. I am sitting here and I think one of the biggest 
challenges we face in this country in our security doesn't come 
from nuclear weapons being launched at us, while certainly that 
is a threat. I think the future attack on this country is going 
to be from cyber. And it will be every bit as damaging as if 
they had launched nuclear weapons at us in what it could do our 
country.
    And when you look at it, we are spending, you are 
requesting $184 million dollars for CESER. That is not very 
much money really in the total scope of things. We are 
requesting $195 million for the electricity program. EERE, $719 
million down $2 billion from last year's appropriated level.
    As the chairwoman said, $1.18 billion for NE which is down 
21 percent down from last year's level. And I think you said 
Assistant Secretary Baranwal, that it produces 55 percent of 
the clean energy and 20 percent of the electricity currently in 
our grid.
    It is amazing to me but as the old saying goes, the 
administration proposes and Congress disposes and I suspect the 
budget will be significantly different when we finally get 
done.
    Let me ask you, Assistant Secretary Baranwal, I strongly 
support the Advanced Reactors Demonstration Program established 
in the fiscal year 2020 Energy and Water bill, demonstrating 
multiple new American reactor concepts in the next 5 to 7 years 
will be critical to addressing low carbon energy goals and to 
advancing American competiveness.
    Since the program's success depends in part on an 
aggressive schedule, Congress directed the Department to 
streamline its procurement processes and to take out--and then 
take other necessary actions to ensure implementation, that 
implementation is not delayed.
    Can you please describe what steps you have taken and plan 
to take to streamline and otherwise improve the process to 
ensure timely demonstration of new reactor concepts?
    Ms. Baranwal. Yes, thank you for the question. We have 
already issued a request for information and a notice of intent 
and that has closed and we are reviewing the information we 
have received.
    Thirty-three different entities provided us content and so 
we are digesting that, looking at multiple procurement options 
including contracts, financial assistance and the lessons 
learned from other agencies such as NASA and other programs 
within our purview, advanced SMR, R&D and SMR licensing 
technical support as well.
    Our plan is to issue the request for proposal for this 
effort in the next several weeks. We have also embarked on 
ensuring that we are clear and transparent in communicating 
with the appropriators and so we have had meetings with all 4 
corners and shared with them the intent in our plans for moving 
forward expeditiously.
    Mr. Simpson. You mention in your testimony the importance 
of the Light Water Reactor Sustainability Program. Yet there is 
a $16.5 million decrease in the budget request. How important 
is this program?
    Ms. Baranwal. The program is very important. The existing 
fleet and the continued operation of those existing reactors is 
the giant on whose shoulders that we will deploy advance 
reactor technologies.
    So to maintain the fleet, to maintaining the supply chain, 
to maintain the talent pool that is part of that community is 
very important.
    Mr. Simpson. I yield back now and will wait for another 
round.
    Ms. Kaptur. All right. Thank you, Mr. Simpson. 
Congresswoman Kirkpatrick.
    Mrs. Kirkpatrick. This budget request proposes a 74 percent 
cut in EERE, a level that amounts to irreversible damage to the 
office and its mission. I am particularly concerned about the 
proposal to cut the Solar Energy Technologies Office by 76 
percent.
    Funding for the Solar Energy Technologies Office is 
critical to increasing solar deployment across the United 
States and decreasing its cost. And the program has a history 
of success. Solar costs dropped by over 60 percent between 2008 
and 2017.
    The solar industry supports over 250,000 jobs in all 50 
states, and my home State of Arizona ranks 6th for solar jobs 
nationwide.
    This program has helped the United States lead the way in 
developing, commercializing, and deploying solar technologies 
that are growing rapidly around the world. So here is my first 
question.
    Given the enormous cuts proposed here for the Solar Energy 
Technologies Office and other EERE programs, how can we ensure 
that renewable energy technologies can continue to develop and 
advance?
    Mr. Simmons. The budget as we have stated is focused on 
early stage research and development. We believe at this lower 
budget levels we are able to continue to drive these 
technologies forward, including solar, by focusing on early 
stage because we need to be gestating the new ideas of the 
future and a lot of those are going to come from early stage 
research and development.
    Mrs. Kirkpatrick. Let me ask you, is that based on a 
successful model that you looked at?
    Mr. Simmons. One example of that is the, of a success is 
with NREL and the NETL and the MOU that they have signed with 
ExxonMobil where ExxonMobil is going to spend $100 million over 
the next 10 years at those laboratories working on projects.
    And one of the reasons for that is because in the case of 
NREL and some of the early stage research that they have done 
on next generation biofuels and next generation kind of 
synthetic fuels and by having that basis of early stage 
research, from there ExxonMobil is looking to do more.
    So that is one example I think of how having early stage 
research is critical for new idea generations so that we can 
then hopefully move them to commercialization in the future.
    Mrs. Kirkpatrick. But we really don't know how that is 
going to work out because it is something we have just start 
focusing the budget on, to really focus on early stage when 
currently the budget has obviously or the appropriated amounts 
is for that early stage as well later stage research.
    Mrs. Kirkpatrick. And couldn't you have a budget that does 
both?
    Mr. Simmons. Well, it could be possible, yes.
    Mrs. Kirkpatrick. Have you looked at that and what that 
number might be?
    Mr. Simmons. That, I mean, there are many things that are 
considered as the, as the Department puts together the budget 
over the course of the year and for DOE to work with the 
office, to work with OMB so many things are considered as we 
are working towards that, the budget process.
    Mrs. Kirkpatrick. Well, I just really have a concern about 
these enormous cuts. How can we ensure that renewable energy 
technologies can continue to develop and advance in light of 
these cuts?
    Mr. Simmons. Well, I mean, that one thing about the cuts 
too is that this budget is very similar to the budget that has 
been in terms of size, is very similar to what has been 
proposed over the past few years and we have seen--and as 
Secretary Perry noted, it is the beginning of the process, it's 
not the end of the process as Representative Simpson noted.
    EERE has very robust funding currently under current 
appropriated amounts and it is a back and forth and this is the 
beginning of the beginning of that process. We look forward to 
executing on the funding as appropriated.
    Mrs. Kirkpatrick. Thank you very much. Again thank all of 
you for being here and I yield back.
    Ms. Kaptur. Thank you very much. Congressman Fleischmann.
    Mr. Fleischmann. Thank you, Madame Chair and Ranking Member 
Simpson for having this hearing today. And to each and every 
one of the assistant secretaries, thank you all for being here. 
Please convey my warmest regards to Secretary Brouillette. He 
did an outstanding job, very thorough, thoughtful last week 
when he was before us.
    As each and every one of you all know, I represent Oak 
Ridge. A great reservation, birthplace of the Manhattan Project 
and today leading in so many areas and it is a privilege to 
represent them in the House.
    My first question, Secretary Gates is for you, sir. 
Protecting our energy sector from cyber attacks is something 
that is a constant concern to me. Particularly the impact that 
bad actors could have on the grid.
    I recognize this committee's responsibility to provide 
support for the Department to ensure it has what is need for 
these programs. In particular, I have been very supportive of 
the Dark Net project which is a collaboration between the 
electrical power board in Chattanooga, Oak Ridge National Lab, 
university and industry.
    Dark Net is exploring ways to get critical infrastructure 
off the public internet and an important goal that aligns 
directly with this National need.
    My question, sir, is in your view, what additional 
resources might be needed for Dark Net to achieve this 
challenging goal, sir?
    Mr. Gates. Congressman, thank you for the question. Instead 
of going head on to the additional resources question, I'd like 
to cast a broader net on the challenge that we face with such 
projects, finding solutions with collaborations that are 
essential, national labs, industry that provides the expertise 
and then the DOE experience.
    Is that taking a result and operationalizing it in the 
sector is where the big challenge is going to hit us. How do we 
do that with contribution from the government and the essential 
support and adoption from the sector and what is that going to 
cost us?
    That is something I'm meeting frequently with Assistant 
Secretary Walker and looking at the challenges, what happens 
when we have success? What happens when we have the silver 
bullet? How do we actually make that impactful in the sector? 
That's one of the challenges we face.
    Dark Net is a great project. Those are the types of 
collaborations we need. We have them in other parts of the 
country with other labs and they're just essential because of 
the expertise that's necessary for us to find those tough 
answers.
    Mr. Fleischmann. Thank you, sir, appreciate your response. 
My second question deals with nuclear energy, it's directed to 
Assistant Secretary Baranwal.
    Madame Secretary, Oak Ridge National Lab has long 
established record in developing nuclear energy technologies 
and for the past 75 years has been bringing innovation in 
nuclear energy to the forefront from advanced reactor 
technologies to materials to manufacturing.
    In fact, bringing those examples together, ORNL is applying 
its broad expertise to a project called the Transformational 
Challenger Reactor or TCR that will help the nuclear industry 
with some of its greatest challenges and opportunities in cost, 
innovation, advanced materials, and deployment. ORNL's core 
research capabilities in material science, high performance 
computing, and nuclear engineering are being joined with unique 
tools and expertise at the lab's Manufacturing Demonstration 
Facility to demonstrate a revolutionary approach to reactor 
design and manufacturing that will ultimately lead to the 
deployment of new systems. My question is--I would--first of 
all, I would like to thank you for funding the TCR in the 
fiscal 2021 budget proposal, but I would welcome any thoughts 
that you might have on this project, and I look forward to 
working with you.
    Ms. Baranwal. Thank you for the question. As a materials 
engineer, this project is of great interest to me. I did get 
the chance to visit Oak Ridge last year and get an update on 
the project. They are making good progress, and if--as they 
proceed down their schedule. As you mentioned, advanced 
manufacturing is certainly one area that they are using in this 
project; digital predictive analysis is another one. And those 
two technological advances combined together will lead to 
advanced design and acceleration of new reactor concepts, new 
fuel types, and, so, I am very much looking forward to seeing 
this, seeing the outcome of this project.
    Mr. Fleischmann. Thank you for your answer. I believe my 
time is up, so, I will yield back, Madam Chair.
    Ms. Kaptur. Absolutely to the second. Thank you. 
Congressman Pocan?
    Mr. Pocan. Yep. Thank you, Madam Chair. I appreciate it and 
thank you all for being here.
    Assistant Secretary Simmons, I think my questions are 
probably more to you. So, I am going to go back to what 
Representative Kirkpatrick was talking about on the wind and 
solar cuts. They are pretty massive. I heard your answer, but I 
did not really hear a real answer to the question. I heard what 
you said, but my concern is coal and 8\1/2\ kilowatts of solar. 
I just checked my monthly bill, this month is $23.55. Take 
that. It is a good deal. Next month will be the cheapest. It is 
usually around $8, when I get to the sun that we get from this 
next period. It was a $23,000 investment for 8\1/2\ kilowatts. 
So, for most people, with some incentives, there is an 11-year 
payoff. It is not a great payoff. I am not a great investor, 
but I did it for other reasons. That is that second and third 
stage investment that you are taking away. You are still 
keeping the early stage R&D, but we need to get some of those 
ideas practically going to the market. And, as the chairwoman 
said, the companies are saying they do not have the resources 
to do that. So, if the companies cannot take an idea that may 
be too costly to put out there, and you are now taking away the 
research dollars by 76 percent for solar and 79 percent for 
wind, we are, basically, not taking--as a frugal Wisconsinite, 
you are not taking this great free resource of the sun or wind, 
and we are not really capitalizing on it.
    In addition, in Wisconsin, until our last governor got rid 
of some tax credits we had, we used to make windmill blades 
because you cannot take them real far away. That was a lot of 
good-paying, family-supporting jobs. Same thing with solar 
cells, we could be making that here. So, there is a lot of 
reasons why that the stages, the funding that you have taken 
away, mean real jobs and real applications and real savings in 
places like Wisconsin. So, I just would really--have a little 
better understanding of why those are the areas that you cut, 
and why you think that those are not important.
    Mr. Simmons. The theory of the budget, the theory of 
focusing on early stage research and development is because 
that is the most appropriate Federal role, to focus on areas 
that are precompetitive, so that everyone may benefit from that 
research, because as we get to later stage research, it can get 
into one proprietary technology versus another one. So, what 
the budget is focused on is research that benefits, we believe, 
all parties or all parties as much as possible. So, that is why 
the budget is focused on early stage because it is the most 
appropriate role for the Federal Government.
    Mr. Pocan. Yes, but I would argue, I mean, I do not think 
it has to be proprietary at all going into the second and third 
stage, and if you really want to see solar cells go on roofs' 
tops, we have to bring the cost down a little more. The cost 
has been coming down, but part of it is helping find ways to 
use these technologies. That is the very money that you are 
taking away. So, then it makes even less sense to have early 
stage development, if you are skipping the middle of the actual 
practical application of whatever idea you are coming with. 
That is why I think it is kind of--that is why you have to have 
all stages to actually make this become a reality and so we can 
all save money, as frugal Wisconsinites and other folks, who 
want to make sure that we are paying $23.55 in our monthly bill 
or less.
    I just do not know if the logic holds out, that you are 
going to invest in the early stage, but then not actually in 
making sure those technologies actually go to market and can 
have a practical impact.
    Mr. Simmons. So, one thing to note, or one important thing 
to note, is that every year, OMB puts out a memo on research 
and development. And one of the things that it says in that 
memo is that part of our job is to focus on early stage, but 
then to make sure that we are partnering as much as possible 
with the private sector to advance the technologies forward, 
the later stages of research and development are appropriately 
the role of private parties. But what--I think what gets missed 
is that it is an important part of our role to make sure that 
we are partnering with the private sector as much as possible. 
That is an important part of the budget, an important part of 
the theory of the budget, to have a focus on early stage 
research and development. Now, obviously, there is a differing 
opinion, so, it is why we are here today.
    Mr. Pocan. I will take that as OMB, but I made the mistake, 
and maybe we will continue this part of funding that might make 
some sense. Real quick, in my final seconds, you have a 
plastics innovation challenge in here, and University of 
Wisconsin-Madison is using a lot of biomass right now and doing 
some things, coming up with plastic alternatives. Do you 
believe that the future of plastics should focus on bioenergy 
rather than fossil fuel-derived materials?
    Mr. Simmons. We do not know. The point--and the point of 
the plastics innovation challenge is to reduce plastic waste 
and to do it by whatever means necessary. That includes, like, 
because the Bioenergy Technology Office, which includes work on 
bioproducts, is one of the offices in the Office of Energy 
Efficiency and Renewable Energy. We believe that there is a lot 
of opportunities for biobased pathways, both for bioplastics, 
but also deconstructions of plastics using biopathways. We 
think that there is a lot of opportunities, but there is also a 
lot of opportunities to do it with mechanical and other 
chemical methods. So, let us look at everything because the 
plastics challenge is a significant challenge, and we want to 
keep all of our options open.
    Mr. Pocan. Great. Thank you very much. I yield back.
    Ms. Kaptur. Congressman Newhouse?
    Mr. Newhouse. Thank you, Madam Chair. You had to think 
about that. I appreciate it. Welcome, everybody. I appreciate 
you being here, and as you can tell, there is a lot of interest 
in the administration's budget. Most conversations, I am sure, 
will continue, but I wanted to focus on a couple of other 
things.
    First of all, Assistant Secretary Walker, welcome to you, 
good to see you. I want to express my appreciation for the--
your office's strong investment that you are proposing to make 
in the Grid Storage Launchpad at the Pacific Northwest National 
Laboratory. The Secretary was in last week. We had a good 
conversation, and as we talked with him, expressed to him the 
Tri-Cities is very, very excited about the--playing a central 
role in this critical infrastructure. So, I want to express 
that to you, as well.
    We also talked about the importance of the storage for 
integrating the more--the renewable energy on the grid, and, 
certainly, that is an important part about this technology, but 
I know that you are also interested in protecting our defense 
critical infrastructure. And, so, we have a lot of that in the 
State of Washington, but also around the country. Could you 
speak to the role that you see the grid storage launchpad and 
the energy storage technologies, in general, that will play in 
the--that critical national defense mission?
    Mr. Walker. Absolutely, and thank you for the question. I 
think storage is one of the--and we have heard people talk 
about it as the Holy Grail of the system, the Swiss Army knife 
of the electric grid, and, in fact, it is both of those. As an 
operator, who operated the system for 20 years, storage is one 
of those tools that you have in your tool chest that enables 
you to use it for different purposes when you need it. We are 
focused on megawatt scale, electric bidirectional storage 
because it provides a number of ancillary services on the grid 
that are significantly important when you talk about resiliency 
in the grid. So, when you speak about frequency control, 
voltage control, voltage support, black start, whether it acts 
as a loader or whether it acts as a supply, storage has the 
ability to provide all of those capabilities into the grid. And 
by virtue of being a stabilizer in the grid, it also 
facilitates the further integration of renewable technologies 
comingled with existing traditional generation on the system. 
So, storage is really the tool that is going to enable us to 
move forward, to meet things, like RPS standards, to increase 
national security.
    One of our keen focuses is on the national security, 
particularly the critical defense facilities and the associated 
defense critical electric infrastructure that feeds those 
facilities. And when you look at megawatt scale storage, it has 
the opportunity to be placed strategically in the system, which 
is why we are building the North American Energy Resilience 
Model to identify where those points are. And by placing it 
strategically in the system, we have the ability to secure 
those areas, whether we couple it with things like microgrid, 
other renewable technologies, and existing infrastructure on 
the grid, that security is something that, really, cannot be 
matched by anything else. And it is really part of the backbone 
of why Secretary Brouillette announced the Energy Grid Storage 
challenge, and it is the cornerstone of the building of the 
Grid Storage Launchpad that you mentioned. Pacific Northwest 
National Lab, where we have the opportunity to really 
accelerate through collaboration, validation, and coordination, 
amongst 25 to 35 different labs and universities, led by the 
national labs, PNNL, and, most importantly, and the reason PNNL 
really became the best choice for us, as we had to go through 
the CD-0 and the CD-1 analysis, is last year we opened up the 
Chemistry Center.
    And about 2 years ago, we made a huge change in our 
portfolio for energy storage, and rather than focusing on rare 
earth mineral technology, things like vanadium and lithium, we 
took a look at opportunities to use rare earth minerals that 
are ubiquitously available and cheap in the United States. And 
to that end, we are now using redox equation flow batteries and 
being able to leverage the chemistry capabilities of PNNL. And 
the new chemistry lab enables us to reach that megawatt scale 
storage in a very, very short period of time. While we are 
focused on that, we are also focused on things like sodium and 
manganese for use in that storage technology, again, highly 
available. We can build megawatt-scale storage off them, and we 
will have the capability to use them, not only for national 
security, but for further integration of different types of 
technology into the system. So, thank you for the question.
    Mr. Newhouse. Yep. Thank you very much for that complete 
answer. Like I said, we are very excited about being involved 
in this critical technology. development that will benefit 
for--us for decades to come.
    Mr. Walker. Absolutely.
    Mr. Newhouse. So, thank you very much. Madam Chair, I yield 
back.
    Ms. Kaptur. Thank you. Congresswoman Wasserman Schultz?
    Ms. Wasserman Schultz. Thank you, Madam Chair. Assistant 
Secretary Winberg, the Office of Fossil Energy has launched a 
Coal FIRST Initiative, which I think has been alluded to here, 
to support research designs of the coal plant of the future, 
which seems like an oxymoron, and the request includes $172 
million in fossil energy to support Coal FIRST.
    Let us consider these facts. In the U.S., electric-
generating capacity from coal plants has declined by 25 percent 
in the last decade, and the Energy Information Administration 
expects coal-fired capacity to decrease another 46 percent by 
2025. Globally, coal-fired energy will decrease 13 percent 
between now and 2050, according to the U.S. Energy Information 
administration at DOE, despite expected growth in overall 
electric generation. So, clearly, we are looking at a future 
without coal, or with certainly less coal, not more coal.
    So, it begs the question, is DOE starting a new billion-
dollar research initiative for coal plants instead of focusing 
on the necessary technologies of the future, like renewables 
and energy storage? And why embark on Coal FIRST when you 
propose to cut EERE by 74 percent? It seems like you are 
investing in the past rather than the necessary future.
    Mr. Winberg. Thank you for the question. I think it is a 
response-rich question, and I will try and hold my answer down 
to 3\1/2\ minutes.
    Ms. Wasserman Schultz. I have another question. So, I 
appreciate that.
    Mr. Winberg. The fleet is aging. The coal fleet is aging, 
and there is no question about that. Part of DOE's 
responsibility is to look out over the horizon, and what 
happens if gas prices go to $5 or $6 or maybe $7? And we have 
been there before on a number of occasions. So, what we are 
proposing is a 21st century coal plant of the future. This is a 
plant that will have near zero or even zero emissions or, in 
some cases, negative emissions.
    And to your question why do it----
    Ms. Wasserman Schultz. Right, but if I can interrupt you 
and ask you, for a moment, just to stick more closely to my 
question. I know what you are doing. I just do not understand 
why because you are dealing with a finite resource, as Mr. 
Pocan referenced, and you are proposing to cut, which we are 
not going to do, quite frankly. We did not do it last year. We 
are not going to do it this year. Why embark on Coal FIRST, 
when you are proposing to spend a billion dollars on a finite, 
old-school energy source that is not renewable instead of 
making sure that we can invest in renewable energy, that is 
less expensive and more plentiful going forward in the future?
    Mr. Winberg. Well, coal reserves in the United States are 
about 400 years. So, that might be finite, but it is pretty far 
out in the future.
    The second reason is that this is not a State problem. This 
is not a country problem. It is a global issue. If you want to 
reduce greenhouse gas emissions, and we have countries all over 
Asia, all over Africa, that are building coal-fired boilers. 
They are going to have a life of 40 or 50 years, and they are 
using 1970s vintage technology. So, what we are proposing is 
the coal plant of the 21st century because these communities, 
these countries, these regions will continue using coal for 
decades to come, and they are----
    Ms. Wasserman Schultz. Thank you. Focusing on the United 
States' priorities, it makes a lot more sense over the long 
term to invest in renewable energy, not finite energy, in clean 
energy, not dirty energy. So, thank you for your response to my 
question.
    I want to follow up on the Plastics Innovation Challenge 
because it certainly seems promising, but I am concerned about 
the Department's partnership with the American Chemistry 
Council, whose members include several petrochemical companies. 
This partnership seems to represent an inherent conflict of 
interest. These are companies that profit from making more 
plastics. If we actually solve the plastics problem, we likely 
will put them out of business. That is certainly not in their 
interest. So, how is your partnership with them not a conflict?
    Mr. Simmons. So, the reason that we partner with them is 
because they are the manufacturers, and they have the knowledge 
about plastics and they understand plastics better than anyone 
else, currently. And so, to be able to make sure that we are 
advancing the state of the art to take today's bottles and to 
be--to do a much better job recycling them, not--I mean 
bottles. That is what is right in front of me, but there is 
plastics used for a lot of things, taking today's technology, 
but also to advance the state of the art, and what those----
    Ms. Wasserman Schultz. Mr. Secretary, how can we ensure 
that these chemical producer partners are going to act in good 
faith during this challenge since it is not really in their 
interest?
    Mr. Simmons. We cannot. You know, we do not know how they 
are going to act. The Federal Government is focused on reducing 
the, you know, reducing plastic waste.
    Ms. Wasserman Schultz. So, you are not concerned about the 
fact that they could not act in good faith while--during your 
partnership and not make sure that we have plastics that are 
actually naturally renewable, as you referred to in your 
opening statement?
    Mr. Simmons. Obviously, cannot tell these companies what to 
do. We will work with whomever, you know, whoever we can work 
with to get the knowledge necessary to move to a better 
plastics future. I mean, that is our goal, is to be able to get 
the most knowledge that we can, so that we can do a better--so 
that we can do a better job with plastics.
    Ms. Wasserman Schultz. Madam Chair, I would just suggest 
that as you prepare your mark, that we make sure that the 
Department has to consider whether the plastics industry 
actually is acting in good faith since they do not appear--
since they have acknowledged here today that they do not know.
    Ms. Kaptur. I thank you for your recommendation, 
Congresswoman. And we will now turn to Mr. Kilmer.
    Mr. Kilmer. Thanks, Madam Chair. Assistant Secretary 
Simmons, let me start with you. I mentioned to the Secretary 
last week that I appreciated you coming out to Sequim, WA, to 
the Marine Sciences Lab in person. Thank you for that. Having 
seen it firsthand, I know you recognize that it is a first-
class asset and an important asset and a unique asset for the 
Department.
    As you know, the Water Power Technologies Office provides 
the single largest source of DOE funds to support the R&D 
efforts at the Marine Sciences Lab, which are a critical part 
of the--powering the Blue Economy Initiative, which is focused 
on new marine renewable energy technologies that can be helpful 
to remote communities and ocean-based industries. I am really 
grateful to the chair and the ranking member and this committee 
because they have shown support for that initiative in the last 
fiscal year. That resulted in a number of funding 
opportunities, including the ocean observing prize announced 
jointly with NOAA. Can you speak to that dual role that marine 
energy innovation can play in both developing new resources of 
clean energy while also improving our ocean observing 
capabilities, and how the R&D of these technologies led by the 
Marine Sciences Lab is critical to meeting DOE scientific and 
defense missions?
    Mr. Simmona. Sure. Thank you very much, I am grateful that 
I had the opportunity to get out to Sequim Bay and to see the 
lab and to see the work going on there.
    One of the things that I am excited about is the idea of 
the Powering the Blue Economy initiative. Because when you look 
at marine energy, it is incredibly difficult to think about 
wave or tidal energy competing in any significant way with wind 
or solar in the near term. And so what we are trying to do 
there is to look at new opportunities for these technologies so 
that we can get them deployed in some way and so that we can 
iterate on the technology and advance the technology because if 
what we have to do is to build a large device and to ship it to 
Hawaii, which is where there is a big wave device currently, 
actually there were issues transporting it to Hawaii and it was 
damaged. And so anyway, it is really challenging and so we are 
not getting a lot of learning by doing. With the Powering in 
the Blue economy and looking at ways to have for things such as 
sensors and floats and how do we use wave energy and the energy 
of the ocean to power those I think is a critical area and it 
is why I am very happy we are able to join with NOAA in putting 
together the ocean observing challenge, because it is very much 
what NOAA's mission does.
    And so the Marine Sciences Laboratory is a key piece to 
help us in that because they understand, well it is DOE's only 
marine laboratory and so they have a lot of capabilities. So 
there is, I think there is great opportunities there and 
looking at some non-traditional ways to think about marine 
energy that we haven't really thought about before by exploring 
all the opportunities, and as we are working to advance slowly 
the wave and tidal energy.
    I am sorry, I hope that answered your question.
    Mr. Kilmer. I think it is a terrific assets, and so we are 
constantly looking at how do we make sure that it is getting 
properly leveraged. So thank you for that.
    With the time I have left, Mr. Gates, I know some of my 
colleagues already asked about concerns around cyber security. 
I just want to get a sense from you, do you think that the 
department has the resources it needs from a financial 
standpoint, from a personnel standpoint, from an expertise 
standpoint, to fulfill its responsibilities of ensuring 
reliable and resilient energy infrastructure?
    Mr. Gates. Thank you for the question congressman. I 
believe the department is in the same place that many 
organizations that are concerned about cyber security are, they 
are competing for talent. They have plans, we have plans in a 
direction for acquiring more talent. I think we are well within 
the budget to be able to achieve our goals for having the 
workforce we need to accomplish our mission.
    But make no mistake, it is a competitive environment. 
Everyone has cyber security, all the agencies, all the 
partnerships we have, which are pretty good when it comes to 
organizations like CISA, organizations like FERC and NERC, 
people we are dealing with, organizations within the community 
who have the same care abouts we do.
    But I think we, within the existing budget will be able to 
achieve our goals when it comes to talent.
    What that does for the next 5 years, looking forward, 
looking at where cyber is across not only the energy sector but 
all others and what's happening in the universities, what's 
happening in the sector, it is going to be a very competitive 
environment and it is something we are keeping an eye on to 
make sure we have the talent we need to do the job.
    Mr. Kilmer. Thank you, Madam Chair, I yield back.
    Ms. Kaptur. Thank you very much, Congressman Kilmer. 
Assistant Secretary Simmons, in this area of climate change and 
significant agricultural losses, in October the department 
signed a Memorandum of Understanding with the Department of 
Agriculture to jointly increase, and I quote ``Energy, 
technology, development, and deployment'' for, and this is not 
in the actual memorandum, but for climate controlled and 
affordable energy for agricultural production across our 
country.
    I have advocated for this type of interdepartmental 
collaboration for years, and frankly I am relieved to see some 
progress here. But I am concerned that the working group's 
mission is rather broad and unfocused.
    So I wanted to ask a couple questions. What accomplishments 
have the interagency working group achieved since October? For 
example, the department's expertise in energy efficiency for 
industrial processes, lighting, and water systems, and energy 
and materials science, in particular, can benefit climate 
controlled greenhouses and 4 season production platforms. I 
think we have to move into that as a country in view of what's 
happening in different regions. How will the Department of 
Energy work with the U.S. Department of Agriculture to develop 
and deploy affordable technologies to produce in agriculture 
across our country under this Memorandum of Understanding?
    Mr. Simmons. I will talk about what we are doing, also the 
Office of Fossil Energy is also working with the USDA on this 
MOU, and so I will make sure to, if that is OK, to have 
Assistant Secretary Winberg also answer that question.
    So it is a rather new Memorandum of Understanding. One 
concern, we have not looked at anything around greenhouses yet.
    Some of the potential work we will do is on say 
photovoltaic solar and agriculture, how they can co-exist. 
Because currently a lot of PV solar is just you essentially 
bulldoze the field and put in solar panels. And what are the 
other opportunities that we can do to have to have some 
agricultural uses of that land?
    Also in areas with wastewater treatment. Because rural 
areas is very much what USDA works on and looking at improving 
wastewater treatment through increasing the energy efficiency, 
increasing the wastewater recovery of wastewater treatment 
facilities, particularly from small and medium sized 
facilities. You can do it here in the district, for example, at 
wastewater treatment at DC Water because it is gigantic, but 
being able to downsize those technologies to really help 
improve the economics of smaller scale wastewater treatment, 
hopefully we will be able to work with USDA on that. And I will 
let Assistant Secretary Winberg add any additional color from 
FE's perspective.
    Mr. Winberg. Thank you. The MOU that we signed, in fact 
next week we are going to be having, I think it is next week, 
maybe the week after, we are going to be having a joint 
workshop to look at power generation and agriculture needs. It 
is the energy/water nexus that we are focused on. And the USDA 
has a Natural Resources Conservation Service which has a budget 
of about $4.5 billion, and they work with private individuals 
looking at conserving water. So we have the power plants that 
might be in water restricted areas, and we are evaluating ways 
to reduce water consumption on those power plants so that we 
are not sacrificing irrigation for power or vice versa.
    And I think that the combination of DOE and agriculture is 
a good opportunity for us to share our knowledge, especially 
across those two vital areas, again, irrigation for agriculture 
and water for power.
    Ms. Kaptur. We are so happy to have your focus there. I 
think it is going to take both departments to really lead 
America forward in this really important arena.
    I come from a region of the country where because of our 
fresh water systems, we have had historic greenhouse industry 
production, oftentimes 43 percent of their bottom line is 
energy from traditional sources. And with a little material 
science and with a little thoughtfulness, I think you could get 
that way down. And you could provide a boost to American 
producers who are finding themselves facing more imported food 
for different reasons, particularly the fruit and vegetable 
sector.
    But I really think a blending of your knowledge on material 
science, energy science, water science, and the Department of 
Agriculture's abilities in production agriculture could be most 
interesting. There is just tremendous opportunity for 4 season 
production with inputs carefully controlled for the west, the 
dry west. It also has potential. When you talked about water 
conservation.
    But I think the envelope and the integration of systems is, 
I don't think we have had a revolution there in half a century, 
and it really could be a tremendous gift you could give the 
country if you could push that research.
    I also wanted to say in terms of methane digesters, many of 
our large animal facilities can't find a methane digester that 
doesn't break down. Department of Agriculture doesn't seem to 
be able to solve that problem. Maybe you could help them.
    But if you look at kind of the blending of agriculture and 
energy it is just ah.
    And I will just say this for the record because I have been 
around here a while. We actually, I was there when we wrote the 
first provision in an appropriation bill in the late 1990s to 
move the Department of Agriculture into fuels. They didn't want 
it. So you didn't exactly have, we wanted to add food, 
forestry, and fiber, so you could add a fourth F to your stool, 
it was going to be called fuel on. Now you can't take it away 
from them. So you can't exactly say they had vision themselves 
over there. But now it has become a very important element of 
our way of life. And frankly, didn't take that long when you 
look at some of the other things we are working on.
    So I just wanted to put that one on the table for you. And 
believe me, you have the interest of this member in your work 
in blending your dual capabilities as to a very important 
department to our country.
    I am going to let Mr. Simpson put in his question now.
    Mr. Simpson. Assistant Secretary Baranwal, HALEU Fuel is 
required to operate most types of advanced reactions under 
development in the United States, but no commercial source 
currently exists. This committee has prioritized a recovery of 
HALEU from spent nuclear fuel owned and managed by the 
Department of Energy at the Idaho National Lab. Additional 
recourses have been provided to scale at processing to a high 
enough rate to meet projected needs for first movers.
    Are there other steps the department can take to support 
these first movers while demand for commercial product 
materializes, and secondly, the recovered HALEU will still need 
to be converted into actual fuel for these reactors. What can 
the department and the INL do to help convert HALEU into fuel 
for first time movers and spur private sector development.
    Ms. Baranwal. Thank you for the question. Within the $12 
million that is currently requested in the fiscal year 2021 
budget for material recovery and waste form development, the 
top priority is accelerated recovery and downloading of EBR to 
spent fuel in support of the high-assay LEU supply for first 
movers.
    The objective is to provide up to 5 metric tons of fuel 
feed material by the year 2023. And it certainly is responsive 
to the expressed interest of private industry that has 
demonstrated and expressed an interest at this time for that 
type of fuel feed.
    Mr. Simpson. The budget request includes $295 million to 
continue development of a versatile test reactor which will 
operate as an open access user facility for DOE national labs. 
This type of research infrastructure is a critical part of the 
government's effort to facilitate the development of new 
nuclear technologies, as currently the only availability for 
civilian research is actually in Russia.
    Can you please discuss what the recently announced GE, 
Hatachi and Terra Power collaboration means for the versatile 
test reactor, both problematically and budgetary? And are there 
additional opportunities to work with the private sector or 
with international partners who also would benefit from a fast 
neutron test reactor? And are there other steps the department 
is taking to ensure timely project delivery?
    Ms. Baranwal. Yes. So in November of last year I announced 
an expression of interest for private/public partnership that 
you alluded to. GE, Hitachi, and Terra Power have been some of 
the entities that had applied to that expression of interest. 
Others have as well. And what we are doing at the moment is 
inviting those entities that have submitted to the EOI to 
submit for a request for proposal. So that is part one of your 
question.
    With respect to international interest, we actually did 
receive substantial international entity interest as well. At 
the moment though, we have collaboration agreements with the 
countries of Japan and France to work together on the VTR, and 
so we are looking forward to that as well as if there are other 
international collaboration opportunities we will certainly 
entertain those as they come along.
    And then you had a third part to your question.
    Mr. Simpson. The third part was are there other steps that 
the department, let me find it here.
    Ms. Baranwal. Was it on schedule, ensuring that we stick to 
a schedule.
    Mr. Simpson. Are there other steps the department is taking 
to ensure timely project deliver.
    Ms. Baranwal. Right. And so we do have periodic schedule 
reviews. There is actually an internal peer committee that does 
reviews to make sure that progress is being met on the 
projected schedule and budget, as well as lab director reviews. 
And so those are the types of mechanisms that we are using to 
ensure delivery on time.
    Mr. Simpson. OK, thank you. Assistant Secretary Walker, 
this is the fourth year in a row that the administration has 
proposed to sell the transmission assets of three Federal power 
marketing administrations and change the current cost-based 
rate structure for all 4 of the PMAs. By statute, the power 
marketing administration's market power generated at Federal 
hydropower dams, at the lowest possible rate to consumers 
consistent with sound business principles. This means rates are 
set to cover the cost of the initial Federal investment, 
ongoing operations and maintenance and interest.
    Since ratepayers are paying all costs already, why is the 
department proposing to change the rate structure? And is this 
an attempt to privatize the PMAs?
    Mr. Walker. I support the administration's position with 
regard to the potential sale of the PMAs, and as always will 
execute the will of Congress. We continue to evaluate and look 
at ways to provide best opportunity for customers, and we 
believe the sale of the PMAs may in fact do that.
    Mr. Simpson. Appreciate that. And I am not sitting here as 
one who is going to fight to the death to avoid that from 
happening. I would just like to know why there is a benefit to 
it, and if there is a benefit to it. And so far nobody has been 
able to tell us exactly what the benefit would be from 
privatizing the PMAs. So we will talk about that I am sure much 
in the future.
    Thank you, Chairwoman.
    Ms. Kaptur. Thank you, Mr. Simpson. Congressman 
Fleischmann.
    Mr. Fleischmann. Thank you, Madam Chair. I just have one 
further question.
    This is to Assistant Secretary Simmons on advanced 
manufacturing, sir. The Manufacturing Demonstration Facility at 
Oakridge National Laboratory is very successful, it is a 
public/private partnership for the rapid development of 
advanced manufacturing technologies. It is successful because 
it enables industry to access first of a kind manufacturing 
tools and systems, as well as staff with advanced manufacturing 
expertise.
    Companies that come through the MDF, and sometimes relocate 
near the MDF, have the desire to work side by side with these 
experts and leverage the lab's unique tools and systems to 
improve their products and productivity in ways that will 
revitalize and grow U.S. manufacturing. In a global economy 
that can be disrupted at any moment, it is more important now 
than ever that this type of research and development and 
deployment should receive strong support from DOE as well as 
Congress.
    My question, sir, is, what is the biggest obstacle to 
ensuring that the U.S. remains a leader in advanced 
manufacturing, and what more can be done through facilities 
like the MDF to provide opportunities for industry to directly 
engage the lab's experts and unique capability, sir?
    Mr. Simmons. We do manufacturing in the United States so 
that we continue to have manufacturing in the United States. 
And I realize that it sounds maybe like a bit of a tautology, 
but it is.
    A couple months ago I visited Florida to Jinko Solar, that 
has the new solar module manufacturing facility outside 
Jacksonville, Florida. And Jinko is the world's largest solar 
producer, they are based in China. One of the things that they 
said is that if this facility had been built in Asia they could 
have built it in a month. It sounded great that they had built 
this facility in six months in Florida, that sounded really 
fast. But it just goes to show you the manufacturing challenge 
of manufacturing in the United States versus Asia.
    And so we need to have advanced manufacturing that can be 
that responsive. Because they were able to build it that 
quickly in Asia because of lower labor standards and lower 
labor costs. And we are not going to change our labor 
standards, we are not going to reduce our worker safety 
standards so that we can do that. So it is critical that we 
acknowledge the technological edge and that we keep 
manufacturing so that we keep the people, the workforce, with 
the expertise. And one of the great things about being able to 
locate, to have a facility like the MDF is--and you have people 
locating around the MDF is you have a lot of knowledge and a 
lot of expertise, and so you have like a conglomeration economy 
so that the sum is greater than the individual parts. And the 
MDF is a great facility. Over 5,000 companies have visited the 
MDF.
    We will continue to fund the MDF as long as we are 
appropriated money because of advanced manufacturing is going 
to be the type of manufacturing that we have in the future in 
the United States, and it is critical that we keep it because 
once it is gone, it is very difficult to bring back. And the 
MDF is a great example of a bright spot in American 
manufacturing.
    One example that you see at the MDF is in terms of 3D 
printing, 3D printing in metals. And with people from the MDF, 
I have visited near Cincinnati the GE Additive facility. And 
one of the great things that you see there is a part of an 
engine, an airplane engine, I think this is a turbo prop 
engine, that was 300 pieces originally, 300 individual pieces, 
but now it is a single piece that is additively printed. So, 
being able to make sure that we have that knowledge in the 
United States is critical and the MDF is one key way to bring 
that knowledge and to keep it here.
    Mr. Fleischmann. Thank you, Mr. Secretary. Madam Chair, I 
yield back.
    Ms. Kaptur. Thank you, Mr. Fleischmann. I wanted to turn to 
the subject for a second here on renewable energy jobs. 
Assistant Secretary Simmons, you mentioned--well, we have 
talked a little bit today about solar in panels, but solar 
voltaic installers are expected to be the fastest-growing 
occupation in the country this year with the median pay at 
nearly $43,000 a year. These are really good paying jobs. And 
wind turbine technicians are the second fastest occupation, 
think about that, with a median pay at over $54,000 a year.
    Clean energy jobs are on the rise fueling a new clean 
energy economy. However, your budget request eliminates 
programs like the Solar-Ready Vets Program designed to support 
this growing clean energy economy. At the same time, there is a 
skills gap. So, we need this workforce but there are not enough 
skilled people to fill these jobs. Given the skills gap, why is 
the Department proposing to eliminate important workforce 
programs? And what more can the Department do to train the 
workforce that is needed to fill these jobs?
    Mr. Simmons. EERE very much has a strong interest in 
developing and maintaining a strong and well-trained workforce. 
As I just mentioned in the answer to the previous question that 
one of the challenges, for example, that I saw in Florida, that 
Jenco Solar said, is just that in Asia they do not have to 
train their workers nearly as much as you need to in the United 
States for modular manufacturing because they come from other 
modular manufacturers currently and because we do not have very 
much solar modular manufacturing in the United States 
currently. That is some expertise that has been lost, but is--
hopefully, will come back some.
    We are preparing to launch in the next couple of weeks from 
funds appropriated for fiscal year 2020, a $20 million 
partnership to pursue leading-edge interdisciplinary, there we 
go, interdisciplinary research that promotes workforce 
development in emerging fields by supporting a coordinated 
expansion of existing joint graduate education programs with 
national laboratories for next generation scientist and 
engineers.
    The Department recognizes that the workforce of the future 
is very important and that is in the appropriated monies that 
we have, and we will continue to execute on that as 
appropriated. But the Department takes the workforce challenge 
seriously.
    Ms. Kaptur. So, I just wanted to point out to you that some 
of these positions are not Ph.Ds., but they are--they do 
require great skill. A lot of times veterans, just as the 
electric-generating companies, know not everybody can crawl up 
on a pole that, you know, 80 feet high, and the same is true 
with wind energy. And these are skills, manual skills that 
require a great deal of intelligence so you don't electrocute 
yourself, so you need training and workforce development. And 
it isn't just the Ph.Ds. doing some of the research into the 
future, but I hope that you focus on some of the capabilities 
that we have had before this very committee and make linkages 
there as well. We are talking about solar installers, we are 
talking about wind turbine installers. Imagine, the country 
doesn't have enough of them, and I am talking about thousands 
and thousands of jobs. So, I hope that your inquiry leads you 
there.
    Mr. Simmons. OK.
    Ms. Kaptur. And I am glad we have had this discussion. And 
I wanted to ask a question also on your hiring practices. The 
2020 appropriation bill provides a significant increase to your 
program direction with the expectation that the office achieve 
a full-time equivalent staffing level of at least 675. I know 
you are making progress on that, but remain concerned that the 
Department is filling career positions with political 
appointees.
    Most recently, Assistant Secretary Simmons, you filled a 
senior level position in your office traditionally held by a 
highly qualified career civil servant with a political 
appointee who not only has very little relevant experience, but 
once advocated for the office's closure. Are you having 
difficulty finding qualified civil servants to fill your 
vacancies? And will you commit to me here that you will stop 
converting career positions to political positions?
    Mr. Simmons. The Department is focused on executing our 
mission, and it will always be a combination of career and 
political appointees to be able to carry that out. In all 
offices there are, around DOE, there are deputy assistant 
secretaries that are a mix of political and career. What 
matters is executing on the mission and putting together the 
team that can best achieve that, and that is what our goal is, 
that is what our goal is staffing.
    Ms. Kaptur. So, you are not prepared to commit to me today 
that you will not convert career positions to political 
positions?
    Mr. Simmons. Well, the challenge there is what is what is a 
political position versus a career position? I am not sure what 
the distinction is, so that is not something that I could 
commit to do until we understand that.
    Ms. Kaptur. Well, I ask you to follow up for the record.
    Mr. Simmons. Sure.
    Ms. Kaptur. Thank you. Congressman Simpson.
    Mr. Simpson. Thank you, just a couple more questions. 
Secretary Baranwal, as you know the Idaho National Laboratory 
recently launched a National Reactor Innovation Center, or 
NRIC, which will provide private sector technology developers 
support to accelerate the testing and demonstration of new 
nuclear systems for eventual licensing in commercialization. 
How will the Advanced Reactors Demonstration Program complement 
the work of NRIC? And how can NRIC help increase the impact of 
the demonstration programs in commercializing the next 
generation of advanced reactors? Outside of the Advanced 
Reactor Demonstration Program, what role do you see NRIC in 
supporting reactor designs and designers? And how can NRIC and 
GAIN work together to support innovation and demonstration 
projects? That is a lot of questions.
    Ms. Baranwal. NRIC and GAIN are both very complementary, 
and they are coordinating their efforts to continue to support 
private industry. GAIN is certainly intended to provide private 
industry access to national lab capabilities with respect to 
technical expertise, testing facilities, regulatory assistance, 
and some financial assistance.
    NRIC is looking at the Federal infrastructure, including 
sites, facilities, materials, and expertise that would be 
needed to deploy advance reactor technologies. In its purview, 
it will be preparing the necessary safety safeguards, security, 
and environmental evaluations. So, all of those very much are 
required and will be needed by the private industry companies 
that will be demonstrating through the Advance Reactor Demo 
Program.
    Mr. Simpson. Thank you. Mr. Winberg, I got the feeling you 
wanted to kind of say a little more about the importance of 
fossil energy, but didn't get the chance to respond fully to 
those questions earlier. I won't say who or anything like that.
    Tell me, how much fossil fuel, what percentage of the 
electricity is produced by fossil fuel today?
    Mr. Winberg. About 80 percent of our overall energy.
    Mr. Simpson. Overall energy?
    Mr. Winberg. Which includes electricity. And transportation 
is fossil energy: coal, oil, and natural gas.
    Mr. Simpson. When do you expect to get that to zero?
    Mr. Winberg. Not in my lifetime, certainly, and probably 
not in my children's. IEA, under their best-case scenario will 
be down to about 75 percent globally, 75 percent fossil energy 
from 80 today; 75 percent by about 2050.
    Mr. Simpson. So, given that that is kind of the future, 
looking down the road, and that takes into account what we are 
doing with renewables and so forth and so on, would it not be 
important to develop new coal plants that are zero emission, if 
possible?
    Mr. Winberg. Yes, sir. I think it would make a lot of 
sense, both here in the United States as well as around the 
world. And not only can we make them zero emission, we can make 
them net negative CO2 emissions. If we burn, say, 80 percent 
coal and 20 percent biomass with 95 percent CCUS, they will be 
net negative CO2 emissions.
    Furthermore, we are going to take the next step and we are 
going to be looking at coal, biomass, and waste plastics to 
produce hydrogen because we need to deal with the 
transportation sector. And if we can do that, and we can do 
that on a net negative CO2 emissions producing hydrogen which 
can be used then for transportation, it can be used for power 
generation and it can be used in the industrial sector.
    Mr. Simpson. And just to clarify, when CO2 goes into the 
atmosphere, does it stay over the place it was produced or does 
it go around the world?
    Mr. Winberg. No, sir. It is caught up in the atmosphere and 
that is why it is a global challenge not just here.
    Mr. Simpson. So, emissions and what they are doing in China 
and India and other places that are building coal facilities is 
as important, actually, as it is in this country, too, right?
    Mr. Winberg. Yes, sir, perhaps more important as it relates 
to CO2 emissions.
    Mr. Simpson. Thank you, and thank you all for being here 
today. Mr. Gates, I didn't ask you any questions because I am 
so confused on what we have to do with cyber security, and I 
want to come down to your facility and sit down, I know some of 
this stuff is classified, but go through where we are and what 
we can do to ensure the cyber security of this country in the 
future, and the electrical grid. Because, as I said earlier, I 
am almost more worried about that than I am of other things. 
So, I appreciate all that all of you do, and you should know 
that a lot of times people think of national security as our 
defense and that kind of stuff, well, everything you do in 
national security to make us energy independent, to make our 
grid secure, to develop new technologies, and so forth; to make 
sure that the nuclear reactors and so forth of the future are 
actually American designed with the safety that we put into 
them. Everything you do is as important to national defense as 
defense is. So, I appreciate all you do; and thank you all.
    Ms. Kaptur. I want to thank the ranking member for his 
remarks, and I endorse them. And I also want to thank 
Congressman Fleischmann for remaining with us here. I just have 
a couple of final questions.
    Assistant Secretary Winberg, you talked about a hydrogen 
future in transportation, and you hit the key on my piano for 
sure on that one. So, if I wanted to see the future in our 
country of hydrogen in transportation, which geographic 
location would you direct me to? Anything come to mind?
    Mr. Winberg. No, I don't think anything comes to mind as it 
relates to hydrogen because hydrogen can be produced through 
electrolysis using the Davis-Besse Nuclear Power Plant. It can 
be produced from natural gas, through national gas reforming 
with CCUS, and it can be used from coal. So, what that suggests 
to me is that around the United States, across the United 
States, we can produce hydrogen, maybe do it in a reasonably 
distributed manner, so that we are not centralizing our 
hydrogen production and then transporting it out to the areas 
that need it.
    Ms. Kaptur. Thank you very much. I also wanted to ask you 
that your budget request cuts research for carbon capture, 
utilization, and storage by nearly $100 million, and I wanted 
to ask you what do you think is the potential for carbon 
utilization technologies and how you justify the proposed cuts 
to these accounts? FYI, the University of Toledo in my home 
community is developing technologies for algae systems that 
capture and reuse carbon dioxide to produce renewal materials.
    Mr. Winberg. Thank you for the question. We are going to 
have about $123 million in our budget request for CCUS, and 
that is going to allow us to do, again, some of the early-stage 
research because the technologies are out there to capture 
carbon. What we need to do is get that cost down, and we have a 
goal at the Department of Energy to reduce it down to about $30 
a ton from notionally $45 or $50 where it is at right now.
    We also have 45Q, and the Internal Revenue Service is 
writing regulations finalizing that. We are going to see 
demonstration projects come out of 45Q that will be commercial-
scale done by private industry, and when that happens, that is 
when the learning really begins. The Federal Government can 
move back and allow industry to do what it does best, and that 
is to innovate.
    So, I think, there are great opportunities for CCUS. We 
have done some work in algae because it is a means of 
sequestering CO2 and you can turn it into a fuel or into a 
fertilizer, different uses for algae. In fact, we have 
currently got about $4\1/2\ million worth of projects going on. 
We just released a funding opportunity announcement and we are 
reviewing those now. I don't know if the University of Toledo 
participated in that, and if they did, it would be procurement 
sensitive, so I couldn't talk about it. But there are 
opportunities, clearly, for algae to be used in the 
transportation sector and also as a sequestration measure for 
CO2.
    Mr. Simmons. The University of Toledo project was funded by 
the Bioenergy Technologies Office. Just a note of clarification 
that the Office of Fossil Energy and EERE work together in this 
area, as well as making sure that we are keeping the aperture 
wide open in terms of carbon utilization.
    Ms. Kaptur. Thank you very much. I know my colleagues know, 
you have heard me talk about algae a lot, but if you lived in 
the southernmost of the Great Lakes and you see what it does, 
my question really is, are we producing it anew or are we using 
what is already there? I don't know if there is a harvesting 
mechanism yet, but that gets into a much larger conundrum as 
one tries to solve the problem in the watershed that produces 
the algae in the end. And with climate change and so forth, it 
is just a new stew we are facing all over the country. On the 
Everglades where we live, I think even in Idaho, Montana, we 
have had real issues. I know up in Green Bay, I guess that is 
why it has the name Green Bay, but up in Wisconsin, but we 
really do need----
    Mr. Simpson. Is that why it is called Green Bay?
    Ms. Kaptur. I think so. I think so, but it never was quite 
this much. So, we have real challenges there, especially when 
part of it becomes toxic and it enters your fresh water 
systems. That is really a very dangerous moment.
    Finally, last question, and I thank my colleagues, 
Assistant Secretary Simmons, the administration has chosen to 
eliminate the weatherization and State energy program that 
helps individuals across our country save on energy costs, 
particularly those who have limited incomes and are elderly. 
And with states across the country facing budget pressures, who 
do you believe should pay for these if not the Federal 
Government? And the Department's coordination with other 
Federal agencies is crucial. At the ground, grantees do not 
know the difference between the colors of funds. So, can you 
elaborate on ways in which local weatherization grantees are 
leveraging weatherization funding with other related Federal 
programs?
    One of the things I learned, which was just astounding to 
me, in going to some of our announcements for the 
weatherization program is that your Department, through the 
states, fund magnificent retrofits of furnaces. They have these 
inventions where you can see where the cold air is coming from, 
or the hot air, into a home, but there is no coordination with 
HUD. So, if you fix the furnace and the roof leaks, it still 
isn't a perfect solution. And so, I found the need for 
collaboration huge, and some States do a good job, some States 
don't do a good job. And this is a real need across our country 
as some of this housing stock ages. It is still good stock. We 
need to fix it. Not everybody wants to live in a brand new 
house with no basement. And we have some phenomenal work going 
on sort of south of where Mike lives in the western part of the 
country where we have got net-zero homes being built in 
Arizona. I think that is so exciting. The construction industry 
has responded, too, but the necessity to kind of coordinate a 
little bit the energy agencies and housing agencies wouldn't be 
a bad idea and to try to do the whole unit at once and I think 
there needs to be a little bit more rigor there.
    So I know your budget has basically eliminated it. I hope 
that we are able to change that as we move the bill forward. 
Did you want to make any comments on weatherization?
    Mr. Simmons. Well, what I will say about weatherization is 
that the--that the zeroing is out is not a reflection of the 
importance of the program. It is a reflection of it is a State 
program, the theory is that it should be then funded by the 
States and that it could then maybe reflect some local 
circumstances better. So that's the theory of the budget.
    As you have, as you have seen over the past few years, we 
will work very hard and are weatherization office works very 
hard to execute on the monies appropriated to being able to 
make sure that the weatherization money gets out on time as 
well as the State Energy Program money gets out on time.
    It is a, as you noted, some states, some do better than 
others at being able to bring together and to do more 
innovative projects. I visited in November I went to Madison, 
WI to Representative Pocan's district and saw some 
weatherization work going on there and that the Wisconsin does 
really quite a good job in terms of bringing together different 
sources of funding to be able to make larger improvements for 
each project that they work on so that is, it's great to see.
    Mr. Simpson. Will the gentlelady yield for just a minute?
    Ms. Kaptur. I would be more than pleased to the gentleman.
    Mr. Simpson. I agree with you. I think zeroing out the 
weatherization program is a big mistake. But you know who pays 
for it, pays a lot of the costs in the Pacific Northwest? The 
Bonneville Power Administration of power marketing agency that 
this budget proposes to I think privatize.
    That is where a lot of the money comes from for the 
weatherization programs. And I have gone to a lot of different 
homes where they have done just what you have said, I mean, 
they do their whole home.
    They go in and they do that thing you said with the walls 
to see where the, everything is coming from and see if there is 
leaks and other stuff. They go downstairs to look and look at 
the amount of insulation and everything else and they do 
amazing, amazing stuff. And over a period of time that is 
energy saved is energy you don't have to produce.
    Ms. Kaptur. Thank you very much for those comments, 
Congressman Simpson. I urge you to be creative. We provided 
some language in the bill for 2020 to look at retrofit of 
entire neighborhoods, not just individual homes were you could 
have offsite solar, where you could use geothermal. We would 
leave it up to the creativity of the experts and that is really 
where DOE has an advantage over many of the states because the 
states don't really do research.
    Those devices that they have developed, the fans, the 
measuring devices that is a little bit high tech for states to 
do and I would expect that we have other innovations that could 
come that could help at the local level.
    Don't underestimate your own capabilities to help these 
States. You have moved America forward, you have weatherized 
millions of homes, you have saved them for the next generation. 
That is a big deal for people across this country, particularly 
those who can't afford to do it themselves.
    So, Congressman, Simpson, do you have any other questions 
for the record? We want to thank our witnesses very, very much. 
This concludes this afternoon's hearing.
    I again want to express my sincere thanks for all the 
effort that you devote to the people of this country and to its 
future and I ask the witnesses to please ensure for the hearing 
record that questions for the record and any supporting 
information requested by the subcommittee are delivered in 
final form to us no later than three weeks from the time you 
receive them.
    Members who have additional questions for the record will 
have until the close of business this Friday to provide them to 
the committee office.
    We thank all of our guests in the audience for your 
patience and interest. This hearing is adjourned.
    [Information submitted for the record follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                           Wednesday, March 4, 2020

                    NATIONAL NUCLEAR SECURITY AGENCY

                               WITNESSES

HON. LISA E. GORDON-HAGERTY, UNDER SECRETARY, NUCLEAR SECURITY AND 
    ADMINISTRATOR, NATIONAL NUCLEAR SECURITY ADMINISTRATION
DR. CHARLES VERDON, DEPUTY ADMINISTRATOR, DEFENSE PROGRAMS, NATIONAL 
    NUCLEAR SECURITY ADMINISTRATION
DR. BRENT PARK, DEPUTY ADMINISTRATOR, DEFENSE NUCLEAR NONPROLIFERATION, 
    NATIONAL NUCLEAR SECURITY ADMINISTRATION
ADMIRAL JAMES ``FRANK'' CALDWELL, DEPUTY ADMINISTRATOR, OFFICE OF NAVAL 
    REACTORS, NATIONAL NUCLEAR SECURITY ADMINISTRATION
    Ms. Kaptur. The subcommittee will come to order.
    Administrator Gordon-Hagerty, I want to thank you and your 
team for being here today and for all the extra effort you make 
to inform our members.
    We continue our budget hearings with the Department of 
Energy's fiscal year 2021 request for the National Nuclear 
Security Administration.
    The NNSA and its workforce are responsible for the 
consequential mission of ensuring the safety, security, and 
effectiveness of our Nation's nuclear deterrent. This includes 
nonproliferation activities and powering the Navy's nuclear 
ships and submarines.
    I cannot overstate the enormity of this mission. I know 
that each of you here today feel that weighty responsibility.
    I want to take a moment to recognize two important 
milestones. Twenty years ago, Congress created the NNSA. This 
year also marks the 25th anniversary of the science-based 
Stockpile Stewardship Program, which gives us confidence in 
nuclear deterrent without underground testing and allows for a 
reduced stockpile size.
    I want to be clear: Maintaining a safe, credible, and 
reliable nuclear deterrent is a national priority. But we must 
do so in a cost-effective, responsible manner, and this budget 
request does neither.
    I have serious concerns about this request. At this very 
hearing last year, I warned that the increases proposed then 
were not sustainable year after year. And yet the 
administration has doubled down on its unrealistic request, 
proposing to grow the 12 percent increase in fiscal year 2020 
to 25 percent in 2021. I said that correctly, a 25 percent 
increase.
    To put it plainly, this budget is neither realistic or 
executable. It is based upon overly optimistic assumptions. In 
fact, I am becoming more convinced that Congress could write a 
blank check and NNSA still would not be able to deliver on its 
budget and schedule commitments.
    In analyzing the budget justification documents, which were 
shared with us only hours before the Secretary testified last 
week, it is clear NNSA is trying to do far too much, too 
quickly. Past precedent tells us that when we try to go too 
fast and don't do the upfront planning, NNSA makes costly 
mistakes.
    The fact of the matter is that nuclear deterrence is too 
important to get wrong. We don't have an unlimited defense 
budget, and as such, the answer cannot be limitless funding. 
Making budgets requires making strategic choices.
    Turning to nonproliferation, deterrence and diplomacy are 
complementary. The Department's nuclear nonproliferation 
programs have been a cornerstone of our efforts to prevent 
nuclear material from getting into the wrong hands, both 
internationally and at home. Yet this budget request proposes 
cuts to the Global Material Security program that is so vital 
to these efforts.
    In addition to rectifying this, I also believe that we need 
to take a fresh look at emerging threats as nuclear 
technologies evolve and as nations try to acquire them.
    The NNSA makes up a sizable portion of this subcommittee's 
bill. As such, we have a solemn obligation to the taxpayers to 
ensure that limited Federal resources are provided as part of a 
balanced, coherent strategy.
    Again, thank you for your service to our Nation and for 
being here today.
    With that, I will close my remarks and turn to our ranking 
member, Mr. Simpson, for his opening remarks. 


	[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

	[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Simpson. Thank you, Chairwoman Kaptur.
    I would like to welcome our witnesses here today to this 
hearing. It is a distinguished and knowledgeable panel with 
whom we have had a good discussion in previous hearings.
    Thank you all for being here today. I look forward to 
hearing from you on the fiscal year 2021 budget request for the 
NNSA.
    The President's budget request for the Department of Energy 
shows a strong commitment to enhancing our U.S. national 
security. The request for the NNSA is just under $19.8 billion. 
This funding will advance the modernization of the nuclear 
weapon stockpile and its supporting infrastructure, prevent, 
counter, and respond to nuclear proliferation and terrorism 
threats, and to support the Navy's nuclear propulsion needs.
    I know there have been some concerns expressed about the 
increased request for the Weapons Activities account. But one 
thing we need to keep in mind also is why we are where we are 
today.
    After the end of the Cold War, many thought the need for a 
credible nuclear deterrent was gone or at least reduced, so 
many of the programs related to our nuclear weapons stockpile 
were reduced or eliminated. That may have been correct at the 
time, but today we know other nations are seeking to advance 
their nuclear capabilities.
    To appropriately respond to these evolving and emerging 
threats, we must continue the modernization of the stockpile 
and its supporting infrastructure. To do so requires 
reestablishment of many critical capabilities in an expeditious 
manner and a continued effort to make advancements through 
science and technology. These activities will require a full 
and capable workforce.
    The budget request is in support of these requirements. 
Many of these programs are by necessity ambitious and will 
require sustained attention to good program and project 
management. I believe the NNSA leadership assembled here with 
us today is up to the task.
    I look forward to today's discussion on the importance of 
your work and how the budget request will strengthen our 
national security.
    Chairwoman Kaptur, thank you for calling this hearing. I 
yield back.
    Ms. Kaptur. Thank you, Mr. Simpson.
    And before we turn to our witnesses today, I want to remind 
our members that we will follow our usual order for 
questioning.
    I also want to note that today I will be deferring to Mr. 
Visclosky for the first round of questions as he has joined us 
briefly before he must chair his own hearing in the Defense 
Subcommittee.
    I am pleased to have our witnesses here today. We will hear 
from the Honorable Lisa E. Gordon-Hagerty, who is the Under 
Secretary for Nuclear Security and Administrator for NNSA. 
Administrator Gordon-Hagerty is responsible for the Nation's 
nuclear security enterprise, and she has more than 30 years of 
experience in nuclear security. She has served in private 
industry and has held positions on the White House National 
Security Council and the House Committee on Energy and 
Commerce.
    We will then hear from Admiral James F. Caldwell, who is 
the Deputy Administrator for the Office of Naval Reactors. 
Admiral Caldwell is responsible for managing NNSA's Nuclear 
Propulsion Program. Admiral Caldwell's sea tours include 
service in both the Atlantic and Pacific Fleets and multiple 
operational assignments.
    Thank you all for being here today. Without objection, your 
written testimony will be entered into the record. Please feel 
free to summarize your remarks to approximately 5 minutes.
    Ms. Gordon-Hagerty, thank you for being here.

            STATEMENT OF HON. LISA E. GORDON-HAGERTY

    Ms. Gordon-Hagerty. Chairman Kaptur, Ranking Member 
Simpson, and members of the subcommittee, thank you for the 
opportunity to present the President's fiscal year 2021 budget 
request for the Department of Energy's National Nuclear 
Security Administration.
    As always, it is a privilege to sit before you today 
representing the fine men and women of the NNSA. We are 
grateful for your demonstrated strong bipartisan support for 
the NNSA's national security missions and the people that 
execute them every single day.
    This year marks the 20th anniversary of the NNSA's 
establishment by Congress--although, of course, our heritage 
goes back much further, to the Manhattan Project and to the 
Atomic Energy Commission. And as always has been the case since 
the Nuclear Security Enterprise's creation, the effectiveness 
and credibility of America's nuclear capabilities reassures our 
friends and allies and serves as the ultimate deterrent against 
a nuclear attack by those who wish to harm us.
    In this regard, NNSA serves a unique role in supporting our 
Nation's national security. The $19.8 billion budget request 
for NNSA reflects President Trump's strong commitment to 
ensuring America has a safe, secure, and effective nuclear 
deterrent for decades to come.
    This funding also affirms the administration's continued 
work to reduce threats posed by nuclear proliferation and 
nuclear terrorism, as well as providing militarily effective 
nuclear propulsion for the United States Navy's fleet of 
aircraft carriers and submarines.
    The Weapons Activities request of $15.6 billion will allow 
us to modernize the Nation's nuclear stockpile and 
infrastructure and meet national security requirements after 
decades of neglect. It will modernize the stockpile with five 
weapons modernization programs, execute stockpile sustainment 
activities, conduct annual assessments for all weapon systems.
    And with this request, we will continue the dismantlement 
and disposition of weapons and components from the weapons 
retired from our stockpile and support production modernization 
activities for nonnuclear components and strategic materials, 
including a two-site plutonium pit production strategy.
    We will also continue to recapitalize NNSA's aging 
infrastructure, including the Y-12 Uranium Processing Facility 
and the Idaho Spent Fuel Handling Facility.
    As many of you have witnessed firsthand, our entire 
enterprise continues to age, with much of our infrastructure 
operating far beyond its design life. With this increase, we 
will finally be able to modernize the enterprise.
    Our defense nuclear nonproliferation request of $2 billion 
marks the third year in row that the Trump administration has 
sought an increase in funding for NNSA's nonproliferation and 
counterterrorism programs and fully funds DNN priority program 
requirements.
    This reflects the administration's strong commitment to 
reducing global nuclear threats and to arms control efforts 
that advance U.S., allied, and partner security. It will enable 
us to continue to build domestic and international capacity to 
secure and, where possible, eliminate nuclear and radioactive 
materials and prevent nuclear smuggling.
    Further, this request allows us to maintain a robust 
nuclear counterterrorism capability to respond to nuclear and 
radiological threats, including nuclear forensic activities to 
attribute the source of material used in a terrorist attack. We 
will advance our capabilities for detecting and monitoring 
foreign nuclear material and weapon production activities.
    Equally important is the Naval Reactors budget request of 
$1.7 billion. It enables us to provide for the continued safe, 
reliable, and long-lived operation of the U.S. Navy's nuclear 
fleet, which accounts for more than 40 percent of the Navy's 
major vessels.
    Finally, our Federal salaries and expenses budget of $454 
million will allow us to recruit, train, and retain a highly 
skilled workforce of 1,858 Federal employees.
    Madam Chairwoman, it is true that our timeline for 
modernizing the nuclear stockpile and recapitalizing the 
necessary infrastructure is aggressive. In some cases, we are 
asking our sites and partners to do in 10 years what has 
traditionally taken 15 to 20 years.
    But in the 2 years since being confirmed, I have seen 
firsthand the Nuclear Security Enterprise workforce's passion 
and dedication and what we can accomplish. Consequently, while 
the schedule may be aggressive, I believe it is achievable. 
However, we can only do so with consistent and sustained 
funding and, most importantly, our continued partnership with 
Congress.
    I would also like to thank our NNSA Deputy Administrators, 
Dr. Charlie Verdon, Dr. Brent Park, and Admiral Frank Caldwell, 
for your leadership, dedication, and commitment to our 
enterprise and to our great Nation.
    Thank you again for your strong support and the 
subcommittee's strong support and the opportunity to testify 
before you today. I am ready to answer any questions you may 
have. Thank you.
    [The prepared statement of Ms. Gordon-Hagerty follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Kaptur. Thank you very much, Administrator Gordon-
Hagerty.
    Admiral Caldwell.

              STATEMENT OF ADMIRAL JAMES CALDWELL

    Admiral Caldwell. Chairwoman Kaptur, Ranking Member 
Simpson, and distinguished members of this subcommittee, thank 
you for the opportunity to testify here today.
    I also want to thank the subcommittee for consistently 
supporting Naval Reactors, enabling my team to provide the Navy 
with propulsion plants that give our nuclear-powered warships 
the incredible advantage of unmatched reliability, speed, and 
endurance to carry out the national security missions that they 
do around the world.
    Our National Security Strategy and National Defense 
Strategies recognize an increasingly dynamic and complex global 
security environment marked by the reemergence of great power 
competition. Nuclear propulsion remains critical to our 
national security posture. Today, over 40 percent of the Navy's 
major combatants are nuclear powered, including 11 aircraft 
carriers and 68 submarines. Naval Reactors' budget request for 
fiscal year 2021 is for $1.68 billion. That is an increase of 
$35 million, or 2.2 percent, from our fiscal year 2020 request.
    Our budget request supports three national priority 
projects. The first project supports the Navy's number one 
acquisition priority by developing the new propulsion plant for 
the Columbia-class ballistic missile submarine, which will 
feature a life-of-ship reactor core. That core is made possible 
by reactor technologies developed over many decades. The fiscal 
year 2021 request will continue supporting oversight of lead 
ship propulsion plant design and safety analysis work.
    The second project is refueling and overhauling a land-
based reactor in New York. There is a dual benefit to this 
effort: First, enabling continued research and development, and 
then providing 20 more years of training for new fleet 
operators. The project has been working through performance 
challenges associated with the integration of workforces from 
multiple shipyards. However, recent performance has shown 
improvement.
    The third project is constructing the new Naval Spent Fuel 
Handling Facility in Idaho, which will enable long-term 
reliable processing and packaging of spent nuclear fuel from 
Naval reactors plants. Market conditions, such as a shortage of 
skilled labor, high construction demand, and a remote location, 
coupled with price volatility for domestic construction 
materials, have resulted in higher than anticipated costs. 
However, we have taken action to minimize impacts to project 
costs and schedule.
    Congress' full support of this project has allowed us to 
make significant progress. Last year, we began construction 
activities, and later this year, we will begin pouring concrete 
backfill and foundations.
    This year's budget request also invests in three key areas: 
supporting today's nuclear fleet, developing advanced reactor 
technology for future classes of nuclear-powered warships, and 
modernizing critical infrastructure and reducing the program's 
legacy environmental liabilities.
    I want to assure the committee that our budget planning 
efforts are done with rigor. Although two of our major projects 
are facing challenges over the last year, I continue to pursue 
efficiencies to help offset cost increases and schedule changes 
that these projects have experienced. This puts pressure on 
other parts of my program, specifically in the areas of 
research and development, as well as facility recapitalization.
    However, I recognize the budget constraints this country 
faces, and I will continue to effectively manage the resources 
that Naval Reactors is allotted.
    I respectfully urge your support of our fiscal year 2021 
budget request, and I thank this committee for their 
longstanding support of Naval Reactors. I look forward to 
answering your questions. Thank you, ma'am.
    [The prepared statement of Admiral Caldwell follows:] 
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Kaptur. Thank you very much, Admiral.
    Now, we are going to turn to our very able and long-serving 
member of the subcommittee, Congressman Peter Visclosky, who 
also chairs our Defense Appropriations Subcommittee.
    Mr. Visclosky. Madam Chair, Mr. Simpson, and the members of 
the Committee, I do appreciate the special consideration. There 
are five of us on this subcommittee that have another hearing 
on Defense.
    I do think the work you do is incredibly important. I have 
served on this committee since another century, and typically 
would ask questions, but just wanted to express some concerns 
as we proceed with the 2021 budget.
    I do believe our role is to make sure we have rigorous 
oversight, as obviously we are spending the taxpayers' dollars 
properly.
    My concern, first of all, is that according to the agency's 
fiscal year 2020 Stockpile Stewardship Management Plan, NNSA 
did not intend to ask for more than $15.5 billion for Weapons 
Activities until the early 2030s. Yet, this year you are 
seeking $15.6 billion for Weapons Activities, which represents 
an increase of over 25 percent from current year levels.
    I would also emphasize that I am highly skeptical that NNSA 
has the capacity to spend $15.6 billion in fiscal year 2021, 
given that the agency continues to sit on a very large sum of 
unobligated and uncosted balances.
    Second, I am always and have been concerned that you are on 
the receiving end from requests from the Department of Defense: 
We need it. We will supply. Well, maybe we have constraints in 
making that supply.
    The case in point is this year there is a $53 million 
request for NNSA to begin work on the new W93 warhead, a 
project that was previously not expected to begin until 2023. 
And we had a discussion with the United States Navy earlier 
today at the Defense Subcommittee on this.
    The NNSA recently completed the life extension program for 
the W76-1 warhead and is in the process of modernizing the W88 
warhead for submarine-launched ballistic missiles. Given these 
efforts, it is unclear to me why we must begin funding the 
development of the W93 this year.
    Last month, as the US STRATCOM commander appeared before 
the Defense Subcommittee, in his written remarks expressed his 
concerns over the atrophy of our nuclear weapons-supporting 
infrastructure and resulting risks. Yet in spite of that risk, 
there appears to be no hesitation for another requirement to be 
added on to an atrophied infrastructure.
    The administration's insistence that the W93 warhead will 
not require a new design also gives me pause.
    In talking about infrastructure, it is my understanding 
that you have about $2.5 billion in deferred maintenance. I am 
a maintenance kind of guy. I am from Gary, IN. And my concern 
is whether or not we should take that on before embarking on 
other things that will stress that infrastructure.
    And the final point of policy is I have also always 
believed that it is less costly to spend money on 
nonproliferation to prevent the spread of materials and 
preventing other countries from securing them.
    This current administration is not the only violator of 
deemphasizing nonproliferation. It is very costly to build 
these weapons. And I just really wish we would strike a strong 
balance between nonproliferation as well as weapons 
development. Obviously, that is my personal observation.
    I just wanted to be allowed to make those observations. I 
do appreciate the indulgence.
    Ms. Kaptur. Thank you very much, Congressman Visclosky.
    And now we will turn to our very long-serving member on 
this subcommittee, Congressman Ken Calvert, who is the ranking 
member on the Defense Appropriations Subcommittee.
    Mr. Calvert. Thank you, and I appreciate your coming out 
here today. I think the modernization effort you are all 
spearheading is obviously a top priority for our 2021 budget 
request for the National Nuclear Security Administration. It 
comes in at $19.8 billion. It was mentioned, an almost 20 
percent increase from the fiscal year 2020 amount.
    We are also aware of the tight--very tight--schedule that 
your systems are operating on in order to replace the nuclear 
triad.
    Given that there is very little margin or room for error on 
these programs, can you please give a quick rundown on whether 
the nuclear weapons piece of the following program is on time 
and your confidence level that they will be delivered as 
expected? The Ground Based Strategic Deterrent replacing the 
Minuteman III; two, the Columbia-class sub or the Ohio 
replacement; and three, the B-21 Bomber program. If you can go 
through this for us that would be great.
    Ms. Gordon-Hagerty. Mr. Calvert, I can address the GBSD or 
the 87-1 replacement. There have been some slippages in the FPU 
date, in the first production unit date, based on the fragility 
of our infrastructure, which I think is rightfully stated.
    Because of the fragility of our infrastructure, that we 
have let it to decay, we have allowed it to delay over the last 
20 years, we are finding that we have a vendor base--a problem 
with our vendor base, and for the capacitors or from other 
components for the nuclear weapons stockpile.
    That certainly, we haven't needed them for 20 years, and 
now all of a sudden we are having this resurgence of five 
modernization programs, and we need these domestically produced 
or vendor-based products from here in the United States.
    To the extent we are working very closely with and continue 
to be aligned with every single program with the Navy and with 
the Air Force for our nuclear modernization programs, while the 
FPU will slip a bit, the IOC date is still the same, which 
means it will be delivered on target and on schedule with the 
United States Air Force.
    I would defer to Admiral Caldwell on the Ohio-class 
replacement and Columbia.
    Admiral Caldwell. Sir, regarding the Columbia, we are going 
to officially start construction this year in October. And the 
ship must deliver in 2028 and be to sea in 2031 for its first 
patrol.
    My responsibilities on the Columbia class are the design of 
the reactor plant, including the reactor core, the life-of-the-
ship core, as well as the electric drive. Because of the great 
support that we have received from this subcommittee, I am on 
pace to support the needs of the Navy in constructing the 
Columbia class.
    In fact, last year I was able to order the reactor plant 
heavy equipment exactly on schedule. Those are the heavy 
components that go in the reactor plant. And this year I am 
starting construction of the reactor core, and I will be able 
to deliver that core within the required dates that the Navy 
needs it.
    On the Department of Navy side, I am funded to develop the 
integrated power system, or the E drive, which is an electric 
motor vice a steam propulsion turbine. And I have been able to 
actually build a prototypical motor and put that in a facility 
and start testing that motor and all the components in the 
integrated power system. And I am on track to support the 
Navy's needs in constructing the Columbia-class submarine.
    It takes a lot of work and a lot of oversight, and we are 
working hard with our industry partners to make sure we 
deliver.
    Thank you, sir.
    Mr. Calvert. Can you comment on that?
    Ms. Gordon-Hagerty. Sir, we can't comment on the B-21. 
However, I would like to mention something about it. I was 
referring to the 61-12 and the delay that we had in the 61-12 
FPU, but the IOC is the same.
    The 87-1, which is the 78 replacement for the Minuteman 
III, is on target for an FPU date of 2030. So we are fully 
aligned with the Air Force for the 87-1. So my apologies for 
that.
    Mr. Calvert. Thank you. I guess I will hear from the B-21 
Air Force.
    I yield back.
    Ms. Kaptur. Thank you very much.
    Madam Administrator, the fiscal year 2021 request for the 
Weapons Activities is $15.6 billion, a $3.1 billion increase 
above last year. Last year, NNSA said it would need $12.8 
billion in fiscal year 2021 to meet its budget and schedule 
commitments. That should equate to a $350 million increase over 
what we appropriated last year. However, it leaves about $2.8 
billion in this request that was unplanned as of this time last 
year.
    As I told Secretary Brouillette last week, this budget 
request is simply sprinting toward failure. We need to take 
steps to prevent that from happening and give NNSA more 
breathing room before falling off the cliff.
    The program scope has been known for years. What has 
changed since this time last year to result in such a request 
for such a large increase?
    Ms. Gordon-Hagerty. Madam Chairwoman, the fiscal year 2021 
request was the result of a year-long activity that we 
undertook throughout the entire NNSA, with all our labs, 
plants, and site leadership, our field offices, and our 
headquarters leadership. And we looked at every single priority 
that has been given to us by the Department of Defense and 
those internal to us for nonproliferation and counterterrorism 
activities. And we took a very hard line on what these 
priorities were across the entire integrated NNSA.
    This is kind of somewhat of a unprecedented activity for 
us. In fact, this year, we are going to be looking at a zero-
based budget requirement. We believe that it is important to 
spend the taxpayer dollars wisely.
    When we uncovered this and we looked at the five 
modernization programs, especially in the Weapons Activities 
area, we realized that after decades of neglect of our 
enterprise it was time that we received the necessary, the 
critical resources to upgrade our infrastructure and modernize 
our entire nuclear enterprise.
    We have facilities that are nearing 70 years old in which 
we are operating. More than 30 percent of the facilities across 
NNSA enterprise--more than 30 percent--are over 70 years old. 
More than 40 percent are over 50 years old. We are working 
through those facilities in the best possible way.
    And to the point of where we are throwing good money after 
bad, that is why it is time to modernize our infrastructure and 
recapitalize and reconstitute the nuclear security enterprise. 
It is because we haven't paid intention to it. Perhaps call it 
the peace dividend, call it what you will. But we have lost 
vendor capacity. We have lost our personnel.
    We are on a massive corporate approach to hiring. I am glad 
to say that we have hired 7,700 people across our nuclear 
security enterprise to date this year, through the end of 
fiscal year 2019. We lost much of that project management 
program, program management, laboratory scientific expertise at 
our three laboratories and our weapons plants and sites, and 
now we need to reconstitute and recapitalize that. We are at a 
tipping point.
    Even GAO yesterday in their testimony, I had the pleasure 
to testify before the House Armed Services Committee, and GAO 
even expressed their concern about doing this. They were 
cautious--my words--cautiously optimistic. They were 
questioning whether or not we could do it.
    Yes, we are asking. We are seeking to do things in 10 years 
that traditionally would take 15 to 20 because we work in the 
nuclear weapons complex. That is not building homes, with all 
due respect. That is building nuclear grade facilities. And we 
are constructing those and working for a modern, resilient 
enterprise.
    And the foundation of this goes to our nuclear deterrent, 
because the Department of Defense sets the requirements. But it 
is the NNSA that maintains the nuclear weapons stockpile, thus 
our national security for our Nation. And that is what we are 
seeking, is the 2021 budget request of $19.8 billion is to do 
just that, is to preserve our nuclear deterrent.
    Ms. Kaptur. Thank you, Madam Administrator.
    You know, you may have a very good strategic plan in place, 
but I don't believe that it actually is a realistic annual 
request. But I think the effort to put forward an overall 
number may be a very useful exercise, and I congratulate you 
for doing that. But, again, I think that there are some dangers 
in the type of proposal that you have submitted to date.
    I wanted to ask one other question, then we will turn to 
the ranking member. The request also includes a 77 percent 
increase above last year to support activities to produce new 
plutonium pits for warheads. Our fiscal year 2019 bill required 
NNSA to deliver a plan that includes the scope of work, costs, 
schedule required to meet its pit production target, and we are 
still waiting.
    So when, specifically, will you deliver this plan to us? 
Please know, without a plan, we have nothing to evaluate this 
request against. Why should we give NNSA additional funding for 
these efforts when it is not clear that you even have a plan?
    Ms. Gordon-Hagerty. Ma'am, we have a plan. We are working 
through it right now. It is in its final draft stages. And I 
have been assured that it will be on my desk shortly and then 
delivered to Congress soon thereafter.
    Ms. Kaptur. Do you have a target date?
    Ms. Gordon-Hagerty. Soon. I have made it our number one 
priority with defense programs to ensure that it comes to my 
desk very, very soon.
    Ms. Kaptur. Are we talking 3 months, 6 months?
    Mr. Verdon. It is in the concurrence process now, ma'am. So 
it is just when the people that have to do the concurrence 
process.
    Ms. Kaptur. How many people does that have to go through, 
Doctor?
    Mr. Verdon. It is at least three additional organizations 
before it comes back to the Administrator.
    Ms. Kaptur. All right. So we are talking several months.
    Mr. Verdon. We will gladly come up to brief. We will offer 
that.
    Ms. Gordon-Hagerty. In fact, that is a great idea. Thank 
you, Dr. Verdon.
    We would gladly brief you on our final draft plan, because, 
again, it is in concurrence, and we don't expect any 
significant changes to it because it is a plan drafted by 
defense programs. So those that are seeing it from the outside 
in, if you will, where it is currently in concurrence, 
shouldn't have any significant changes.
    Again, we will gladly brief you on that, if you would like.
    Ms. Kaptur. Again, you can understand, Madam Administrator, 
why we might be concerned about other requests that are far 
beyond the scope of what we believe can be realistically 
achieved.
    Ms. Gordon-Hagerty. Absolutely.
    Ms. Kaptur. I thank you very much.
    Thank you, Dr. Verdon as well.
    I would like now to turn to our ranking member, Mr. 
Simpson.
    Mr. Simpson. Thank you, Chairwoman.
    Madam Administrator, before I get into specifics of the 
budget request, I would like to start with why we are 
discussing an active program to begin with. I guess it is 
because of the neglect of the past that we are looking at this 
type of budget increase.
    Could you please describe the impacts of our nuclear 
deterrent and national security of modernization programs don't 
happen? And are there budgetary impacts for either the NNSA or 
DOD if NNSA's schedule is delayed?
    Ms. Gordon-Hagerty. Mr. Simpson, I am glad you recognize 
that after years of neglect--after decades of neglect--we find 
ourselves in the untenable position of trying to modernize and 
recapitalize our entire infrastructure while working on five 
major modernization programs as directed by the Department of 
Defense.
    So, yes, it is a challenge for us. And we are absolutely 
aligned right now with the Department of Defense, and we are 
working very closely with the Air Force and with the Navy, who 
drive the requirements for our major modernization programs. If 
we slip on our schedule, then that requires then slippage for 
the Air Force or for the Navy, which means now we are touching 
the deterrent and we are actually making decisions on what the 
deterrent's capabilities and capacities will be.
    And we rely foundationally on a strong strategic deterrent. 
And so if we continue to slip to the right, so to speak, then 
what does that say to our allies and to our partners and, 
equally important to our adversaries, about the capability, 
quality of our nuclear deterrent?
    So, yes, it has profound changes. And, also, it is going to 
cost even more if we continue to slip the modernization 
programs that are necessary for our Nuclear Security 
Enterprise.
    Mr. Simpson. Thank you. I have been in some of those 
buildings, and I don't know that I would like to work in some 
of those that have been around for 70 or so years. They are 
risky, to say the least, especially when you are doing nuclear 
work.
    Mr. Visclosky mentioned the uncosted balances in his 
comments. NNSA has significant uncosted balances from prior 
years. Sometimes these carryover balances are planned, as with 
capital equipment procurement and construction projects where 
appropriations are needed to begin the activity, but dollars 
are often spent slowly over a period of time or even not until 
towards the end of the activity. Other times, uncosted balances 
can show trouble in executing the program as planned or even 
simply cost excess funds.
    What proportion of NNSA's uncosted balances is obligated 
due to activities like capital equipment, procurement, and 
construction? And do these proportions vary from program to 
program, specifically, weapons and nonproliferation? And for 
the record, can you please provide how NNSA's carryover 
compares with other Federal agencies?
    Ms. Gordon-Hagerty. OK. Thank you.
    NNSA has worked significantly to minimize our carryovers, 
and we continue to make sure that this process is transparent 
with Members of Congress.
    I am pleased to report that at the end of fiscal year 2019, 
NNSA had a net funds carryover of $637 million out of a $15 
billion budget. That is equal to or below that of other Federal 
agencies and departments. And just as GAO said yesterday in our 
hearing, they believe that it was consistent with that and it 
was appropriate to have that kind of carryover.
    In fiscal year 2019, we did have $8 billion of carryover. 
And despite that massive number, that is reasonable for NNSA in 
executing a $100 billion program over 5 years.
    GAO again had stated that that was appropriate. And while, 
for example, Naval Reactors has a 46 percent carryover, which 
is considered efficient, NNSA has a 49 percent carryover 
efficiency.
    And, again, if you look across the Federal Governments and 
agencies, we have seen a chart recently that shows NNSA is 
equal to or below most other Federal agencies.
    Mr. Simpson. Thank you.
    Admiral Caldwell, let me ask you, I understand that Naval 
Reactors is the Advanced Test Reactors' largest customer. How 
does the ATR support the Navy's mission?
    And as you are aware, ATR is aging and experiencing 
infrastructure deficiencies. How does this impact your research 
and development efforts?
    Admiral Caldwell. Thank you for the question, sir.
    The Advanced Test Reactor is absolutely vital to Naval 
Reactors' responsibilities. Over many decades, we have been 
able to take fuel that--materials that we want to understand 
how they would perform in a radiation, in a field in a flux, 
and evaluate them in the Advanced Test Reactor.
    This reactor has allowed us to make significant advances in 
the life of our reactor cores. For example, Nautilus was 
refueled at about the 18- to 24-month period, and now we are 
talking about building Columbia, which will have life-of-ship 
core over 40 years. That would not have been possible without 
the Advanced Test Reactor.
    So we are very much involved with it, and we are very much 
interested in making sure we have that capability as a Nation.
    That said, we are involved with DOE-NE to make sure that we 
have a plan to maintain the current systems. And we are on a 5-
year rolling maintenance plan that is designed to go repair and 
modernize and fix some of the support systems.
    That said, we are still not executing to the amount of 
operational days that I need. And we are also thinking about 
the future. We are looking to see if the Advanced Test Reactor 
can have its service life extended out to the year 2085.
    That analysis work is being done in conjunction with my 
team, and we will have an answer in the 2022 or 2023 timeframe.
    But that all said, we need that capability. If we are going 
to continue to develop these advanced cores for the Navy, I 
need to be able to test in something like the Advanced Test 
Reactor.
    Mr. Simpson. Thank you.
    And if anybody thinks that refueling one of these 
submarines is a simple project of just carrying the rods down 
putting them in, go up to Groton. It is an amazing process that 
they go through to refuel one of these submarines. I can't 
believe that--or I can believe the savings that will come from 
not having to refuel these when you have life-of-the-ship 
reactors.
    Admiral Caldwell. That is correct, sir. In fact, with the 
Columbia program, we are going to be able to do the mission 
with 12 submarines versus the current 14 in the Trident force. 
That will save the Nation on the order of $40 billion over the 
life of the program.
    Mr. Simpson. Thank you.
    Ms. Kaptur. Congresswoman Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Administrator, I know you are aware that your budget 
request includes a Future Years Nuclear Security Program, and 
that provides a guidepost for Congress' future budget--for the 
future budget request that we can expect from you.
    In fiscal year 2020, your budget request told us that the 
NNSA outyear budget estimates were fully consistent with the 
2018 Nuclear Posture Review. But fiscal year 2021, as we have 
been discussing this afternoon, you are requesting $2.8 billion 
above the amount you expected to request, according to the 
fiscal year 2020 budget plan.
    I understand that the infrastructure is aging, that it is 
important for us to keep competitive, and that was your 
response. But just last week, the Secretary of Energy testified 
that the proposed increase in the request would, quote, ``pull 
forward infrastructure projects.''
    What specific infrastructure projects would be pulled 
forward with this increase? And why should the subcommittee 
pull forward any work at all when NNSA can't even keep pace 
with your current work?
    Ms. Gordon-Hagerty. Representative Wasserman Schultz I 
would say that we are on time and on budget with all of our 
work, in our workload and our construction. In fact. I can use 
UPF, which is our Uranium Processing Facility at Y-12, which 
has remained on budget and on schedule for 7 years in a row. 
That facility will be $6.5 billion and completed by the end of 
2025. That is huge major capital construction----
    Ms. Wasserman Schultz. Reclaiming my time for a moment.
    Ms. Gordon-Hagerty. OK. So to your question, we looked at--
we worked with our labs, plants, and sites and looked at the 
highest priorities and prioritized all the missions that we 
must execute in 2021 and beyond. And in order to have the--to 
receive that uplift and to work across the entire enterprise, 
our Tritium Finishing Facility request will be pulled to the 
left.
    Tritium is a critical strategic material needed in nuclear 
weapons. We have a facility in which we are operating that is 
over 60 years old. That is a single point of failure. We can 
speak in classified terms in numbers about what happens to the 
stockpile if we lose our Tritium capability. And that also goes 
with other strategic materials, such as the Lithium Processing 
Facility at Y-12.
    We need to move these facilities to the left. We have had 
these planned for decades, and they continue to slip. It is 
time we finally revitalized and recapitalized our 
infrastructure. So those are just two examples.
    Ms. Wasserman Schultz. Thank you.
    But it seems that NNSA and DOE were not really on the same 
page and using different assumptions to build your budget 
request, I don't understand why that is the case.
    The Secretary's preferred number for NNSA in an attempt--
was that an attempt by the Department to prioritize NNSA's 
workload because the agency right now appears to them to have 
its hands full?
    You had a large discrepancy between his preferred number 
and what ended up in the budget request. It really appeared 
that you outmaneuvered your own Secretary in pursuit of an 
unrealistic, wildly fantastical number.
    I get that we have to catch up and we certainly need to 
make sure that we keep our national security needs paramount. 
But you can't catch up for 30 years in 5 years. That is just 
not possible. We deal with finite budget authority in the 
appropriations process.
    NNSA doesn't have the capacity to deal with the funds that 
you have requested. We have other priorities, and NNSA can't 
just suck up all the money.
    So I really don't understand how you ended up with a, as 
has been expressed on both sides, the concern expressed on both 
sides, a much larger number than you seem to have the capacity 
to spend and that we have the capacity to appropriate for you.
    Ms. Gordon-Hagerty. Representative, all I can say is that I 
have been through the labs, plants, and sites, our field 
offices and I know that we can----
    Ms. Wasserman Schultz. No, no, no, I know that, except 
that----
    Ms. Gordon-Hagerty. I am betting on our infrastructure and 
our personnel.
    Ms. Wasserman Schultz. Reclaiming my time because I want 
you to answer my question. I have heard you go on about what is 
so important about this. I understand it is important.
    But your Secretary of your Department had a preferred 
number for NNSA, and you appear to have outmaneuvered him and 
gotten a larger number. And that discrepancy is very clear, 
that you don't have the capacity to spend the funds even if we 
appropriated every dollar to you. You can't possibly expect us 
to give you that much money in this small part of the budget 
and be able to deal with the other priorities that we have to 
deal with.
    Ms. Gordon-Hagerty. So to the extent the executive branch 
went through our processes, they were respectful processes, and 
we followed the President's direction of his number one 
priority, which is modernizing the nuclear triad. And the 
request that we asked for----
    Ms. Wasserman Schultz. You went up the chain?
    Ms. Gordon-Hagerty. Pardon me?
    Ms. Wasserman Schultz. You went straight up the chain?
    Ms. Gordon-Hagerty. No, ma'am, I did not. I worked through 
the regular process internally. And our internal executive 
branch discussions are just that. And we worked very closely 
with the Secretary of Energy to explain our position.
    Ms. Wasserman Schultz. OK. That is not the information that 
I have. OK.
    Thank you. I yield back.
    Ms. Kaptur. Thank you.
    Congressman Newhouse.
    Mr. Newhouse. Thank you, Madam Chair.
    And welcome to all of you. I appreciate you being here this 
afternoon with us.
    I had a particular question for you, Administrator Gordon-
Hagerty, as well as Dr. Park. As you know, the Pacific 
Northwest National Laboratory is in my district, and they are a 
leader in protecting against the threats of nuclear 
proliferation. We talked about that just a little bit prior to 
the hearing. So I was pleased to see the strong investment in 
your budget as it relates to the Nonproliferation Stewardship 
Program.
    Probably most of my colleagues are very familiar with the 
Stockpile Stewardship Program. But could you share with us the 
role of the Nonproliferation Stewardship Program and how, in 
your estimation, that this program is going to help us maintain 
our ability to deter proliferation in this modern age?
    Ms. Gordon-Hagerty. Thank you, Representative Newhouse.
    Let me say, I am very pleased to report, as I mentioned in 
my opening statement, that that is the third year in a row that 
the Trump administration has sought additional and increased 
budgets for our nuclear nonproliferation program. We are very 
pleased with it. It is complementary to and supported by our 
Defense Program's activities.
    I would be delighted to turn to Dr. Park and give you some 
ideas about some of the activities that we have ongoing in the 
Defense Nuclear Nonproliferation program.
    Mr. Newhouse. Thank you.
    Mr. Park. Thank you for that question. And more than 
anything else, I truly appreciate all of your constant, 
continued support for the nonproliferation program. So thank 
you so much for that.
    PNNL is a critical component, a critical member of our 
national lab response team.
    And going back to your question about the nonproliferation 
stewardship activities, it is about people. We need to focus on 
training the next generation of people, and this program will 
allow that.
    We need to actually have a program that is sustainable and 
steady state. And we will pursue a couple of large initiatives 
that will involve the PNNL, along with the Los Alamos and 
Plutonium Science Institute. And although Mr. Fleischmann just 
left, we will pursue Uranium Science Institute with the Oak 
Ridge and the other laboratories.
    This is the bedrock for training next generation of people. 
And at the same time, it is not just empty training. They will 
get to do meaningful, mission-focused work. So they will get to 
have very classified information with which they can do 
research and develop new tools and to come up with the new 
technologies to do sample analyses. Hopefully, we will have a 
chance to talk on nuclear forensics.
    But, again, this is the cornerstone of how we train the 
next generation. So your support for this program is very much 
appreciated, and we are counting on it. Thank you.
    Mr. Newhouse. I appreciate you sharing that with us and 
critical to our efforts.
    Again, thank you all for being here with us this afternoon. 
I appreciate the frank testimony, the response to the 
questions, and I look forward to working with you as we move 
forward.
    Thank you, Madam Chair.
    Ms. Kaptur. Thank you.
    Congresswoman Kirkpatrick.
    Mrs. Kirkpatrick. Thank you, Madam Chairman.
    Thank you, Administrator, for being here. And thank you to 
the panel all for being here today.
    I especially want to congratulate Dr. Verdon for choosing a 
great university for your doctorate, the University of Arizona 
in my hometown of Tucson. We are happy about that.
    I also have a concern about the unspent funding. And I know 
that you have got--you said you have got a plan to spend it. Do 
you also have a timeline that you can provide for us as to when 
that money is going to be spent down?
    Ms. Gordon-Hagerty. Absolutely. We do. And we have been 
sharing with the staffs of the subcommittees and the full 
committee, and we will continue to do so. But we are working 
judiciously to spend down those resources.
    I do want to make a point about spending on resources, 
though. While we have specific tasks for all of the defense 
program's related activities--for example, in the 
nonproliferation program--some of those carryovers that we see, 
those unexpected carryovers, some of the programs that we 
undertake, such as the most recent successful removal of 700 
kilograms of highly enriched Uranium from the United Kingdom, 
took several years to accomplish.
    Once we sign an agreement with them--and that goes not only 
for the U.K., but all of the materials that we return or work 
with to secure around the world, are multi-year-faceted 
programs.
    You don't just sign an agreement and then bring the 
material back, much like you don't just refuel a submarine. It 
takes many years to put the plan together and to execute that 
mission, and then bring it back to the United States or secure 
it in place or take it to a third country.
    While we might receive the requests for resources, receive 
the budget, the appropriations in 1 year, we might have that 
over several years before we can expend it all. So in some 
cases there are--people view that as, well, those are 
unobligated, unspent resources, and there is nothing further 
from the case.
    The worst case would be is that we use those resources for 
something else and then at the critical time, when we want to 
bring the materials back or secure it, those resources aren't 
there, and then we have to come back to Congress for additional 
appropriations. And that is not a good use of taxpayer dollars.
    Mrs. Kirkpatrick. So are those funds obligated then?
    Ms. Gordon-Hagerty. They are technically obligated, but 
they show up in different columns. And we are working also to 
make sure that we are more transparent in those kinds of long 
lead-time activities. And so, yes. The answer is yes.
    Mrs. Kirkpatrick. We would appreciate that as the 
committee, because, I mean we are charged with oversight of the 
program.
    Ms. Gordon-Hagerty. Absolutely.
    Mrs. Kirkpatrick. And I feel like we are just not getting 
all the information.
    Ms. Gordon-Hagerty. OK.
    Mrs. Kirkpatrick. My next question is for Dr. Park. And I 
am going to change the subject slightly to the nuclear security 
challenges.
    What nuclear security challenges are you most concerned 
about? And what are you doing to address these threats?
    Mr. Park. So as it turns out, it is not a single event, it 
is not a single topic that we are worried about. It is a string 
of events. So I will provide you with a few quick snapshots of 
what we are worried about.
    Now we are worried about countries like Iran, DPRK, and so 
on and so forth, and how they actually work with like-minded 
countries and work with the IAEA and so on and so forth to make 
sure no materials will leave these countries and they don't 
go--they don't advance their nuclear programs.
    At the same time, if you go far to the right into the 
future, we are worried about there are more countries now than 
ever before who want to own nuclear power plants, for example. 
We want to actually be in the game, ahead of the curve, to make 
sure they actually apply all these nuclear technologies for a 
peaceful purpose.
    It is actually a wide spectrum of challenges we are facing, 
and that is exactly the program that we have in the DNN. So we 
actually look at a wide variety all at the same time, as a 
function of time, as a function of location, as a function of 
how we can team up with other countries and so on. This is an 
international effort to a large extent.
    As much as we have leadership on many of the things, we 
work with the IAEA, we work with the U.K., we actually have a 
great relationship with Japan to make sure that they are 
actually giving up the materials that they don't need anymore. 
In fact, I am happy to report to this committee that we are in 
the process of retrieving 90 kilograms of SNM from Japan this 
coming year, special nuclear material.
    So it is not a single event. One thing that I need to 
emphasize is that we cannot take our eyes off on the things we 
have been doing. We have been converting high performance 
research reactors that use HEU. We are converting it to use 
LEU.
    Ms. Gordon-Hagerty. Low-enriched Uranium.
    Mr. Park. Low-enriched Uranium. Thank you.
    We cannot slow those efforts down, by the way, and chase 
after new concerns. We need to maintain a steady state effort, 
if you would, in all of the things we have been doing, and then 
continue to make process and be ahead of the curve. And the 
phrase that the chairwoman used, anticipating threats, and that 
is actually what we do.
    So, again, it is a connection of all of these events that 
would drive our program requirements.
    Mrs. Kirkpatrick. Madam Chair, I have one other quick 
question. May I extend my time?
    And so it sounds to me like you need highly trained 
engineers and scientists to do this work. Are you working with 
universities to make that you have got people coming through 
the pipeline to fill these positions?
    Mr. Park. Excellent. We actually have center of excellence 
programs, and we actually have three centers supporting over 40 
universities, by the way. With your support on the university 
outreach program, we are doing that.
    Our labs, by the way, they do their own outreach program 
that is not part of headquarters' efforts. But all the labs 
that we work with--Los Alamos, PNNL, Oak Ridge National Lab--
all these labs have a very robust education program.
    In fact, when I started my career at Los Alamos in the 
1980s, I was a Ph.D. student. So there are many of us in the 
pipeline. So looking at your program to us, yes, we have a 
robust program, but it is much bigger than you think it is 
because of our labs. They actually have a robust engagement, 
literally training thousands of people.
    If I am allowed to add one more?
    Mrs. Kirkpatrick. Sure.
    Mr. Park. I work closely with Dr. Verdon. Many of the 
programs I support for Ms. Gordon-Hagerty, I require Charlie 
Verdon's people, because these are nuclear materials experts.
    So, again, when you see the modernization and the buildup 
on the Defense Program side, Defense Nuclear Nonproliferation, 
we benefit substantially, because that is the money that I 
don't have to invest.
    But, again, this is a close cooperation between the NA-10 
and NA-20 within NNSA, so we strongly support this cooperation 
with the university.
    Mrs. Kirkpatrick. Thank you. I am glad to hear that.
    I yield back.
    Ms. Kaptur. Thank you.
    Congresswoman Fleischmann.
    Mr. Fleischmann. Thank you, Madam Chair. I had a brief 
absence. My apologies. I had to run to the floor. We are 
working on a bipartisan supplemental for the coronavirus. So my 
apologies. But that is going very well.
    Madam Administrator, thank you for being here today to this 
distinguished panel. I have worked with each and every one of 
you all for several years, and I know you. I want to thank you 
on behalf of the Congress, our committee. You have done an 
exemplary job.
    Our Nation's nuclear deterrent is critically important to 
the security of our country. Just last week, I was at STRATCOM, 
and I shared my plaudits for this group, and I have received it 
back as well. So thank you so much for your endeavors.
    A very quick question, Madam Administrator. I understand in 
my absence you addressed the issue of UPF replacing Y-12. Thank 
you for your request for robust funding. We have worked 
together with this subcommittee to get the resources necessary, 
I think, to keep that moving. But very briefly, are you pleased 
with the progress? And how do we plan to keep this on time and 
on budget?
    Ms. Gordon-Hagerty. We are extremely pleased with the 
process. And as I mentioned in your absence, this is a program, 
a $6.5 billion major construction project at Y-12, that will be 
completed by the end of 2025 for not more than $6.5 billion. To 
date, we have expended $3.1 billion in contracts and work, and 
we are on time and on schedule for the seventh year in a row.
    Mr. Fleischmann. And I thank you. In my tenure, we have 
seen a redesign, we have seen it brought under budget, and just 
truly a tremendous project. And a credit to the men and women 
and your contractors as well.
    Ms. Gordon-Hagerty. And a special credit to our acquisition 
and project management team at headquarters that has really put 
some fidelity into our programs.
    Mr. Fleischmann. Agreed. Last week, one of my colleagues 
from the other side of the dais raised an issue, Madam 
Administrator, that was a very valid question, but did concern 
me in terms of the housing of NNSA, where NNSA would be. 
Obviously, I am very pleased with where it is right now and 
what you all are doing.
    But there were some questions that were raised with the 
Secretary. He made it very clear, I believe, in his response 
that NNSA--and I am using my words--has a safe home here in the 
Department of Energy.
    I would like your thoughts on that, and just maybe 
reassurance for the committee as to where you think NNSA will 
be housed.
    Ms. Gordon-Hagerty. I support the administration's position 
that NNSA continue to be housed in DOE as an agency.
    Mr. Fleischmann. Thank you. Thank you very much. As do I.
    Dr. Verdon, the President's budget requests an additional 
$109 million for a lithium production facility. How important 
is this facility to our ability to execute the nuclear mission?
    Mr. Verdon. Thank you.
    It is very important. When we, as the Administrator set 
out, when we looked at what the requirements were from the DOD 
and the facilities we needed to meet those requirements, we are 
not trying to modernize all the facilities that are 70 years, 
back from the 1970s. We have identified the key facilities to 
meet the DOD requirements as well as workforce safety.
    And Lithium is one of those facilities where it is an 
essential material, making essential components for the nuclear 
weapons, and that is why it is one of our highest-priority 
facilities to bring up to support the DOD's deliverables.
    Mr. Fleischmann. Thank you, sir.
    My final question. Given the challenges associated with the 
hiring for the unique roles within our defense nuclear 
establishment, as well as the length of the clearance and 
training process, what steps do you plan to take to be able to 
execute this budget increase?
    Ms. Gordon-Hagerty. Representative Fleischmann, we have 
undertaken a corporate approach to a hiring strategy across all 
of the NNSA labs, plants, and sites, field offices, and 
headquarters, and I am happy to report we hired 7,700 people 
across our entire enterprise this last year.
    It is a robust program. We visited colleges and 
universities, including the University of Toledo. I had the 
pleasure of visiting with Chairwoman Kaptur this last year.
    We are doing a great job. The strength of our program and 
our national security mission is truly a lure for scientists 
and engineers, for the technicians we need.
    We are also undertaking robust programs at different 
technical colleges for skilled craft that we need across our 
entire enterprise as well.
    So we are working along those lines, and we are seeing 
really, really, really good results as we continue our efforts.
    It also requires, however, security clearances, as you 
said. And while we have seen traditionally security clearances 
have taken an average of 444 days, we are now seeing 
approximately 130 days in our security clearance process.
    We are working closely with OPM, with the office, NBIB, 
that handles the security clearances, and also with the 
Department of Defense, who is now taking over those programs.
    We have incredible opportunities. We cannot ask people to 
come and work with us and serve our Nation and have them sit on 
their hands while they are waiting for their security 
clearances. And, in fact, we are finding other useful work for 
them to do while we are waiting for their clearances.
    Mr. Fleischmann. Thank you for your thoughtful responses. 
And, again, thank you for what you do for our great Nation.
    I yield back.
    Ms. Kaptur. Thank you very much, Mr. Fleischmann.
    I wanted to ask you, Administrator Gordon-Hagerty, you 
often talk about all the jobs that are available at NNSA and 
different categories of jobs. You are very open to seeking 
individuals from places in the country that haven't been asked 
before. But is there an easy way to access the full job list on 
your website?
    Ms. Gordon-Hagerty. Yes. We are working with our labs, 
plants, and sites. Because of our labs, plants, and sites being 
unique in their characteristics--they are actually 
contractors--there are some bureaucratic issues that we are 
working through about whether or not contractors can look at 
other contractor websites, and they can look into the Federal 
websites.
    So we are working through that, that is actually one of the 
tasks that we have for our management and budget organization, 
so that we can have a better idea about all the jobs that are 
available throughout our entire enterprise.
    And to the extent that we have people that we are hiring, 
remember, we are coming across--we are coming into that bathtub 
curve where in the next 5 years nearly 40 percent of our 
workforce, 35 percent of our workforce, will be eligible for 
retirement. Right now, it is 21 percent at our headquarters and 
our field offices.
    We have got to do something about getting the workforce of 
the future in place now so we have mentorship, so we have some 
cross training. We can't just bring them in and expect them to 
do some jobs, do work, do useful work, and not have any 
training before them. So we are working along that--
    Ms. Kaptur. Let me interrupt in view of the time, but just 
to say it is very difficult to try to figure out what those 
jobs are. And I doubt there is any Member of Congress that is 
sitting up here on the dais that could actually go in front of 
an audience and read some of the job categories and positions 
that you are asking for.
    So somehow NNSA has to figure out a way to communicate with 
the general public.
    Ms. Gordon-Hagerty. Sure.
    Ms. Kaptur. And I think all of us would welcome that. So I 
just wanted to mention it.
    I heard what you said about contractor difficulties. But 
just recognize even when I went to the website, I thought, 
``Oh, my goodness.''
    Ms. Gordon-Hagerty. I take that, and we will work on that.
    Ms. Kaptur. Generically, you might be able to prepare a 
different kind of list that doesn't label a particular lab but 
a particular skill. That could be very, very helpful to people, 
just by way of comment.
    Now, I wanted to move on. Admiral Richard from STRATCOM 
recently noted the nuclear enterprise can only absorb so much 
work at one time. As I understand it, NNSA is looking at moving 
the timeline for the Long-Range Standoff warhead to the right 
because NNSA's workload is too great.
    Is this true? And what are your plans to reduce scope for 
the W871? Yes?
    Mr. Verdon. So as part of any of our weapons acquisition 
programs, we are always looking. Especially in this case, where 
it is mostly the Air Force is developing a new missile at the 
same time we are developing the warhead for it, we are 
constantly working on it to make sure we are staying 
synchronized.
    So we are in that process. We do it almost annually, if not 
more frequently. We are in that process right now to make sure 
how their procurement is going, how our work is going, and 
then, if there is a need to change anything based on 
synchronization.
    So certainly we do discuss the idea of moving an internal 
milestone, but we do not do anything to change the IOC or the 
FOC, those stay fixed. We look at movements within that to 
better align the programs.
    So we are indeed doing that now, but no decisions have been 
made. They are being teed up now for the Nuclear Weapons 
Council's consideration based on the results we obtained. But 
it is just something we normally do to make sure we stay 
synchronized for both of those programs.
    And I will say now, our look already is we can move an 
internal milestone with no additional cost increase. We have 
already identified that, so that won't be--it won't be a major 
issue, but it will be more a synchronization issue for the all 
up round.
    And then, in terms of the 87, what we have done very 
recently is we have what we call threshold requirements, which 
is must-dos, and we have objective requirements, which are if 
possible, if they don't have major impact, if the cost is worth 
the benefit.
    And so we had--we have had a recent review on the 87 where 
we had two objective requirements that we were still working 
on, that we accelerated the review of those requirements for 
their consideration, and we had a lengthy analysis of the 
benefits, the costs associated with those requirements. And we 
brought those before the Nuclear Weapons Council and a decision 
was actually made not to go forward with those two objective 
requirements.
    So we have downscoped, if you like, the requirements that 
we were carrying on those warheads. All of the threshold 
requirements are still there, but those two objective 
requirements have been eliminated.
    Ms. Kaptur. Thank you very much.It know it is a heavily 
industrial region. And you, in your testimony again today, have 
mentioned some of the componentry that you could not or they 
are having difficulty acquiring. You mentioned capacitors as 
one.
    I am wondering if you could, just generically, discuss some 
of the componentry you are having trouble finding contractors 
for. And my question would be, how can NNSA expand its 
manufacturing base? And will those efforts help reduce your 
costs? And to supplement some of the academic alliances you 
currently have, what value would there be in an academic and 
industry consortium focused on helping NNSA with its 
manufacturing needs?
    Ms. Gordon-Hagerty. Go ahead.
    Mr. Verdon. So, yes, we are indeed, for many reasons, we 
are expanding our industrial base. As you mentioned the 
capacitor issue, that was a case where we had essentially a 
single vendor at the time, and we recognized that to add 
resiliency into our complex we actually had to expand the 
number of vendors that could provide us things like electronic 
components that you mentioned.
    So we are actively pursuing that and have actually 
increased the number of vendors that we are now utilizing on 
our, in particular, our life extension programs.
    The same is true for our large construction projects, where 
we are buying a considerable amount of equipment across the 
United States. We have expanded the vendor bases that we are 
using there.
    And we are even reaching out now to some of our great 
American industries to help us with advancing some of our 
manufacturing techniques, that instead of just replicating what 
we did during the Cold War, we are actually using American 
industry to learn from new manufacturing techniques and 
beginning to help us prototype those activities to actually 
bring them into the complex to hopefully make us more efficient 
than what we had in the past.
    So we are undertaking all those efforts that you mentioned, 
to try to improve, to certainly make the complex more resilient 
with the goal of also reducing the cost, making us more 
efficient.
    And in terms of the academic alliance, it is a great 
question. We have been actually asking that. And we are 
starting to look at, because we recognize that manufacturing is 
such an important component, of how do we expand and what 
universities can we tap into that could help us in the area of 
manufacturing and new manufacturing techniques, as I mentioned, 
to take advantage of what is being developed and to plan 
thoughtfully how to bring it into the complex as we go forward.
    Additive manufacturing is kind of a worked example now, but 
what is the next great thing out there? And we are starting to 
look at that now.
    Ms. Kaptur. Thank you very much.
    Mr. Simpson.
    Mr. Simpson. Thank you.
    A couple of things. Is it accurate to say that the 
Secretary of Energy supports the President's budget request, 
and that includes the NNSA budget?
    Ms. Gordon-Hagerty. Yes.
    Mr. Simpson. Contrary to some of the comments that were 
made.
    Could you effectively and efficiently spend the budget 
request if that request were to come about in the 
appropriation?
    Ms. Gordon-Hagerty. Yes. I am confident we can execute all 
of the missions that are given to us.
    Mr. Simpson. Let me ask Dr. Verdon. We have heard concerns 
that various components of the modernization program, including 
components that are in the early stages, are over budget and 
behind schedule. With major construction projects, we have a 
management process with milestones, including cost and schedule 
baselines against which we can measure performance.
    A couple questions. Is there a comparable management 
process for programs like the life extension program? And at 
what point are plans mature enough to produce legitimate cost 
estimates and schedules against which we can measure whether 
the life extension programs are over budget or behind schedule?
    Mr. Verdon. Yes, sir, there are. We use a process that 
sometimes you call it the Phase X process, or the Phase 6.X 
Process. It is a joint DOD, DOE, and NNSA acquisition process, 
warhead acquisition process, and it is a very rigorous process.
    And we do have a number of gates, a number of phases that 
we go through, a number of gates, a number of reports that have 
to be produced. There is a whole documentation, a very rigorous 
documentation has to be produced along the way.
    And there are certainly--like, one example is we adhere 
to--I think it is U.S. Code 55--2537, I think, which is the 
selected acquisition reports, a report to Congress that we 
provide annually on the schedule, the costs, and so forth.
    So we do provide annual snapshots and even more frequent 
snapshots of the progress we are making, how we are doing with 
the budget, how we are doing with the schedule. And basically 
that is how we monitor the progress on the programs, is through 
those types of activities and other additional reports.
    Recognizing it is a lot of information, and we would 
certainly offer that if there is information out of those 
reports that would make it easier for you to be able to 
transparently see what we are doing, we would be more than 
happy to work with you and your staff to pull out that 
information so that you are not having to read these very long 
reports that we produce. But it is a very rigorous, very, very 
rigorous process that we go through.
    Mr. Simpson. Appreciate that.
    Madam Administrator, it has been said that the production 
of 80 pits per year in 2030 is NNSA's highest infrastructure 
priority. NNSA is planning to split production between Los 
Alamos and Savannah River.
    What is the current cost estimates for each of these 
projects, and what is the level of fidelity we have for each of 
these cost estimates? And is Los Alamos on track to produce its 
first pit for use in a nuclear weapon by 2023 and up to 10 pits 
by 2024? And what challenges have NNSA and the contractor 
encountered?
    Ms. Gordon-Hagerty. Mr. Simpson, we have made great 
progress at Los Alamos National Laboratory, and in fiscal year 
2018 and fiscal year 2019 we produced 10 developmental pits. 
That gives us the opportunity to look at the characteristics of 
the plutonium pit as we are manufacturing them so we can get a 
higher fidelity in how we will ultimately produce the 10 pits 
per year in 2024, the 20 pits in 2025, and 30 pits per year 
starting in 2026, in perpetuity. We will continue that process.
    We are doing great work at Los Alamos in terms of bringing 
in the necessary equipment to execute that, to put the 
production mission in place, while we are also undertaking all 
of the actinide chemistry and the necessary and continued 
programs that are under the Plutonium Center of Excellence that 
is housed at Los Alamos.
    In addition to that, we are working through the conceptual 
design plan for the Savannah River plutonium processing site, 
which will use the facility formerly known as the mixed oxide 
facility, or the MOX facility, at Savannah River that then 
Secretary Perry terminated in 2018.
    We have been working with our contractor at the site, the 
Savannah River Nuclear Solutions Laboratory, our contractor to 
develop the conceptual design. We will move forward with that. 
We will receive that later this year. And we will move to 
conceptual design 1, which is CD-1, in fiscal year 2021.
    We have a very aggressive program, as I have mentioned 
before. It is our highest priority. And we believe that we can 
accomplish this mission.
    We are doing things in parallel with our Los Alamos and 
using Livermore experts, since they used to have a plutonium 
production or plutonium capability at Livermore, which we did 
inventory in about the 2011 timeframe.
    So our single plutonium manufacturing capability in the 
United States at the present time is Los Alamos. We are looking 
to develop a rigorous and resilient program for our 
infrastructure in the future.
    As a reminder, more than 30 years ago, we shuttered the 
plutonium pit capability in the United States at Rocky Flats, 
which we did in around 1989, 1990. It is time we develop a 
resilient enterprise for our current and future nuclear 
deterrent.
    Mr. Simpson. Thank you.
    Finally, Admiral Caldwell, you mentioned in your testimony 
about the unanticipated cost increases in the fuel handling 
facility. As we talked, it was a variety of things, but the 
cost of steel and concrete and so forth, and those costs--bids 
came in at a much higher cost than were anticipated.
    That is putting pressure on your budget in other areas. 
What other areas is it putting pressure on? Is it putting 
pressure on developing new nuclear technologies that you put on 
the shelf and that kind of stuff?
    Admiral Caldwell. In this particular case, sir, the budget 
or the bids that came in substantially over what was expected 
have put pressure on my facilities and infrastructure spending 
in fiscal year 2021, my request for fiscal year 2021. So to 
accommodate that I have had to defer to major MCPs and move out 
some other facilities work that I was planning on doing, but I 
am able to handle what I need to do in fiscal year 2021 within 
the current request.
    The challenge will be, as we go into future years, fiscal 
year 2022 and beyond, I am trying to step up the investment 
that we make in research and development. We have devoted over 
the last many years focus on the three major projects, which 
include the refueling of the reactor in New York, the spent 
fuel handling facility, and the Columbia project. And now, as 
those projects are in execution, we need to really refocus on 
developing the advanced technologies that the Navy needs to 
make the Navy--provide capability to the Navy in the future.
    Some of those things are advanced instrumentation and 
control, advanced core concepts to be able to load more fuel 
in, advanced manufacturing capabilities to reduce cost and 
schedule duration and improve performance.
    So there will be pressure on my budget in R&D, research and 
development, as I go forward, and there will also be pressure 
on my ability to recapitalize older facilities and to continue 
an aggressive pace of decontamination and decommissioning 
activities.
    So that all said, I have got to figure out how I am going 
to manage through that. Right now, I am prioritizing the 
research and development, taking some pain in the facilities 
and infrastructure. But as we come forward, I will work with 
NNSA and DOE and your staff here on the Hill to figure out the 
best way to do that and continue to meet what the Navy needs.
    Mr. Simpson. Thank you.
    Thank you all for being here today. I appreciate it very 
much.
    Ms. Kaptur. Thank you.
    Congressman Fleischmann.
    Mr. Fleischmann. Madam Chair, I have no further questions. 
I yield back. Thank you.
    Ms. Kaptur. Thank you very much.
    Administrator Gordon-Hagerty, what does the future of the 
nonproliferation program look like? And I think Dr. Park might 
want to also address this. How is our country positioning 
itself to address emergent challenges as other countries seek 
to harness nuclear energy technologies?
    Ms. Gordon-Hagerty. Madam Chairwoman, as we discussed 
yesterday, I am delighted to have Dr. Park's leadership in our 
Defense Nuclear Nonproliferation program. We are embarking on a 
strategic, on both a parallel path, which is doing the good 
work of the Defense Nuclear Nonproliferation program, also 
looking from a strategic perspective about those emerging 
countries that are looking to acquire peaceful uses and 
continue down that path.
    I would like to defer to Dr. Park on that. But I think we 
are making some great inroads, and we have some great strategic 
planning going on in our efforts. So I think that will pay 
dividends for our Nation and for like nations in the future.
    Mr. Park. Thank you, ma'am.
    Again, thank you for your outstanding leadership supporting 
the DNN program. Actually, all of NNSA.
    So as I stated earlier, we actually look at full coverage 
worldwide. That requires a steady state improvement in how we 
do what we do. For example, in terms of removing, eliminating 
nuclear materials, or better protecting them, or working with 
international partners so they can actually better protect the 
materials they own. And, whenever they don't need it, we like 
to work with them, work with the IAEA, to make sure we actually 
have a solution to get rid of them. Eliminate forever is our 
theme.
    And at the same time, as the new countries show up 
interested in nuclear technologies, we prefer they work with 
the United States through a 123 agreement, but even if they 
don't we want to work the IAEA and like-minded countries to 
actually share with them what it takes to be nuclear industry--
nuclear technology owner.
    It takes a lot, by the way. So we actually spend a fair 
amount of energy educating our newcomers to the nuclear 
technology--the membership.
    Recently, a year ago, in fact, Administrator Gordon-Hagerty 
and I participated in an insider threat symposium, where we 
actually had 60 countries participate.
    Protection is not just from outside; it is also from 
within. And many of the countries joining this nuclear 
technology membership, if you would, they actually did not know 
what we meant by ``insider threat.'' So it is actually by 
educating them.
    There is a softer side of engagement in nuclear 
nonproliferation, and we do that quite a bit. At the same time, 
we work with other countries that actually own substantial 
amount of nuclear materials, and we would like to actually find 
a way to make sure we have a consistent solution to the 
international community, and, at the same time--but there are 
many things that we worry about.
    One of the things that we actually spent a lot of time on 
is developing technologies to make sure we actually have 
verifiable treaties. So I am happy to report to you NNSA does a 
substantial technology leadership role, play a substantial 
leadership role in coming up with the technologies to actually 
monitor these activities from the ground, from air, space, and 
so on, and I think we have provided the multiple classified 
briefings to you on what we do with the satellites and so 
forth, working with the U.S. Air Force, for example.
    I could go on. But, essentially, it is actually important 
for me to recognize we have a very important counterterrorism 
program within the DNN, and we actually work with international 
partners in that area as well so they can actually respond 
should there be an incident.
    We cannot go after every incident that there is in the 
world. So, again, we go out there. We have a very able staff 
within NNSA. And they go out there and train them, educate 
them, and we do tabletop exercises, and so on.
    I mean, I would like to respect your time. But, again, it 
is actually in-depth. But there are new technologies, dual-use 
technologies that we worry about that I am more than happy to 
cover in a classified setting that we are really spending our 
time on going forward.
    Ms. Kaptur. All right. I thank you very much for that, and 
we might ask for that classified setting briefing.
    Congressman Simpson.
    Mr. Simpson. I am----
    Ms. Kaptur. You are finished. OK. Thank you.
    Final question. Madam Administrator, the Department has a 
clearly defined process for managing construction projects. 
That really isn't so for ongoing life extension programs and 
requesting funding for a fifth, brand new warhead program.
    What specific changes are you making to your current 
weapons acquisition process to increase transparency for 
Congress and to avoid future cost increases and schedule 
delays?
    Ms. Gordon-Hagerty. Madam Chairwoman, we have made some 
significant progress under Dr. Verdon's leadership in this 
area, and I defer to him to explain exactly how we are 
upgrading and updating our processes for weapons activities.
    Mr. Verdon. Yes, ma'am.
    So part of our continuous effort to improve and lessons 
from the B61 and the 88, we are making changes, improvements to 
our acquisition process.
    A couple of highlights that we would say is we recognize 
that we need earlier engagement between the design agencies and 
the production agencies, so those are being implemented.
    More senior leadership engagement from the M&O sites, not 
only within their own site, but across the site. Improving a 
shared FADE approach and more discussion and collaboration 
amongst the sites. More Federal oversight of the technical 
choices and decisions that are being made.
    So there are a number of improvements we are making. Those 
are just a few. We are putting quite a few others in place as 
well.
    As I did mention, we do have a pretty--it is a pretty 
rigorous acquisition process, and I recognize it contains a lot 
of information. We try to invite your committee staff members 
to a quarterly review of all of our life extension programs so 
they can hear the updates right from the people that are 
conducting the programs, to get a status of how they are 
moving, how they are progressing, where our issues are, as well 
as the documented reports. As I mentioned, the selected 
acquisition reports, where we document on an annual basis how 
we are doing against costs, how we are doing against schedule.
    But as of our life extension programs right now, we made 
the commitment that the issue we encountered on the B61 and the 
88, that we would fix it from within the portfolio of our life 
extension programs, and we did that. While, if you look at the 
budget, the 61 and the 88 do go up because of the technical 
issue we encountered, the 80 and the 87 went down in comparison 
because we made efficiency improvements on the 80, and we made 
those down-selects that I referenced on the 87.
    So within the life extension program, we actually balanced 
the increased costs in the 61 and the 88 through cost savings 
on the 80 and the 87.
    Ms. Kaptur. All right. I want to thank you for placing that 
on the record. Thank you for placing that on the record. And 
any additional information you can give us on how we can have 
greater transparency for congressional oversight would be 
greatly appreciated. If you could provide some additional 
documentation to the record in that regard.
    Mr. Verdon. Certainly.
    Ms. Kaptur. I would certainly be very appreciative of that 
on behalf of the entire committee.
    We have been fortunately joined by one of our most capable 
members, whom we are so pleased to have joined us here this 
afternoon, Congressman Derek Kilmer from the State of 
Washington, who has been a very faithful attendee at 
everything. I know he had competing committees. So we thank him 
very much for joining us today.
    If you have any questions you would like to put forth, we 
recognize you.
    Mr. Kilmer. Thank you, Madam Chair. My apologies. We had a 
briefing on the coronavirus with the Vice President, and coming 
from Washington State, as you can imagine, that is a high 
priority for us. And I did set the land speed record from that 
briefing to this committee room.
    Thank you for being with us.
    Admiral Caldwell, thank you for your terrific leadership 
and partnership. And it wouldn't be an opportunity for me to 
visit with you without checking in on the Enterprise disposal 
issue.
    The Navy is issuing a contract solicitation for dismantling 
and disposing of a surface ship support barge contaminated by 
nuclear materials. And I understand the Navy is establishing a 
process with the Nuclear Regulatory Commission for technical 
and contractual implementation of NRC regulations governing the 
disposal of the barge. I also understand that the precedents 
established with the NRC while dismantling the barge will 
inform the process of dismantling the aircraft carrier 
Enterprise.
    With that in mind, I was hoping you could speak to how this 
contract solicitation and barge work fit into the plan for the 
disposal of the Enterprise. Is this the template you plan to 
use for the Enterprise? If you are not sure, what could you 
discover in the process that leads you to a different model for 
the Enterprise? And is there anything you have already learned 
from the barge disposal contract solicitation that you can 
share?
    Admiral Caldwell. Thanks for the question, sir, and I 
understand your interest in this.
    As you know, it is my responsibility to handle the 
materials in my program from cradle to grave, and we have a 
long history of regulating and responsibly dealing with the 
materials and disposing of them properly, protecting our people 
and the environment and the program's reputation.
    The surface ship support barge was a refurbished tanker 
that was used for defueling Nimitz-class aircraft carriers. It 
was last used for defueling the USS Abraham Lincoln. And now 
that that system is obsolete because we have implemented new 
technologies, it is my responsibility to properly dispose of 
it.
    So we are moving down a path and we have submitted requests 
for proposals, and we have answers back. We are now in the 
source selection phase, so I won't go into any details on that. 
But we are working with the Nuclear Regulatory Commission, and 
we have had a lot of dialogue with them and have an interagency 
agreement that we have negotiated with them.
    What we are learning in this process is that there are a 
lot of interested parties in this business. As the commercial 
ship-breaking business has come about, there is a substantial 
amount of interest.
    My responsibility is to do this safely, securely, and do it 
at an affordable way for the Nation.
    So we are, as we go forward, we are continuing to 
understand and learn about our regulatory framework. We are 
continuing to learn on other aspects of the job as we move 
forward. And while it may inform some steps for Enterprise, it 
in no way is determining the answer for Enterprise, and in fact 
no specific decisions have been made with regards to the 
Enterprise disposal path.
    That said, we are evaluating options, and we are working on 
an environmental impact statement. The draft environmental 
impact statement will be released next year. And it is my 
promise to you that we will continue to keep your staff 
informed as we improve forward on this effort.
    Mr. Kilmer. Thank you.
    Admiral Caldwell. Yes, sir.
    Mr. Kilmer. And I appreciate the persistent transparency 
and engagement with both my team and with me. So thank you for 
that.
    Admiral Caldwell. Roger, sir.
    Mr. Kilmer. Thank you.
    Thank you, Madam Chair.
    Ms. Kaptur. Thank you very much.
    And I would just like to thank our ranking member, 
Congressman Fleischmann, Congressman Kilmer, for being here, 
and for having full committee participation today. It was just 
a great hearing. We thank you very much for being with us 
today.
    That concludes this afternoon's hearing.
    And I would like to thank each and every one of our 
witnesses. I ask the witnesses to please ensure for the hearing 
record that questions for the record and any supporting 
information requested by the subcommittee are delivered in 
final form no later than 3 weeks from the time you receive 
them. Members who have additional questions for the record will 
have until the close of business on Monday to provide them to 
the subcommittee office.
    Our hearing is adjourned.
    [Material submitted for the record follows:] 
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                            Tuesday, March 10, 2020

                        ARMY CORPS OF ENGINEERS

                               WITNESSES

HON. R.D. JAMES, ASSISTANT SECRETARY OF THE ARMY, CIVIL WORKS
LIEUTENANT GENERAL TODD SEMONITE, COMMANDING GENERAL AND CHIEF OF 
    ENGINEERS, U.S. ARMY CORPS OF ENGINEERS,
TIMOTHY R. PETTY, ASSISTANT SECRETARY, WATER AND SCIENCE, DEPARTMENT OF 
    THE INTERIOR
BRENDA BURMAN, COMMISSIONER, U.S. BUREAU OF RECLAMATION
    Ms. Kaptur. The subcommittee will please come to order.
    We are here today to discuss the fiscal year 2021 budget 
request for the Army Corps of Engineers and the Bureau of 
Reclamation.
    Thank you to our witnesses for being here today. I want to 
extend a special thank you to General Semonite, whose term as 
Chief of Engineers and Commanding General of the U.S. Army 
Corps of Engineers will end in May. That is both good news and 
bad news.
    On behalf of our subcommittee, I would like to thank you, 
General, for your service, your fine service to our country and 
for all you have done for the Corps in your important role. You 
have demonstrated an unwavering dedication to addressing our 
Nation's water resources, its needs during a challenging period 
of environmental reset due to climate change. Thank you for all 
the disasters you have helped us avoid and for those that you 
have helped to clean up.
    Last year, we faced similar circumstances. Your agencies 
were under pressure from significant flooding in the Midwest 
and drought in the West. Again, today, Mississippians across 
that State are still drying out from the Pearl River flood, 45-
percent of western States are experiencing some form of 
drought, the Great Lakes are at an all-time high, and 
precipitation and snowpack have been below average in 
California so far in 2020. Climate change is accelerating and 
communities are caught in the cross-hairs.
    Though the water resource needs of our country vary from 
region to region, there is a constant and essential need to 
invest in our infrastructure. Without significant investment in 
our infrastructure, the dichotomy of water surpluses in the 
middle belt and water shortages in the West threatens Americans 
from all walks of life.
    Although Congress last year rejected the administration's 
proposed deep cuts, the Trump administration has once again 
proposed to slash funding for the Corps and Bureau of 
Reclamation, this time by 22 percent and 32 percent, 
respectively. When will the White House learn their proposal is 
flawed and dangerous to our people and our communities?
    These proposed cuts are greatly disappointing to this 
subcommittee and to our colleagues from both parties. These 
cuts are divorced from reality. We all know our water resource 
infrastructure impacts the life and safety of our citizens, as 
well as America's economic prosperity.
    I am particularly incensed about this administration's lack 
of attention to the needs of the people of the Great Lakes 
region. Yes, the administration has prioritized the Soo Locks, 
and a broad bipartisan coalition in this House is thankful.
    However, the economic and environmental threat that the 
Asian Bighead Carp pose to the Great Lakes, a multibillion 
dollar fishery and the economic lifeblood of millions of 
Americans, is just as great as the threat of failure of the Soo 
Locks. The continually rising lake level across the Great Lakes 
threatens millions more people, ports, and communities, and 
adds to the threat of the Asian Bighead Carp sweeping into the 
Great Lakes. Yet this administration has ignored clear 
congressional intent by refusing to fund the next phase of work 
for the Brandon Road LOCK and Dam and by refusing to begin a 
Great Lakes Coastal Resiliency Study.
    Worst of all, President Trump reneged on his word. He made 
a promise to the Great Lakes at a recent Michigan rally that he 
would move swiftly and stop Asian Bighead Carp. But as we have 
learned, he can be full of empty promises, and when the cameras 
were turned off, he overruled the Army Corps and stopped the 
Brandon Road project dead in its tracks. But this committee, 
this subcommittee, will persevere.
    Despite these proposed cuts, rest assured that there is 
bipartisan support in Congress for the work that your agencies 
undertake on behalf of the American people. Do not be deterred 
by these draconian cuts. The subcommittee recognizes and 
appreciates the importance of your work.
    I wanted to say before we recognize Mr. Simpson regarding 
the schedule of our hearing, we anticipate having votes at 
about 3:45. I would encourage everyone, including our 
witnesses, to be as brief as possible.
    I will now turn to our ranking member, Mr. Simpson, for his 
opening remarks.
    [The prepared statement of Ms. Kaptur follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Simpson. Thank you, Chairwoman Kaptur.
    I would like to join you in welcoming our witnesses. We 
appreciate you being here today to discuss the fiscal year 2021 
budget request for the U.S. Army Corps of Engineers Civil Works 
Program, the Department of Interior's Central Utah Project, and 
the Bureau of Reclamation.
    General Semonite, I understand that this is likely your 
last hearing before this committee. Whether you like it or not, 
I am not sure. You brought great energy to your term as Chief 
of Engineers. Thank you for your service to the Corps and to 
the Nation.
    The budget requests for these water resource programs, once 
again, include sizeable reductions from enacted levels, 32 
percent for the Bureau of Reclamation and the Central Utah 
Project, 22 percent for the Corps of Engineers. Reductions are 
no surprise. It happens almost every year, regardless of who is 
in the White House and who is in charge of Congress. The only 
surprising thing to me is that the reductions for the Corps was 
not even larger.
    When you move the funding request for FUSRAP back to the 
Corps, which Congress is likely to do, the budget request total 
is $6.1 billion. That is not just the highest budget request in 
many years, it is more than $1 billion higher than all but one 
budget request in the last 20 years.
    Unfortunately, I continue to have concerns about the 
projects specific allocation process, especially when it comes 
to the annual work plan. Over the past several years, we have 
seen continued disregard for congressional direction, which is 
incorporated into law. We have seen encouragement of allowing 
non-Federal sponsors to buy their way to the front of the line 
for Federal funding, and we have seen funding categories 
ignored. I think I know how these problems are finding their 
way into the work plan process, but to make sure, I will have 
some questions on these issues at the appropriate time.
    The infrastructure investments carried out by the Corps and 
the Bureau of Reclamation are critical to improving our 
national economy, public health and safety, and the 
environment. I think Congresswoman Kaptur said last year that 
this is the biggest infrastructure bill we have. We all talk 
about infrastructure, but this is the biggest infrastructure 
bill that we have. I am confident that, once again, this 
committee will work together to provide strong support for 
these programs.
    Thank you, Chairwoman Kaptur, for calling this hearing. I 
look forward to discussion with our witnesses.
    Ms. Kaptur. Thank you very much, Ranking Member Simpson.
    We will now turn to the ranking member of the full 
committee, Kay Granger of Texas. Welcome.
    Ms. Granger. Thank you very much. I would like to thank 
you, Chairman Kaptur and Ranking Member Simpson, for holding 
the hearing today on fiscal year 2021 budget for the Civil 
Works Program with the U.S. Army Corps of Engineers and the 
Department of Interior's Bureau of Reclamation and Central Utah 
Project.
    I want to say particularly to Lieutenant General Semonite, 
I enjoyed our trip. It was very helpful. We went on the border 
and saw what was happening there, and it was a short trip but 
very, very helpful. Thank you.
    And the Honorable R.D. James, we have worked together such 
a long time on projects that are close to what I am doing in 
Congress, and in my district, and thank you for all the work 
that you have done.
    I would also like to thank our witnesses for being here 
today. Your agencies are the Nation's foremost experts on water 
resources development and management issues, and we all 
appreciate the important work that you do. Your efforts support 
our economy; protect public health and safety; improve the 
environment; and generate clean, renewable hydroelectric power 
for communities across the country.
    The Corps of Engineers also carries out significant 
construction work for other Federal agencies. I have had the 
opportunity to see firsthand the work the Corps is doing on 
behalf of U.S. Customs and Border Patrol as we went on our 
trip, and that was very helpful. I have witnessed many 
construction projects over the year, and I know how difficult 
the work is. I commend your team for doing really a quality job 
on such a complex project.
    Unfortunately, the executive branch has consistently 
proposed reductions for the important programs we are 
discussing today. Although the budget request for the Corps of 
Engineers is the highest request in many years, that request 
and the request for the Bureau of Reclamation are significant 
reductions from current levels. I wish everyone who did that 
could see what I see and those of us who are on this 
subcommittee and how important your work is. So thank you very 
much for your testimony, and I am glad to be with you.
    Thank you.
    Ms. Kaptur. Thank you very much, Ranking Member Granger.
    Now let us proceed. First, we will hear from the Honorable 
R.D. James, Assistant Secretary--I should say outstanding 
Assistant Secretary of the Army for Civil Works. Mr. James 
serves as the 12th Assistant Secretary of the Army for Civil 
Works and previously served on the Mississippi River 
Commission, and he is no stranger to the Corps.
    Next, we will have Lieutenant General Todd T. Semonite, the 
54th Chief of Engineers, also outstanding. Lieutenant General 
Semonite assumed his current position on May 19, 2016. As I 
stated in my opening remarks, General Semonite's term in this 
role will end this May. Again, thank you for your leadership, 
General Semonite, always with a smile.
    Following that, Assistant Secretary Timothy Petty, the 
assistant secretary for Water and Science at the Department of 
Interior. Previously, Assistant Secretary Petty served as 
acting assistant secretary and deputy assistant secretary for 
Water and Science at the Department of Interior under President 
George W. Bush.
    Last but not least, we have the Commissioner, Brenda 
Burman, from the U.S. Bureau of Reclamation. Commissioner 
Burman is the 23d commissioner for the Bureau of Reclamation 
and the first woman to lead Reclamation.
    Thank you all for taking the time to be here today. Without 
objection, your written statements will be entered into the 
record. Please feel free to summarize your remarks in about 3 
minutes, starting with Assistant Secretary James.

                  STATEMENT OF HON. R.D. JAMES

    Mr. James. Thank you, Madam Chairwoman and members of the 
committee. Thank you for inviting me here today to testify, and 
thank you for your time to listen to me. I do have a written 
testimony here. It is the same as I would turn in for the 
record. So under your timeline, I think I will just forego 
reading it, unless you want me to.
    Mr. Calvert. You can skip anything you want.
    Ms. Kaptur. Please proceed.
    Mr. James. There are a few things I would bring up. The 
Secretary of Agriculture, Sonny Perdue, has become very, very 
interested in the inland waterway system of this country and 
the needs of the inland waterway system of this country as it 
relates to agriculture, of course, from his wheelhouse. He and 
I, I am working on a plan with him to make the needs of inland 
waterway known around this country. We rolled out in St. Louis, 
Missouri, last fall, and we intend to be speaking at other 
areas around the country as we go forward. Of course, 
agriculture isn't the only thing that uses the inland waterway 
system, but that is Secretary Perdue's focus is on the needs of 
agriculture and how the inland waterway system helps 
agriculture.
    The other thing that I would mention is that the CEQ, 
Council on Environmental Quality, is, as we speak, looking over 
the NEPA process, which is somewhere around 40 years old now, 
and the feeling--and I share that feeling actually--is that it 
needs to be refreshed and looked at and see if we can update 
that in any way to make it better for the people that we all 
serve, and also, I think, discover places where we might be 
able to save money and get more dirt moved for the dollar. That 
is what I am hoping for.
    The other thing that I would mention to you that you may or 
may not know about is the water subcabinet. The water 
subcabinet is made up of all the major agencies, including 
Commerce, Interior, EPA, Agriculture--who have I forgot?
    Mr. Petty. DOE.
    Mr. James. The Department of Energy, Army Corps Civil 
Works. Now, why do we need another bureaucratic agency in this 
town? Well, that is what I thought when this started, it really 
was. I have been to several of their meetings. I feel 
completely different. It is going to let us as a U.S. 
Government look at the same problems from different 
perspectives and come out with one idea. That is the hope. That 
is what we are trying to do. We have had a couple of examples 
of that already, and it seems to be working fine, and I am 
proud to be a member of that subcabinet.
    The other thing that bothers me personally is the fact of 
the benefit-cost ratios that we are discovering through our 
core processes of studies and feasibility studies and the PED 
part of the study, and I can't believe that some of our 
projects' benefit-cost ratios are as low as they are. I don't 
feel like we are discovering all the benefits of a project in 
our processes the way that we are doing them right now.
    I will be looking into that with General Semonite and/or 
his replacement as the summer goes long. And we are not trying 
to bamboozle anybody, but if there is a flood control project, 
we want to make sure it gets the benefits, its regional 
benefits, plus its national economic benefits. And I don't 
think we are doing that. I don't think we are deep diving into 
what are the benefits. Same way with our locks and dams. I 
don't think we are deep diving into that. We are just doing the 
NED benefits. That is like skimming the surface. So I will be 
working on that as this summer goes along as well.
    With that, I will stop. I used my whole 5 minutes anyway.
    [The prepared statement of Mr. James follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Kaptur. Thank you, Assistant Secretary James, for your 
fine service.
    General Semonite, please begin.

             STATEMENT OF LT. GENERAL TODD SEMONITE

    General Semonite. Chairwoman Kaptur, Ranking Member 
Simpson, and distinguished members of the subcommittee, thank 
you for the opportunity to testify today. I am pleased to be 
here with Assistant Secretary James and appreciate his 
leadership of the Army Civil Works team as we continue to work 
together to address water resources and infrastructure 
challenges across the great Nation.
     I have been in command of the Corps for nearly 4 years, 
and I have challenged the enterprise to revolutionize the way 
we do business. This does not imply that the Corps is not a 
world-class organization; rather, it demands that we anticipate 
and respond to changing requirements and externalities like all 
world-class organizations.
    Successful civil works project delivery supports the 
Nation's current and future energy and water infrastructure 
priorities. The Corps' credibility is measured by our ability 
to deliver results that are on time, on budget, and of 
exceptional quality. To that end, the Corps has been taking 
bold actions to improve performance to continue to engineer 
solutions for the Nation's toughest challenges. We are able to 
do this because we have a world-class workforce of talented and 
dedicated professionals who are actually passionate about what 
we do. However, none of our work is done alone. It is done in 
full participation and collaboration with many others like 
yourselves.
    We appreciate the appropriations provided by this committee 
to focus on current mission areas and serve as a guide to 
implement the Civil Works Program with a strategic vision 
taking pioneering steps to remain relevant and ready for the 
challenges of tomorrow.
     The fiscal year 2021 civil works budget is performance 
based, focused on reducing flood risks in communities across 
the Nation, facilitating commercial navigation, restoring 
aquatic ecosystems, and generating a low-cost renewable 
hydropower. Our targeted approach allows us to invest $5.966 
billion in discretionary funds towards commercial navigation, 
flood and storm damage reduction, and aquatic ecosystem 
restoration, all of which benefit the Nation's economy, the 
environment, and public safety, now and in the future.
    I would like to focus my remarks on a couple of significant 
programs and projects in this year's budget. The fiscal year 
2021 budget provides $102.6 million in the Investigations 
account to evaluate and design projects within the Corps' three 
main mission areas and for related work, including research and 
development. $2.265 billion of the fiscal year 2021 budget will 
be used for the Construction program to produce as much value 
as possible for our Nation from the available funds. Funding is 
also prioritized for mitigation work at ongoing construction 
projects and work needed to comply with biological opinions and 
with treaties.
    The Corps continues to improve the efficiency and 
effectiveness of the operation and maintenance program. The 
budget focuses on investments that address infrastructure 
maintenance needs on a risk-informed basis. The budget also 
provides a total of $3.123 billion for the operations and 
maintenance programming, including $158.8 million in the 
Mississippi River and Tributaries account, and $967.9 million 
in the Harbor Maintenance account.
    We appreciate, value, and depend upon the support of the 
administration, the Congress, and all of our partners to 
succeed in our mission. I am very proud of the work that the 
Corps accomplishes, and I am equally aware that the 
organizations can and will improve. I have been and remain 
committed to instituting lasting changes to the Corps' delivery 
process in order to become a more efficient and effective 
organization.
    We process more than 80,000 permits annually for the 
regulatory program to effectively protect and preserve water 
related resources of this Nation. We need to be optimally 
funded at $210 million. The Corps strives to be value added to 
deliver solutions as the Nation's engineers. We cannot conduct 
these reforms in isolation. We need the help of OMB and 
Congress to unleash the power of the Corps by acting on our 
numerous work plan and budget recommendations.
    For more than 244 years, the Corps has adapted to meet the 
challenges of the day. Today is no exception. Our current 
efforts to revolutionize the Corps simply represent the next 
chapter in this remarkable journey.
    Thank you, Madam Chairwoman and members of this committee. 
I appreciate all the comments you said at the beginning about 
my tenure, and after 41 years, it is the pride of my life to be 
able to be in this job, and I really appreciate the support of 
this committee and this Congress in helping us do our job.
    Thank you.
    Ms. Kaptur. Thank you, General. And for the millions of 
miles you have traveled in our country and abroad, thank you 
very, very much.
    Assistant Secretary Petty, please begin.

                STATEMENT OF HON. TIMOTHY PETTY

    Mr. Petty. Thank you, Chairwoman Kaptur, Ranking Member 
Simpson, the rest of the committee members. It is a pleasure to 
be here today and to discuss with you the President's fiscal 
budget for 2021 at Department of Interior and the Bureau of 
Reclamation and the Central Utah Project Completion Act, also 
referred to as CUPCA. I greatly appreciate your ongoing support 
of our programs.
    I am also pleased to join the commissioner here today, and 
I thank her for her leadership that has been just outstanding 
in the work of reclamation.
    Overall, the Department of Interior's complete 2021 budget 
request is $12.8 billion in current funding. So much of that 
work is just built into the use of sustainability and natural 
resources. Reliable water supply and energy security of our 
discussion here today is critical in supporting the economic 
prosperity of communities in the West, the Bureau of 
Reclamation's operations, including recreational support of 
over $63 billion in economic activity and over 450,000 jobs 
each year that reclamation supports. Reclamation's annual 
average of roughly 40 billion kilowatt hours of electricity 
provides for more than 1 billion in gross power revenues for 
the Federal Government. The 2021 budget request supports our 
efforts to address the challenges that impact the availability 
and reliability of water supply.
    This budget also furthers Interior's commitment to working 
with Indian Tribes toward Tribal prosperity. Across Interior, 
the budget includes $156 million for Indian settlements 
commitment, of that $112.1 million in Reclamation's efforts 
toward fulfilling those responsibilities.
    Our Nation's water resource challenges will only be 
addressed through cooperative efforts. Assistant Secretary 
James referenced earlier the importance of that collaboration, 
and I continue to engage on so many of his counterparts and 
other agencies with water-related responsibilities.
    Our cross efforts increase coordination, which focuses 
resources, which reduces duplication across the Federal 
Government. We recognize that work collaboratively. We can 
better support work that is underway to address the water 
challenges in areas of drought, water quality, water reuse, 
weather forecasting, just to name a few items.
    Finally, Interior's budget request includes the CUPCA 
program and CUPCA office. This falls under the jurisdiction of 
the assistant secretary. In 2021 budget, request the office is 
allocating $10 million for the continual planning/construction 
oversight activities of all of these efforts being completed in 
the State of Utah.
    In conclusion, I would like to submit all my work and 
records here. And, again, thank you so much for all the effort 
and support that you give to the Department of Interior.
    [The prepared statement of Mr. Petty follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Ms. Kaptur. Thank you, Mr. Assistant Secretary, very much.
    Now we will hear from Commissioner Burman. Please begin. 
Thank you.

                STATEMENT OF HON. BRENDA BURMAN

    Ms. Burman. Thank you, Chairwoman Kaptur, Ranking Member 
Simpson, members of the subcommittee, for the opportunity to 
discuss today the President's budget for the Bureau of 
Reclamation. I am Brenda Burman. This is my third year 
testifying in front of you as the Commissioner of Reclamation.
    Before I begin, I would like to thank the committee for 
your hard work and support in providing funding for our 
projects in fiscal year 2020. Having full funding has made a 
profound difference in Reclamation's ability to fulfill our 
mission with the resources Congress intended for that purpose. 
We are grateful as well for the appropriation of both WIN 
funding as well as additional funds for the priorities we share 
with you, particularly rural water, water conservation and 
delivery, and WaterSMART and title XVI.
    In this hearing, it is my goal to testify to the strengths 
and purpose of Reclamation's fiscal year 2021 budget request, a 
budget which continues to address water supply challenges in 
the West. Our goal remains to ensure water reliability and the 
efficient generation of energy, our mission, to celebrate 
America's recreational opportunities and to uphold the 
commitments to Tribal nations and the environment. The 2021 
budget prioritizes these functions and fully supports 
Reclamation's vital role out West.
    I wanted to take an opportunity to talk a little bit about 
hydrology, and you have some slides in front of you and up on 
the wall, and this is where Reclamation works. This is the 
background in which we work, and in 2020, I just wanted to give 
you a little bit of an idea of what is going on in the West. If 
we could go to the hydrology slide.
    So when you look at the West this year--and, Chairwoman 
Kaptur, you mentioned some of this--we see that in many places 
we are running about average on hydrology. If you look up in 
the Missouri Basin, we have full reservoirs from a very wet 
year last year, and we believe we are going to be able to meet 
our responsibilities to water users in the Missouri Basin.
    But as you move across up into the Pacific Northwest, I 
think you will see that we are running, again, about average, 
and that is a good thing. So let's look at the Colorado River 
region.
    So if you look at the upper and lower Colorado region, it 
started off fairly wet, and it has been trending towards drier, 
though it is supposed to rain the next 3 days in Arizona, but 
we believe that we are on target to meet all of our 
responsibilities in the Colorado River Basin given the 
hydrology this year.
    But now if we look to the Klamath in southern Oregon, I 
think you will see that they are significantly below average 
for their hydrology this year, and it is still early. It is 
March. A lot could happen between now, March and April. Even 
May we get storms. Last year we did. But this year is looking 
like it might be very difficult for the Klamath Basin.
    And if you look further south into California, you will see 
that they are significantly below average. It is a very dry 
year in California to date. Again, we hope that will turn 
around, but this informs. This is what Reclamation does. This 
is our responsibility that we can deliver water in a wet year 
but also in a dry year.
    The next slide, I just wanted to give you all an idea of 
what happens to the appropriations you send to the Bureau of 
Reclamation. So this slide just gives an opportunity to look at 
geographically where so many of our different projects are 
going on. These are construction projects across the West. And 
I want you to know that when this committee and Congress moves 
forward with appropriations, we are putting your funding to 
work. This is on-the-ground work that is making water more 
reliable, is making the Western grid more reliable, and is 
bringing hydropower to your local communities.
    So in keeping that as a background, I would just like to 
highlight for a moment a little bit of our budget as we move 
forward with fiscal year 2021 recommendation. In the upper 
basin, the Upper Colorado Basin, we are continually seeking to 
implement what I call mutually beneficial Tribal settlements. 
They avoid expensive and contentious litigation, and they are 
good not only for Tribal nations but also for their neighbors. 
In fiscal year 2021, we are requesting funding for the Navajo-
Gallup Water Supply Project and for the Aamodt Litigation 
Settlement, as well as others.
    In the Lower Colorado Basin, home to Hoover Dam, home to 
Representatives Calvert and Kirkpatrick, our priority remains 
to continue to address the 20-year drought on the Colorado 
River Basin using all of our authorities.
    In the California Great Basin, you can see it holds many 
challenges this year, and we will be moving forward with 
partners with those in the basin to move forward to make sure 
that water can be as reliable as possible. And we have so many 
other projects across our different regions.
    I will just conclude by saying thank you to the committee. 
I am prepared to answer questions. We are very proud of the 
work we are doing across the West.
    Thank you.
    [The prepared statement of Ms. Burman follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Kaptur. Thank you, Commissioner Burman, very much. And 
I thank the Bureau for providing maps that members can 
understand.
    Ms. Burman. OK.
    Ms. Kaptur. With an average seniority level in the Congress 
now of 6 years or less, we have a lot of education to do, and 
so we thank you for this and for making us able to speak with 
our colleagues in a more coherent manner. If you were up here 
at the dais, you would see how many people, how many members 
have the map at the top of their stack. So that was very, very 
good, and we thank you for that.
    Thank you all for your statements.
    And as a reminder for those members present in the room, 
when I gaveled in at the beginning of the hearing, I will 
recognize you for questions in order of seniority, alternating 
between majority and minority, until all who arrived prior to 
the gavel have asked questions. For those who arrive after the 
hearing has started, I will recognize those members solely in 
order of arrival, again alternating between majority and 
minority. Lastly, I intend to observe the 5-minute rule for 
questions and answers, and we will begin questioning under our 
normal rules.
    The first one deals with Brandon Road. And I wanted to ask 
Secretary James, the Brandon Road Projects, President Trump 
went back on his word, and since then, Michigan and Illinois 
are taking a new approach in their efforts to temporarily fund 
the project with State dollars. Mr. Secretary, it is my 
understanding that there are two agreements heading to your 
desk to allow the work to start. Expedited review is essential 
to ensure the project can proceed during this fiscal year. Can 
you, will you commit to ensure expedited review of these 
proposals?
    Second, we all know that the OMB reviews your work plan and 
oftentimes overrules your policy and engineering expertise. In 
your opinion, is the final work plan reflective of the Corps' 
recommendations based on technical and engineering expertise?
    Mr. James. There is an agreement in the Division office 
right now, MVD. It will be coming up to my office very shortly. 
I understand that Illinois and Michigan did agree to pay $8 
million toward this study, which is the PED study, the Pre 
Engineering and Design, at a cost share of 65/35. It is also my 
understanding that for the actual construction, I think 
Illinois is leading the way trying to get other States to buy 
into the project and actually cost-share some of the 
construction of the project.
    You wanted to know about the funding.
    Ms. Kaptur. Will you commit to ensure expedited review of 
these proposals?
    Mr. James. Absolutely. When they reach my office, they are 
expedited. They have to go through administration review and 
then I get them back for submission to the Congress, but we 
expedite them. I made it a point--when I got here and found out 
that there were still guidance documents from laws you all had 
passed in 2014 and 2016, it upset me, and we are expediting 
everything.
    Ms. Kaptur. All right. I thank you very much.
    Is the final work plan that will be put forward reflective 
of the Corps' recommendations based on technical and 
engineering expertise? We know that OMB often changes things 
around. And so, therefore, can you affirm that the final work 
plan is reflective of the Corps' recommendations.
    Mr. James. As it leaves my office, it is.
    Ms. Kaptur. Thank you very much. I will resume my remaining 
time at a different moment.
    I would now like to call upon Ranking Member Granger.
    Ms. Granger. I am sorry, I was still complimenting you on 
your reply.
    As I said earlier, we visited the southwest border several 
times to view the security enhancements. Some call it a fence. 
Some call it a wall. I called it a fence by mistake, and the 
President took objection to that, so I call it a wall now, is 
what you all call it now.
    I saw that there is a change in the problems, sometimes 
water problems, sometimes rock problems. It is very difficult 
to do this and have construction along the Rio Grande where 
there is miles of border. How do you adjust from one type of 
issue physically to another? And also, there is a plan for 450 
miles of border fencing to be completed by the end of the year, 
and will you be able to reach that goal?
    General Semonite. So, ma'am, there is several different 
types of terrain and different types of environmental factors 
down there, so what we do, really we have been asked to build 
this within 3 feet of the border, so, therefore, the location 
is relatively fixed. But we work for Customs and Border Patrol. 
They have very, very stringent guidelines that we must follow 
when it comes to taking care of Native American burial grounds, 
when it comes to the environment, the water, all the rest.
    So we actually do what is called the design build. We give 
the contractor the start and the end. We have them actually do 
the design. A good example, if there is water that is going to 
flow through, there are certain structures that have to be able 
to let that water go underneath and let the debris not get 
caught up in it. So every section of it, although this is a 
standard design, it is hand tailored to be able to make sure 
that it is best applicable to either go up the slopes or be 
able to take care of those environmental factors.
    We are very worried about the habitat. There are certain 
areas where we have got to be able to make sure a habitat can 
go through it within the confines of still trying to achieve 
what the administration and CBP is trying to do. And we can 
certainly go into more details, but there is no one size fits 
all. It is handcrafted to be able to make sure we are balancing 
all those competing demands.
    Ms. Granger. And the other part of the question, there is a 
plan for 450 miles of border fencing completed by the end of 
the year. Can you--
    General Semonite. We are very aggressive. That is our plan. 
We think we will still be there. I would like to think we can 
even beat that. On the other hand, there are times litigation 
kicks in, and if we have litigation, then unfortunately that 
will impact the schedule. But our goal is to be exceptionally 
aggressive and to do everything we can to get to the 450 
number.
    Ms. Granger. Thank you very much.
    Ms. Kaptur. Ranking Member Simpson.
    Mr. Simpson. I would yield to Congressman Calvert. He has a 
Defense hearing at 3.
    Mr. Calvert. I appreciate that.
    General, thank you for coming, I appreciate it. And I know 
the President has probably been calling you weekly about the 
border wall and how much progress you are making. But I am just 
curious, 450 miles, is that built or obligated?
    General Semonite. Sir, that is actually what we expect to 
have in the ground by the end of the calendar year of 2020. So 
there is other money that has been obligated that will go into 
2021 and even some into 2022. But the 450, that is all 
obligated and will be built.
    Mr. Calvert. Is this the money that was displaced out of 
the Defense budget to go into the wall? Is that what you are 
going to obligate?
    General Semonite. Sir, there are a combination of three 
types of money. Part of it is the regular, normal congressional 
appropriation the CBP gets; there is another portion which the 
Secretary of Defense, which is called 284 money; and then there 
is a third portion which is called 2808 money. So it is a 
combination of three different types of money.
    Mr. Calvert. Thank you.
    I want to be careful how I say these things because I don't 
want the money that is in Murrieta Creek to end up somewhere 
else. So with that, I will move on to Murrieta Creek. Secretary 
James, General, thank you for both being here. I want to talk 
about Murrieta Creek. I have talked to you both about it many 
times over the years, and we are, you know, wanting to get this 
project completed. We have been working closely with Colonel 
Barta at the L.A. office. And as you know, we are trying to 
contain costs and available resources, that we use it 
effectively to get this thing completed. The sponsor, Riverside 
County Flood Control and the Water Conservation District, has 
requested a section 221 in-kind contribution for credit 
agreement to allow the sponsored design phases 2B and 3 of the 
project. They believe the section 221 agreement would 
accelerate remaining design work and reduce total project 
costs. The sponsor has also asked to work closely with the 
Corps to update the economic side-by-side study of the project.
    How are we doing on that and what do you expect?
    General Semonite. Sir, we have a very high standard in the 
Corps for making sure we are collaborative and we communicate. 
We missed it on this one. I want to look you in the eye and 
tell you that. The District let me down on this. And so as a 
result, we are doing four things. Matter of fact, Mr. Al Lee 
right here is my new director of Civil Works, he has been on 
the phone the last couple of days making sure we get this to 
where it needs to be.
    Four things. Number 1, we are going to turn the work over 
to Riverside County by 30 June of this year, and phase 2 will 
be 21 January of 2021. Number 2, we are going to suspend the 
work on the GRR and instead we are going to do exactly what you 
asked, section 221, to be able to let the non-Federal sponsor 
go ahead and do that design work on their own. Number 3 is we 
are going to do better partnering. That has always been a goal.
    But, again, on this one, we didn't do what we needed to do 
to make sure that you were informed. We even were late 
answering a letter to you that we should have been much, much 
more responsive on.
    And then the fourth one is I have asked Mr. Lee to be able 
to do a biweekly update, so this District now is not just 
reporting to the division, they are coming into the 
headquarters to make sure that we personally track them. We 
have got a lot--we are doing $66 billion of work this year, but 
those that are not where we need to be get a extra special 
little bit of love, and this one is going to get some extra 
love.
    Mr. Calvert. God bless you. We need all the love we can 
get. So thank you for focusing on that. I appreciate that.
    The mainstem project, any comment on the Santa Ana Main 
Stem, how we are going to be allocating the supplemental funds, 
specifically what is in the plan to address the outstanding 
$161 million for the new official cost estimate?
    General Semonite. So as you are aware, we have got $17.4 
billion as supplemental. This one is a supplemental project. 
There is some additional growth to this particular project due 
to some design issues. We have to go figure out where can we do 
some reallocations. We have got a proposal right now to go to 
Mr. James and to be able to get his approval to be able to put 
some additional money. There is a couple of projects that we 
think we have got a little bit of float on, but we need to go 
back in and let Mr. James approve that. Our goal is to come in 
and do the majority of what we were going to do in Santa Ana. 
But you have got my commitment. This is a very, very important 
project, and we have got to get Santa Ana done. The question is 
we are a little bit shy, but we think through the depth of the 
program we will be able to cover it.
    Mr. Calvert. Thank you.
    Thank you, Madam Chair.
    Ms. Kaptur. Congressman Kilmer.
    Mr. Kilmer. Thanks, Madam Chair. Thanks for being with us.
    I am not sure if I should direct this to Assistant 
Secretary James or General Semonite. Coastal communities 
throughout my district are really struggling with growing 
threats of coastal erosion and with rising sea levels. I am 
very grateful that your budget includes $77 million for flood 
control and for coastal emergencies. And I am particularly 
grateful for the countless times the Seattle District has 
rapidly deployed resources to shore up failing jetties or sea 
walls to prevent a major disaster from occurring, and 
appreciate them not putting a restraining order out against me 
and my staff for the number of times that we have called.
    I recognize those activities come with a significant price 
tag, and I keep coming to the thought that we are missing an 
opportunity to make smart investments on the front end in 
resilience rather than waiting until these structures fail.
    So in comparison to the $77 million that is requested to 
respond to these emergencies after they happen, your budget 
includes $5 million provided for planning and technical 
assistance to local communities that are trying to reduce their 
risk of a major flood or coastal hazard event. And, 
additionally, the Corps has no dedicated resources to help 
communities that are actually trying to execute what are often 
small-scale resilience projects that could yield a lot of 
benefit on the downside.
    So I was hoping you could talk about the opportunities you 
see for the Corps to take a more active role in supporting 
communities who want to invest on the front end in resilience 
before a disaster occurs and what resources and authorities you 
already have to support that work and what you might need from 
Congress to better support that type of work.
    General Semonite. You are exactly right, the more that we 
can be proactive up front just pays unbelievable dividends down 
the road. So this is mainly through planning assistance of 
States. That is a great program and a little bit of investment 
with--really, a lot of times, a relatively small amount of 
money can have unbelievable capabilities. The challenge is, is 
when you look at the total pot of money, unfortunately, there 
are so many must funds, things like making locks and dams work 
and other--some of the projects, that that is one of the 
accounts that is a little bit light.
    Anything that Congress could do to give us more money in 
that particular area, even if it is fenced or dedicated, then 
we are going to be able to turn that right around, and we will 
make sure and we will commit to be able to put that where the 
best return on investment for Congress will be. We are not 
going to do all of them, but where we see good ones, like the 
ones you are mentioning, I think there is great merit in doing 
that.
    Mr. Kilmer. From an authority standpoint, do you have what 
you need?
    General Semonite. I think we do, but I will tell you what, 
I will take as a task here to double-check that, and if you 
don't mind, I will get back with you and say what do we need, 
if there isn't anything on authorities, and maybe even 
recommend a rough order of magnitude of what do we think within 
the capability of what we could do so that in future years you 
could see if you could help us out.
    Mr. Kilmer. I would really value that.
    Assistant Secretary James, I am also grateful that your 
fiscal year 2020 work plan includes $3 million for the Seattle 
District to proceed with design and cost update for the 
downstream fish passage facility at the Howard Hanson Dam. As 
you know, this fish passage facility is just critical for 
meeting your agency's obligations under the Endangered Species 
Act, also really essential for recovering some of the key 
stocks of Chinook that will help, not just worker recovery, but 
both our Tribal and recreational and commercial fisheries as 
well.
    It is essential that the Corps completes the design and 
cost update quickly so that we can keep the project on track to 
meet the 2030 deadline set by the biological opinion. Can you 
tell me when these funds will be made available to the Seattle 
District, and what is the anticipated timeline for completing 
the design and the cost update?
    Mr. James. The funding in the fiscal year 2020 work plan 
was $3 million for the investigations and $4 million in the 
President's budget 2021 for the O&M. Now, I don't think the $3 
million is going to finish the investigation on that fish 
passage. It is going to take more funding than that.
    Mr. Kilmer. What will it take?
    Mr. James. I don't know.
    General, do you have any idea what it would take.
    General Semonite. I don't think I have that here, no, sir.
    Mr. James. I don't either, but like the General just said, 
we can get you the number of where we are looking at to date to 
finish that study and get back to you just as quickly as 
possible. I don't have it and what that would be.
    General Semonite. Sir, the main thing we need here is we 
are real close to 902 limit on this, and so we have to be able 
to get the report done and be able to make sure that we 
continue to have the bandwidth to be able to continue to invest 
in this. So I think that is the main thing that $3 million 
would do is to get what is called the PACR done so we can have 
the 902 limit raised.
    Mr. Kilmer. Thank you.
    I know I am out of time. Thanks, Madam Chair.
    Ms. Kaptur. Ranking Member Simpson.
    Mr. Simpson. Thank you, Chairwoman.
    As I mentioned in my opening statement, I would like to try 
to get a little more insight into the Corps' work plan process, 
particularly in the fiscal year 2020 work plan. General 
Semonite, as I understand it, the first draft of the work plan 
is developed by subject matter experts in the District 
Division, and headquarters offices, culminating in your 
recommended work plan to the assistant secretary. Is that 
correct.
    General Semonite. It is, sir.
    Mr. Simpson. Can you please briefly describe how you 
prioritize projects for funding in your recommended work plan? 
What kind of quantitative and qualitative metrics do you use?
    General Semonite. So, first of all, we put a lot of effort 
in the work plan. It is not something we do in 2 or 3 weeks. We 
spend 6 or 7 months on it. We are starting the work plan for 
next year right now. So every one of the requirements that we 
can't get funded, those go through a very, very critical 
analysis.
    And you talk about the metrics. I am going to give you 
five. Number 1, risk to public safety; No. 2, legal mandates; 
No. 3, national security; No. 4, economic and environmental 
return on investment; and, number five, we are going to finish 
what we start. So those are how we bin those, and we are 
engineers, so I hate to say we have a great big matrix and they 
all kind of rack and stack accordingly.
    The other thing, though, is that as much as you can have 
great metrics, what is most important here is your gut. And so 
I go to the division commanders about 2 months out and I say, I 
want to know your top three to five projects that you really 
think this Nation needs to be able to invest in. And they write 
me a personal email, I give it to General Spellmon, sitting 
right behind me, and I say, let's get as many of these as we 
can.
    Now, sometimes they might want $80 million but their 
capability is only 30. But the bottom line is we go out of our 
way to be able to make that--that work plan is based on 
engineering and science. We don't worry about boundaries. We 
don't worry about politics. We are trying to do what is best 
for America.
    Mr. Simpson. Thank you.
    If we include districts, divisions, headquarters, 
approximately how many technical experts are involved in 
developing what becomes your recommended work plan? Would you 
say it is in the hundreds?
    General Semonite. Sir, it is probably over 2,000.
    Mr. Simpson. Assistant Secretary James, as I understand the 
process, after the Chief of Engineers sends your recommended 
work plan to you, you have a handful of people in your office 
who review it as well. Is that correct?
    Mr. James. Yes, sir, that is correct.
    Mr. Simpson. Do you make any changes to what the chief 
recommends? And if you do, would you characterize the scope of 
changes as minor or significant?
    Mr. James. Most changes I make in my office are policy type 
changes, if I see something that is interfering with a policy 
that we need to follow that maybe the Corps missed. But we make 
very few changes because my management and budget staff are in 
hourly contact with the chief's staff over there as they and we 
are developing the work plan. So there is very little daylight 
between us when I get the work plan.
    Mr. Simpson. Then once you have your recommended work plan, 
you send it on to OMB where a handful of people review it as 
well. Is that correct?
    Mr. James. Yes.
    Mr. Simpson. General Semonite, was the final fiscal year 
2020 work plan submitted to the committee identical to your 
original recommended work plan? If it was not, would you 
characterize the scope of changes as minor or significant?
    General Semonite. Sir, I would say that it was not 
identical, and I would say that the changes are significant. 
And I would also say that what Mr. James said, this is not 
where we develop it, we send it to him and we don't see it 
anymore. Every day we are talking back and forth. And there are 
times where I might walk in and say we need a little bit more 
money here and there, and probably more than any other work 
plan, it has been seamless between the two different offices 
that we have provided a product that we would put our name on 
to say this is a good investment.
    Mr. Simpson. So it seems to me that we have a process that 
allows for a handful of people at OMB, who may or may not have 
any engineering or construction experience, to override the 
judgment of hundreds of people who have been hired specifically 
for their subject matter expertise. This is not a good 
situation. I believe Congress needs to do something about it, 
and I have several ideas I plan to discuss further with my 
colleagues.
    Additionally, I am concerned that the fiscal year 2020 work 
plan is not in compliance with the direction provided in the 
Act. General Semonite, in fiscal year 2020, the 2020 Act 
included language providing you as the Chief of Engineers with 
the authority to determine which projects are eligible for 
funding under which categories. I assume your original work 
plan recommended to the assistant secretary was consistent with 
your determination and congressional direction provided in the 
bill and report. Is that correct?
    General Semonite. Definitely.
    Mr. Simpson. Were you provided the opportunity to confirm 
whether or not the final work plan also was consistent with the 
direction in the bill and prior report to it being submitted to 
the committee?
    General Semonite. No. Primarily, sir, because this was done 
in so much flux that even up to the day that we made the 
announcement of the work plan, there were still being changes 
being made that morning. We just couldn't get all of that level 
of fidelity.
    Mr. Simpson. Were you given any explanation for how you 
were supposed to fulfill your statutory responsibility if you 
weren't even given sufficient time to review the significant 
changes in the work plan before it was finalized and submitted 
to the committee?
    General Semonite. Sir, we were not given any additional 
guidance, no.
    Mr. Simpson. Thank you.
    Yield back.
    Ms. Kaptur. Congresswoman Frankel.
    Ms. Frankel. Thank you. Thank you, Madam Chair.
    Thank you to all of you for your service. Appreciate it.
    Let me just start and make a comment that I think, given 
the economic stress that this country is under, this is not a 
time to cut back the Army Corps budget, other than--and I say 
this with probably no respect--I don't think we should be 
spending money on that stupid bigoted border wall, which I 
think is a name, but no comments necessary on your part.
    Secretary James, I know that the marine industry would 
agree with you on taking a look at the cost-benefit analysis, 
because they believe that there are a lot of issues associated 
with the marine industry that is not taken into account. But I 
have some local issues I would rather get your comment on, 
unless you feel--OK. I would just wanted to pass that on.
    Mr. James. Well, my feeling on that, I didn't dream it one 
night. You are exactly right, Congresswoman. That is from years 
of dealing with people in both the inland navigation, the 
harbor people on the coast, and people seeking flood control in 
this country. We have still got people that get flooding, just 
like the Missouri River did last year, and those are the people 
that cannot get projects because their benefit-cost ratio is 
too low to be funded.
    Ms. Frankel. All right. Thank you for looking at that.
    I want to ask a couple of questions. In terms of the 
Central Everglades Planning Project, the Army Corps' position, 
do you believe that a new start is necessary for each 
individual project?
    General Semonite. Yes, ma'am. Our counsel has looked at 
this several times and, unfortunately, that is the current 
position of our lawyers.
    Ms. Frankel. First of all, I want to also thank you for the 
additional funding that you are requesting.
    On the--you probably know about the controversy in Palm 
Beach County, in Martin County concerning the lake level of 
Lake Okeechobee. So this year, it is my understanding that this 
year, that you allowed the lake to go 2 feet below this 
average, if you are following that. There is a very big fear, 
especially in the cities and the counties, that we are going to 
go to a drought. I was mayor when we had a terrible drought, 
and we almost lost our water. It is also a concern of the 
agriculture community.
    So I am just--first of all, do you expect that we are going 
to have to have any drought measures? And is this going to be 
something that you are going to be doing every year?
    General Semonite. We don't expect any drought, ma'am. 
Again, we think a couple of years ago we probably came in too 
high on how much water was in the lake. Last year, we went low 
mainly to be able to dechampion or to be able to not have the 
algae blooms. That worked very, very well. This year, we are 
going to go a little bit higher. I don't have the number of it, 
but I think you are aware of, we have some very, very strict 
protocols of how we work the lake levels. We are right in the 
middle of redoing that, so we have a little bit better table to 
be able to make sure that everybody knows what is going to 
happen with the lake level. We do not see a significant problem 
this year.
    Ms. Frankel. OK. That is good.
    And, Madam Chair, just to remind the committee and also the 
Corps that last year, in our bill, we put language which 
encouraged the Corps to use the best available science to 
determine appropriate lake levels. So I would hope that we will 
have that again, Madam Chair, and that you will be doing that.
    General Semonite. We are going to do it regardless of what 
the language is, ma'am. We are going to put the best science we 
have.
    Ms. Frankel. All right. And just I want to ask you in terms 
of some of our projects, whether they are on schedule. Herbert 
Hoover Dike?
    General Semonite. Yes, ma'am, on schedule.
    Ms. Frankel. On schedule. How about the Midtown Beach 
renourishment? I know there has been some back and forth on 
that. How is that going?
    General Semonite. I don't believe I have that one, but I 
will get back with you on Midtown.
    Ms. Frankel. OK. That would be great.
    And what about--with the Everglades restoration, can you 
give me an update on, you know, the completion on that?
    General Semonite. Overall, I think we are in a very, very 
good place. And Congress has done a great job of investing in 
it in the last several years. We have seen a lot of new starts. 
We have seen a lot of projects being done. We continue to be 
able to get a very, very good investment on the money that is 
going back in there. So there is no specific challenges out 
there.
    The main thing we are doing is we want to be able to make 
sure we work the EAA Reservoir, because that is a critical part 
of making sure the water flow goes in the Everglades. And that 
is back to your question about the new start.
    Ms. Frankel. Yes.
    General Semonite. And this is where that is going to have, 
I would think, in a WRDA, it could have, you know, some 
language, and then in the work plan for 2021, that would be a 
good place to be able to put a new start in the 2021 work plan.
    Ms. Frankel. OK. So you are suggesting that we try to do 
that?
    General Semonite. We need to get that EAA Reservoir done, 
ma'am.
    Ms. Frankel. OK. Then I want to ask you about Port 
Everglades, not Everglades restoration, Port Everglades, which 
is a port that accepts cargo and so forth. It received the new 
start, thank you for that, in last year's Army Corps work plan 
and $29 million to start moving the Coast Guard station. Any 
estimate on when actual new construction will start at the port 
and how long it is going to take to complete the first step, 
and then how much more money will be needed in the construction 
account for the entire project?
    General Semonite. So this one did get a new start. That is 
good news. The next big thing is the project partnership 
agreement. We expect that to come in sometime in December, and 
that will be a--that is good news. And then we have got to do a 
supplemental NEPA because we have got some ESA issues out 
there. That will be done, I think, this September.
    And then when it comes down to what we think the actual 
construction, what I will do is I will have my guys lay out--I 
have got a beautiful graphic here. We will lay out exactly what 
the deliverables are. But at the end of the day, the biggest 
thing we are worried about is coral. You know what happened in 
Miami.
    Ms. Frankel. Yes.
    General Semonite. So we want to make sure we do this right. 
And we have got a new dredging methodology, so when we dredge 
out Port Everglades, we don't see anywhere near the risk to the 
coral that has been experienced in the past.
    Ms. Frankel. Good. Thank you. That is excellent.
    I yield back.
    General Semonite. $238 million is what it is going to need 
at the end.
    Ms. Frankel. Is that total money for both State and Federal 
or is that the Federal?
    General Semonite. That is the Federal, the balance to 
complete. We have already spent about $29 million, so that is 
about the rough order of magnitude.
    Ms. Frankel. What portion of that is of the project?
    General Semonite. I think that is 65 percent.
    Ms. Frankel. OK. Thank you so much.
    Ms. Kaptur. Congressman Newhouse.
    Mr. Newhouse. Thank you, Madam Chair, Ranking Member 
Simpson.
    First of all, welcome to all of you this afternoon. It is 
always a pleasure to have you in front of us.
    My first questions I direct toward the Army Corps, so 
Assistant Secretary James and Lieutenant General Semonite. The 
hardworking men and women that you have on your team at the 
Army Corps of Engineers, as you know, have been conducting an 
extensive study of the operations of the Columbia River system. 
I think it has been over 3 years now. They have been doing so 
in conjunction with several other agencies, Federal scientists, 
engineers, fish biologists, and experts of these agencies have 
been drafting a comprehensive analysis of the operations of the 
system and its impacts on the environment, fish and wildlife, 
the economy, and certainly the communities across the region. 
So thank you for your efforts there.
    Since the release of that draft EIS, I believe it was 
February 28, I have been doing everything possible to encourage 
community members, regional stakeholders as well throughout the 
Northwest, to engage, make sure the general public takes the 
opportunity that they have during this 45-day comment period to 
provide their input. This is an open and transparent process. 
The document is public and available for everyone to review, 
and anyone can lend their voice and offer feedback through 
official comment.
    There are a series of public meeting meetings. One of them 
is in my district at the Kennewick Red Lion, just make sure it 
is on the record, on Wednesday, March 18, from 4 to 8 p.m. 
There will be others throughout the Northwest.
    In my view, members of our community, the everyday citizen 
must engage in this process because of the importance the river 
system has, truly the profound effects it has on the lives of 
every single person who lives in the Columbia Basin region and 
certainly the Greater Northwest. We must hear these voices of 
the people that are impacted.
    I recently received--and I will just hold it up so you can 
see from a distance--this was an email, a hard copy of an email 
from an environmental organization, and in my humble opinion, 
had the gall to fundraise off this Federal review process. You 
don't see average community members doing that, fundraising off 
of this process. You don't see everyday citizens raising money 
on a scientific review that will, like I said, have profound 
impacts on the daily lives, the livelihoods of millions of 
people in the region.
    That is why I believe the public process is so important. 
That is why I believe more dialogue is so important, but 
dialogue based on science and facts, not on political antics 
like this. That is why, for example, I recently invited the 
Governor of Oregon to come to one of our world-class 
hydroelectric dams in Central Washington, to engage with 
scientists, to engage with experts on the facts, not on 
politics. I was disappointed to learn just yesterday that the 
Governor will not be able to join me on this opportunity, but I 
will commit to doing everything in my power to continue to 
engage in a constructive dialogue with community leaders, 
members of the region that make decisions, while continuing to 
encourage the public to offer their comments. And just let me 
help by inserting a plug right here, anyone can go to crso.info 
and provide comments.
     So with that long background, I thank you for engaging--
allowing me to do that.
    Mr. Secretary, Lieutenant General, I would simply welcome 
you to share some of the facts on how this process has 
developed, share some of the background on the Federal 
resources and effort that went into drafting this EIS. And any 
information that you could share about your efforts moving 
forward would be appreciated.
    General Semonite. I will keep it real short, but the bottom 
line is we want to do this right. It is a very, very 
complicated equation. There are a lot of different variables, 
and they all compete against each other. We have got a great 
relationship with Bureau of Rec, a lot of other key players out 
there. And so what we have got to do is be able to continue to 
go through this comment period, because the time is short, and 
we have got to get this EIS done by the end of the next year.
    We don't think we can extend the comment period, but we are 
very, very receptive to be able to make sure that everybody is 
telling us what those ramifications are. And then, again, at 
the end of the day, it is about how do we balance the 
environment with all of the other needs like navigation, 
hydropower, and irrigation.
    Mr. Newhouse. Thank you.
    Secretary James, any comment that you would like to 
provide?
    Mr. James. No. Just for the record, though, I think this 
whole enterprise is--for the environmental discovery for 
other--another project, right, for the 14 power dams that are 
supposed or proposed. And what we are talking about here today 
is the environmental impact statement on what will or will 
those dams not do to the environment. Am I not right?
    Mr. Newhouse. Primarily. Just the future operations of the 
Columbia/Snake River system.
    Mr. James. Yes, sir. I am like General Semonite, we are all 
in on getting this EIS finished so the project, whatever the 
mitigation is, we can move on with it and get things going out 
there.
    Mr. Newhouse. Finally, yes.
    Mr. James. Yes, sir.
    Mr. Newhouse. I appreciate that.
    Mr. James. Yes, sir.
    Mr. Newhouse. I appreciate your commitment to seeing this 
through to the end in a positive way. Thank you.
    With that, Madam Chair, I am sorry, I went over time. I 
yield back.
    Ms. Kaptur. Congresswoman Kirkpatrick.
    Mrs. Kirkpatrick. Thank you, Madam Chairman.
    And I thank everyone here before being before the 
committee.
    And, Commissioner Burman, I especially want to thank you 
for meeting with me yesterday. I really appreciated your time.
    And so, you know, we know Arizona and the West are headed 
toward a drought, and I just want to ask you, you know, what do 
you think the chances are that, you know, the drought 
contingency plan will kick in, and what are Reclamation's plans 
and strategies to address the drought that we know is coming 
this year?
    Ms. Burman. So, as you know, the Colorado River is so 
important to Arizona and to the seven basin States and Mexico 
who rely on it. We have been in a 20-year drought on the 
Colorado River. That is the deepest drought that we have seen 
in the recorded history of the Colorado River and one of the 
worst droughts that we have seen in the Paleo Record.
    But what we have done, the incredible work that was done on 
the drought contingency plans and the help from Congress last 
year to pass that legislation, is really remarkable. But what 
happened at that same time was also, last year, was an above-
average year on the system, and we are blessed with incredible 
infrastructure on the Colorado River. So we were able to 
capture the water from that wet year, and that has been a 
significant help.
    In addition, the drought contingency plans incentivized 
conservation and the basin States together were able to save 
almost a million acre feet behind Hoover Dam last year. So that 
has put us in a very good position.
    So for 2020, there will not be a shortage on the Colorado 
River. We are in a place we call tier zero underneath the 
drought contingency plans, and that means there are some 
contributions by Arizona, by Nevada, and by Mexico. But when we 
look ahead to 2021, we also do not expect to see a shortage in 
2021. Anything could happen if this year stays very dry. The 
chances would go up, but we think the chances are fairly small 
in the--like 11 to 15 percent chance of a shortage next year.
    And they start to go up from there. In 2022, they are 
looking more at that 11 to 15 percent. 2023, they go up more, 
37 to 45 percent, but not to throw a bunch of numbers around. 
But I would say we are in a very good position because of 
conservation last year, because of incentives from the DCP that 
were allowed to happen, and because it was an above-average 
year. So we look good for this year and next year.
    Mrs. Kirkpatrick. That is really good news. You know, 
Arizona is supposed to be getting 3 days of rain this week. So 
we certainly welcome that. But thank you for your leadership, 
and we will certainly stay in touch.
    I yield back.
    Ms. Burman. Thank you.
    Ms. Kaptur. Thank you.
    Ranking Member Simpson.
    Mr. Simpson. Thank you, Chairwoman.
    I wasn't going to say anything about this, but it is always 
a fascinating discussion on the Columbia River Basin. I notice 
you all mentioned hydropower, irrigation, and transportation, 
how important those are. Nobody mentioned fish. Nobody 
mentioned salmon that come back to Idaho that, if in the next 
15 years something isn't done, they will be extinct. There is 
no doubt about that. They will be extinct. So we can talk about 
all that.
    And we never talked about the 487,000-acre feet of water 
that Idaho sends out of my district down to flush salmon over 
those dams, and the one thing they are not doing is recovering 
salmon, but they are keeping water in the pool so that we can 
irrigate in Washington. So we sometimes have a little different 
take on this.
    Representative Newhouse and I could sit here for hours and 
talk about this. I understand how important that is to his 
district. And I guess if you don't live in an area where the 
Olympians of salmon come back to spawn in Idaho, then you 
really don't care about it. But people better start looking at 
this seriously, and any plan we come up with, any EIS, had 
better recover salmon. Now they got a new plan out here the 
flexible spill thing. The one thing it will not do is speed up 
the migration of salmon to the Pacific Ocean, which is now 
about twice as long as it used to be.
    We don't have a Columbia River anymore. We have a series of 
pools the fish now have to swim to. It takes them twice as 
long, warmer water, more predators. We are not looking at the 
whole picture here. We are trying to preserve what exists 
instead of saying, what do we want to do for the next 20 or 40 
years? What do we want this to look like in 20 or 40 years? Do 
the people of the Pacific Northwest want to lose the salmon 
runs? If you do, then fine. Make the determination. Let's quit 
spending $750,000 a year--million dollars a year every year now 
by the ratepayers at Bonneville Power to recover salmon.
    It is just not working. People have got to get out of their 
niches and start looking at what we want to do in the future. 
That was a subject that I wasn't going to bring up, but as you 
can tell, I feel a little passionately about it.
    Assistant Secretary James and General Semonite, as you 
know, the 2008 compensatory mitigation rule established a 
hierarchy of mitigation with a preference for the use of 
wetland banks, which was established--which have established 
credits already in place as approved by the Corps. According to 
the publicly available data, there is a wide disparity of the 
use of mitigation banks against--across Corps districts.
    Do you know what is causing that disparity, and do you 
agree that it would be useful to take a look at this issue to 
see if there are majors that would provide better consistency 
and adherence to the hierarchy in the rule?
    Mr. James. I will let General Semonite elaborate on that, 
but from my understanding, there is not enough wetland 
mitigation banks in our country right now, and the Corps is 
working on that. They are working with individuals and other 
public entities to raise the number.
    The other thing is, is in some areas of the country, in 
some Corps of Engineer district areas, the people there for one 
reason or another would rather have their mitigation in the 
area of the project. Not everybody wants to buy from a 
mitigation bank, and as we all know, once they put in a 
mitigation bank, you better get your wallet out because the 
mitigation is going to cost you.
    Mr. Simpson. Yes.
    Mr. James. And that is the reasons that I know of 
personally. That is not in my policy head. These are just 
things that I picked up over my years of service here.
    Mr. Simpson. OK.
    General Semonite. Sir, we certainly are looking at this 
right now. We want to continue to look at it and have a 
dialogue with you. Three main reasons why there is some 
disparity out there, and these banks are all based on every 
part of the country is a little bit different. First of all, 
what functions are needed in the watershed? What is 
environmentally preferable for offsetting functions lost 
through permitted impacts? And, finally, the availability of 
mitigation bank credits. It is kind of like the secretary said.
    This goes back to it has got be a tailored solution, and 
sometimes what might work in the Northwest doesn't work in the 
Southeast. But we are looking down through. There are some 
incentives we are looking at right now. We are trying to study 
this, and if we can find a way of doing this better, we are all 
in.
    Mr. Simpson. Thank you.
    Commissioner Burman, the budget request includes a bit of a 
reduction for Indian Water Rights Settlements overall, although 
some individual projects go up. What is the reason for the 
decreases? Is it due to the availability of mandatory funding? 
And at the request levels, are all the settlements on track to 
meet statutory deadlines?
    Ms. Burman. Absolutely. Representative Simpson, Ranking 
Member Simpson, we absolutely are committed to our tribal 
obligations, and you see that in our budget. This past year, 
2020, is the first year that mandatory funding through the 
Reclamation Settlement Fund has become available, and that is 
about $120 million a year. And so we have been able to put that 
to work this year. We announced that about a month ago, where 
that funding would be going for this year.
    So when you look at our budget for 2021, it is to meet our 
responsibilities, and we have many settlements, many 
settlements that must be funded and complete by 2025. We 
believe we are on target. It is tough. It is difficult, but we 
are moving forward with those projects, and we do believe we 
are on target to meet our responsibilities.
    Mr. Simpson. Let me just ask you, the budget request 
reduces funding for the authorized rural water projects. Some 
of these projects have components benefiting Tribes. How do the 
Tribes' projects' components factor into the budget request for 
rural water projects?
    Ms. Burman. On the rural water project program, first and 
foremost, we meet our existing responsibilities, meaning our 
O&M, our operation and maintenance responsibilities. That is 
overwhelmingly on the Tribal side. Next, we look at the 
different projects that need construction, and we do look at 
our Tribal responsibilities as we move forward with that. I 
think you will see from our 2020 spend plan that we were able 
to put significant resources provided by Congress towards all 
of those rural water supply projects, and they are moving 
forward.
    Mr. Simpson. Thank you.
    Ms. Kaptur. Thank you, Mr. Simpson.
    Commissioner Burman, Reclamation's 2020 work plan includes 
$8 million for Shasta Dam being raised, despite Congress 
specifically not including WIIN Act funding for this project. 
Will all fiscal year 2020 funds be used only for planning, 
design, and preconstruction activities with no funds used for 
any construction activities? Is that correct?
    Ms. Burman. That is right. The $8 million provided in the 
reclamation spend plan that was sent to Congress on February 3 
for fiscal year 2020 includes $8 million for Shasta Dam to move 
forward, and that is under preconstruction activity. So we are 
completing design. We are doing the testing we need to do to 
know if that project is viable and can it move forward.
    Ms. Kaptur. Thank you for that clarification.
    Secretary James and General Semonite, the Great Lakes 
navigation system is just that, a system, and thankfully, that 
navigation system received over 10 percent of the entire Harbor 
Maintenance Trust Fund expenditures for operation and 
maintenance each year from 2014 through fiscal year 2019. Last 
year, however, the Great Lakes navigation system saw a 
precipitous dip in funding, receiving only 8.9 percent of O&M 
funding.
    Can you walk us through the reason for that change and why 
the Great Lakes received just under 9 percent of the entire 
operation and maintenance funding in this fiscal year of 2020 
versus 12.4 percent in fiscal year 2019? What has changed in 
the Great Lakes or national landscape to warrant this 
reduction?
    Mr. James. Madam Chairwoman, I would have to check that out 
with experts and get back to you as soon as possible. I don't 
have that.
    Ms. Kaptur. All right. You know, with all of the extra 
waterfall and so forth, we have docks underwater. We have a lot 
of seawall collapse. There is just a lot of flooding all over 
the Great Lakes region at 124-year high of rainfall in the 
region. So I would appreciate your getting back to us as soon 
as you can. Thank you so much.
    Mr. James. Madam Chairwoman, let me make sure I am on the 
right study. Is that the coastal resiliency that you are 
talking about or--
    Ms. Kaptur. No. This really has to do with the allocation 
of the Harbor Maintenance Trust Fund to different--we are a 
creature of that, and the significant reduction in funding was 
just 9 percent of the entire O&M funding this year versus 12.4 
percent in fiscal year 2019. So we are curious, what actually 
happened to cause that aberration downward in a fund that has--
--
    Mr. James. I will get that to you immediately. Thank you.
    Ms. Kaptur. Thank you. Thank you very much.
    And to both of you, again, thank you so much for 
prioritizing the Soo Locks. Your budget request for 2021 is at 
a solid level. And can you please give us an update on that 
project and make sure that it is actually delivered on time and 
on budget? Are we still on track to complete the project with 
the total estimated cost of $922 million, and will the 2021 
project request keep us on track toward that goal?
    General Semonite. Madam Chairwoman, the answer is yes. The 
bottom line is you got three parts of it. Upstream channel 
deepening, the upstream approach walls, and the new lock 
chamber. The work plan money of $125 million is on capability 
where we need to be. And then the 2021 budget gives us another 
$123 million. So that is capability as well.
    And then what we will do is we will start construction 
oversight of the upstream channel deepening soon so we can get 
that part going and get the other two and continue to be able 
to get moving. So we don't see a problem with the overall total 
that you mentioned. We think that is right on track. And if 
there is ever a time when Soo Locks gets out of balance, I will 
personally come see you, because this is a critical project.
    Ms. Kaptur. Thank you very much.
    Secretary James.
    Mr. James. And I feel exactly the same way. That is one of 
the first projects I visited when I came into this job was Soo 
Locks. And when it was explained to me what a priority it is 
for this country, the taconite that comes out of Minnesota 
across the Great Lakes and through Soo Locks, you only have one 
lock, no redundancy, and then the story about soldiers and 
anti-aircraft gun being stationed there during World War II to 
protect that. So it should be a national priority to get that 
other lock finished and in operation.
    General Semonite. Fall of 2026 is when we expect to have it 
done.
    Ms. Kaptur. Thank you very much, Mr. Secretary and General.
    General Semonite, are there any Corps resources or workers 
that would otherwise work on Civil Works projects being 
directed to work on the border wall?
    General Semonite. No, ma'am. We have a wide variety of 
different types of skills. There are some that work military 
missions and some that work civil works, but there is also a 
repository of engineering and construction people. So there are 
times we lean on different types of skill sets to be able to do 
all of our different work, but right now, because you allow us 
to hire up, whatever the workload is--I don't have a fixed 
manning document--we are able to hire whatever we need to do to 
be able to take care.
    We are doing $8 billion for the VA right now. I love 
working for the VA. We build hospitals for the VA. There is 
nobody coming off of Civil Works projects because they are 
diverted to some other project.
    Ms. Kaptur. Thank you for that clarification.
    I was greatly disappointed that your 2020 work plan did not 
include a new start in funding for the Great Lakes Coastal 
Resiliency Study. Assistant Secretary James, why wasn't this 
important effort funded in the 2020 work plan? Can you clarify?
    Mr. James. I cannot clarify, I think, to your satisfaction. 
I can clarify due to the fact that it was not in the top 
priority of the budget, and that is--when I get those from the 
Corps, as we talked to before, as I get them from the general, 
then they are gone over with the administration. Sometimes they 
are reprioritized. Sometimes they are not. But then the 
administration's budget comes out of that.
    Ms. Kaptur. General, would you wish to comment on that?
    General Semonite. We continue to see unbelievable value in 
this study, and we will continue to be an advocate for this 
study wherever we can.
    Ms. Kaptur. Thank you very much.
    Congresswoman Frankel.
    Ms. Frankel. OK. Would you like to ask questions? You just 
came in.
    Ms. Wasserman Schultz. I am good.
    Ms. Frankel.OK. Thanks.
    First of all, I thank you all again. I really like your 
approach. Very commonsense. On the--OK. Let me get back to the 
Everglades restoration. So this is--and back to the water 
level, which is such a controversy in my area, because what is 
happening, as I think you know, in parts of south Florida, they 
are having the green algae in the water, which is very 
disruptive to them. And the folks like where I live in Palm 
Beach County and the cities, they are all worried about not 
having enough water. So it is, like, the people in Martin 
County, they don't want too much water in the lake, and then 
people south of them are afraid of too little in the lake. I am 
sure you get that back and forth.
    So this question is related to that. In WRDA 2000, when 
approving the Comprehensive Everglades Restoration Plan, 
Congress included a provision called the savings clause, and 
this provision prohibited the Corps from changing water supply 
to utilities, agriculture, and other Lake Okeechobee water 
users when completing the restoration projects.
    Now, my local folks, again, in Palm Beach County are very 
anxious about what is going to be the new, what you call LOSOM, 
the Lake Okeechobee System Operating Manual, which I guess will 
guide on how high the lake should be. And they are very anxious 
about that, and they are requesting that there be some kind of 
a saving clause in this new schedule. And I would just like you 
to comment on that, the practicality of that, the pros, the 
cons.
    General Semonite. Ma'am, I don't personally know the 
savings clause with respect to Lake Okeechobee, but let me 
figure it out. The main thing we want to do is be very, very 
open and willing to, you know, take any ideas. This study is 
not going to be done until 2022. So we have got 2 years. We are 
doing a lot of outreach. And if there is something that we are 
legally allowed to do and it makes sense, then we will 
certainly take a good, hard look at it.
    Ms. Frankel. Well, that is very good. Thank you for taking 
a look at that.
    General Semonite. Sure.
    Ms. Frankel. You might want to sit around the table with 
some of these folks and understand their concern. I am sure you 
will do that.
    Mr. James. Congresswoman, I can tell you are sincerely 
concerned about that area, the Lake Okeechobee area.
    Ms. Frankel. Yeah.
    Mr. James. And I understand that. I have fished Lake 
Okeechobee for probably 25 years in the wintertime, before I 
took this job, of course, but I am quite familiar with the area 
and I am quite familiar what your concerns are. I will tell you 
this, ecologically we think between 12\1/2\ foot and 15\1/2\ 
foot is probably the right spot to be.
    And the other thing I wanted you to know is that we have 
ERDC, the Engineer Research and Development Center--thank you--
working on the algae and how to get rid of the algae, dissolve 
the algae, or whatever we can do, in case we have the problem 
we did year before last again.
    I made a trip to Florida during that time just to see that, 
and it was distressing for everyone I ran into down there. So I 
want you to know we are watching it.
    Ms. Frankel. OK. Thank you so much.
    Another question sort of related.
    Another group is concerned about the large number of 
aquifer--the ASR, aquifer storage and recovery, wells that are 
being proposed for the upcoming Lake Okeechobee Watershed 
Restoration Project that is north of the lake. They are 
concerned that not enough water will be able to move south if 
it is stored belowground.
    My question: Have you heard about these concerns, and your 
response of that?
    General Semonite. I have not. Let us blow into it and come 
back and let you know. I am sure my guys on the ground probably 
do. But we are worried that if there is enough--if there is a 
lot of draw out of the aquifer, what you are talking about 
could be exactly true. So this is where we got to put that into 
the equation.
    Ms. Frankel. OK, good. So thank you for taking that into 
account.
    And then finally in my last 13 seconds, Secretary James, 
back to that cost-benefit analysis, just to remind you that 
OMB, that their cost analysis is almost always different than 
the Army Corps. And I don't know how you can figure that one 
out, but--
    Mr. James. Well, let me tell you, that is two different 
things. OMB's reasoning behind their benefit-cost ratio and 
analysis, it is different, because to authorize a project, the 
benefit-cost ratio has to be 1.0 and above. Now, the 
administration's viewpoint is, to appropriate money for a 
project, it has to be 2.5 and above.
    And I am not arguing to change that. I mean, I am not 
saying the administration needs to change that. What I am 
saying is that the individual needs of this country, if you 
have got a project, whether it be navigation or flood control, 
we need to get all your benefits. We don't need to be just 
cherry-picking the easy ones over the top and get to the 1.1 
and quit.
    Ms. Frankel. Got it.
    Mr. James. We need to get up to where it is cost effective 
for appropriation.
    Ms. Frankel. OK.
    Mr. James. And we are--a lot of projects we are not doing 
that. I don't know. I may discover as we get further in that 
with the general that they are taking all the benefits. 
Personally, right now, I don't think so, and we are going to be 
looking at it.
    Ms. Frankel. OK. Well, that might solve that issue. But 
thank you very much.
    I yield back, Madam Chair.
    Ms. Kaptur. Thank you very much.
    Congressman Newhouse.
    Mr. Newhouse. Thank you, Madam Chair.
    I want to ask Commissioner Burman and Secretary Petty a 
little bit about the Columbia Basin Project. And I wasn't going 
to do this but it came up, so I want to respond a little bit. 
Some people probably think that Mr. Simpson and I have an 
ongoing conflict. It is true there are potatoes in Idaho, but 
there are great potatoes in Washington as well, and I always 
have to remind him of that.
    However, the whole notion of looking at the Columbia/Snake 
River system in a holistic manner in order to prioritize salmon 
is something that we are all interested in, and I want to have 
that conversation on how to address the many challenges that we 
have in that river system, even the spill of water from the 
Idaho dams.
    You know, we do, Mr. Simpson is absolutely right, we invest 
a ton of money into that system every year, but we have seen a 
lot of good results as well, an improved habitat, improved 
passage at the dams, the tremendous amount of work on the 
turbines and their efficiency and the high passage rate, 
survivability rate of the salmon through those. We are working 
on the predators issues, the Forest bill thing, which the jury 
is still out on that, as far as I can tell. But we are looking 
at different things in order to increase salmon survivability.
    All that being said, there were intentional decisions made, 
if you look back in history in the State of Idaho, that salmon 
were not welcome. So when they get through all the dams, 
through the Columbia and the Snake River in Washington, guess 
what? Through much of the system they run into a concrete 
barrier, because spawning salmon just don't want to take a hook 
and they want a trout. So decisions were made way back in the 
history.
    So I admit we have got challenges, but I think through 
positive conversations, we can meet those challenges and come 
up with solutions so that the proof is that dams and salmon can 
coexist, and I think we are living that and we are proving that 
every day. Can we do better? Absolutely, but I think we can. I 
think we will.
    But I do want to talk a little bit about the Columbia Basin 
Project as well. First, just start by saying, Commissioner 
Burman, you are doing a great job. You are doing a great job 
leading the Bureau, and I am really grateful to have such an 
enthusiastic partner in advocating for water needs, not just in 
the Pacific Northwest, but all over the western United States. 
You are thoroughly engaged. You are responsive to questions 
that we have been bugging you with over the last few years. I 
appreciate that. It really does make a difference when we have 
somebody on the front line that recognizes how valuable of a 
resource water is to all our rural communities and such a 
critical component to our economy, our growth, and our 
prosperity. So thank you. Thank you very much. Don't get to say 
that very often.
    Mr. Petty, for your efforts as well, both of you, you know, 
the Columbia Basin District, the project in my district well, 
particularly the importance of something that I think has 
captured the attention of the chair of the committee, the 
Odessa Groundwater Replacement Program. I have discussed it 
many times, and I am pleased to have Chairman Kaptur's interest 
in this as well.
    What I would like to ask both of you here today is to share 
with me some insights that I could bring back to my community 
members in my district. Something I often share with them when 
they come to DC and make the trip to talk about these issues is 
the importance of speaking with one voice. You know, the 
Federal Government is vast. The bureaucracy is sometimes 
confusing even to us, right? It can be burdensome. So I believe 
it is critical that when farmers or local elected officials or 
water advocates or community leaders come to D.C., that their 
message be singular and unified.
    I don't want to provide you the answer that I am looking 
for, but when we have these tremendous advocates from the 
Pacific Northwest come and the partnerships between 
organizations like the Columbia Basin Development League, the 
Washington State Department of Agriculture, the collaboration 
of the Office of Columbia River, the regional Bureau of 
Reclamation offices and so on, these partnerships and 
collaboration is what will move the ball forward in this 
important effort, at least in my humble opinion.
    I'd like to ask you to share your thoughts on the 
importance of ensuring a unified vision amongst these many 
shared entities.
    Mr. Petty. Yeah. Let me kick that off, Congressman. Thank 
you so very much in the important part of just how the Columbia 
plays into each of the different regions and specifically into 
your region. The whole Columbia Basin and the Snake come 
through your district, and you don't--you know it better than 
anyone on all these systems that come through.
    But one of the key parts that I just want to highlight is 
the importance of the relationship between the Army Corps, 
Bonneville, and Reclamation, and Interior as a whole. And it is 
the interaction that we get all the time, including the draft 
EIS, the Army Corps, we designate it as that one Federal lead 
so that we could work through it together. And it was the 
importance of, if we don't all succeed individually, kind of we 
all end up hanging together.
    And so with the Army Corps being able to be right there in 
the front, making sure that all the science, all the decades of 
work that we put in to develop these different areas all the 
way down to Odessa, the need for surface water, as well as 
subsurface water, is critical, including working with your 
State and the local State water districts as well. Those are 
all incredibly important areas.
    So I will let the commissioner kind of finish off any 
thoughts that she has as well. But thank you.
    Ms. Kaptur. I would just like to draw attention to the 
witnesses, we have been called for votes, and we think it is a 
series of this first vote and then another.
    So, Commissioner Burman, if you could briefly summarize. 
And we have another member who has come in and is waiting to 
question.
    Ms. Burman. Of course. I will just agree with everything 
Dr. Petty said. And moving forward with the one Federal 
decision model has been very--it has been great for all of us 
just to be able to talk things out and move forward. On the 
Odessa project, it is so important. It is designed to help 
rural communities in eastern Washington, and it is locally 
driven. The State is a partner. The district is a partner. We 
are a partner. We are all moving forward. And that project, you 
know, we are hoping we will be delivering water this year.
    Mr. Newhouse. The importance of having a single voice 
coming to D.C., you would agree, is something we have to have 
too.
    Ms. Burman. Absolutely.
    Mr. Petty. Absolutely.
    Mr. Newhouse. Thank you, Madam Chair.
    Ms. Kaptur. Thank you.
    The gentleman's time has expired.
    Congresswoman Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Secretary James and General Semonite, thank you very much 
on behalf of the whole Florida delegation. We were thrilled 
that a new start was awarded so that we could begin the $29 
million in construction funding that was needed for the fiscal 
year 2020 work plan on the Everglades restoration. It is a long 
time in coming.
    And, Secretary James, we appreciate you coming down and 
taking a look at what our needs were as well, as well as Port 
Everglades.
    We are very proud that we have come together as a 
delegation to pressure the President to request the kind of 
funding that we need for Everglades restoration, and I 
certainly hope the $250 million becomes the new Federal funding 
floor, not the ceiling.
    As you all know, Comprehensive Everglades Restoration Plan, 
or CERP, was authorized by Congress in 2000. We learned this 
week that the State legislature is getting ready to appropriate 
$100 million for their end of the bargain, getting closer to 
the 50/50 partnership that we have been since the beginning of 
this century.
    We have a number of the approximately 60 projects in CERP 
that are nearing completion, including the C-43 and C-44 
Reservoirs and the Picayune Strand Project. We have also made 
great progress on non-CERP projects like the Herbert Hoover 
Dike restoration and Kissimmee River.
    So could you report on the CERP projects nearing 
completion? Because after so much work of the Federal and State 
investment, we really need to start moving to ribbon cuttings 
as soon as we can and celebrate the few projects that we have 
gotten across the finish line. So where are we in terms of the 
projects that are nearing completion so we can do that?
    General Semonite. Ma'am, let me just say a couple of 
highlights. So complete construction of Kissimmee River this 
year, construction of C-111, South Dade, this year; complete 
Everglades Agricultural Area follow-up report and submitted to 
Secretary James in May of 2020, and that is one we know that is 
very, very important. C-43 West Basin Storage Reservoir, that 
will complete in 2023. And then just the last one that is 
important, Indian River Lagoon, that is done in 2022.
    And the one that we really want to continue to keep pushing 
is the EAA, to be able to make sure we get that reservoir done, 
and that does need a new start. Congressman Frankel asked just 
before you came in. Our lawyers do say that the way that the 
authorities are set, we are going have to get a new start for 
that. So I encourage the committee to do it because we are all 
ready to go.
    Ms. Wasserman Schultz. And I would say in the nicest way 
possible that we don't agree, but we have been around that 
block before.
    If the committee appropriates the full $250 million, either 
the Assistant Secretary or the General, that we have requested 
for fiscal year 2021, will the Army Corps be able to spend 
those funds, and do you already have a plan to do so?
    General Semonite. We don't see any problem right now on the 
ability to put all that in the ground. I don't have the exact 
plan with me, but let us come back to you and lay this out so 
you can see exactly what is out there. And if for some reason 
that is not in line with what the rest of the delegation would 
like, then we can certainly take a look at monitoring that or 
changing that.
    Ms. Wasserman Schultz. Thank you. That would be very 
helpful.
    I am concerned about the bureaucratic obstacles that were 
just referenced about the need for new starts in projects that, 
you know, overall were already authorized. So would you say 
that the limitation on the number of new starts--I know you 
just indicated the, you know, wrapping up of these projects--
but would you say that the limitation on the number of new 
starts would impact or delay Everglades projects in fiscal year 
2021?
    General Semonite. I do think that there will be some impact 
with the limited number of new starts we get, yes.
    Ms. Wasserman Schultz. OK. Well, it would be great if we 
could revisit the way that this is interpreted, because it 
really doesn't make sense to many of us.
    Touching on CEPP and the EAA reservoir as top priorities 
for Everglades restoration, what is the status of CEPP and the 
EAA? I know we are still waiting for the Corps to finish the 
90-day report on EAA, which is required by WRDA in 2018. Can 
you give us a little more detail? I know you touched on it, 
General Semonite.
    General Semonite. So, ma'am, that report will be done in 
May, and it is going to go to the secretary, and then he will 
hack off on it. I do believe he has to send it to OMB. The 
other thing we have got to do is the environmental impact 
statement. That closed on the 24th of February of this year. So 
now it really goes back to be able to get that new start.
    Now, the budget, 2021 budget, does have $148 million in it, 
and that is where anything we can do to be able to free that up 
we will certainly do it. And I am more than willing to look at 
different interpretations, but right now, we don't think we can 
get past that new start decision.
    Ms. Wasserman Schultz. OK. And then, lastly, is the Corps 
prepared to use all contracting tools available to implement 
CEPP? The conditional contract clause, does that apply to 
provide flexibility that enables the projects to move ahead as 
quickly as possible? My understanding is that you are 
authorized in the Corps to fund annual segments of a larger 
contract over many years.
    General Semonite. That is true, and we have been very 
aggressive in contracting over the last couple of years to 
really change our approach. So anything that we can do, 
regardless of what type of contract it is, as long as it is 
within the existence of the FAR, that allows us to be able to 
have the right tools to be able to put this stuff in the 
ground.
    The continuing contract clause, I am not aware there is any 
problems with that on CEP.
    Ms. Wasserman Schultz. OK. Good to know.
    Thank you, Madam Chair. I yield back.
    Ms. Kaptur. Thank you. Thank you very much, Congresswoman 
Wasserman Schultz.
    I would like to now turn to our ranking member for any 
final.
    Mr. Simpson. Just a final comment.
    You might not understand this, but Representative Newhouse 
and I are really good friends. I enjoy the Hanford Reach and 
the PNNL and what they do as much as the Idaho National 
Laboratory. However, we do have some differences on a couple of 
issues, and I just--you know, discussing the 60-, 70-year-old 
history of what the Idaho Department of Fish and Game did 
doesn't really help us cover--recover salmon today.
    And like he invited the Governor of Oregon to come and look 
at the dams, I would encourage him to come up and come with me 
in August and we will go look at some streams that used to have 
hundreds of salmon or thousands of salmon spawning in them, and 
if we are lucky, we might find one or two, if we are lucky.
    And the one thing I would say to him, everybody says we all 
want to recover salmon. The question is whether they are 
willing to do it. And we can all talk about neat things. We 
have been talking about this for 50 years. Everything you do on 
the Columbia River, everything we do on the Columbia River can 
be done differently if we choose to do it differently. Those 
dams produce 3,000 megawatts of power. You could put small 
modular reactors or other things in there. You could produce it 
differently. Everything we do, we can do differently. Salmon 
need one thing. They need a river.
    Thank you, Chairwoman.
    Ms. Kaptur. Thank you very much, Ranking Member Simpson.
    Thank you again. This concludes this afternoon's hearing. 
Again, I would like to thank our witnesses for joining us 
today. I ask the witnesses to please ensure for hearing record 
purposes that questions for our record and any supporting 
information requested by our subcommittee be delivered in final 
form to us no later than 3 weeks from the time you receive 
them. Members who have additional questions for the record will 
have until the close of business Friday to provide them to our 
subcommittee office.
    This hearing is adjourned.
    [Material submitted for inclusion in the record follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                                          Wednesday, March 11, 2020

  DEPARTMENT OF ENERGY BUDGET REQUEST FOR ADVANCED RESEARCH PROJECTS 
     AGENCY--ENERGY OFFICE OF SCIENCE, AND ENVIRONMENTAL MANAGEMENT

                               WITNESSES

HON. CHRIS FALL, DIRECTOR, OFFICE OF SCIENCE
HON. LANE GENATOWSKI, DIRECTOR, ADVANCED RESEARCH PROJECTS AGENCY--
    ENERGY
WILLIAM (IKE) WHITE, SENIOR ADVISOR TO THE UNDER SECRETARY OF SCIENCE 
    FOR ENVIRONMENTAL MANAGEMENT
    Ms. Kaptur. The subcommittee will come to order as we begin 
our hearing on the Department of Energy's fiscal year 2021 
budget request, with respect to its environmental management, 
science, as well as the ARPA-E programs. Thank you to our 
witnesses for being here, and we apologize for some of us for 
being few minutes late. We just did finish a series of votes.
    This is our committee's fifth hearing. As I have expressed 
in the last four hearings, I am deeply disappointed in the 
administration's budget request. The deep cuts are unrealistic 
and will result in a failure to address our Nation's most 
pressing challenges, including climate change and maintaining 
America's leadership in energy innovation, and, surely, the 
Trump budget utterly fails to meet our moral and legal 
obligations to the communities that helped our Nation win World 
War II.
    The Department of Energy's Office of Environmental 
Management addresses the environmental legacy, resulting from 
five decades of nuclear weapons production and Government 
sponsored nuclear energy research. EM is responsible for the 
cleanup of some of the world's most radioactive sites, a 
mission that is complicated and dangerous, but vital to 
ensuring clean soil, water, and air, for many Americans now and 
for future generations.
    This unrealistic request proposes to cut EM by 19 percent, 
jeopardizing progress made on the remaining 16 sites, and we 
have some photos up there, while delaying several project, 
unnecessarily. These deep cuts translate into a moral and legal 
failure that we simply cannot accept.
    Similarly, the budget request proposes draconian cuts to 
the Office of Science, 17 percent, or $1.2 billion, from last 
year's level. The Office of Science is an indispensable pillar 
of American leadership in science and technology, yielding over 
100 Nobel Prizes. Every time I say that, 100 Nobel Prizes, and 
making key scientific advances, ranging from creating solar 
energy system and successive generations of batteries, to 
inventing new materials and decoding DNA, we are just at the 
beginning of that age.
    Cuts of this magnitude will endanger America's leadership 
in technological innovation, economic progress, and, I believe, 
national security. Reflect, for the moment, for just this 
moment, on 100 Nobel Prizes. These programs embrace the future, 
sustain a better life for all, and assure our national security 
on many fronts, including the unknown.
    Finally, the proposed elimination of the Advanced Research 
Projects Agency-Energy, ARPA-E, Program is an absolute 
nonstarter. Since its inception, ARPA-E has supported 
breakthrough technologies, such as next generation batteries, 
electric aviation, and improving components of solar panels. 
ARPA-E fills the gaps between basic and applied research, where 
the private sector will not take on those financial risks. 
Just, if you look at the Bureau of Labor Statistics, and the 
number one job in America now that remains unfilled, it would 
be solar installers. So, the work of ARPA-E filters down to 
production platform, ultimately.
    This is vital. This program, ARPA-E, is vital to 
innovation, and our Nation should be investing more in science 
and engineering, not less. Our country's energy future depends 
on the Department of Energy's vital investments to solve our 
toughest energy challenges. The Trump budget request harms 
America's energy future, our competitiveness, our workforce, 
our consumers, and our economy. The Trump budget also falls 
short in meeting our obligations to the communities that have 
sacrificed, and still bear the brunt of environmental costs 
born from winning World War II. We are in the new century. We 
have got to fix that.
    With that, I will close my remarks. Thank you, Dr. Fall, 
Mr. Genatowski, and Mr. White, for being here today, and, to 
Dr. Fall, thank you, for visiting Ohio for our National 
Laboratory Day. It was a rewarding and very valuable 
conversation, that is yielding real results. We look forward to 
discussing the Department's budget request and adapting it 
accordingly. I would like to turn to our able ranking member, 
Mr. Simpson, for his opening remarks.
    [The prepared statement of Ms. Kaptur follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Simpson. Thank you, Chairwoman Kaptur. I would like to 
join you in welcoming our witness to today's hearing. I believe 
it is the first time we will get to hear directly from all 
three witnesses on these programs. So, we will try to make it 
so that you do not want to--so that you want to come back 
again, yeah. I look forward to hearing about the priorities 
included in the fiscal year 2021 budget request, for your 
respective programs, namely Environmental Management, Office of 
Science, and ARPA-E.
    The Department of Energy investments in basic science 
research have provided great benefits to our national economy, 
national security, and the everyday lives of our constituents. 
Just a few weeks ago, we had a hearing on DOE's work with NIH 
and others in the biomedical sciences, a topic that seems 
pretty relevant these days, the Advanced Energy Research 
Project-Energy, or ARPA-E. Research and development projects 
are often described as high risk, high reward, and, therefore, 
something the private sector, on its own, is unlikely to 
pursue. By authorization, APRA-E is tasked with accelerating 
transformational advances in energy technologies.
    The Federal Government has a responsibility to clean up 
five decades of nuclear weapons development and production. 
This work is the mission of DOE's Environmental Management 
Program. Over the past decade, EM has made significant progress 
on cleaning up sites across the country, but there is still a 
heck of a lot of work to do.
    I think I can safely say that Congress will make some 
significant changes to this budget request for those programs, 
as we have in the previous years. I look forward to the 
discussion with the witnesses to inform our work here on this 
committee. Chairwoman Kaptur, again, thank you for calling this 
hearing, and I yield back
    Ms. Kaptur. Thank you, Mr. Simpson. We will now turn to our 
witnesses. First, we will have Lane Genatowski, the Director of 
the Advanced Research Projects Agency-Energy, ARPA-E. Prior to 
joining ARPA-E, Director Genatowski served as senior advisor to 
the under secretary for science, and in various private sector 
roles in the banking and energy sectors.
    Next, we will have Chris Fall, the Director of the Office 
of Science. And prior to his position, Mr. Fall served as 
Senior Advisor to the Under Secretary for Energy and as acting 
director of ARPA-E; and he has also served in a variety of 
roles at the Office of Naval Research.
    And finally, we will hear from Ike White, Senior Advisor to 
the Under Secretary of Science for Environmental Management. 
Prior to this role, Mr. White served as Chief of Staff and 
Associate Principal Deputy Administrator for the National 
Nuclear Security Administration. At NSA, he also served as the 
Deputy Associate Administrator for Safety and Health, and in a 
variety of leadership and technical positions. Thank you, all, 
for taking the time to be here today.
    Without objection, your written statements will be entered 
into the record. Please feel free to summarize your remarks in 
about 5 minutes each. I want to thank, again, all of our 
committee members for being present today, and we apologize for 
making you wait about 10 minutes because we did have a series 
of votes. We would like to start with Director Genatowski.

                  STATEMENT OF LANE GENATOWSKI

    Mr. Genatowski. Chairwoman Kaptur and Ranking Member 
Simpson and members of the committee, thank you very much for 
inviting me up here. It is an honor to appear. I will get right 
into the 2021 budget request, and then move along. The 
President's proposal--budget request proposes no additional 
appropriations for ARPA-E for new projects. It requests $21\1/
4\ million for program direction regarding to existing projects 
and requests a cancellation of any unobligated balances 
estimated to be $332 million. If this budget is approved, ARPA-
E will not invest in any new technologies in 2021. However, 
approximately 350 projects which are ongoing will be carried 
out to completion or their cancellation if they do not meet 
their grant contracts.
    ARPA-E started in 2009, and since then, it has achieved 
some remarkable things. And after following on $2.3 billion in 
appropriations, they got follow-on funding of $3.2 billion. 
That is about 150 percent of what was appropriated. So, these 
are indications of success that they have. Three hundred and 
eighty-five patents were issued and 219 projects were carried 
along to other Federal agencies. So, the success ratio is 
pretty good for what they do, where they focus on the TRL 
Scale.
    In 2019, administering the last 2 or 3 months of the budget 
when I got involved in July, we obligated 374 million, which 
was the highest obligation rate we ever had. And it is a 
testament to the staff, that they could execute all the 
contracts and get them out the door to make sure we spent all 
the appropriations.
    One program in the 2019 budget that was approved was the 
PERFORM Program. Renewable electric-generating assets are, 
actually, not dispatched as highly as they could be by the 
system. This program is meant to address that. So, when the 
renewable is available, they are given a risk score, like every 
other project is given a risk score under this program. And we 
think using statistics and AI will get the renewable assets 
dispatched into the generating system, into the grid, more 
quickly and more assuredly.
    In 2020, I want to thank you all very much for the $425 
million appropriation that we got. So far, we have announced 
$287 million of FOAs, which is about 75 percent of the year's 
work, so we are ahead on that score, and they include several 
interesting programs. One is a fusion program which we are 
cooperating with Director of Science Fall on fusion; and 
another program which is called GEMINA, which directs itself to 
fission, and has the target of reducing O&M by 90 percent on 
the new small modular reactors.
    Finally, I would like to say that the personnel at ARPA-E 
are outstanding, in my experience; the consistent high quality 
dedication, they will go anywhere and work any hours that are 
required to get their projects done. One of the unique things 
is the program director position is filled by candidates 3 to 5 
years at a time. So, it requires a constant refresher of ideas, 
which always is interesting to hear the debates every other 
week in the office among the PDs, program directors, as to what 
they are focused on and what they are interested in.
    You have asked me to put some slides together. And that is 
something from our ENLITENED Program, where we use photons for 
chips to communicate inside computers rather than wires. 
Photons are smaller than electrons and has a reduced heat 
factor and an increased speed factor. That has been a very 
popular--that little thing is a robot, and it goes through and 
identifies--it is called phenotyping. It identifies the 
qualities of plants, automatically, that will yield a higher 
crop yield in biofuels, and that is part of our REACT Program.
    The next one is an electric motor that does not use any 
rare earths, and it has a performance factor at a comparable 
cost to regular motors. And as you can see there, or maybe you 
cannot see, the team leader in that one was Baldor Corp., so 
starting to be commercialized from the start.
    The next one is--and a battery. It is a large grid-level 
battery for storage. It is a flow battery and it is based on 
iron. So, it is readily available material in the United 
States, which is something that we tried to focus in on.
    The last thing is--it is difficult to say what that is, but 
that is a drill bit on the left, and inside the middle of the 
drill bit is a laser, and it is drilling for geothermal fluid. 
And what it does is the laser softens the rock and the drill 
bit goes through. So, it is more efficient in terms of getting 
to the rock. Quite often, geothermal reservoirs are capped by 
very hard rocks. They are a high temperature, high pressure, 
and what this does, it makes the drill more efficient.
    That is the end of my prepared remarks. I would like to 
thank you very much for giving me the opportunity, and I am 
happy to answer any questions that you might have now or later.
    [The prepared statement of Mr. Genatowski follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Ms. Kaptur. We will have a question period before I turn to 
Mr. Fall. Do you have anything to say about the portion of your 
testimony that deals with agricultural carbon management? You 
did not mention it in your verbal testimony.
    Mr. Genatowski. Well, no, I did not.
    Ms. Kaptur. It was on page 3.
    Mr. Genatowski. Oh, fine. Well, the little robot had to do 
with agricultural products in terms of growing biofuel more 
efficiently and phenotyping them to get better types of 
products. Oh, Smart Farm, I beg your pardon. My first time, I 
am a little nervous.
    Ms. Kaptur. Oh, it does not show. You know so much. I am 
just glad for the photos. You are making ARPA-E real for our 
members and for the country.
    Mr. Genatowski. Thanks very much. Smart Farm bioreactors 
process fuel and then they send it to biorefineries, and they 
send it to fuel refineries to be mixed in as ethanol. So, to 
the extent that they are told there is a certain carbon capture 
level in the--it is a national level. And what the Smart Farm 
tries to do is to make the carbon capture nature of the 
particular agricultural project localized to the region. So, if 
your region has soybeans that capture more carbon or sequester 
more carbon or use less carbon, we measure it in the soil. And 
that program has to do with, basically, quantifying the carbon, 
so the farmers can get paid more for what is stored in the 
soil, and it is place by place. Indiana or Illinois or Ohio 
have different levels of carbon in the soil. Now, a national 
level is used, and we are trying to get a specific level for a 
farm use, so that people get more money for it. It will be a 
more cash crop, and it will grow more of it.
    Ms. Kaptur. Well, that is a whole long conversation that we 
should have both before the committee and then maybe a private 
briefing because you are into something that struck right to my 
aorta, I will tell you. That is vital. I just returned from the 
Salton Sea, and----
    Mr. Genatowski. Ah.
    Ms. Kaptur. Anyway, that is a long conversation, but we----
    Mr. Genatowski. My first geothermal project was on the 
Salton Sea.
    Ms. Kaptur. We need you there more. Thank you very much Mr. 
Genatowski
    Mr. Genatowski. Thank you.
    Ms. Kaptur. Mr. Fall.

                    STATEMENT OF CHRIS FALL

    Mr. Fall. Ma'am, we have some pretty exciting things in the 
Office of Science, and I am not sure that we have a laser 
drill. I think I want the laser drill. Thank you, Chairwoman 
Kaptur, Ranking Member Simpson, and distinguished members of 
the committee. It really is a privilege to be here and 
represent the Office of Science before you today. The fiscal 
year 2021 budget request for the Office of Science will ensure 
continued U.S. leadership in basic physical sciences, our core 
responsibility, and continued support for the underpinnings of 
our Nation's technological and economic future.
    We are requesting support for investments in new and 
ongoing administration initiatives, as well as continued 
support for basic research, for construction and operation of 
our major scientific user facilities, and to renew and 
modernize the critical infrastructure of the national 
laboratories.
    Just a few examples, our integrated computational and data 
infrastructure for scientific discovery will dramatically 
shorten the time it takes to do ambitious experiments, analyze 
the results, make computational predictions, and then flow 
those results back to new experiments. This is transformative, 
in my opinion. The Next Generation Biology Initiative will 
allow us to move from the genomics and biochemistry of 
biological systems we work on now toward the development of 
bioinspired, biohybrid, and biomimetic systems that will 
bolster biotechnology as an industry of the future. Our 
Separation Science Initiative will radically improve the 
extraction of rare earth minerals and help achieve supply chain 
independence for these critical materials, and the same 
underlying science applies to carbon capture technology. 
Separation science applies equally to carbon capture and to 
rare earth elements. We would like to revolutionize polymer 
upcycling by developing the technologies for moving discarded 
plastics up the value chain instead of down the value chain.
    Building on the Pilot Cancer Moonshot, we would like to 
accelerate data and computational collaboration with the 
National Institutes of Health. Our data handling, our 
supercomputers, and our expertise is something the NIH uses 
already. We would like to expand that.
    One of the Office of Science's most significant 
contributions to science, medicine, industry, and national 
security over the decades has been particle accelerator science 
and technology. The Strategic Accelerator Technology Initiative 
will focus on innovation and technology transfer that will 
build up our domestic supply chain for these critical dual-use 
technologies, and we are closely partnering with the National 
Nuclear Security Administration on that effort. And finally, 
and interestingly, we propose to begin the work of connecting 
our national laboratories with an entangled quantum network, a 
backbone that we believe will lay the foundation for a 
commercial national quantum network. Those are new initiatives 
we are proposing for 2021. We ask for continued support for 
ongoing priority initiatives, including artificial 
intelligence, quantum information sciences in response to your 
legislation, the Exascale Computing Initiative, 
microelectronics innovation, biosecurity, isotopes, and 
enhancing the domestic U.S. fusion program.
    I would just like briefly to call your attention to the 
effort we have made at the Department to better coordinate with 
other programs outside of the Office of Science. Secretary 
Brouillette stood up the Research Technology Investment 
Committee, or RTIC, with just this purpose, to coordinate 
technology work across the whole Department. The Office of 
Science now participates in Grand Challenge efforts such as 
grid scale storage and battery cycling that are just the result 
of the Secretary's direction to work together as one team on 
these priority initiatives.
    In closing, I just want to say again how privileged and, 
frankly, proud I am to represent the Office of Science before 
you today. The career team headquartered at Forrestal, 
including what I think to be the best budget officer in the 
Federal Government, the phenomenal scientific and engineering 
talent in our laboratories, and the incredible world-unique 
machines we built for discovery, really represent the most 
capable science and technology enterprise in the world.
    This proposed budget will allow the Department of Energy to 
continue to leverage our technology superpowers, science at 
scale, the convergence of the disciplines, and these remarkable 
user facilities we support to solve the great scientific 
questions of our time, to effectively address the great human 
challenges of our time, and to provide for economic opportunity 
and better lives for our citizens.
    Thank you. I welcome your questions.
    [The prepared statement of Mr. Fall follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Ms. Kaptur. Mr. Fall, what are we looking at there with 
that blinking light?
    Mr. Fall. That is the quantum loop. That is the first stage 
of this quantum network connecting Argonne National Laboratory. 
I think that is about--it is listed up there, it is 26 miles, 
so a 52-mile round loop. We are going to build this out, 
connect all of our national laboratories, this entangled 
quantum network, fundamentally different from the internet.
    And then we are hopeful, just like what happened with 
ARPANET, ARPA's original internet, the commercial sector will 
pile on top of that and use that backbone as a way to build a 
commercial quantum network.
    Ms. Kaptur. Thank you very much. Mr. White.

                   STATEMENT OF WILLIAM WHITE

    Mr. White. Chairwoman Kaptur, Ranking Member Simpson, and 
members of the subcommittee, I appreciate your support for the 
Department of Energy's Environmental Management mission, and I 
want to thank you for the opportunity to be here today.
    Throughout the 30-year history of EM, many sites have been 
cleaned up and closed, transitioning from waste sites to 
wildlife refuges, wetland preserves, and job-creating economic 
development hubs.
    Over the past 9 months that I have been on the job, I have 
had the opportunity to see cleanup progress firsthand at sites 
like Hanford and Idaho, Oak Ridge. I know many of you have as 
well, since I met a couple of you in your districts at events 
to celebrate the progress we are making at those sites.
    The fiscal year 2021 budget request enables EM to continue 
building upon that success and enable further cleanup progress. 
A key focus of the request is tackling one of EM's largest 
challenges, tank waste. Not only does tank waste account for 
one of our largest environmental risks, it also accounts for 60 
percent of our total environmental liability and 40 percent of 
our annual budget.
    After decades of preparation and support from this 
committee, EM has reached an inflexion point with Savannah 
River Salt Waste Processing Facility coming on line this year, 
and ramping up operations in fiscal year 2021.
    SWPF will eventually enable EM to process up to 10 million 
gallons per year of tank waste, and accelerate the mission at 
Savannah River to finish in just 10 to 15 years. The request 
also supports initiating operations at the Integrated Waste 
Treatment Unit in Idaho to enable EM to treat the remaining 
tank waste in Idaho in the next 5 to 10 years.
    Hanford also remains a top priority, representing nearly 
one-third of the entire request. The request focuses on 
completing and commissioning the facilities and infrastructure 
needed for the Direct-Feed Low-activity Waste System to enable 
initiation of tank waste treatment by the end of 2023.
    Collectively, these capabilities represent a fundamental 
shift for the program when completing long-running construction 
projects, to a solid commencement of tank waste treatment 
operations.
    To put the scope of what we will achieve with these new 
capabilities and perspectives, we have treated about 16 million 
gallons of tank waste to date for the program. With SWPF and 
IWTU and DFLAW online we will be able to process that same 
amount of tank waste in under 2 years.
    In addition to prioritizing the tank waste mission, Madam 
Chairwoman, the request will enable continued progress across 
EM, modernizing infrastructure and the Waste Isolation Pilot 
Plant so it can continue to play a vital role for DOE and EM 
for years to come.
    Completing the removal of targeted buried waste at Idaho, 
continuing slab and soil remediation at Oak Ridge East 
Tennessee Technology Park, continuing demolition of the first 
enrichment process building at Portsmouth, EM has a lot planned 
for fiscal year 2021, and I am confident in the ability of our 
talented and dedicated Federal and contractor workforce to get 
it done.
    To strengthen our ability to achieve continuing success, we 
are also pursuing a set of strategic initiatives. They include 
strengthening project management, expanding new contracting 
mechanisms to encourage innovation, and reduce government 
costs. We will also continue the science-driven and risk-
informed approach to cleanup.
    And with the safety record that is well ahead of other 
comparable industries, we will continue embracing a safety-
first culture. As someone who has spent most of my 30-year 
career focused on the safety of nuclear operations, this is 
particularly important to me.
    So, in closing, I would like to thank you and members of 
the committee for your support of the EM mission. I know a 
number of you have EM sites in your districts or at your 
states. As Congress works to complete a final budget, I look 
forward to working with you to meet the Federal Government's 
moral and ethical responsibility to complete the EM mission.
    Thank you, Madam Chairwoman. I look forward to your 
questions.
    [The prepared statement of Mr. White follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Ms. Kaptur. Thank you very much, Mr. White, and all of you 
for your statements. As a reminder, for those members present 
in the room when I gaveled in at the beginning of the hearing, 
I will recognize you for the questions in order of seniority, 
alternating between majority and minority, until all who 
arrived prior to the gavel have asked questions. And for those 
who arrived after the hearing had started I will recognize 
those members solely in order of arrival, again alternating 
between majority and minority.
    And lastly, I intend to observe, as best we can, the 5-
minute rule for questions and answers. And we will now begin 
questioning under our normal rules.
    Dr. Fall, obviously the coronavirus-19 is in the news and 
at the forefront, but most people probably don't realize that 
the Department of Energy's national labs are contributing to 
scientific solutions, for example. And I hold a story here I 
will make part of the official record from the Chicago Tribune 
about the Argonne National Lab. And we know that the Department 
of Energy's x ray light sources are used to image proteins of 
the virus, like those shown on the screen. And those can reveal 
target sites for antiviral drugs and assist in vaccine 
development.
    Could you please tell us what Department of Energy's assets 
are already being used, and what capabilities do DOE scientists 
possess in their user facilities to offer biomedical solutions 
and suggestions to our biomedical community with respect to the 
coronavirus-19?
    Mr. Fall. Thank you for the question, Chairwoman Kaptur. As 
I think you all know already, you know, generally no other 
agency builds x ray light sources. So we build these things, we 
operate them on behalf of the country, on behalf of the 
academic researchers, and certainly on behalf of the National 
Institutes of Health.
    Here is an example, this story in particular that you 
mentioned, we have a number of these light sources. They are 
all capable of doing this kind of work, crystal, 
characterization of crystals, of proteins, just taking a 
picture of the coronavirus, understanding how it is put 
together, and, in the case of a potential interventions, 
figuring out how to interrupt how that virus is put together 
inside of cells.
    Now that is one example. However, there is a whole 
computational side of that same question, so researchers are 
using our supercomputers to model the coronavirus, to model and 
predict. So here we are taking pictures and doing an experiment 
on the coronavirus. We can also predict using databases of--
using the structure of the coronavirus and databases of drugs, 
what might work, so that we can then--but I talked earlier 
about that interaction between computation and experiment, 
prediction and validation. So, both of those are happening at 
our DOE labs.
    And then the third component of this is epidemiological 
modeling. So, how fast could the disease spread, and what 
factors influence the spread of that disease? That is a big 
computational challenge. We are doing that as well. We can do 
genome. As you know we have a whole part of my organization 
oriented to understanding genes, genomics, sequencing, and so 
forth; that is another area of expertise.
    So, across the board, a lot of opportunity here. I can't 
remember if the story mentioned this particular factor, but, in 
fact, we were on a shutdown of the APS when the coronavirus 
outbreak started. We ended up using our resources to restart 
that facility 2 weeks early in order to get those crystals on 
the machine and take those pictures. So, it is a great story.
    Ms. Kaptur. In view of some of the apprehension of the 
public, and obviously our need to know how to help the public, 
any progress you make on that, thinking how to communicate that 
would be very valuable to our members. So, I just urge you, you 
know, to follow that closely and to let us know.
    Mr. Fall. Thank you, ma'am. And the labs have come together 
as a team. We have working group meetings several times per 
week on the existing work going on and future opportunities for 
how we can help. So that has been very well coordinated, being 
very well coordinated with the White House, with HHS, we are 
connected to all the groups working on this. So the agencies 
understand that we are available and organized to be a resource 
as needed.
    Ms. Kaptur. Thank you so much. Mr. Genatowski, I really 
appreciated your testimony, and I want to just go back, and 
this will be my last question for this series. We will go to 
the other members.
    But on agricultural carbon management, that topic 
fascinates me because I represent a region of the country where 
Lake Erie, the southernmost of the Great Lakes, is the drain 
for the largest watershed in the entire Great Lakes, and Lake 
Erie is sick. And the only way we can cure it is by having a 
very, very concerted effort in the vast watershed it drains to 
understand soil science and which plants, for example--we're a 
major soybean bowl--to plant between the soybean rows, to have 
a lot of plants with roots that absorb the excess legacy 
nitrogen and phosphorous that is in the soil, and also some 
other matter that is spread on the soil, be it fertilizer or 
manure, to prevent drainage into the lake.
    The land is not managed that way now, and I am wondering 
what in your--maybe we want to invite you out to Ohio. And I 
just returned from Southern California, and looked at the 
Salton Sea. That is a drain, too. I think the Everglades, 
though, our dear Congresswoman Frankel has just stepped out for 
a minute, if we look at what is happening there because of 
sugar beets.
    You have got Salton Sea draining the Imperial Valley, you 
have got Lake Erie draining the Western Basin, you have got the 
Everglades, you have got examples across this country where the 
relationship between carbon management and water health is 
direct.
    But we don't yet have through the Agricultural National 
Resource Science Offices over at the Department of Agriculture, 
we don't really have--we have a lot of well-intentioned 
objectives, but we really don't have the science yet for 
regenerative soils and those that hold carbon and reward 
farmers who use those practices.
    What enlightenment could you give us? What could your 
office provide to regions like this that are truly facing a 
frightful situation with the pollution of their water from 
agricultural practices?
    Mr. Genatowski. I beg your pardon. Our roots program is 
directly related to that, where we are trying to get the roots 
to grow deeper and keep more in the soil, carbon, keep more 
fertilizers so it doesn't run off. We are mostly now in a 
combination of the stage of measuring to reward the farmers, 
and the roots program is in the stage of trying to redesign and 
type the plants that are most successful at that.
    So once we get the two of those combined, I think that is 
something that can be rolled out and let private initiative 
take care of the farmers, give them more money for what they 
do, for what they naturally do. Use fewer fertilizers, keep it 
in the soil better, and reward them for capturing the carbon, 
so not only do they do what you want in terms of capturing 
carbon, but they get paid more for it.
    Ms. Kaptur. You have an open invitation to call my office 
and bring your people over.
    Mr. Genatowski. I will do that.
    Ms. Kaptur. And I will invite some of my colleagues who 
face similar problems in their own regions.
    Mr. Genatowski. I appreciate the invitation.
    Ms. Kaptur. Thank you very much. Mr. Simpson?
    Mr. Simpson. A correction first: it is sugarcane down 
there, sugar beets are good. They are grown in----
    Ms. Kaptur. I am sorry. Yes, I am sorry.
    Mr. Simpson. Yes, sugar beets are good, remember that. I 
would like to yield my 5 minutes to Mr. Calvert, who has a 
defense hearing at 3:00.
    Mr. Calvert. I thank the gentleman. And Madam Chair, I am 
glad you were in Southern California, Salton Sea. George Brown 
was the first chairman of the Salton Sea Authority and then he 
died. And then Sonny Bono was the second and he died. And then 
they made me the third, and I said, I have got to get out of 
this job, and Mary Bono took that. And now Raul I think is the 
chairman of the Salton Sea. So I have a long history down 
there.
    I worked on the first power facility. I know the 
Congressman Veasey, going back in the early 1970s when he was 
Secretary of the Army. And it is not very far, Madam Chair, 
from my hometown. It is very famous, you might have heard of 
it, it is Corona, California. That is why we refer to this 
disease as COVID-19, not Corona.
    My question is, you know, I have been around a long time, 
and we have been talking about fusion for a long, long time, 
and it is always a silver bullet that is just around the 
corner. And, you know, I have worked with a lot of companies, 
and it is a silver bullet, it solves a lot of problems, if they 
can figure it out.
    And, you know, Lockheed now claims that they have an idea 
that I am going to go down to Skunk Works to take a look at it. 
They will roll off; they think there are a number of years 
away. I have friend over at Caltech says that is a bunch of 
malarkey. You know, these physicists, they all argue amongst 
each other, like economists.
    So I would like to get an understanding. Can you provide us 
an update on where we are at in the development of fusion, and 
where are we going?
    Mr. Fall. Well, sir, it is just around the corner.
    Mr. Calvert. Yes.
    Mr. Fall. Well, as I think you are aware, and my boss 
actually, Under Secretary for Science, was just out at Lockheed 
just last week looking at that, and I wouldn't bet against 
Lockheed, they have done some remarkable things at Skunk Works.
    But what is interesting about that is that, yes, as you 
know, we are funding and associated with the large fusion 
project in the South of France, ITER. But in the meantime, what 
has happened there, it is not just Lockheed. There is a whole 
bunch of these startup companies now, who are developing 
innovative technologies for fusion, and smart money, this is 
not federally funded, this is money that is privately raised. 
And so we are hopeful that we will have the flexibility while 
continuing to participate in ITER, and there are a lot of 
benefits to that, to also supporting this domestic fusion 
industry that is growing uniquely in this country. A little bit 
is going on in Canada. There is a lot of opportunity there, and 
the difference really is that ITER is based on--you know, got 
started quite a while ago, and is based on relatively legacy 
technology.
    These new startup companies are taking advantage of all the 
magnet technologies that have evolved, for example, 
superconducting magnets and so forth. That is the reason that 
they can do this more cheaply and in a more compact way. So, 
timeline, couldn't weigh on that, but it is promising. I think 
we understand we are going to get there.
    Mr. Calvert. It would solve everything if you are able to 
actually use fusion on a massive scale because we wouldn't have 
the waste product.
    Mr. Fall. Yes, sir.
    Mr. Calvert. Thank you, Madam Chairman.
    Mr. Fall. Save everything but your water problem.
    Mr. Calvert. Well, maybe we can develop--we have unendable 
energy, we could desalt the sea.
    Mr. Fall. There you go. OK.
    Mr. Calvert. Thank you.
    Ms. Kaptur. Congresswoman Kirkpatrick has kindly allowed 
Congressman Kilmer to precede her here. I want to thank her. 
Please proceed, Congressman.
    Mr. Kilmer. Thank you. Thank you, Madam Chair, and thank 
you to my colleague. Director Fall, I mentioned to the 
Secretary recently that I really appreciated you coming out to 
my district last year to see the Marine Sciences Lab in person. 
The high-level attention that you and that your colleagues are 
giving this laboratory, including making sure DOE has an 
enduring presence in the community by finalizing the land 
acquisition this year, is really appreciated.
    As you know, one of the primary areas of basic research 
that is conducted at the Marine Sciences Lab is focused on 
understanding coastal ecosystem dynamics and their resilience 
in the face of a rapidly changing climate and a growing 
population that puts a greater demand on that ecosystem.
    A couple of questions. One, based on what you learned 
during your recent visit, I would love to hear from you more 
about the role you think the Marine Sciences Lab can play in 
supporting programs within the Office of Science.
    And then second, what support do you need from this 
committee, from Congress, to help you fully utilize the unique 
capabilities and expertise that the Marine Science Lab has?
    Mr. Fall. Thank you for the question, Congressman. We are 
thrilled to visit. Unfortunately, we couldn't do it together; I 
know we had talked about doing that. What we have done, as you 
suggested or as you said, last year was to finalize the land 
purchase. That was a significant investment and a heavy lift to 
get that on solid footing. We do have opportunities, as you 
suggested, the science through BER, the interface between 
marine and terrestrial ecosystems, a very important question, 
lot of opportunity there.
    As you know, there is a lot of advanced energy work that 
goes on at Sequim, and that is not funded by my office. It is 
funded by EERE, but the basic premise holds there. I am not a 
big fan as I have, I think, said publicly in single-purposed 
laboratories and, I think, the opportunity for Sequim is to 
diversify that and, yes, programs within the Office of Science, 
but also make that available across the agencies and, you know, 
clear through the policy knots that make it difficult for them 
to fund things going on at Sequim. So, I don't know if that is 
helpful.
    Mr. Kilmer. Very much so. And I would just offer our 
continued partnership as we look at fully leveraging that lab 
and its capabilities.
    Mr. Fall. Thank you, sir. And I will, you know--I am quite 
confident that Director Ashby at PNNL shares the vision of 
figuring out how we can leverage this completely unique asset 
in DOE.
    Mr. Kilmer. He does, and he has got a terrific team, some 
amazing people working there at Sequim. Director Genatowski, I 
want to start by saying I share the disappointment expressed by 
many of my colleagues that the administration is, once again, 
proposing elimination of ARPA-E. I imagine you must be equally 
disappointed sitting here testifying on a budget that would 
eliminate your role. Thankfully, Congress, I think, has shown 
strong bipartisan support for the growing investments in ARPA-
E, in part because of the vital role it plays in basic research 
and development, developing next-generation renewable 
technologies. We have seen it in my state. These funds have 
supported efforts to modernize the power grid, to harness 
energy from new noncarbon resources, LG-based biofuels, fusion 
energy that will help us regain our energy independence.
    I guess my question for you, one, can you talk about how 
ARPA-E and other DOE programs are working to make sure these 
technologies have a pathway to commercialization? And, 
secondly, are there other DOE programs that support this kind 
of work? It seems like ARPA-E is uniquely punching above its 
weight on that front.
    Mr. Genatowski. Well, thank you for saying we are punching 
above our weight. What we have done is--ARPA-E had a program 
before I got there called Tech-to-Market, and it starts with 
the original proposals of all the scientists for a program that 
they have to have a reasonable or a colorable path to market 
for one of their items. We work on electric airplanes. We have 
got two programs that I authorized since I have been in office 
and on each of those programs, I waited until I was fairly 
well-assured that not only would the science work, but the cost 
per available seat mile would be lower than the revenue per 
available seat mile because that is the key criteria for an 
airline to purchase aircraft. I banked the airlines for about 5 
years when I was working as a banker. So, I know that is the 
key metric, and I waited until they would get me that 
information before I let it go forward.
    So, that is being incorporated more and more, and expected 
more and more of the scientists, not to impede what they are 
doing, but more to guide what they are doing in a useful path 
so they can, I always say, get on the loading dock and get into 
the environment. Otherwise it is, you know, a term paper, so to 
speak.
    We are going through a reorganization now of two things. 
Interfacing with larger corporates with big R&D budgets to--not 
so much--public-private partnerships are one thing, but to 
educate us as to what the needs are in the marketplace. What 
does the market need? Not incrementally, but what does the 
market need in a revolutionary sense, and help to inform our 
researchers when they try to propose projects as to what they 
propose. So, that's ongoing. And I see I have 15 seconds left.
    Another thing we do is we have got----
    Mr. Kilmer. I am in overtime, so.
    Mr. Genatowski. Pardon me?
    Mr. Kilmer. We are in the hole 50 seconds, sorry.
    Mr. Genatowski. I am out.
    Mr. Kilmer. Thank you. Thank you, Madam Chair.
    Ms. Kaptur. Thank you, Congressman Kilmer. Congressman 
Simpson.
    Mr. Simpson. Thank you, Chairwoman. I am kind of perplexed, 
frankly. I was always taught that you kind of reward success 
and punish failure; and yet, you are all sitting here saying we 
are doing such a great job in ARPA-E, finding out new things, 
great job in sciences, we are doing such a great job in 
cleanup, please cut out budget. Frankly, that doesn't make any 
sense to me. And, in fact, it is not only in ARPA-E that we are 
doing such a great job finding these technological things and 
doing all this kind of stuff, please eliminate us.
    I have got to believe that it is hard for you to sit here 
with this budget request--and, I doubt very seriously that this 
committee is going to go along with the budget request. And, 
hopefully, I think we can have a 302(b) where we can address 
the deficiencies that are in this budget that are seen both by 
Republicans and Democrats.
    Let me ask you, Mr. White, at this budget level, do you 
think you can meet all the settlement agreements with the 
states?
    Mr. White. At this budget level, we can meet all of our 
near-term agreements with the settlement agreement in Idaho. We 
will be on track to ship to WIPP, as we have committed to do to 
the State of Idaho; and we are also on track to start up IWTU 
by the end of this calendar year.
    Mr. Simpson. What about settlement agreements with other 
states?
    Mr. White. In the short term, I think, we can meet all of 
our milestones. Certainly, deferring work in the short term 
makes milestones that are in outyears a little more difficult.
    Mr. Simpson. OK. You have recently--let me get to it. 
Earlier this week, the Department released a document entitled 
``EM Vision 2030, A Time for Transition and Transformation.'' 
Are there a couple of key points you would like us to take away 
from this document?
    Mr. White. So, for me, there are a couple of key points. As 
you probably know, one of the things that GAO has recommended 
that EM do is do a better job of integrating how we look at the 
environmental cleanup program across the entire program and not 
just on a site-by-site basis. So, for me, this is an 
opportunity for us to lay out for the first time in recent 
history what the EM program looks like across the board at all 
of our sites.
    I think it is important for us to continue to make the case 
that we made earlier related to the progress that we have made 
with the investments that you have given us over the past 
couple of years. I think it is important for you and for the 
folks in the communities where we are doing cleanup and for the 
American people to understand that we are actually making 
effective use of those cleanup resources. And so, laying that 
out and demonstrating that is very important to me.
    It is also the first piece in what will be a larger effort 
to improve our overall integration and planning. So, it is also 
important to note this is a 1-year document. What it reflects 
is the budget that Congress has enacted in the current year, 
and it reflects what we see going forward for the next 10 years 
based on the proposal.
    But as we go through the 2022 planning cycle and as 
Congress enacts the 2021 budget, this is something that I 
intend to update every year to reflect both the progress that 
we are making with the enacted budget and what we hope to get 
done over the next decade.
    Mr. Simpson. Thank you. Director Fall, the budget request 
includes several crosscutting initiatives, both across program 
offices within the Department and across subprograms within the 
Office of Science. A crosscutting approach can help avoid 
duplication of effort while also bringing all relevant 
expertise to a problem, but it must be managed appropriately. 
How can the Office of Science ensure the effectiveness of these 
crosscutting initiatives? And does each initiative have 
specific goals and milestones, and are resources and 
competencies clearly aligned toward those goals and milestones?
    Mr. Fall. Thank you, sir. As I did mention, you know, the 
leadership on this really is coming from the Secretary. 
Actually, it was before he became Secretary, he initiated this 
RTIC concept for--that has led to the crosscutting department-
wide programs. They are very well organized. They include ARPA-
E, Office of Science, the Applied Offices, and so forth.
    Mr. Simpson. It won't include ARPA-E very long if we follow 
this budget.
    Mr. Fall. Potentially, sir, yes. Thank you for letting me 
trip myself up. But within the Office of Science--this is my 
own priority, you know. I come with this and I talk to my team 
about it all the time where I prefer them to be a chorus rather 
than a group of soloists, and we are working towards that. But 
I want to offer it is not just about the program, as I think 
you understand. In order to do what we do, to get money out the 
door to support the laboratories, to support the universities, 
there is a legal component, there is a contracting component. 
There are all sorts of bits and pieces of this machinery. And 
what we are doing uniquely now when we put out a funding 
opportunity--we just prototyped this for the first time with 
the Quantum Center FOA--is to bring all those people together 
and attack it as an integrated team, you know, all these people 
at once, instead of sending around the Department 10 different 
times. It makes common sense and you think we would be doing 
that. We are doing it now.
    So, it is not just coordinating on the programs, and the 
scientific objective is actually coordinating on the business 
processes that go into that as well. And I think that is a 
great success story.
    Mr. Simpson. Thank you. Thank you, Chairwoman.
    Ms. Kaptur. Certainly. Congresswoman, Kirkpatrick.
    Ms. Kirkpatrick. Thank you, Madam Chair. And I thank you 
all for being here to testify. And I especially want to thank 
you Director Genatowski for meeting with me yesterday 
discussing the innovative research that is coming out of ARPA-
E, especially the groundbreaking research that you are doing 
with solar technology out of the University of Arizona, my alma 
mater. So, I do appreciate what you are doing with batteries, 
energy storage, new solar technology developments. So, thank 
you very much.
    Instead of this administration's continued attempts to 
shutdown ARPA-E entirely, I am really interested in increasing 
the Department's ability to fund early-stage energy research 
and advance U.S. energy security and economic competitiveness. 
How is ARPA-E coordinating with other Department of Energy 
offices, working with the private sector, or developing new 
internal programs to make sure that the technologies that have 
received previous support have a pathway to commercialization?
    Mr. Genatowski. Thank you very much for that question. We 
coordinate with a number of different departments and different 
agencies. We coordinate with Director Fall on a fusion program 
which we have just put out together. We work with NASA in their 
Ohio facility, quite a lot on electric aviation. They are going 
to be a testbed for our work. We are talking with them. And in 
point of fact, they are going to be on our Merit Review Board 
when proposals finally come in.
    In terms of the Department of Defense, we coordinate with 
them on many programs. So, we do have--and I said 219 programs 
are handed off to other offices. For example, EERE takes many 
of our programs and moves them the next step along the 
technical chain, if you will.
    In terms of how do I coordinate with them on 
commercialization? Again, we have tech-to-market professionals 
who have to have a first course correction when they put their 
proposals up, that they have a colorable title to getting to 
market, then a mid-course correction, and then a final report. 
We are always on top of them looking at what they are doing. We 
have what we call active management, which is different from 
the other programs where the program directors and their 
assistants visit the programs and if they have problems, they 
guide them, they turn them, and they try to focus them on 
successful science and science that will end up on the loading 
dock, if you will.
    Ms. Kirkpatrick. Can you give me a little bit of a timeline 
on that course correction? How long does that take to actually 
make that change and get it up and running?
    Mr. Genatowski. Well, sometimes--there was a program we had 
called SLIPS, which was to reduce resistance inside of a 
pipeline, and it morphed. It wouldn't work inside of a natural 
gas pipeline, but it morphed into something that now goes onto 
the bottom of ships. And just the application changed; some of 
the formulas changed. So, instead of bottom paint, they put 
SLIPS on and it decreases the fuel use of ocean-going 
transports, and that is an example of a mid-course correction.
    How long does it take? Some things happen more quickly. 
Some things we might think of as a failure and they might 
happen 20 years later. It is just very hard to tell. Our 
general commercialization rate is somewhere around 4 percent of 
the properties, 5 percent, which is significantly higher within 
the gambit that we get the information, which is the term of 
the grant plus 5 years after the grant.
    Ms. Kirkpatrick. Can you address specifically what you are 
doing with University of Arizona, especially regarding solar?
    Mr. Genatowski. Well, if you give me a moment, I could.
    Ms. Kirkpatrick. Sure.
    Mr. Genatowski. OK, thanks. Instead of eating up your time, 
if you will give me a moment to get back to you, that would be 
great.
    Ms. Kirkpatrick. You can get back to me.
    Mr. Genatowski. Thank you very much.
    Ms. Kirkpatrick. Thank you. You know, I went to the 
University of Arizona, and I live in Tucson, and so, I was just 
interested. But you can follow up with me after the meeting.
    Mr. Genatowski. Thank you very much.
    Ms. Kirkpatrick. Thank you very much. And thank you, Madam 
Chair, and I yield back.
    Ms. Kaptur. Thank you very much. Congressman Simpson. Oh, 
excuse me, Congressman Fleischmann.
    Mr. Fleischmann. Thank you, Madam Chair, Ranking Member. 
Gentlemen, I just want to say thank you. I have worked with 
each and every one of you all, and your respective agencies 
within the Department of Energy, and I think you are doing an 
exemplary job, not only for the Department, but for our 
country.
    As you know, I have the privilege of representing Oak 
Ridge, the Oak Ridge Reservation. I think that is rather 
rhetorical.
    Mr. Simpson. One of the best labs in the country.
    Mr. Fleischmann. I was going to say. And I have some very 
distinguished competitors on this dais, sometimes even on my 
side of the aisle. Now you know why I am so good to the chair. 
But, having said that, we are doing tremendous work. Our 
commitment is to work with you through this budget process, I 
will say that.
    A couple of questions. Mr. White, as you know, I am the 
chair of the Nuclear Cleanup Caucus. I represent a major EM 
site, the Oak Ridge Reservation, and I take very seriously the 
Federal Government's responsibility to remove nuclear, 
radioactive, and other hazardous waste materials from 
communities like Oak Ridge and other communities around the 
country.
    Our colleagues on this committee have agreed with me in the 
past, and have consistently funded work for the disposition of 
U-233 in Oak Ridge. What is the Department's commitment to 
dealing with U-233? What is your plan with that? And I will 
just let you answer that question, sir.
    Mr. White. Thank you, Congressman. I appreciate that 
opportunity to talk about our uranium-233 disposition program. 
I know you and I were together back in November in Oak Ridge, 
and I appreciate your support of the cleanup caucus. I also 
noted that you brought members with you from Illinois and from 
Nebraska to see not just the laboratory, but also our cleanup 
work. So, I thank you for that.
    With respect to our U-233 program, I think that is one of 
the highlights of our cleanup program. It is an isotope that we 
have spent decades spending money to store until we can dispose 
of it in a safe and effective manner. I think we have found a 
way, as we talked about in November, to be able to not only 
dispose of the material safely, but also do it in a way that 
saves the taxpayers money and make some of the material 
available for lifesaving medical research. I think that is a 
very important program to EM. I think that is a benefit to the 
country at large, and I am very much committed to that path 
forward for disposition.
    Mr. Fleischmann. Thank you, sir. Dr. Fall, as I told 
Secretary Brouillette a couple of weeks ago, I am very excited 
about the plans for the construction of a second target station 
at the Spallation Neutron Source, and in our last budget, I 
think, we actually funded the beginning research for that. It 
is going to enable wholly new capacities to examine the 
structure and dynamics of materials from polymers to proteins 
to catalysts, and it is also going to double the capacity of 
the current SNS which is oversubscribed now by a factor of 3, 
sir. The project is critical to maintaining U.S. leadership in 
neutron sciences, and I am thankful that Congress provided $37 
million to complete the conceptual design in fiscal year 2020 
and ready the project for CD-1 review at the start of 
construction.
    Secretary Brouillette said that he anticipated the 
Department making a decision about CD-1 by the end of this year 
or in the first quarter of next year. From your perspective, is 
everything on track within the Office of Science and BES to 
meet this timeline, sir?
    Mr. Fall. Well, everything is on track, sir. The time will 
depend, of course, on the level of appropriation. We do have 
quite a lot of money that has been appropriated for the SNS, 
and we are committed to the project, as you suggested. And 
relative to the gentleman's earlier question, this is a 
uniquely--the second target station is uniquely suited for 
biological work, such as with the NIH.
    As I understand it, the bulk of the money that we got in 
the last appropriation is engineering and construction money 
that cannot actually be used for the planning process that we 
are undergoing now to CD-1. So, you know, if we could get back 
to you on that, maybe we can work with you to shift some things 
around a little bit so that we can get through CD-1 and then 
move on to the construction of the project.
    Mr. Fleischmann. Thank you, sir. I really appreciate your 
defining that. That is very helpful, sir.
    Quick question, my time is running short, but on medical 
isotopes, Dr. Fall, we committed in this subcommittee a 
proposal by the Office of Science to invest in the research and 
production of stable isotopes, and the Department is requesting 
additional resources for this purpose in fiscal year 2021. 
Isotopes, both radio isotopes and stable isotopes for medical 
or industrial applications are one of the areas where DOE, Oak 
Ridge National Laboratory, and other National Labs have had an 
incredible impact, including saving the lives of billions of 
people and having a billion-dollar impact on the U.S. economy. 
Dr. Fall, can you speak to what is driving the investment by 
the Department? And if you can provide us a status or report on 
the Stable Isotope Production and Research Center, and when do 
you expect CD-1, sir?
    Mr. Fall. And I apologize. I am going to have to get back 
to you on CD-1, exactly. But, boy, we--as you suggested, we 
have identified this as a priority. We are committed to it; Oak 
Ridge, yes; FRIB at Michigan State, and other facilities 
producing the isotopes. Most Americans do not understand that 
the isotopes that are--most Americans probably do not think 
about medical isotopes, but do not understand that the medical 
isotopes that are not commercially produced are all provided by 
the U.S. Department of Energy.
    I could also follow up with you later about some changes we 
are doing structurally within my office to bolster the isotope 
program, to carve it out and lift it up and get it more in a 
production mindset. Right now, it is very closely tied to 
research. We think that it--we think that giving that the 
talent that is oriented more towards production and business 
and sustainability is the right thing to do, in addition to 
these facilities, to increase the capacity of that program.
    Mr. Fleischmann. Thank you very much, sir. And, gentlemen, 
I wish you the best in your endeavors. My time is up. I yield 
back, Madam Chair.
    Ms. Kaptur. Thank you. Congressman Newhouse?
    Mr. Newhouse. Thank you, Madam Chair, and Mr. Ranking 
Member. Gentlemen, welcome to the committee. I express my 
thanks to you, as well, for all the great work that you and 
your folks do on behalf of our country. And like Mr. Simpson 
said, we hope that you do well enough to come back, and we 
would welcome you back. I wanted to talk a little bit about--
this was in my first--in the first round of questioning, a 
focus on the environmental cleanup efforts at the Department of 
Energy.
    Mr. White, if I could just talk to you just for a little 
bit here? As it was mentioned earlier, you released your 
Strategic Vision, I think, just this past Monday. I am aware 
that, for the past several years, the Government Accountability 
Office has been highlighting concerns about I guess what we 
could term a lack of a clear program-wide strategy, with better 
reporting, to address the growing environmental cleanup 
liability, and I think that is fair to say. A significant 
portion of that liability lies at the Hanford Reservation, as 
you know.
    First, let me commend you on heeding the GAO's input for 
your work on drafting this, what would be a starting point for 
the development of a strategic mission. Some of the document 
includes important priorities at the Hanford Reservation, 
particularly the Department's commissioning of the waste 
treatment plant, so that we can, finally, begin to vitrify the 
low-activity waste, which is very important. It is truly a high 
priority that we are all committed to. So, thank you for that, 
but there are--I got to say that there are several concerns 
that arise from this document or, generally, the strategy that 
is laid out. So, let me address those concerns, first.
    From what I can tell, there is--would be, essentially, no 
work done, conducted on the Waste Encapsulation and Storage 
Facility, or the WESF. And if I could recall a comment made by 
the Department not that long ago, but they considered the work 
being done there, and the pool that the capsules are stored in, 
to be the greatest risk in the nationwide DOE complex for 
serious accident. So, it concerns me that there is no work 
scheduled to be done, if we stick with this report.
    And, also, there would, essentially, be no work conducted 
at the 300-296 waste site, the work that is being looked at, 
completing the--to clean up under the 324 building. That is, 
certainly, a concern there. That is, literally, yards from the 
Columbia River, as you know. And, also, I believe, there is 
vital risk mitigation work that needs to go on with groundwater 
remediation, the dewatering of the K-Basins, building 
demolition. There is just a lot of things that are concerning 
that show up in this report.
    Now, I would--and I fully realize that there is constraints 
based upon the President's budget requests. I appreciate that, 
but what I want to make clear to the people at home, the people 
that are on the committee, the DOE officials, certainly, that 
my work here and the work of my colleagues and, certainly, the 
colleagues in the Senate, including Senator Murray, it is all 
to ensure one thing: that we do not allow this budget request 
to become a reality for the cleanup across the EM or, 
certainly, at the Hanford site. That just cannot be.
    You could walk up to almost any person on the street in the 
Tri-Cities and ask them a question about the Federal 
Government's responsibility at the Hanford. I heard the words 
``ethical'' and ``moral,'' but there is one other word that 
would be--I think you would hear from people in the Tri-Cities, 
and that is the legal responsibility for the Federal Government 
to complete this cleanup work. And so, I just want to bring up 
those concerns. I wanted to let you address those.
    So, Mr. White, could you assure me that the Department of 
Energy, DOE, is still committed to the important cleanup 
efforts at Hanford? And then, if you could, please feel free to 
respond to the greater matter of the Strategic Vision and its 
relationship to the budget. And I know you mentioned some 
things about--and I do not want to put words in your mouth, but 
updating the report as we move forward, so.
    Mr. White. Thank you, Congressman. I appreciate the 
opportunity to talk about the important work that we do at 
Hanford, as well as our Strategic Vision document. A couple of 
things.
    First, on the important work that we do at Hanford. The 
Department remains committed to all of the cleanup work that we 
need to do and the environmental legacy that we have at 
Hanford, and that includes all of the projects that you laid 
out. The fact that our budget may not have been able to fit 
everything for the current fiscal year within the top line, and 
that reflects a broader set of national priorities, does not 
mean that we are not committed to getting it done. And we are 
committed to getting it done whenever funding becomes available 
to do that work.
    In terms of the Strategic Vision, it does reflect the 
priorities laid out in the President's budget request, but it 
has to be a living document because the budget process itself 
is a living process. And as we go forward, it needs to be 
updated on an annual basis to reflect not just the previous 
year's proposal, but also the budget that is passed by Congress 
and that we are enacting in the course of the current year, and 
I intend to do that.
    Mr. Newhouse. OK. I appreciate that, and I look forward to 
continue working with you, as well. Thank you, Madam Chair. 
Thank you for your indulgence.
    Ms. Kaptur. Thank you very much. Dr. Fall, the Department's 
long history and leadership in supporting basic science has 
resulted in biomedical innovations and applications, some of 
which you have referenced, all of which have enabled future 
breakthroughs in health research. Some of these include drug 
discovery, high-precision imaging to advance-precision brain 
and nerve mapping, cancer detection, and cancer treatment. In a 
recent hearing held by this subcommittee, we learned that over 
90 percent of new drugs approved by the FDA between 2010 and 
2016 used the Department of Energy's light sources as an 
essential part of their drug development. Could you, perhaps, 
enlighten us, if you can, on what are the most promising areas 
of biomedical research that might benefit from more 
collaboration between the Department of Energy, the National 
Institutes of Health, and other Federal agencies, like the VA 
and the DOD, and their medical arenas?
    Mr. Fall. Yes, ma'am, and thank you for the question 
because I think it is as you suggested, it is a great story of 
collaboration, existing work. And I do want to let you know 
that we took the SEAB report, Secretary of Energy Advisory 
Board report, on NIH-DOE collaboration very seriously and every 
one of my deputy program leads has now met with counterparts at 
the National Institutes of Health to look for additional 
opportunities; as you suggest, imaging, the accelerator 
science, and technology beam therapies is another angle, 
obviously, our computers. At the end of the day, what we bring 
that almost no other agency brings, I will just say what I said 
in my statement, is science at scale, our abilities to do these 
big things. NIH is a phenomenal resource for the country, but 
they are focused largely on individual investigators across the 
country and even at their institutes. We bring the big machines 
and the know-how of how to work in very large teams to do 
things, like the Human Genome Project, right?
    Ms. Kaptur. Yes. Yes.
    Mr. Fall. That was a partnership with the National 
Institutes of Health. We are, in addition to this, topic by 
topic, collaboration. We are in discussion with NIH leadership 
now about what that next moonshot should be. It might be as--it 
might be antimicrobial resistance, as was talked about in your 
hearing. It could be mapping the brain, as well. We are going 
to leave it to the National Institutes of Health to decide what 
their priority huge projects are, but we are standing by to 
work with them with our light sources and other factory 
science, if you will, with our supercomputers and our data 
handling, to attack the problem that, you know, they lean on. 
and we identify as something that is mutually--what is the next 
Human Genome Project is the question, in addition to the 
routine collaboration we are doing across these areas, 
including drug discovery and cancer therapies and so forth.
    Ms. Kaptur. I am going to say something that is in order, 
but probably a little bit unusual. There is not a sheriff that 
I meet with or, recently, because of this COVID-19, many of our 
county health Department directors in my part of the country, 
and when I say to them, OK, so, what is at the top of the list, 
and they say at the top of the list is mental illness, at the 
top of the list. And because we have moved from the '70s and 
'80s of having people in state institutions to 
deinstitutionalizing, and now our prisons have become the chief 
domiciliary for those who are so sick, and it has been 
interesting to talk to some of our colleagues. Congressman 
Gonzalez of Ohio is very interested in the human brain because 
of his experience in football, with a lot of his colleagues, 
and what has happened to them. There is a Brain Center at I 
think it is Boston University, where a lot of individuals who 
have died from professional football, their craniums are taken 
after they pass. And I was looking at what they have and I 
thought, boy, if you could get that on computers, and they are 
beginning to do cross sections of the brain and look at what 
has really happened for the onset of all kinds of illnesses 
that they do not completely understand.
    There is a doctor--oh, I have to remember his name. He runs 
the Stanley Institute, I think it is called, and he began 
measuring the craniums and looking at what was happening with 
individuals who had bipolar and illnesses that we give a name 
to, but we really do not understand, like schizophrenia. And I 
think with your supercomputing capacity and with the interest 
of a number of members--we have Congresswoman Annie Kuster, who 
heads a working group; another one, Congresswoman Grace 
Napolitano. We are--we know we are dealing with something we do 
not completely understand, but I think what you have, whether 
it is the ability to finally measure distances within the 
cranium, to take a look at the electronics of the brain, to 
think about the work that I have seen happening at some of the 
labs, where, oh, my goodness, the imaging is so granular that 
you can see things that others do not.
    I think you have something there, that might take on a set 
of illnesses that, by the way, cost us billions of dollars 
annually, simply because we do not know the answer. And perhaps 
aggregate data in a way that those scientists you talk about, 
who work on an individual basis, they are not able to pull 
together a lot of information in this highly gray area of 
medical research, so--and also, the way different medicines 
function, where those things register in the brain. Why do some 
medicines work? Why do others not work? Why do generics work in 
this patient, but not in that patient? Why?
    I would--I am not sure that we can find that out on bench 
research. I think we have to have something else that happens, 
and I think you can bring it together.
    So, I just urge you along those lines, just having had 
experience on the road in this job, and seeing what we are 
dealing with. Right now, half of those who are addicted with 
opioids are mentally ill. So, it gets all mixed into these 
other things that society experiences, and that is one area 
where we need enlightenment and where you just might have 
something that we have not looked at before. So, I wanted to 
mention that.
    I also wanted to ask Mr. White, as a follow-up to Mr. 
Simpson's question on the schedules for cleanup, could you be 
more specific about long-term delays you would experience if 
the environmental management budget were to be enacted as 
proposed?
    Mr. White. Thank you, Congresswoman, for that question. One 
example for--which relates to Mr. Simpson's district is the 
retrieval and eventual treatment and disposition of calcine 
waste. Our commitment is related to that, stretch out to 2035, 
but we could be doing research now that would enable us to make 
easier progress along that line and in the outyears. That sort 
of work would be some of the work that would have been deferred 
under the President's budget request.
    Ms. Kaptur. Thank you. Dr. Genatowski, I was very 
interested, you said you had something to do with what is going 
on in the Salton Sea. You or the Department, right?
    Mr. Genatowski. No, I did a long time ago.
    Ms. Kaptur. A long time ago?
    Mr. Genatowski. Right. I financed and then sold a 
geothermal plant in the Salton Sea.
    Ms. Kaptur. I saw several of them, and I was told more----
    Mr. Genatowski. It was the Leathers Plant.
    Ms. Kaptur. OK, is it still functioning?
    Mr. Genatowski. I do not know. It was a long time ago. I 
worked on it for Burlington Northern Railroad.
    Ms. Kaptur. Where would I go to get a--the best scientific 
study one could find on the energy potential of the Salton Sea 
Bowl as the second lowest point in the United States?
    Mr. Genatowski. OK, and I do not know where you would go, 
but I can get back to you on that.
    Ms. Kaptur. All right. I would be really interested in 
that. There are at least three geothermal plants operating 
there now. I climbed one hill. They said, Congresswoman, you 
are standing on a volcano. I said I do not want to be there, 
and what is going on under the soil?
    Mr. Genatowski. Right.
    Ms. Kaptur. What is happening there? I would, personally, 
appreciate a briefing or if there are papers I can read. But if 
I ever felt like I was in an energy bowl, that I did not 
completely understand I know I was in it, the windspeed alone, 
and the angle at which the sun met the horizon, at the 
hillsides and so forth. I just thought what is this place? And 
I know it is the drainage bowl for the Imperial Valley, but I 
think it is something more. And I would like to know, from the 
energy standpoint, what could we maximize there?
    We were told by one person that one of the geothermal 
challenges that they have, and there were at least three 
geothermal sites that I saw, evidently, when they go down and 
they try to probe, the metal that they use corrodes within 6 
months, maybe 5 months. And one of the elements they are 
bringing up is lithium. And I said, oh, how much of that? Is 
the lithium experiment working? I do not know. So, I would be 
very interested if the Department could collect information 
about the Salton Sea and perhaps share it.
    Mr. Genatowski. We would be happy to.
    Ms. Kaptur. All right. I thank you very much. On 
Portsmouth, Mr. White, I wanted to ask you, in May of last 
year, a possible radioactive contamination led the local 
community to close a school near the Portsmouth Gaseous 
Diffusion Plant, you are very aware of that, so that the 
children would not be exposed to possible contamination. What 
are the results of the latest air quality tests, including the 
results from any independent tests conducted?
    Mr. White. So, I think you can just--Congresswoman, the--as 
you are aware, when we were notified of the potential concern 
by the school this past spring, we sent in a team of the 
world's best nuclear incident response personnel to sample the 
school, and then we had those samples analyzed by two of the 
best forensics laboratories in the Department of Energy. The 
sampling results indicated no radioactivity above background 
levels in the school. And we also provided those samples to the 
Ohio Department of Health, and their analysis of those samples 
was consistent with the analysis done by the Department.
    You--we have also continued to do air monitoring, as we 
would always do around our sites, and for 2019, we have 
detected no transuranic contaminants in that air sample effort 
that we have ongoing. And in terms of a third party sampling 
effort, we, you know, we committed to this school and the local 
officials that we would fund an independent third party 
sampling activity that worked to develop the sampling plan and 
the methodology with the local community is still ongoing, but 
I expect that to begin within the next few weeks.
    Ms. Kaptur. All right, thank you very much. Mr. Simpson?
    Mr. Simpson. Thank you, Chairwoman. If you want to see some 
real energy, come up to where I live, and, you know, it has a 
lot of geothermal because it used to be over the hotspot of 
Yellowstone. And Yellowstone is--obviously, a lot of geothermal 
there and all that type of thing. And if the caldera goes off 
in Yellowstone, I live--I have, like, 4 minutes to kiss my rear 
end goodbye. It is all right.
    Ms. Kaptur. Oh.
    Mr. Simpson. So, it is a full of energy up there, but I do 
want to confirm what my good friend from Washington said. This 
is incredible to me, when you look at the Richland operations, 
down 35 percent; the Office of River Protection, down 22 
percent; Idaho, down 40 percent; Oak Ridge, down 42 percent; 
and the one really perplexing one is that the Waste Isolation 
Plant is down 3.4 percent, down $13.5 million. Where do we 
stand on the Waste Isolation Plant, and where is it going to--
and how is cutting their funding going to get them open 
quicker?
    Mr. White. So, I appreciate the opportunity to talk about 
that. WIPP, as you know, is a very important-- part of the 
cleanup complex. It is also important not just for EM, but for 
the broader national security and science missions the 
Department does. So this budget request protects and very much 
reflects a commitment to continue to invest not just in 
operations, but also in the infrastructure.
    This year we will begin work on the utility shaft to 
increase our ability to do work there at WIPP, we are also 
continuing work on the safety significant confinement 
ventilation system, that will also increase our ability to do 
work there. Those infrastructure upgrades should be in place in 
the 2022 timeframe, if it is on schedule. And I think that will 
set up WIPP for the decades to come for the Department.
    Mr. Simpson. So you think we will be back to full 
operations by?
    Mr. White. Current schedules, assuming those projects stay 
on line, the 2022 timeframe.
    Mr. Simpson. OK. Thank you. And I know you guys, all of you 
know that I am not upset with you. I know that you support the 
President's budget, and that is kind of what you have to do, 
and you argue for it, and you go through OMB, and et cetera, et 
cetera, et cetera, and whatever comes out, comes out.
    And I hope you know that those Republicans and Democrats 
are a little flustered by what is being proposed here, and 
hopefully this won't stand in--you know, and Mr. Genatowski, I 
don't know whether to ask you any questions or not, because I 
don't know if you are going to be here in 6 months, after 
looking at the budget request. It says, please close us down.
    But I have been trying to figure out where the people that 
proposed this budget come from, what they are thinking in this 
kind of--you went through all of the neat things that are being 
done and research that has been by RPE, showed us some neat 
slides and all that kind of stuff. I guess my question would 
be, thinking from their point of view, or from their mind, why 
is private sector doing that? Would any of that have been done 
by the private sector had RPE not been in existence?
    Mr. Genatowski. Well, the statute requires that we do 
something that is unlikely to be done by the private sector. I 
think all projects I have examined, which are 330 we have going 
on, programs and projects, I don't think the private sector 
would have financed it. When I was in the finance business, I 
wouldn't have financed them.
    They have far too much risk, and the real risk is not 
whether or not the science is right or not, because I think the 
scientists kind of get it right. The real risk is what is the 
timeframe from getting it right on the bench in the lab to 
being able to put EBITDA on your income statement to your 
shareholders? That is the real risk.
    The risk is we are trying ameliorate that by bringing the 
institutions in that run their R&D research, large corporations 
that understand how to manage that, and try to inform us. We 
want them to say these sorts of things we just can't get to. Do 
you find it interesting? Can you get to it?
    It is really a question more of sometimes they don't work, 
sometimes they do work, that is R&D, but it is the time factor 
to money. Sometimes it will be, how long did it take the 
Internet to make money, 25 years? That is why I say, we get our 
answers from the scientists, and then they will have to report 
to us what they do for 5 years. But something that we may think 
is a commercial no success, comes back 17 to 27 years later to 
roll back in and be a success. We just can't tell.
    Mr. Simpson. That is then, that is really----
    Mr. Genatowski. And that is what keeps them out.
    Mr. Simpson. That is really the debate we have here in 
Congress. there will be some people that want to get rid of RPE 
because they believe that, you know, the private sector ought 
to be in on all of this stuff, And we have that debate in 
Congress. I think that is the proper role of government, it is 
do those things that need to be done, that show potential for 
moving us forward in science and technology, and development in 
this country, that just wouldn't be done by the private sector, 
because of the investment that it would take, and the return on 
your investment would be--you know, you couldn't sell that to 
shareholders and stuff.
    And that is the important role I think that this plays, and 
it is just--and I will say again, it is amazing to me that what 
we want to do in this budget is defund or reduce funding for 
things that are looking into the future, and defund those that 
are trying to take care of the problems of the past.
    It is just kind of a strange budget, but we will work with 
you and we will get it done. And I don't think you will have to 
live with this budget, hopefully, because I know Chairwoman 
Kaptur is very interested in these programs and so am I and so 
is this whole Committee.
    So, thank you all for being here today.
    Mr. Genatowski. Thank you, sir.
    Ms. Kaptur. Thank you, Mr. Simpson. Mr. Newhouse?
    Mr. Newhouse. Thank you, Madam Chair. And thanks for the 
second round of questioning. Something on everybody's mind is 
we all did the corona bump when we ran into each other today. 
Very awkward, I am not used to that yet, and I hope I never get 
used to it. But that is certainly you can't get through the day 
without talking about this and how we deal with it.
    And Mr. Fall, as Director of the Office of Science for DOE, 
I wanted to ask you a little bit more about the role that the 
National Labs maybe could be playing and are playing in this 
whole effort to counter the COVID-D--or COVID-19, and we are 
not supposed to say coronavirus anymore because of Calvert. But 
I am aware and, in fact, I am going to be going to Richland 
next week, to the Pacific Northwest National Laboratory partly, 
not just because it is in my district, but they are doing some 
things that are very, I think, potentially very important for 
this effort.
    As I understand that the Environmental Molecular Science 
Laboratory, the EMSL, they are working on ways that they could 
assist in that. And I am not a scientist, so excuse me for my 
stumbling through, but the biomarker discovery efforts there 
that could be looking for signs of immune response in patients, 
antibodies that indicate that a patient is exposed even if they 
are asymptomatic, but it shows actively circulating viruses.
    So, just a couple of questions, and I will let you expound, 
because you are much more adverse to this. So is it true that 
current testing kits only identify whether a patient currently 
has an active virus versus someone who has previously been 
exposed? And how can these biomarkers assist with screening and 
testing?
    And then I am also aware that PNNL's imaging capabilities 
could assist with the development of a vaccine. So do you know 
that or could you speak to that potential as well?
    Mr. Fall. Yes, sir. I don't know about the testing kits 
actually. I will get back to you on that. I don't know the 
details of what they can actually do.
    Mr. Newhouse. I may learn next week, so I will be able to 
tell you.
    Mr. Fall. That is right. But what I can say is that 
generally speaking, the paradigm for biomarkers is looking for 
derivative signs, if you will, biological signs of some 
underlying process that are maybe more accessible. Instead of 
having to take blood and do a blood test, you do a saliva test 
or maybe a skin test or something. This is the idea behind 
biomarkers.
    And absolutely, the Environmental Molecular Sciences Lab is 
positioned to do that work. As I mentioned earlier to the 
chairwoman we, you know, have now organized this front door for 
the whole laboratory complex, where questions like yours were 
put out to this committee of representatives for all the labs.
    And instead of, for example, going to, you know, knocking 
on PNNL's door, we put it to the committee and find out 
actually which lab. We don't have a national biotechnology 
laboratory that can do this kind of thing. So, this is sort of, 
call it a virtual biotechnology laboratory, where we have one 
front door and can reach out to all of the capabilities of our 
laboratories.
    Pardon, the third question, sir, was?
    Mr. Newhouse. The vaccine potential.
    Mr. Fall. Yes. That is right. Yes. And of course, as you 
may know already, we have incredible capability in this country 
to rapidly develop candidate vaccines. PNNL could help with 
this or other laboratories could help with this. The trick for 
a vaccine is not development of it, and DARPA, in particular, 
has led efforts to quickly develop the--it is the clinical 
trials.
    And you can't at this point get around the idea that in 
order to safely roll out a vaccine to hundreds of millions or 
billions of people, you have got to do the clinical trials. 
Those take the time that Director Fauci has indicated 12 to 18 
months to get the clinical trials partly done. I would expect 
we would have candidate vaccines very quickly through the 
existing programs that we already have.
    Mr. Newhouse. To begin those trials?
    Mr. Fall. That is right, exactly.
    Mr. Newhouse. OK. Well, thank you. And I think it is 
exciting that we have a lot of capability within the national 
lab system to be able to address something like this. So, thank 
you very much.
    Thank you, Madam Chair.
    Ms. Kaptur. Thank you very much. Congressman Newhouse, you 
remind me, and listening to Dr. Fall's answer there, that in 
this area of mental illness I think a lot of the working groups 
that we have, and they are bipartisan, and they will appear in 
Congress, you are talking about dozens of members who 
participate in these, and it might be very helpful to you as 
you draw from your different scientific capabilities across the 
government, and try to figure out how--you know, where would 
you concentrate.
    It might be interesting for you to send somebody up here, 
and we will gather some of those members, and you can just 
listen to them, based on what they have been struggling with, 
what they have been attempting to achieve from the standpoint 
of the law, and for them to hear more about the science and 
what your science capabilities are.
    Because I really think it is quite complex and it probably 
involves biochemistry and supercomputing, it probably involves 
certain physical characteristics on occasion. I am not sure all 
patients would demonstrate with that. But putting together sort 
of the datasets that exist and are scattered all over the 
place, you might actually be surprised at what you are able to 
do. I don't think anybody in the Federal Government has done 
that.
    And, you know, we meet these different scientists that come 
up here, and I sort of feel like they have their hand on the 
tail of the dog. If you think, OK, what is next here, how do we 
find all the pieces and fit them together? There are certain 
private labs that know a lot, that make medicine. I don't know 
what they know and what they don't know, and they will probably 
use your light labs. So I view the research is scattered and 
you might have a powerful role to play in gathering some of 
that and posting it in some coherent manner.
    If you ever get a chance to go up to Walter Reed, there is 
an Intrepid center, but Walter Reed, and it specifically tries 
to serve veterans who had certain types of brain concussions 
and other onset illnesses during their military service. That 
is a very interesting place, and some of the light machines, 
various types of machines, imaging machines that they have 
there that I haven't seen anywhere else. Very fascinating.
    And so to think about the work you have done with PET scans 
and other things that have come out of the labs, purposefully, 
or by accident, and capabilities that you have, there is so 
much there. So, I just--I encourage you down those lines, and 
would welcome to invite a bipartisan group of members to just 
give you some of their impressions based on what they know. I 
would hope you would be open to that.
    Mr. Fall. Yes, ma'am, of course. And I might be remiss if I 
didn't credit prior Secretary Perry for the work, I think you 
are aware of, with veterans and our supercomputers and TBI, 
really led the way of the collaboration with the Veterans 
Administration on gathering these data--particular kind of 
dataset, brain injury, and analyzing those on our 
supercomputers.
    Ms. Kaptur. And it was the last thing I talked with him 
about; I think he went out to California. I can't remember if 
he went to Boston. I think he was scheduled to go to Boston, 
but didn't go. It would be a shame if we--we had another doctor 
here, it was Tim Murphy from Pennsylvania, and he left Congress 
before he completed his work. But he was dead serious about 
this topic.
    And I just think we need to pick up the threads of this 
somehow and have it make more sense. And you have the ability 
with those light machines to understand even with current 
medications or treatments that are out there, whether that 
registers in the brain or the nervous system, and why it works 
or why it doesn't work. So, anyway, it would be a very 
interesting exploration.
    I have a final question, Dr. Fall. Your budget request 
would cut the Office of Science Workforce Development by 27 
percent, programs critical to bringing in new talent in your 
pipeline for science, technology, engineering, and math. In the 
next 10 years, the number of STEM jobs will grow my 13 percent 
compared to 9 percent for non-STEM jobs. And given the current 
and future demand for STEM workforce and the shortages and 
qualified candidates, how do you justify cutting this program? 
And is the Office of Science working with other programs 
throughout the Department to develop and expand workforce 
programs to ensure we have the skilled workforce that would be 
needed in the future, including directly in your purview?
    Mr. Fall. I thank you for the question, ma'am. If I could 
just give you a little bit of context. In fact, we are 
proposing to reduce the work, WDTS as we call it, the Workforce 
Development for Teachers and Students Program. But I need to 
emphasize that that is actually a relatively tiny program in 
the context of our budget. It is focused on some particular 
boutique fellowship programs that could be scaled up or scaled 
down according to the budget.
    I think it is important to understand that the vast 
majority of the STEM work that we do, so a couple of tens of 
millions for the WDTS, a few billion dollars in research 
expenditures, the vast majority of the students we train in 
STEM go through our grants program, a grant a university pays 
for graduate students and postdoctoral fellows and even 
undergraduate students in laboratories.
    That is actually the much more important pipeline for 
student development is support through our billions of dollars 
of grant support to our laboratories and to universities. But 
granted we are asking to reduce the WDTS particular program a 
little bit.
    Ms. Kaptur. All right. Well, I don't think we should cut 
any having to do with workforce development, so we might try to 
fix this.
    And I wanted to thank Congressman Simpson, I understand you 
have no further questions at this time. And Congressman 
Newhouse? No further questions.
    All right. That will conclude the hearing this afternoon. 
And I want to thank Misters Genatowski, Fall, and White for 
being with us all afternoon. I ask the witnesses to please 
ensure for our hearing record the questions for the record, and 
any supporting information requested by the subcommittee are 
delivered in final form to us no later than 3 weeks from the 
time you receive them.
    And members who have additional questions for the record 
will have until the close of business this coming Monday to 
provide them to the subcommittee office.
    Our hearing is adjourned. Thank you all.

                                 
	
	[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
